                                                                                                                                                                                                    SIGAR
        SIGAR




                                                                                                                        SIGAR | QUARTERLY REPORT TO THE UNITED STATES CONGRESS | OCTOBER 30, 2014
        SPECIAL INSPECTOR GENERAL                                                                                                                                                                                    Special Inspector General for    OCT 30
        FOR AFGHANISTAN RECONSTRUCTION
                                                                                                                                                                                                                     Afghanistan Reconstruction        2014
        2530 Crystal Drive
        Arlington, VA 22202

        www.sigar.mil




        FRAUD, WASTE, OR ABUSE MAY BE REPORTED TO SIGAR’S HOTLINE
                                                                                                                                                                                                     QUARTERLY REPORT TO THE UNITED STATES CONGRESS
        By Phone: Afghanistan
        Cell: 0700107300
        DSN: 318-237-3912 ext. 7303
        All voicemail is in Dari, Pashto, and English.

        By Phone: United States
        Toll Free: 866-329-8893
        DSN: 312-664-0378
        All voicemail is in English and answered during business hours.

        By Fax: 703-601-4065
        By E-mail: sigar.hotline@mail.mil
        FRAUD,     WASTE, www.sigar.mil/investigations/hotline/
        By Web Submission:     OR ABUSE MAY BE REPORTED             TO SIGAR’S HOTLINE

        By phone: Afghanistan
        Cell: 0700107300
        DSN: 318-237-3912 ext. 7303
        All voicemail is in Dari, Pashto, and English.

        By phone: United States
        Toll-free: 866-329-8893
        DSN: 312-664-0378
        All voicemail is in English and answered during business hours.

        By fax: 703-601-4065
        By e-mail: sigar.hotline@mail.mil
        By Web submission: www.sigar.mil/investigations/hotline/report-fraud.aspx




                                                                                                                        4
                                                                                         SIGAR
                                                                                         Report Fraud, Waste or Abuse




FINAL_Oct2014_Cover.indd 1                                                                                                                                                                                                                               10/23/2014 11:31:01 AM
                             The National Defense Authorization Act for FY 2008 (P.L. 110-181)
                             established the Special Inspector General for Afghanistan
                             Reconstruction (SIGAR).
                             SIGAR’s oversight mission, as defined by the legislation, is to provide for the
                             independent and objective
                             •	 conduct and supervision of audits and investigations relating to the programs
                                and operations funded with amounts appropriated or otherwise made available
                                for the reconstruction of Afghanistan.
                             •	 leadership and coordination of, and recommendations on, policies designed
                                to promote economy, efficiency, and effectiveness in the administration of the
                                programs and operations, and to prevent and detect waste, fraud, and abuse
                                in such programs and operations.
                             •	 means of keeping the Secretary of State and the Secretary of Defense fully
                                and currently informed about problems and deficiencies relating to the
                                administration of such programs and operation and the necessity for and
                                progress on corrective action.
                             Afghanistan reconstruction includes any major contract, grant, agreement,
                             or other funding mechanism entered into by any department or agency of the
                             U.S. government that involves the use of amounts appropriated or otherwise made
                             available for the reconstruction of Afghanistan.

                             Source: Pub. L. 110-181, “National Defense Authorization Act for FY 2008,” 1/28/2008.                                   The rising sun reveals part of the barbed-wire cordon around Kandahar Airfield in southern Afghanistan.
                                                                                                                                                     (SIGAR photo by Steve Mocsary)
                             (For a list of the congressionally mandated contents of this report, see Appendix A.)




                                                                                                                                         Quarterly Report Staff

                                                                                                                                         Michael Bindell, Economic and Social Development Subject Matter Expert   Emmett Schneider, Senior Data Analyst/Senior Auditor
                                                                                                                                         Clark Irwin, Senior Writer/Editor                                        Deborah Scroggins, Director of Research and Analysis Directorate/Editor
                                                                                                                                         Vong Lim, Visual Information Specialist                                  Solange Toura Gaba, Research Assistant
                                                                                                                                         David Mansfield, Counternarcotics Subject Matter Expert                  Daniel Weggeland, Governance Subject Matter Expert
                                                                                                                                         Jennifer Manzullo, Program Manager                                       Genevieve Wilson, Security Subject Matter Expert
                             Cover photo:
                                                                                                                                         Olivia Paek, Visual Information Specialist                               Joseph Windrem, Deputy Director of Research and Analysis Directorate/Editor
                             In the Afghan opium economy: A four-year-old girl tends opium poppy in Ghor Province, officially declared
                             poppy-free between 2009 and 2011. (SIGAR photo by David Mansfield)




FINAL_Oct2014_Cover.indd 2                                                                                                                                                                                                                                                                      10/23/2014 11:31:02 AM
                           SPECIAL INSPECTOR GENERAL            FOR

                           AFGHANISTAN RECONSTRUCTION




I am pleased to submit to Congress, and the Secretaries of State and Defense, SIGAR’s 25th
quarterly report on the status of the U.S. reconstruction effort in Afghanistan.
    An encouraging milestone in Afghan history occurred on September 29th, when
President Hamid Karzai peacefully handed over the presidency to the newly elected Ashraf
Ghani, who in turn swore in his electoral runner-up, Abdullah Abdullah, as chief execu-
tive officer. This transition marked the first peaceful and democratic change of regime in
Afghanistan’s turbulent history.
    It is hoped that the inauguration of this national-unity government will reinvigorate
Afghanistan’s reconstruction. The new government has already signed the Bilateral
Security Agreement with the United States and a Status of Forces Agreement with NATO,
providing the legal framework for the continued commitment of the United States, NATO,
and its partner nations to train, advise, and assist the Afghan National Security Forces
(ANSF). President Ghani also appears to have taken an aggressive stand against cor-
ruption. Among his first actions, he ordered Afghanistan’s Supreme Court and attorney
general to pursue the malefactors in the Kabul Bank scandal that nearly led to the collapse
of the country’s financial sector in 2010. SIGAR, as well as the international donor com-
munity, will be watching closely to see if these initial steps will be followed by substantive
improvements in anticorruption efforts by the attorney general’s office and other Afghan
law-enforcement agencies.
    However, daunting challenges remain. In our last quarterly report, SIGAR highlighted
the danger of Afghanistan’s massive and unsustainable dependence on foreign aid. Our con-
cerns were borne out in September by press reports that the Ministry of Finance had asked
donors to provide an emergency infusion of $537 million to cover government salaries until
the end of the year. In response to a request from SIGAR for information, State Department
officials said they had not yet received a formal request for assistance with data to support
it, but that they had been in discussions for months with the Afghan government about the
ongoing revenue shortfall. As we gather more information, SIGAR will continue to update
Congress and the public on the Afghan fiscal situation and economy.
    This quarterly report focuses on the threat that opium production poses to Afghanistan’s
reconstruction. In Section One, SIGAR points out that counternarcotics appears to have
fallen off the agenda of both the U.S. government and the international community, despite
the fact that it is impossible to develop a coherent and effective strategy for a post-2014
Afghanistan without taking full account of the opium economy. As long as insurgent com-
manders are able to fund themselves through the opium trade, and as long as corrupt
officials profit from the illicit economy, there may be few incentives for making peace
in some areas of the country. In a special report issued this quarter, SIGAR showed that
opium-poppy cultivation levels are at another all-time high, despite $7.8 billion obligated for
counternarcotics efforts. A SIGAR performance audit also found that U.S. assistance to the
provincial units of the Counternarcotics Police of Afghanistan cannot be tracked and that
the United States cannot determine whether its investment in these provincial units has
helped them become a capable, self-reliant, and sustainable force.
    This quarterly report also examines the reconstruction effort across the security, gov-
ernance, and economic sectors. In the security sector, SIGAR was deeply troubled by the
decision of the International Security Assistance Force (ISAF) to classify the executive
summary of the report that assesses the capability of the ANSF. For years, SIGAR has used
the ISAF report as a primary metric to show Congress and the public the effectiveness of
the $61.5 billion U.S. investment to build, train, equip, and sustain those forces. Prior to
this quarter, aggregate data on the operational effectiveness of the ANSF were unclassified
in the Regional ANSF Status Report (RASR) as well as its predecessors, the Commanders’
Unit Assessment Tool (CUAT) and the Capability Milestone rating system.
   ISAF’s classification of the report summary deprives the American people of an essential
tool to measure the success or failure of the single most costly feature of the Afghanistan
reconstruction effort. SIGAR and Congress can of course request classified briefings on this
information, but its inexplicable classification now and its disappearance from public view
does a disservice to the interest of informed national discussion. Moreover, while SIGAR
understands that detailed, unit-level assessments could provide insurgents with potentially
useful intelligence, there is no indication that the public release of aggregated data on
ANSF capabilities has or could deliver any tactical benefit to Afghan insurgents.
   The need to carefully monitor the development of the ANSF was brought painfully to
light in August, when an Afghan soldier shot and killed a U.S. Army major general—the
highest-ranking U.S. military officer to die in Afghanistan. As the deputy commanding gen-
eral of the Combined Security Transition Command-Afghanistan, Major General Harold J.
Greene was a decorated military leader and a friend and colleague to many at SIGAR. He
died while performing a critical oversight mission at Marshal Fahim National Defense
University in Kabul. Major General Greene’s integrity, hard work, and sheer grit will be
sorely missed.
   Despite the dangers, SIGAR will continue to provide aggressive oversight of the U.S.
reconstruction effort. The 31 audits, inspections, special projects, and other products
SIGAR issued this quarter examined programs and projects worth almost $14.8 billion.
Unfortunately, many of our products uncovered failures of planning, construction, and
oversight. For example, an inspection of the Pol-i-Charkhi prison identified defective work-
manship and work not completed according to contract requirements. An inquiry letter
expressed continued concerns about the oversight of the Law and Order Trust Fund for
Afghanistan’s $3.17 billion program to fund the Afghan National Police. On a more positive
note, a performance audit determined that the U.S. Agency for International Development
had implemented 80% of SIGAR’s audit recommendations.
    The six financial audits SIGAR completed this quarter identified $5.6 million in
questioned costs. SIGAR’s financial-audits program has identified nearly $83 million in ques-
tioned costs to date. Section Two summarizes our findings and recommendations.
   Since my last report to Congress, SIGAR has opened 36 new investigations and closed
33, bringing the total number of ongoing investigations to 322. The criminal fines, res-
titutions, forfeitures, and cost savings to the U.S. government from SIGAR’s ongoing
investigations in this reporting period amounted to over $1 million. Savings to date from
SIGAR investigations total over $500 million. SIGAR’s suspension and debarment pro-
gram referred 44 individuals and 13 companies for suspension and debarment based on
allegations that they engaged in fraud or failed to perform under contracts valued at over
$398 million.



                         2530 CRYSTAL DRIVE ARLINGTON, VIRGINIA 22202
    This quarter, I must once again reiterate my concerns about the policies of the U.S.
Army’s suspension and debarment program. As I have pointed out in our last six quarterly
reports, the Army’s refusal to suspend or debar supporters of the insurgency from receiving
government contracts because the information supporting these recommendations is clas-
sified is not only legally wrong, but contrary to sound policy and national-security goals. I
remain troubled by the fact that our government can and does use classified information to
arrest, detain, and even kill individuals linked to the insurgency in Afghanistan, but appar-
ently refuses to use the same classified information to deny those same individuals their
right to obtain contracts with the U.S. government. There is no logic to this continuing dis-
parity. I continue to urge the Secretary of Defense and Congress to change this misguided
policy and to impose common sense on the Army’s suspension and debarment program.
    At this moment of opportunity and transition for Afghanistan’s new government and the
largely U.S.-funded reconstruction program, my staff and I will continue to work vigilantly
to safeguard the U.S. taxpayer’s investment and our national goals in Afghanistan.




Respectfully,




John F. Sopko
Special Inspector General for Afghanistan Reconstruction




                          2530 CRYSTAL DRIVE ARLINGTON, VIRGINIA 22202
                                           EXECUTIVE SUMMARY




This report provides a summary of SIGAR’s oversight work and an update on developments in
the three major sectors of Afghanistan’s reconstruction effort from July 1 to September 30,
2014.* It also includes a discussion of U.S. counternarcotics efforts in Afghanistan. During
this reporting period, SIGAR published 31 audits, inspections, alert letters, and other products
assessing the U.S. efforts to build the Afghan security forces, improve governance, and facilitate
economic and social development. These reports identified a number of problems, including
a lack of accountability, failures of planning, construction deficiencies, and other threats to
health and safety. The monetary results from SIGAR’s ongoing investigations totaled over
$1 million from criminal fines, restitutions, forfeitures, contract monies protected, and civil
settlement agreements. SIGAR investigations also resulted in 14 arrests, three indictments,
four criminal informations, two plea agreements, and one sentencing in the United States. In
Afghanistan, 24 individuals were barred from access to military installations, and nine employees
were terminated. SIGAR’s suspension and debarment program referred 44 individuals and 13
companies for suspension or debarment based on allegations that they engaged in fraud and non-
performance in contracts valued at over $398 million.



SIGAR OVERVIEW
AUDITS
SIGAR produced one audit alert letter, two performance
audits, six financial audits, and one inspection.                  The financial audits identified over $5.6 million in
The alert letter addressed:                                    questioned costs as a result of internal-control deficien-
•	 The Department of Defense’s (DOD) response to               cies and noncompliance issues. These deficiencies and
   SIGAR’s C-130H alert letter from last quarter, which        noncompliance issues included, among other things,
   explained DOD’s decision to provide a third C-130H          ineligible business class travel costs, unapproved pur-
   aircraft to the Afghan Air Force and concurred with         chases of nonexpendable equipment and property,
   SIGAR’s recommendation to defer the delivery of a           over-reimbursement of indirect costs, unsupported
   fourth aircraft, with a potential cost savings of about     or insufficient sole source procurement justifications,
   $40.5 million.                                              incorrectly calculated currency exchange transactions,
                                                               inadequate monitoring of subrecipients, improper dispo-
The performance audits found:                                  sition of nonexpendable equipment, lack of supporting
•	 The U.S. Agency for International Development               documentation, poor record retention, and failure to
   (USAID) implemented a large percentage of SIGAR’s           conduct vendor-suspension and debarment checks.
   audit recommendations in a timely, successful way,
   reducing the risk of fraud, waste, and abuse of             The inspection report on a U.S.-funded facility found:
   Afghan reconstruction funds.                                •	 Defective workmanship and work not completed
•	 Although Counternarcotics Police of Afghanistan                according to contract requirements at the Pol-i-Charkhi
   (CNPA) provincial units have received some support,            prison, which is being used, but is overcrowded.
   overall U.S. financial resources devoted to the CNPA
   have only tangentially benefitted them.
                                                               NEW AUDITS AND INSPECTIONS
*	 Per statute, SIGAR may also report on products and          This quarter, SIGAR initiated two new performance
   events occurring after September 30, 2014, up to the pub-   audits to assess the U.S. efforts to develop Afghanistan’s
   lication date.



                                              iv                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                             EXECUTIVE SUMMARY




civil aviation capabilities and DOD’s oversight of infra-     INVESTIGATIONS
structure projects transferred to the Afghan government.      During the reporting period, the criminal fines, restitu-
SIGAR also initiated three new inspections of warehouse       tions, forfeitures, civil settlements, and cost savings to
facilities in the South Park region of Kandahar Airfield,     the U.S. government from SIGAR’s ongoing investigations
the Special Operations Task Force-South Command               amounted to over $1 million. Savings to date from SIGAR
and Control Facility at Camp Brown, and the Counter-          investigations total over $500 million. SIGAR investiga-
Narcotics Justice Center.                                     tions also resulted in 14 arrests, three indictments, four
                                                              criminal informations, two plea agreements, and a sen-
                                                              tencing in the United States. Additionally, 24 individuals
SPECIAL PROJECTS                                              were barred from access to military installations and
During this reporting period, the Office of Special           nine employees were terminated. SIGAR initiated 36 new
Projects issued 19 inquiry letters and 2 special reports      investigations and closed 33, bringing the total number
addressing issues including:                                  of ongoing investigations to 322. SIGAR’s suspension and
•	 Unsafe fuel-storage tanks at Camp Shaheen                  debarment program referred 44 individuals and 13 com-
•	 Plans for the Kandahar electricity-supply bridging         panies for suspension or debarment.
   solution                                                   Investigations highlights include:
•	 A dangerous school collapse in Sar-i-Pul                    •	 A conviction and a sentencing resulting from a
•	 Anti- and counter-corruption efforts                           money laundering investigation
•	 The incomplete response to a communications-                •	 U.S. military members prosecuted following an
   towers inquiry and the troubling response to a                 embezzlement scheme
   whistleblower-protection inquiry                            •	 A former U.S. Army specialist charged in a fuel theft
•	 The potentially exploitative recruitment of third-             scheme
   country nationals (TCNs)                                    •	 Nine arrested for the theft of shipping containers
•	 Weak oversight of Law and Order Trust Fund for                 with goods worth nearly $260,000
   Afghanistan (LOTFA) funds                                   •	 Three Afghan truck drivers arrested and nearly
•	 An unnecessary second Afghan National Army                     $76,000 worth of fuel recovered
   (ANA) slaughterhouse in Pol-i-Charkhi District              •	 A contract employee pleading guilty to conspiracy
•	 The scrapping of 16 G222 planes                                to commit wire fraud and receive an illegal kickback
•	 USAID’s recovery of questioned costs                        •	 An Afghan contractor arrested for fraud
•	 A contract cancelled due to rising security costs           •	 $150,000 recovered from a SIGAR investigation
•	 The incomplete documentation of DOD’s excess                •	 A thwarted fuel theft scheme
   equipment disposition processes                             •	 An undercover operation resulting in the arrest of
•	 Potentially wasteful expenditures on unused                    three Afghans, nine barments from U.S. military
   communications trucks                                          installations, and the suspension of a business
•	 The processes and controls used by the Combined             •	 A memorandum of understanding signed by SIGAR
   Security Transition Command-Afghanistan                        and the Federal Bureau of Investigation (FBI) to
   (CSTC-A), the Department of State (State), and                 share information
   USAID for providing direct assistance to the Afghan
   government
•	 An all-time high in opium-poppy cultivation, despite
   the $7 billion U.S. investment in counternarcotics




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2014              v
TABLE OF CONTENTS




     SECTION 1
     	        1	THE OPIUM ECONOMY
         	     4	 A Pattern of “Unprecedented Highs”
         	     6	 The Multifront Effort on Narcotics
                  and Its Results
         	     6	 How Effective is the Law-Enforcement Effort
                  in Countering the Narcotics Trade?
         	     9	 What Has Eradication Accomplished?
         	    12	 Assessing the Effectiveness of the Good Performer’s
                  Initiative Requires More Evidence
         	    13	 Does the United States Have the Right Strategy for Rural
                  Development in a Drugs Environment?
         	    15	 Cultivation Data Should Not Be the Only
                  Measure of the Counternarcotics Effort
         	    16	 Does 2015 Offer New Possibilities?



     SECTION 2
     	       19	SIGAR OVERSIGHT ACTIVITIES
         	    22	Audits
         	    36	Inspections
         	    39	 Special Projects
         	    47	 Quarterly Highlight: SIGAR’S Ongoing Concerns About
                  $486 Million G222 Program
         	    49	Investigations
         	    58	 Other SIGAR Oversight Activities This Quarter
         	    61	 SIGAR Budget
         	    61	 SIGAR Staff




     SECTION 3
     	 63	RECONSTRUCTION UPDATE
         	    65	 Reconstruction Update
         	    68	 Funding for Afghanistan reconstruction
         	    71	 Status of Funds
         	    85	Security
         	   127	Governance
         	   163	 Economic and Social Development
TABLE OF CONTENTS




      SECTION 4
      	   201	OTHER AGENCY OVERSIGHT
          	 203	 Other Agency Oversight
          	 204	 Completed Oversight Activities




      	APPENDICES & ENDNOTES
          	 220	 Appendix A: Cross-reference of Report
                 to Statutory Requirements
          	 226	 Appendix B: U.S. Funds for Afghanistan Reconstruction
          	 228	 Appendix C: SIGAR Written Products
          	234	 Appendix D:	SIGAR Investigations and Hotline
          	242	 Appendix E:	Abbreviations and Acronyms
          	248	Endnotes
  “As we approach the 2014 withdrawal of
 international forces from Afghanistan, the
  country requires continued international
  support. Even greater efforts are needed
  to bring counternarcotics programs into
   the mainstream of social and economic
   development strategies to successfully
curb illegal drug cultivation and production
 of opium as well as the high use of opiates
       among the Afghan population.”
                                        — President Barack Obama




              Source: White House, Presidential Determination on Major Drug Transit or Major Illicit Drug Producing Countries for
              Fiscal Year 2014, September 13, 2013.
1   THE OPIUM
    ECONOMY




         1
                                               THE OPIUM ECONOMY




                                               CONTENTS
                                               ESSAY CONTENTS

                                               A Pattern of “Unprecedented Highs”	                             4
                                               The Multifront Effort on Narcotics
                                               and Its Results	                                                6
                                               How Effective is the Law-Enforcement
                                               Effort in Countering the Narcotics Trade?	                      6
                                               What Has Eradication Accomplished?	                             9
                                               Assessing the Effectiveness of the
                                               Good Performer’s Initiative Requires
                                               More Evidence	                                                 12
                                               Does the United States Have the Right
                                               Strategy for Rural Development in a
                                               Drugs Environment? 	                                           13
                                               Cultivation Data Should Not Be the Only
                                               Measure of the Counternarcotics Effort 	                       15
                                               Does 2015 Offer New Possibilities?	                            16




Photo on previous page
Opium-poppy cultivation in the Khogiani District of Nangarhar Province rose
from 131 hectares in 2010, to 5,746 hectares in 2013. Further increases
are expected in 2014. (SIGAR photo by David Mansfield)




                                                   2                    SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                            THE OPIUM ECONOMY




TACKLING THE OPIUM ECONOMY MUST
BE A PRIORITY FOR RECONSTRUCTION
Afghanistan is by far the world’s largest source of opium, producing over
90% of global supply.1 Opium production accordingly plays a key role in
the political economy of Afghanistan. While occupying less than 3% of
land under cultivation, opium is Afghanistan’s most valuable cash crop,
and opiates—opium, morphine, and heroin—are its largest export, with
an estimated value of $3 billion at border prices.2 Furthermore, the opium
economy directly provides up to 411,000 full-time-equivalent jobs—more
than the entire Afghan National Security Forces (ANSF)—and supports
additional secondary-effect jobs in the licit economy.3
   In the coming weeks, the United Nations Office of Drugs and Crime
(UNODC) is expected to report further increases in the amount of opium
poppy grown. Levels of cultivation have risen by more than 200,000 hect-
ares (1 hectare, or ha, equals roughly 2.5 acres) since 2001.4 There is reason
to believe that cultivation will continue to increase in 2015, after the NATO
combat mission in Afghanistan has drawn to a close.
   The Special Inspector General for Afghanistan Reconstruction (SIGAR)
and other observers have recognized that reconstruction must tackle the
opium economy. As Special Inspector General John F. Sopko told Congress
earlier this year, “The narcotics trade is poisoning the Afghan financial
sector and fueling a growing illicit economy. This, in turn, is undermining
the Afghan state’s legitimacy by stoking corruption, nourishing criminal
networks, and providing significant financial support to the Taliban and         A poppy capsule after being lanced and
other insurgent groups.” In sum, Sopko warned, “the expanding cultiva-           the opium collected. (SIGAR photo by
                                                                                 David Mansfield)
tion and trafficking of drugs is one of the most significant factors putting
the entire U.S. and international donor investment in the reconstruction of
Afghanistan at risk.”5
   Yet, despite the threat that the burgeoning opium economy poses to the
Afghan state and reconstruction, counternarcotics has largely fallen off
the Afghan agenda of both the U.S. government and the international com-
munity. It rarely appears in the declarations and communiqués from the
conferences on Afghanistan reconstruction that have become a mainstay of
the international effort. And there are only oblique references to the issue




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2014              3
THE OPIUM ECONOMY




in the current Tokyo Mutual Accountability Framework (TMAF),6 the agree-
ment that underpins future reconstruction assistance to Afghanistan.7 Of
even greater concern is that there is no consideration of the fact that exist-
ing and planned reconstruction efforts—improved irrigation, roads, and
agricultural assistance—can actually increase opium production if they fail
to factor opium-economy realities into program design. There is an urgent
need to recognize that it is impossible to develop a coherent and effec-
tive strategy for a post-2014 Afghanistan without taking full account of the
opium economy.
    The United States has committed nearly $7.8 billion to fight narcotics
production and trafficking in Afghanistan since 2002, but it is simplistic
to argue that counternarcotics interventions have failed on the basis of
record-breaking production figures. The continued rise in cultivation and
its relocation to areas beyond the reach of the current Afghan state suggest
that the problem does not lie solely with a narrow set of interventions cur-
rently understood as counternarcotics. The problem also lies in the failure
of the wider reconstruction effort to address the underlying conditions in
many rural areas, such as insecurity, poor governance, and limited eco-
nomic opportunities, which led to widespread opium production.
    The formation of the new government in Afghanistan under the leader-
ship of President Ashraf Ghani presents an opportunity to put efforts to
counter the illicit economy at the center of the reconstruction effort, and to
commit to a review process that ensures no programs or policies make the
situation worse. It was, after all, Ashraf Ghani, speaking as finance minister
in 2003, who first spoke of Afghanistan becoming a “narco-mafia state,”8
who pressed the World Bank and other development donors to engage
constructively on the opium economy,9 and who warned of the unintended
consequences of pursuing “quick wins” in the desire for reductions in
opium-poppy cultivation.10
    The United States and other international donors should grasp this
opportunity. They should urge the Afghan government to factor opium-
economy countermeasures into its future development plans. And they
should use the forthcoming Ministerial Review of the TMAF in the United
Kingdom in November 2014 to reaffirm their commitment to help the
Afghan government show demonstrable progress in reducing the damaging
impact of narcotics production.


A PATTERN OF “UNPRECEDENTED HIGHS”
UNODC estimates that opium poppy was grown on 209,000 hectares—
more than half a million acres—in 2013, up 36% from 2012 and a “record
high” for Afghanistan.11 This was not the first time Afghanistan set records
for opium production. In 1999, at the height of the Taliban regime, opium-
poppy cultivation had reached an “unprecedented level” of approximately




   4                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                              THE OPIUM ECONOMY




FIGURE 1.1

FLUCTUATIONS IN OPIUM-POPPY CULTIVATION AND KEY EVENTS IN AFGHANISTAN, 2002–2013 (THOUSANDS OF HECTARES)

250

                                                                                Rapidly falling prices for
                                                                                                                                                                    Record-high total area
                                      Low opium prices and high                 opium combined with
                                                                                                                                                                    under cultivation
                                      wheat prices due to                       record-high worldwide
                                      Pakistani ban on exports                  wheat prices
                                      of grain
200


                                                                                                                              Crop disease wipes out
                 National Council of Ulema                                                                                    1/3 of poppy crop;
                 issues fatwa against opium                                                                                   opium prices rise
                                                                         Concern over rising levels of                        dramatically
                 production and President
                                                                         poppy cultivation results in
                 Karzai announces jihad
150                                                                      renewed priority by ISAF and
                 against opium
                                                                         GIROA


                                                                                                 Food Zone CN program
                                                                                                 implemented in Helmand
                                                                                                 by ISAF and provincial officials
100                                                                                                                                           Food Zone CN program
                                                                                                                                              formally ends in Helmand
                             New U.S. CN strategy
                             and increased funding




                             U.S. Establishes PRT                            Intensive counterinsurgency
 50
                             in Nangarhar                                    operations in Nangarhar,
                                                                             with CN focus


                                                                                                                              Intensive counterinsurgency
                                                                                                                              operations in Helmand

   0
           2002             2003           2004            2005            2006             2007             2008             2009          2010            2011          2012            2013

                                                                                Total for Afghanistan           Helmand              Nangarhar

Note: PRT = Provincial Reconstruction Team. CN = counternarcotics.
Source: SIGAR, Special Project Report 15-10-SP, Poppy Cultivation in Afghanistan: After a Decade of Reconstruction and Over $7 Billion in Counternarcotics Efforts, Poppy Cultivation Levels Are at
an All-Time High, 10/14/2014.


91,000 hectares.12 Another “unprecedented” level of 131,000 hectares of
opium poppy was cultivated in 2004.13 This occurred shortly after then-
finance minister Ashraf Ghani warned of the dangers of the burgeoning
opium economy.14 Despite President Karzai’s declaration of a “jihad against
opium” and redoubled U.S. efforts, another “unprecedented” peak of
193,000 hectares of poppy cultivation occurred in 2007.15 Figure 1.1 shows
fluctuations in poppy cultivation 2002–2013.




REPORT TO THE UNITED STATES CONGRESS                          I   OCTOBER 30, 2014                                        5
THE OPIUM ECONOMY




    The increases in cultivation between 2012 and 2013 have been signifi-
cant. A report released this quarter by SIGAR’s Office of Special Projects
illustrates that opium-cultivation potential has been rising, and that large
areas of potential production increases appear in the east, north, and south-
west of Afghanistan. The transmittal letter by the Special IG notes, as one
example, that Nangarhar Province in eastern Afghanistan, declared “poppy-
free” by the UN in 2008, “saw a fourfold increase in opium poppy cultivation
between 2012 and 2013.”16
    There is little reason to believe cultivation will fall in 2015. The lat-
est planting season began in late October 2014. Farm-gate opium prices
remain relatively high17 at around $140 per kilogram.18 The Afghan economy
remains fragile: economic growth has declined, real wages are falling, and
inflation has increased.19 The security situation in many rural areas of the
country is increasingly uncertain. In such conditions, opium production
should be expected to rise.


THE MULTIFRONT EFFORT ON NARCOTICS
AND ITS RESULTS
The U.S. government’s counternarcotics effort includes initiatives intended
to reduce production, trade, trafficking, and consumption of illicit drugs
in Afghanistan, with a primary focus on opium and its derivatives. Funds
for these initiatives come through the Drug Interdiction and Counter-
Drug Activities Fund (DOD CN), the Afghanistan Security Forces Fund
(ASFF), the Economic Support Fund (ESF), and the State Department’s
International Narcotics Control and Law Enforcement (INCLE) account. In
addition to reconstruction funding, the Drug Enforcement Administration
(DEA) receives funding to operate in Afghanistan through direct appropria-
tions from Congress.20


HOW EFFECTIVE IS THE LAW-ENFORCEMENT EFFORT
IN COUNTERING THE NARCOTICS TRADE?
Nearly $3 billion of total U.S. counternarcotics funding in Afghanistan has
been allocated to law enforcement. At the forefront of this effort is DEA,
which reopened its country office in Kabul in 2003.
   The DEA’s primary partner in the counternarcotics effort is the
Counternarcotics Police of Afghanistan (CNPA), a specialist unit of the
Afghan National Police (ANP) under the Ministry of Interior (MOI). The
CNPA, with a force strength of approximately 2,850 personnel, has officers
in all 34 provinces to enforce Afghan drug laws by means of investigations
and operations including interdiction and crop eradication.21
   The DEA model for international drug-law enforcement calls for work-
ing with host-nation partners to identify and rigorously vet personnel to




   6                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                           THE OPIUM ECONOMY




determine suitability for service, and to develop a professional cadre of
enforcement officers. Working with the CNPA, DEA and its U.S. partners
have established three specialized units. The National Interdiction Unit
(NIU) is the tactical element of the CNPA and conducts evidence-based
interdiction operations and seizures. The Sensitive Investigative Unit (SIU)
carries out counternarcotics and countercorruption investigations using
intelligence developed by the Technical Investigative Unit (TIU).
   Some U.S. officials believe the U.S. law-enforcement strategy, including
standing up specialized units, has been successful and should be continued
post-2014. Officials cite the number of CNPA officers trained, enforcement
operations, arrests, and drug seizures to support these claims.22 But a close
examination of the total amount of opiates and precursor chemicals seized
suggest law enforcement has had a more limited effect. For example, using
                                                                                An opium poppy in bloom. (SIGAR photo by
Defense Intelligence Agency data, over the three fiscal years 2011, 2012,       David Mansfield)
and 2013, an annual average of 5.6 metric tons (mt; 1 mt = 2,205 pounds) of
heroin, 70.1 mt of opium, and 96.4 mt of precursor chemicals were seized in
Afghanistan.23 By comparison, according to UNODC annualized estimates,
380 mt of heroin are produced for export, approximately 5,000 mt of opium
are produced, and between 400 and 500 mt of precursor chemicals are
smuggled into Afghanistan.24
   One of the primary goals of the U.S. counternarcotics strategy is to
concentrate on severing the financial link between drug trafficking and
the insurgency.25 In late August 2010, public revelations of embezzlement
and other widespread financial crimes within Kabul Bank confirmed
rumors within the Afghan business community and elsewhere that
private financial institutions in Afghanistan were involved in rampant
criminal activity, including money-laundering operations intimately tied
to the narcotics trade.
   In an effort to disrupt such activities, the U.S. Department of the
Treasury, on February 18, 2011, sanctioned Afghanistan’s largest commer-
cial hawala, the New Ansari Money Exchange, and 15 affiliated individuals
and entities under the Foreign Narcotics Kingpin Designation Act for
facilitating the money-laundering activities of major regional narcotics
traffickers linked to Taliban financing activities.26 Other financial sanc-
tions followed, including U.S. and UN counterterrorism sanctions in June
2012 against the Haji Khairullah and Haji Sattar Money Exchange and the
Roshan Money Exchange for storing and moving money on behalf of the
Taliban.27 According to a public release from the U.S. Department of the
Treasury, both exchange houses facilitated money transfers in support of
the Taliban’s narcotics trade and terrorist operations.28 Additional U.S. and
UN sanctions were imposed five months later against Rahat LTD, another
hawala which had been used extensively by senior Taliban leaders, includ-
ing then-Helmand Taliban shadow governor Mullah Naim Barich, who had
been sanctioned just five days earlier by the Department of the Treasury




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2014             7
THE OPIUM ECONOMY




under the Foreign Narcotics Kingpin Designation Act for his extensive nar-
cotics production and distribution activities.29
   In late June 2014, Afghanistan narrowly avoided blacklisting by the
Financial Action Task Force (FATF) by passing new anti-money laundering
(AML) and countering the financing of terrorism (CFT) legislation. The new
AML and CFT laws were deemed more compliant with international stan-
dards than that country’s previous statutes.30 (See the Economic and Social
Development section of this report for more information.)
   The loss of several correspondent-banking relationships and the
spotlight shone on Afghanistan’s inability to effectively combat money
laundering and terrorist financing have likely mitigated the volume of
narcotics-related funds being injected into the formal international finance
sector. But narco-dollars continue to flow in and out of Afghanistan through
a variety of other money-laundering techniques, including bulk-cash smug-
gling activities by hawalas and trade-based money-laundering operations.
However, it is not currently known how many priority-target drug traffick-
ing organizations operating in Afghanistan have had significant disruptions
of their operations, or have been completely dismantled as a result of
enforcement operations, financial sanctions, or interagency investigations.
Without this information, measuring enforcement’s impact on the narcotics
trade remains difficult.
   As with other aspects of the counternarcotics campaign, assessing the
return on investment for law enforcement is important. The U.S. govern-
ment does not present explicit data on this measure, but a rough estimate
can be made. For example, the Defense Intelligence Agency reports that a
three-year average for heroin seizures is 5.6 metric tons. At an estimated
wholesale price of $2,266 per kilogram,31 the total approximate value of the
seized heroin is $12.7 million annually.
   Similar calculations for other drug seizures would provide a greater
understanding of the cost and benefits of the law enforcement effort
the United States is making to decrease drug trafficking revenues. The
Departments of Defense and State provided an estimated total of $60
million in counternarcotics assistance to DEA in FY 2013 for use in
Afghanistan and DEA dedicated a further $19 million of the agency’s direct
appropriations to support the counternarcotics mission in Afghanistan.32
The decline in the U.S. law-enforcement presence in Afghanistan is unlikely
to be offset by increased Afghan capability. A SIGAR audit released this
quarter found that without a formal rating system that measures training,
leadership, sustainment, and operational progress, the U.S. government
cannot assess whether its investment in CNPA’s provincial units has helped
them become a capable, self-reliant, and sustainable force.33
   Moreover, the MOI’s Ten-Year Vision for the Afghan National Police
states that all Afghan police forces, including the CNPA, will maintain flex-
ible structures so that officers can be shifted between different pillars of the




   8                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                            THE OPIUM ECONOMY




ANP. 34 This mandate allows the ANP flexibility to reassign CNPA officers to
non-counternarcotics duties and will likely further dilute the CNPA focus
across the country. Finally, under the Afghan Police Law as many as one-
third of the CNPA can be assigned to other duties and not be involved with
standard drug-law enforcement, such as initiating investigations, developing
cases, and gathering intelligence.35


WHAT HAS ERADICATION ACCOMPLISHED?
Eradication is the physical destruction of the standing opium crop and
represents a standard indicator for the State Department’s counternarcot-
ics efforts overseas.36 The prioritization and funding of eradication have
changed over the years, but crop destruction remains an important element
in the counternarcotics strategy.
   Since 2002 the United States has allocated about $1 billion to crop
destruction in Afghanistan.37 The bulk of this funding has supported an
independent eradication force operating from 2004 to 2009 out of the MOI.
Since 2010 the focus of the eradication effort has been on Governor Led
Eradication (GLE),38 an initiative that encourages provincial governors to
conduct their own crop destruction but reimburses their expenses.39 Crops
are destroyed either mechanically, using tractors or all-terrain vehicles, or
manually, using blades or sticks. Efforts to introduce spraying were rejected
by the Afghan cabinet in 2007. Opponents cited fears of herbicide impacts
on the population’s health, as well as wider impacts on the economy and the
potential to further destabilize rural areas.40
   U.S. contractor DynCorp International operated a Department of State-
funded Poppy Eradication Force (PEF)41 until 2009, when it was disbanded
by Richard Holbrook upon his appointment as Special Representative for
Afghanistan and Pakistan.42 Between 2004 and 2009, $695.3 million was
expended on the PEF and its supporting Special Air Wing.43 The PEF eradi-
cated 9,946 hectares of opium poppy, at an average cost of $73,608 per
hectare. Assessing the value received for money spent in the U.S.-funded
eradication effort is challenging. The rationale for crop destruction typically
draws on three lines of argument:
    1.	 Destroying some of the opium crop each year means less opiate for
        distribution, sale, and final consumption.
    2.	 Eradication extends the writ of the Afghan state into rural areas
        where traditionally the government has had little presence.
    3.	 Crop destruction changes the risk-benefit calculation to farmers,
        deterring planting in future seasons.

   In 2014, the eradication target for GLE was 22,500 hectares—an ambi-
tious goal given the demands of the first round of the Afghan presidential
voting, increasing insecurity in many poppy-growing provinces, and meager




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2014              9
                                                            THE OPIUM ECONOMY




FIGURE 1.2


POPPY ERADICATION IN AFGHANISTAN (HECTARES)

20,000

                                                                                                                                 Governor Led Eradication
15,000                                                                                                                           Poppy Eradication Force
                                                                                                                                 Total

             DATA LACKING
10,000
             OR UNVERIFIED


 5,000



     0
             2003         2004         2005         2006         2007         2008         2009         2010         2011         2012         2013         2014


Source: UNODC, Afghanistan Opium Survey 2003, 10/2003, pp. 53, 96; UNODC, Afghanistan Opium Survey 2004, 11/2004, p. 77; UNODC, Afghanistan Opium Survey 2010,
12/2010, p. 45; UNODC, Afghanistan Opium Survey 2013, 10/2013, p. 35; UNODC, Afghanistan Poppy Eradication Verification Report, 8/2014, p. 4.




                                                            results of previous eradication work.44 By the end of the season, only 2,693
                                                            hectares were destroyed, less than 12% of the target and less than the 7,348
                                                            hectares destroyed in 2013.45
                                                               Assessing crop destruction over the longer term is difficult. Data prior
                                                            to 2005 are problematic, as there was no independent verification pro-
                                                            cess. In the 2002–2003 growing season, Afghan authorities reported 21,430
                                                            hectares of opium poppy were eradicated. UNODC cited these figures, but
                                                            commented that its 2003 survey “neither monitored, nor assessed the effec-
                                                            tiveness of the eradication campaign.”46 The 2004 UNODC survey reported
                                                            no eradication figures.47 Figure 1.2 shows fluctuations in eradication from
                                                            2003–2014.
                                                               UNODC did not begin verifying eradication until late 2005,48 and did
                                                            not begin verifying the amount of crop destroyed by the PEF until 2008.49
                                                            As late as 2006 and 2007, there were still concerns over the reliability of
                                                            UNODC eradication data due to its initial verification methodology. For
                                                            instance, until 2007, UNODC relied on surveyors visiting rural areas after
                                                            the eradication campaign had been completed, making verification diffi-
                                                            cult. Doubts over inflated figures led UNODC to incorporate greater use of
                                                            remote-sensing imagery and to draw on technical support from Cranfield
                                                            University from 2008.50 Besides issues of methodology and security chal-
                                                            lenges, politics complicated eradication verification. Eradication was often




                                                                10                         SPECIAL INSPECTOR GENERAL             I   AFGHANISTAN RECONSTRUCTION
                            THE OPIUM ECONOMY




used as a metric for judging state-building, institutional, and individual
performance.51
    This encouraged over-reporting by Afghan nationals and a preference
for reporting higher levels of eradication amongst drug-control institutions.
This became particularly evident with the level of over-reporting by the PEF
in the spring of 2007 that culminated in a review52 and subsequent reduction
in the final figures reported.53
    The argument that eradication has extended the writ of the state is
far from compelling when viewed against the complaints of corruption
and the targeting of vulnerable communities that have accompanied crop
destruction.54 Indeed, an employee of a nongovernmental organization in
Kandahar in 2008 referred to the “predatory and sneering face of the eradi-
cation team,” arguing that it was “not the face that should be seen in rural
areas.”55 Afghan farmers themselves will often refer to eradication opera-
tions as acting “like a thief stealing in the night” where these efforts are not
accompanied by a more resilient state presence that includes the delivery of
physical and social infrastructure and improved security.56
    Evidence for the third line of argument, that eradication deters future
planting, also appears limited. UNODC claims that for eradication to dis-
courage farmers from cultivating opium poppy in subsequent years, 25%
of the total standing crop in Afghanistan would need to be destroyed.57
However, it is not obvious how this figure was calculated. Moreover, it is
an estimate that does not appear to recognize how localized politics and
power are in rural Afghanistan, and how events in one district can have
little bearing on the behavior of the population in neighboring areas, let
alone other provinces.
    State’s Bureau of International Narcotics and Law Enforcement (INL)
draws on “geospatial analysis that indicates 90% less poppy was planted in
2011 on land within half-kilometer radius of poppy fields that were eradi-
cated in 2010 in the Helmand Food Zone,” a UK- and U.S.-funded program
designed to reduce opium production in the well-irrigated parts of Helmand
Province.58 On the surface this analysis seems to have merit, but it does not
appear to consider other variables, such as the significant influx of interna-
tional and Afghan military forces, establishment of security checkpoints and
bases, and the uptick in development spending associated with the “surge”—
all of which affected local farmers’ livelihood and planting decisions.59
    In reviewing the impact of eradication, it is particularly hard to ignore
the fact that the amount of land dedicated to opium poppy in the district of
Marjah in Helmand was almost 60% in 2010, but fell to less than 5% in the fol-
lowing season, once 15,000 U.S. Marines and the ANSF had taken up position
in the district for Operation Moshtarak in February of 2010.60 Farmers across
central Helmand referred to the prevalence of government and international
forces within rural communities, concurring with reports of “an ISAF base
on every road junction”61 as a deterrent to cultivation.62 In contrast, research




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2014              11
THE OPIUM ECONOMY




conducted in Helmand Province over many years found that “Where the
state has not been able to establish a more permanent presence in an area
due to the prevailing security conditions, eradication has been seen by farm-
ers as a random act that can be managed through patronage and corruption,
a perception that has led to increasing resentment.”63


ASSESSING THE EFFECTIVENESS OF THE GOOD
PERFORMER’S INITIATIVE REQUIRES MORE EVIDENCE
The State Department calls the Good Performer’s Initiative (GPI), begun
in 2007, “one of the most successful counternarcotics programs in
Afghanistan.”64 The GPI rewards provinces each year for: “(1) attaining or
maintaining poppy-free status ($1 million each), (2) reducing poppy cultiva-
tion by more than 10 percent ($1,000 for each hectare above 10 percent),
and (3) exceptional counternarcotics achievements ($500,000 each for up to
two provinces).”65 As of August 31, 2014, the GPI has awarded $108 million
to more than 221 projects in 33 provinces.66
    A detailed review by SIGAR of projects funded by the GPI to date
suggests that priority has largely been given to financing infrastructure
programs implemented by private-sector construction companies. Projects
currently focus on a limited range of sectors, such as health, education,
transport, and agriculture, and largely involve building schools, health clin-
ics, gymnasiums, conference centers, meeting halls, roads, bridges, and
irrigation systems.
    How such projects translate into reductions in opium production is far
from clear. For example, very few of the projects focus on income genera-
tion or supporting farmers in replacing income lost by abandoning opium
poppy cultivation. Further, it is not clear how many of the projects funded
under the GPI are implemented in rural areas with a history of opium-poppy
cultivation, or how they address the reasons for cultivation.67
    Some projects may have had perverse outcomes. Irrigation projects
in Nangarhar, Badakhshan, and Kunar Provinces, for example, may have
facilitated increased opium-poppy cultivation after periods of significant
reductions.68 Irrigation improvements funded by the GPI in Bamikhel in
the Pachir wa Agam District of Nangarhar were definitely used to cultivate
opium poppy in both 2013 and 2014, as shown in the image on page 13.
    The disconnect between the rural communities that have, or could
potentially, cultivate opium poppy and the award of projects under the GPI
appears to have been noted.69 On August 30, 2014, the Minister of Counter
Narcotics and INL announced the redesign of the GPI—called GPI II—and
a shift towards projects “that better meet the needs of rural communities,
by prioritizing alternative livelihoods projects that support farmers as they
transition away from poppy cultivation.”70




  12                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                 THE OPIUM ECONOMY




Geospatial analysis of crops in the vicinity of a series of irrigation projects funded by the GPI in Bamikhel, Pachir wa Agam, Nangahar. Imagery
shows this was an area of intensive poppy cultivation during the 2013–2014 growing season. (Image courtesy of Alcis Holdings Ltd.)


DOES THE UNITED STATES HAVE THE RIGHT STRATEGY
FOR RURAL DEVELOPMENT IN A DRUGS ENVIRONMENT?
The United States seeks to reduce opium production by encouraging
farmers to find alternative means of earning a living. However, a recent
report for the World Bank’s Agriculture Sector Review says, “alternative
livelihoods and alternative development remain undefined and confused
concepts.”71 The report describes two different models that underpin devel-
opment efforts in opium-poppy areas in Afghanistan.
   The first model is predicated on a theory of change that assumes reduc-
tions in drug-crop cultivation can be rapid, coerced, and largely a function
of the political will of Afghan actors. It dates back to a failed model of
assistance implemented by UNODC in Afghanistan during the early and
mid-1990s.72 This model ties development assistance closely to community




REPORT TO THE UNITED STATES CONGRESS         I   OCTOBER 30, 2014                     13
THE OPIUM ECONOMY




agreements to reduce opium poppy, and is often based on single-sector
interventions, particularly provision of agricultural inputs.
   Under this model, development assistance is often considered largesse
aimed at building the political capital of provincial governors, district offi-
cials, and local elites, and designed to support them in their efforts to elicit
reductions in opium-poppy cultivation from rural communities. This theory
of change appears to underpin the GPI.73
   Also emblematic of the first model is the Kandahar Food Zone (KFZ), an
$18.7 million USAID program74 designed to identify and address the driv-
ers of opium-poppy cultivation in the districts of Arghistsan, Kandahar,
Maiwand, Panjwai, Shahwali Kot, Takhta Pul,75 and Zahre.76
   The KFZ is said to build on the lessons learned from the Helmand Food
Zone, but it is unclear where the similarities lie. The Helmand Food Zone
was implemented at a time when the price of wheat, an alternative crop,
was rising dramatically and opium prices had fallen to their lowest lev-
els since before the Taliban ban in 2001.77 The 2009–2011 duration of the
Helmand Food Zone was also a period of huge increase in the numbers of
international and Afghan forces in the province, and of increasing devel-
opment aid.78 In contrast, the KFZ appears to be occurring at a time of
relatively high opium prices and reduced security-force presence, and is pri-
oritizing irrigation investments79 which, if implemented in isolation, could
lead to farmers cultivating more land with higher-yielding poppy in the
future. Nevertheless, according to USAID, the Ministry of Counter Narcotics
wishes to apply the KFZ model to the 17 remaining provinces with poppy
cultivation, including Uruzgan, Farah, Badakshan, and Nangarhar.80
   The second, competing model of “alternative livelihoods” is less inti-
mately tied to reductions in opium-poppy cultivation. It recognizes the
limits of the Afghan state and is mindful that in many parts of Afghanistan,
the government does not have control over the territory within its borders.
Instead, this model looks to strengthen the relationship between farming
communities and the state, and improve the welfare of farmers. It sees
reductions in cultivation as a function of the wider reconstruction effort in
Afghanistan. This model makes rural development the objective, and reduc-
tions in poppy cultivation an externality or side effect of that objective.81
   This second model of alternative livelihoods includes the kind of broad-
based rural development that forms the bulk of USAID’s ESF-funded
programming. The recently awarded Regional Agricultural Development
Programs for the South ($125.1 million), West ($69.9 million), and North
($78.4 million); the Commercial Horticulture and Agricultural Marketing
Program ($40 million); and Incentives Driving Economic Alternatives-
North, East, and West ($159.8 million) all fall into this category.82
   Many of these programs are justified on the basis that they will directly
impact levels of opium-poppy cultivation. Others are only in part intended
to support reductions in opium-poppy cultivation, and are built on the




  14                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                         THE OPIUM ECONOMY




assumption that “once alternative high-value and economically competi-
tive crops produce income, rural households would be more willing to stop
poppy production.”83 These programs, however, do not directly measure
changes in poppy cultivation,84 which raises the question of how USAID
assesses whether its assumption is valid—a point noted in a USAID Office
of Inspector General audit in 2012.85 The failure to determine the relation-
ship between development investments and opium-poppy cultivation also
means USAID has no way to establish whether these programs are inadver-
tently contributing to increasing levels of cultivation.


CULTIVATION DATA SHOULD NOT BE THE ONLY
MEASURE OF THE COUNTERNARCOTICS EFFORT
Measuring opium-poppy cultivation is a critical element in official assess-
ments of counternarcotics-program success. But it has its limitations.
   First, getting reliable data on an illegal activity is seldom easy. UNODC
and the U.S. Crime and Narcotics Center (CNC) use different methods and
have often produced sharply divergent estimates, as shown in Figure 1.3.
   It is not necessarily clear whether reductions in opium-poppy cultivation
areas straightforwardly reflect robust counternarcotics efforts, or instead
(or also) are a function of prices, growing conditions, improvements in
security, and the impacts of the wider reconstruction effort.


FIGURE 1.3


AFGHANISTAN TOTAL POPPY CULTIVATION ESTIMATES, 1994–2013 (HECTARES)

250,000


200,000


150,000


100,000

                                                                                                                                                U.S. Government
 50,000
                                                                                                                                                UNODC Estimate


       0
             1994 1995 1996 1997 1998 1999 2000 2001 2002 2003 2004 2005 2006 2007 2008 2009 2010 2011 2012 2013

Source: State, INCSR Report 2014, p. 25; INCSR Report 2005, p. 25; INCSR Report 2004, pp. 23–24; UNODC, Poppy Survey 2013, p. 106; Poppy Survey 2003, p. 7.




REPORT TO THE UNITED STATES CONGRESS                   I   OCTOBER 30, 2014                                15
                                            THE OPIUM ECONOMY




                                               Furthermore, limited data about crops or activities that have been sub-
                                            stituted for opium poppy make it difficult to determine how long reductions
                                            may persist, or what kinds of development investments will make the most
                                            significant difference.
                                               Looking at aggregate or provincial indicators of opium-poppy cultiva-
                                            tion can also mask important differences in intensity or relocation of
                                            cultivation. In 2014, with record levels of cultivation, there are areas where
                                            opium once flourished, but where poppy has not been grown for up to a
                                            decade. These sustained reductions have occurred in Nangarhar, Balkh
                                            and Badakhshan, and even in Helmand and Kandahar.86 At the same time,
                                            opium-poppy cultivation has relocated and concentrated in more remote
                                            and insecure parts of these provinces, in some cases driving up aggregate
                                            levels of production at the provincial level and contributing to rising levels
                                            of cultivation nationally.87
                                               Sustained reductions in cultivation suggest that under certain conditions,
                                            farmers may transition out of opium-poppy cultivation even in districts that
                                            once cultivated thousands of hectares of opium poppy. Assistance that pro-
                                            motes better risk-management strategies through diversifying on-farm and
                                            non-farm income, combined with provision of public goods such as security
                                            and infrastructure, can give farmers alternatives to growing poppy while
                                            strengthening the social contract with the state.88
                                               There is a need to assess reductions in opium poppy cultivation in con-
Many Afghan children work in the opium
economy. (SIGAR photo by David Mansfield)   junction with data on rates of rural economic growth, crop diversification,
                                            non-farm income, and improved governance if reasons for fluctuations in
                                            opium-poppy cultivation are to be better understood—and, most impor-
                                            tantly, if the desire to drive down production is not to risk undermining the
                                            wider reconstruction effort in Afghanistan.


                                            DOES 2015 OFFER NEW POSSIBILITIES?
                                            Despite the economic and political importance of the opium economy,
                                            many Western donors seem unwilling to address the opium economy in
                                            Afghanistan. The reluctance surfaces in U.S. policy papers as well as in the
                                            TMAF. There are, for instance, only oblique references to drugs in TMAF,
                                            and the U.S. Civil-Military Strategic Framework for Afghanistan barely
                                            mentions counternarcotics.89 The government of the United Kingdom, the
                                            former lead, then partner, nation on counternarcotics in Afghanistan, has
                                            all but ceased its counternarcotics interventions apart from a limited law-
                                            enforcement effort, and rarely mentions the issue in diplomatic circles.90
                                                The complexity, intractability, and long horizon of the counternarcotics
                                            campaign—even more daunting in Afghanistan than in the countries whose
                                            citizens provide the demand for what Afghans supply—makes official
                                            reticence understandable. But Afghanistan’s soaring opium production con-
                                            tinues to pose a significant threat to reconstruction, and to demand action.




                                              16                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                           THE OPIUM ECONOMY




   The U.S. and Coalition presence in Afghanistan, including law-enforce-
ment components, will shrink drastically after 2014. While this magnifies
the challenge of pursuing the counternarcotics agenda, it also raises the
payoff for a searching review of how the reconstruction effort can better
address the harms caused by such concentrated levels of opium production.
   The advent of a new administration in Kabul also offers opportunities.
As noted, President Ashraf Ghani has a long record of speaking out against
the baleful influences of the narcotics trade. His new government, facing
an economic slump and taking a stronger stand against corruption, may
be willing to cooperate in stronger efforts to enforce laws and reduce the
corruption that benefits the drug trade—especially if continued donor assis-
tance is offering Afghans a chance at better legal livelihoods.
   At an operational level, U.S. reconstruction programs in Afghanistan
need to be far more explicit about how they will tackle the opium economy
without making matters worse. Officials in both State and USAID need to
set out the theory of change that underpins their reconstruction programs,
identify how these programs will deter future opium production, and
establish mechanisms for assessing the contribution these programs make
to reducing narcotics production while taking into consideration the chal-
lenges that insecurity and a reduction in the U.S. presence on the ground
poses to oversight. More needs to be done to learn from and, where appro-
priate, replicate how coincident improvements in governance, security, and
economic growth led to farmers graduating out of opium production in the
lower-lying areas of provinces like Nangarhar, Helmand, and Kandahar.
   It is impossible to develop a coherent and effective strategy for
Afghanistan without taking full account of the opium economy. To continue
to ignore the impact of opium production on reconstruction—and recon-
struction’s effect on the opium economy—would be negligent, wasteful of
taxpayers’ money, and destructive of U.S. policy goals.
   A whole-of-government effort and a whole-of-programs review are
essential. Recognizing the corrosive effects of money laundering on U.S.
reconstruction efforts, SIGAR also recommends that “following the money”
be part of any such review and has established a Money Laundering Task
Force to identify and investigate violations of U.S. and Afghan money laun-
dering laws linked to reconstruction.
   In the coming period of reduced oversight visibility in Afghanistan,
SIGAR will continue to keep the U.S. government and the American public
informed on the counternarcotics effort, and to recommend appropriate
course corrections. At the moment, Afghanistan’s narcotics economy is the
elephant in the room that we ignore at our peril.




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2014           17
“It’s clear that reconstruction progress
 needs to be measured in realistic and
  useful ways. If we are going to learn
   anything from the reconstruction
experience, we need to have accurate
assessments of the proximate cause of
      both successes and failures.”
     — Special Inspector General John F. Sopko




           Source: SIGAR, Remarks Prepared for Delivery at Georgetown University, September 12, 2014.
2   SIGAR
    OVERSIGHT




        19
                                                SIGAR OVERSIGHT ACTIVITIES




                                                CONTENTS
                                                SIGAR OVERSIGHT CONTENTS

                                                Audits	22
                                                Inspections	36
                                                Special Projects	                                             39
                                                Quarterly Highlight: SIGAR’s Ongoing
                                                Concerns About $486 Million
                                                G222 Program	                                                 43
                                                Investigations	49
                                                Other SIGAR Oversight Activities
                                                This Quarter	                                                 58
                                                SIGAR Budget	                                                 61
                                                SIGAR Staff	                                                  61




Photo on previous page
Fire trucks ceremonially spray water over a C-130H aircraft as the Afghan Air Force
takes delivery of its two new cargo planes. (U.S. Army photo)




                                                   20                   SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
             SIGAR OVERSIGHT ACTIVITIES




SIGAR OVERSIGHT ACTIVITIES
This quarter SIGAR issued 31 audits, inspections, alert letters, and other
products covering programs worth nearly $14.8 billion.
   One performance audit found that although Counternarcotics Police of           AUDIT ALERT LETTER
Afghanistan (CNPA) provincial units have received some support, overall           •	 Audit Alert Letter 14-80a-AL: Afghan Air
                                                                                     Force C-130 Aircraft Response
U.S. financial resources devoted to the CNPA have only tangentially ben-
efitted them. A second performance audit determined that the U.S. Agency          COMPLETED PERFORMANCE
for International Development (USAID) implemented 80% of SIGAR’s 127              AUDITS
recommendations in a timely, successful manner, reducing the risk of fraud,       •	 Audit 15-1-AR: Status of SIGAR’s
waste, and abuse of Afghan reconstruction funds. This quarter, SIGAR’s               Recommendations to USAID
                                                                                  •	 Audit 15-12-AR: U.S. Assistance to
financial audits identified nearly $5.6 million in questioned costs as a result      CNPA
of internal-control deficiencies and noncompliance issues. To date, SIGAR’s
financial audits have identified more than $83 million in questioned costs        COMPLETED FINANCIAL AUDITS
and $197,494 in unremitted interest on advanced federal funds.                    •	 Financial Audit 14-91-FA: Audit of Costs
                                                                                     Incurred by ARD Inc.
   SIGAR also published one inspection report. It identified defective
                                                                                  •	 Financial Audit 14-93-FA: Audit of Costs
workmanship and work not completed according to contract requirements                Incurred by CARE International
at the Pol-i-Charkhi prison, and discovered that the prison is being used,        •	 Financial Audit 14-94-FA: Audit of
but is overcrowded.                                                                  Costs Incurred by AECOM International
                                                                                     Development Inc.
   SIGAR’s Office of Special Projects wrote inquiry letters expressing            •	 Financial Audit 14-95-FA: Audit of
concerns about a range of issues, including the unsafe fuel-storage tanks            Incurred Costs by Mine Clearance
at Camp Shaheen, the soundness of plans for the Kandahar electricity-                Planning Agency
supply bridging solution, a dangerous school collapse in Sar-i-Pul, anti- and     •	 Financial Audit Financial Audit 14-100-FA:
                                                                                     Audit of Costs Incurred by International
counter-corruption efforts, an incomplete response to a communications-              City/County Management Association
towers inquiry, a troubling response to a whistleblower-protection inquiry,       •	 Financial Audit 15-7-FA: Audit of Costs
the potentially exploitative recruitment of third-country nationals (TCNs),          Incurred by International Relief &
                                                                                     Development Inc.
weak oversight of Law and Order Trust Fund for Afghanistan (LOTFA)
funds, an unnecessary second Afghan National Army (ANA) slaughterhouse            COMPLETED INSPECTIONS
in Pol-i-Charkhi District, the scrapping of 16 G222 planes, USAID’s recov-        •	 Inspection 15-11-IP: Pol-i-Charkhi
                                                                                     Prison
ery of questioned costs, contract cancelled due to rising security costs, the
incomplete documentation of the Department of Defense’s (DOD) excess              COMPLETED SPECIAL PROJECT
equipment disposition processes, and potentially wasteful expenditures            PRODUCTS
on unused communications trucks. The office also conducted a review               •	 This quarter SIGAR published 21
of the processes and controls used by the Combined Security Transition               Special Project Inquiry Letters and
                                                                                     Special Reports. For a complete list,
Command-Afghanistan (CSTC-A), the Department of State (State), and                   see page 39.
USAID for providing direct assistance to the Afghan government. The Office




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2014              21
                                                   SIGAR OVERSIGHT ACTIVITIES




                                                   of Special Projects also issued a special report which examined an all-time
Performance audits: provide assurance              high in opium-poppy cultivation, despite the $7 billion U.S. investment in
or conclusions based on an evaluation of           counternarcotics.
sufficient, appropriate evidence measured
                                                      During the reporting period, the criminal fines, restitutions, forfeitures,
against stated criteria. Performance audits
provide objective analysis so that manage-         civil settlements, and cost savings to the U.S. government from SIGAR’s
ment and those charged with governance can         ongoing investigations amounted to over $1 million. Savings to date from
use the information to improve the program         SIGAR investigations total over $500 million. SIGAR investigations also
performance and operations, reduce costs,          resulted in 14 arrests, three indictments, four criminal informations, two
and facilitate decision-making by parties with     plea agreements, and a sentencing in the United States. Additionally, 24
responsibility to oversee or initiate corrective   individuals were barred from access to military installations and nine
action for public accountability. Performance      employees were terminated. SIGAR’s suspension and debarment program
audits are conducted in accordance with
                                                   referred 44 individuals and 13 companies for suspension or debarment.
generally accepted government auditing
standards (GAGAS) and the Council of the           Of those 57 contractors, 11 were referred based on allegations that
Inspectors General on Integrity and Efficiency     they engaged in fraud and nonperformance on contracts valued at over
(CIGIE) Quality Standards for Federal Offices      $398 million.
of Inspector General.
Inspections: are systematic and independent
assessments of the design, implementation,         AUDITS
and/or results of an agency’s operations,          SIGAR conducts performance audits, inspections, and financial audits of
programs, or policies. SIGAR conducts in-          programs and projects connected to the reconstruction in Afghanistan.
spections, in accordance with CIGIE Quality        Since its last report to Congress, SIGAR has issued two performance audits,
Standards for Inspection and Evaluation, to        one inspection, six financial-audit reports, and one audit alert letter. This
provide information to Congress and the pub-
                                                   quarter SIGAR also began two new performance audits, bringing the total
lic on the quality of construction of facilities
and infrastructure throughout Afghanistan;
                                                   number of ongoing performance audits to 14. The published performance-
and generally, to provide an assessment            audit reports reviewed the status and oversight process for reaching
of the extent to which the facilities were         audit-recommendation resolution at USAID, and the U.S. and Afghan gov-
constructed in accordance with the contract        ernments’ ability to track CNPA funds and capabilities. The performance
requirements, used as intended, and are be-        audits made a total of six recommendations; the inspection made five. The
ing maintained.                                    financial audits identified nearly $5.6 million in questioned costs as a result
Financial audits: provide an independent           of internal-control deficiencies and noncompliance issues.
assessment of and reasonable assurance
about whether an entity’s reported condition,      Alert Letters
results, and use of resources are presented        With Afghanistan in the midst of transition, U.S. military and civilian offi-
in accordance with recognized criteria. SIGAR      cials have asked SIGAR to provide them with real-time information to
performs financial audits in accordance
                                                   prevent waste and increase the effectiveness of U.S. reconstruction pro-
with GAGAS, which includes both require-
ments contained in the American Institute of       grams. One of SIGAR’s main goals is to provide implementing agencies
Certified Public Accountants Statements on         and Congress with actionable information while there is still time to make
Auditing Standards and additional require-         a difference. To achieve that goal, SIGAR sends alert letters to highlight
ments provided in GAGAS. SIGAR also reviews        concerns in real time while implementing agencies are still able to act.
financial audits conducted by independent          During this reporting period, SIGAR sent one alert letter, addressing DOD’s
public accountants (IPA). When an IPA              response to SIGAR’s original C-130H alert letter, sent last quarter.
conducts a financial audit, SIGAR conducts
reasonable procedures to ensure compliance
with GAGAS, based on the intended use of
the IPA’s work and degree of responsibility
accepted by SIGAR with respect to that work.


                                                     22                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
               SIGAR OVERSIGHT ACTIVITIES




An Afghan Air Force C-130 sits on the flightline at Kabul International Airport.
(NAT-C photo)


Audit Alert Letter 14-80a-AL: Afghan Air Force C-130
Aircraft Response
On October 6, SIGAR wrote to DOD regarding the agency’s response to
                                                                                        AUDIT ALERT LETTER
                                                                                        •	 Audit Alert Letter 14-80a-AL: Afghan Air
SIGAR’s July 10 alert letter concerning the planned provision of C-130H                    Force C-130 Aircraft Response
cargo planes to the Afghan Air Force (AAF). In the July 10 letter, SIGAR
requested that DOD review the AAF’s medium-airlift requirements and its
ability to fully use the two existing C-130Hs before providing two addi-
tional aircraft.
   DOD responded, noting that based on historical mission-capable rates
and projected maintenance and inspection schedules, the AAF requires at
least three C-130Hs to ensure at least one aircraft is operational at all times.
SIGAR recognizes the risk of having no C-130Hs operational, and agrees
with DOD’s decision to provide the AAF with a third aircraft. The letter also
commends DOD’s concurrence with SIGAR’s recommendation to defer the
decision on delivery of the fourth planned C-130H until the requirements
review is complete. This represents a potential savings of about $40.5 mil-
lion through 2017—$19.8 million for the aircraft itself, and $20.7 million for
the maintenance, parts, training, and modifications.

Performance Audit Reports Published
This quarter SIGAR published two performance audits that examined
USAID’s resolution of SIGAR audit recommendations and U.S. efforts to
develop the CNPA.




REPORT TO THE UNITED STATES CONGRESS        I   OCTOBER 30, 2014                   23
                                               SIGAR OVERSIGHT ACTIVITIES




                                               Audit 15-1-AR: U.S. Agency for International Development
                                               More than 80 Percent of All SIGAR Audit and Inspection Report Recommendations
COMPLETED PERFORMANCE                          Have Been Implemented
AUDITS                                         SIGAR initiated this review to (1) identify and assess the status of SIGAR
•	 Audit 15-1-AR: USAID: More than
   80 Percent of All SIGAR Audit and           recommendations made to USAID in all SIGAR performance audits, finan-
   Inspection Report Recommendations           cial audits, and inspections; and (2) review actions taken or planned by
   Have Been Implemented
                                               USAID to address any open recommendations.
•	 Audit 15-12-AR: Counternarcotics
   Police of Afghanistan: U.S. Assistance to       To accomplish these objectives, SIGAR identified and examined all 127
   Provincial Units Cannot be Fully Tracked    recommendations made to USAID from SIGAR’s establishment in January
   and Formal Capability Assessments of
   These Units Are Needed                      2008 through April 2014, and conducted analysis to determine the num-
                                               ber of open, closed and implemented, and closed but not implemented
                                               recommendations. SIGAR categorized each recommendation by sector,
                                               recommended action, and intended outcome. Finally, SIGAR examined
                                               documentation that USAID provided to determine any quantifiable financial
                                               benefit in the form of cost savings or recovered funds.
                                                   Of the 127 recommendations made to USAID from SIGAR’s inception in
                                               January 2008 through April 2014, SIGAR closed 110, with 103 closed and
                                               implemented, and seven closed but not implemented. Fifty-one previously
                                               open recommendations were closed due to evidence provided after SIGAR
                                               notified USAID of this audit in February 2014.
                                                   SIGAR’s analysis found that:
                                                •	 Almost two-thirds of all recommendations were intended to achieve one
                                                   of two outcomes: (1) ensure accountability and oversight of contract
                                                   funds, or (2) strengthen contract compliance and internal controls.
                                                •	 More than two-thirds recommended that USAID, to achieve the
                                                   intended outcomes: (1) establish, improve, or follow existing
                                                   procedures, policies, or other guidance; or (2) recover or ensure
                                                   appropriate use of funds.

                                                   USAID’s timely implementation of these recommendations resulted in
                                               stronger accountability of reconstruction funds spent in Afghanistan. One
                                               recommendation alone resulted in almost $23 million being put to better
                                               use. Eighteen additional recommendations resulted in the sustainment
                                               or recovery of more than $2.75 million in questioned costs. An additional
                                               recommendation resulted in USAID’s increasing the timeliness of financial-
                                               contract audits of completed projects, helping to ensure that costs billed by
                                               contractors were allowable.
                                                   SIGAR closed seven additional recommendations that had not been
                                               implemented for several reasons:
                                                •	 Five recommendations were closed because SIGAR planned to conduct
                                                   additional audit work that could supersede the recommendations.
                                                •	 Two recommendations were closed because USAID did not take action
                                                   to address SIGAR’s concerns.




                                                 24                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
             SIGAR OVERSIGHT ACTIVITIES




   Seventeen of the 127 recommendations remain open, and SIGAR is wait-
ing for further implementing actions by USAID prior to closing them. As
of mid-August 2014, seven of these recommendations were open for more
than one year, and one recommendation was open for more than two years.
Seven of the open recommendations have identified $61.9 million in ques-
tioned costs.
   SIGAR made no recommendations in this audit.

Audit 15-12-AR: Counternarcotics Police of Afghanistan
U.S. Assistance to Provincial Units Cannot be Fully Tracked and Formal Capability
Assessments of These Units Are Needed
The Counternarcotics Police of Afghanistan (CNPA), established in 2003
as a specialist force of the Afghan National Police (ANP), conducts coun-
ternarcotics investigations and operations throughout Afghanistan. Due to
the impending security transition and risks to Afghanistan’s economy, U.S.
efforts to bolster the Afghan government’s counternarcotics capacity are
crucial to minimizing financial and political benefits to the insurgency.
   The CNPA, headquartered in Kabul, comprises six directorates or depart-
ments, including provincial and specialized units. As of November 2013, it
consisted of 2,850 police personnel, of which 1,100—or 39%—were autho-
rized for provincial units. SIGAR conducted this audit to determine the
extent to which (1) State, DOD, and the Department of Justice’s (DOJ) Drug          Members of the CNPA participated in
                                                                                    the grand opening ceremony for the new
Enforcement Administration (DEA) provided support to CNPA provincial
                                                                                    Counternarcotics Police of Afghanistan
units; (2) DOD direct assistance funding for CNPA provincial units could            Headquarters Compound in Kabul in 2010.
be tracked; and (3) the CNPA provincial units’ operational capabilities and         (U.S. Embassy Kabul photo)
readiness have been formally assessed and reported.
   U.S. government support—State, DOD, and DEA—to the CNPA
has focused primarily on CNPA headquarters and its specialized units.
Provincial units have received some support, such as facility refurbish-
ments in six high-threat areas (costing about $1.21 million) and the
establishment of basic investigator training (part of a larger effort that cost
$161.4 million), but overall U.S. financial resources devoted to the CNPA
have only tangentially benefited them. Studies over the past several years
have shown that CNPA provincial units have been neglected and that prob-
lems continue with their unit development and capabilities.
   DOD also provides direct assistance to the Afghan government’s national
budget. These funds support infrastructure, operation and maintenance
(O&M), and salaries, including those for CNPA provincial units. Although the
Afghan Financial Management Information System (AFMIS)—a government-
wide accounting system—tracks the funding, it does not capture CNPA
expenditure data by funding source, funding code, and location. As a result,
SIGAR could not fully determine the amount of direct assistance provided
to CNPA provincial units. In fact, SIGAR was able to track only $13,529 of
U.S. direct assistance provided for counternarcotics efforts throughout




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2014                25
                                              SIGAR OVERSIGHT ACTIVITIES




                                              Afghanistan. Further, SIGAR found that the dual reporting structure, in
                                              which the Deputy Minister of Interior for Counternarcotics has manage-
                                              ment and oversight responsibility for the CNPA while the Deputy Minister of
                                              Interior for Security oversees CNPA’s supporting resources, affected provin-
                                              cial units’ ability to obtain funding and supplies. For example, SIGAR found
                                              three CNPA provincial units that received no funds to maintain their DOD-
                                              refurbished facilities, while other units lacked funds to transport certain
                                              drug-related prisoners to Kabul within mandated timeframes.
                                                 SIGAR found that CNPA provincial units’ operational capabilities have
                                              not recently been formally assessed and reported. Without a formal rating
                                              system that measures training, leadership, sustainment, and operational
                                              progress, the U.S. government cannot determine whether its investment in
                                              CNPA provincial units has helped them become a capable, self-reliant, and
                                              sustainable force. The Regional Command Afghan National Security Forces
                                              Status Report (RASR), which assesses specific measures, such as training,
                                              sustainment, and law enforcement operations, has been used to assess
                                              the Afghan National Security Forces capabilities, but has not been used to
                                              assess CNPA provincial units. Rather, the CNPA Tactical Operations Center
                                              measures provincial units’ operational progress on an aggregated basis and
                                              with different metrics than RASR.
                                                 SIGAR recommends that DOD, in coordination with State and DEA,
                                              work with the Afghan Ministries of Finance and Interior and the CNPA, as
                                              appropriate, to (1) identify direct-assistance funding amounts and develop
                                              and use detailed accounting codes for allocating and tracking CNPA pro-
                                              vincial units’ O&M funding in AFMIS; (2) clarify and reconcile the ways and
                                              means in which CNPA provincial units receive O&M funding to carry out
                                              their mission; (3) provide guidance to ANP provincial chiefs regarding the
                                              priority and amounts of support to be provided those units, including funds
                                              needed to maintain facilities and for transporting prisoners; (4) develop
                                              appropriate metrics to allow the CNPA Tactical Operations Center to
                                              more fully assess the CNPA provincial units’ operational capabilities and
                                              readiness on a unit-by-unit basis; (5) establish a formalized, regularly sched-
                                              uled assessment and reporting requirement; and (6) share reports of the
                                              assessments of CNPA provincial-unit readiness with U.S. government stake-
                                              holders in non-aggregated form so that they can better determine the effect
                                              and value of their investments.

                                              New Performance Audits Announced This Quarter
NEW PERFORMANCE AUDITS                        This quarter SIGAR initiated two new performance audits. They will assess
•	 U.S. Efforts to Develop Afghanistan’s      U.S. efforts to develop Afghanistan’s civil-aviation capabilities and DOD’s
   Civil Aviation Capabilities                oversight of infrastructure projects transferred to the Afghan government.
•	 DOD Oversight of Infrastructure Projects
   Transferred to the Afghan Government




                                                26                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
             SIGAR OVERSIGHT ACTIVITIES




U.S. Efforts to Develop Afghanistan’s Civil Aviation Capabilities
Since 2002, U.S. government agencies and departments, including DOD, the
Department of Transportation (DOT), the Federal Aviation Administration
(FAA), and USAID have assisted Afghan civil aviation in reconstructing
aviation infrastructure, mentoring development of aviation laws and opera-
tional protocols, providing support to develop sustainable safety-oversight
capability, training air traffic controllers and radar technicians, and develop-
ing regulatory policy.
   This audit will review U.S. government’s efforts to strengthen
Afghanistan’s capabilities to operate and maintain a safe and effective civil
aviation program. Specifically, SIGAR plans to: (1) determine the extent to
which the U.S. government’s efforts to strengthen Afghanistan’s capacity
to operate and maintain its civil aviation program met their stated goals;
(2) identify the challenges, if any, to creating and maintaining a profes-
sional, functional, and effective civil-aviation program in Afghanistan and
steps taken to mitigate those challenges; and (3) assess the Afghan govern-
ment’s capacity to independently fund and operate its aviation program
after December 2014.

DOD Oversight of Infrastructure Projects Transferred
to the Afghan Government.
Since FY 2002, Congress has provided DOD approximately $66 billion
through various funds to help rebuild Afghanistan. A significant portion
of these funds has been used to pay for infrastructure projects including
military bases, hospitals, and roads, among other things. When projects
are completed, their ownership is transferred to the Afghan government.
DOD policies for post-transfer oversight of such assets vary depending on
the agency in charge and the specific asset transferred. In many instances,
depending on the size and scope of the project, DOD is required to obtain
acknowledgment from the Afghan government that it is able to maintain or
sustain the U.S.-funded projects after the transfer.
   SIGAR and other oversight agencies have reported on transferred assets
that have fallen into disrepair due to improper use, lack of sustainment, or
both. These situations call into question the efficacy of implementing addi-
tional infrastructure projects when the United States has minimal oversight
of the Afghan government’s management of assets already transferred.
   This audit will review DOD’s efforts to maintain oversight of infrastruc-
ture projects transferred to the Afghan government. SIGAR plans to assess
(1) the extent to which the Afghan government uses and sustains assets
transferred from DOD and (2) the challenges, if any, that DOD faces in over-
seeing the use and sustainment of infrastructure that has been transferred
to the Afghan government.




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2014               27
                                                               SIGAR OVERSIGHT ACTIVITIES




                                                               Financial Audits
TABLE 2.1                                                      SIGAR launched its financial-audit program in 2012, after Congress and the
                                                               oversight community expressed concerns about oversight gaps and the
  SIGAR’S FINANCIAL AUDIT                                      growing backlog of incurred-cost audits for contracts and grants awarded
  COVERAGE ($ BILLIONS)
                                                               in support of overseas contingency operations. SIGAR competitively
 31 Completed Audits                         $2.9
                                                               selects independent accounting firms to conduct the financial audits and
 35 Ongoing Audits                             2.9
                                                               ensures that the audit work is performed in accordance with U.S. govern-
 Total                                      $5.8
                                                               ment auditing standards. Financial audits are coordinated with the federal
Note: Numbers have been rounded. Coverage includes audit-
able costs incurred by recipients of U.S.-funded Afghanistan
                                                               inspector-general community to maximize financial-audit coverage and
reconstruction contracts, grants, and cooperative agreements   avoid duplication of effort.
Source: SIGAR Audits and Inspections Directorate.                  This quarter, SIGAR completed six financial audits of U.S.-funded
                                                               contracts to rebuild Afghanistan. SIGAR also announced one new finan-
                                                               cial audit of the a U.S.-funded cooperative agreement with the American
                                                               Soybean Association. SIGAR’s financial-audits program has completed a
                                                               total of 31 financial audits with more than $2.9 billion in auditable costs and
                                                               has another 35 financial audits ongoing with nearly $3 billion in auditable
                                                               costs, as shown in Table 2.1. These audits help provide the U.S. government
                                                               and the American taxpayer reasonable assurance that the funds spent on
                                                               these awards were used as intended. The audits question expenditures that
  Questioned amounts: the sum of
  potentially unallowable questioned costs                     cannot be substantiated or are potentially unallowable.
  and unremitted interest on advanced                              SIGAR issues each financial-audit report to the funding agency that
  federal funds.                                               made the award(s). The funding agency is responsible for making the final
                                                               determination on questioned amounts identified in the report’s audit find-
  Questioned costs: costs determined to                        ings. Since the program’s inception, SIGAR’s financial audits have identified
  be potentially unallowable. The two types                    more than $83 million in questioned costs and $197,494 in unremitted inter-
  of questioned costs are ineligible costs                     est on advanced federal funds. When the funding agency determines that a
  (violation of a law, regulation, contract,                   questioned amount is unallowable, the agency issues a bill for collection.
  grant, cooperative agreement, etc., or an                    To date, agencies have issued bills for collection for 17 of the completed
  unnecessary or unreasonable expenditure
                                                               audits to recover more than $8.3 million in questioned amounts. It takes
  of funds) and unsupported costs (those not
                                                               time for funding agencies to carefully consider audit findings. As a result,
  supported by adequate documentation or
                                                               final determinations remain to be made for several of SIGAR’s issued finan-
  proper approvals at the time of an audit).
                                                               cial audits. SIGAR’s financial audits have also identified and communicated
  Bill for collection: a letter or form sent                   135 compliance findings and 151 internal-control findings to the auditees
  to a debtor for the amount due, including                    and funding agencies.
  interest, administrative charges, and late                       SIGAR’s financial audits have four specific objectives:
  penalties, if applicable.                                     •	 Express an opinion on whether the Special Purpose Financial
                                                                   Statement for the award presents fairly, in all material respects,
  Special Purpose Financial Statement:                             revenues received, costs incurred, items directly procured by the U.S.
  a financial statement that includes all                          government, and balance for the period audited in conformity with the
  revenues received, costs incurred, and any                       terms of the award and generally accepted accounting principles or
  remaining balance for a given award during
                                                                   other comprehensive basis of accounting.
  a given period.
                                                                •	 Evaluate and obtain a sufficient understanding of the audited entity’s
                                                                   internal control related to the award; assess control risk; and identify
                                                                   and report on significant deficiencies including material internal control
                                                                   weaknesses.


                                                                 28                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
            SIGAR OVERSIGHT ACTIVITIES




•	 Perform tests to determine whether the audited entity complied, in
    all material respects, with the award requirements and applicable
    laws and regulations; and identify and report on instances of material
                                                                                SIGAR SPECIAL PROJECT
    noncompliance with terms of the award and applicable laws and               SIGAR’s financial audits work led to
    regulations.                                                                Office of Special Projects to send an
•	 Determine and report on whether the audited entity has taken adequate        inquiry letter expressing concerns
    corrective action to address findings and recommendations from              regarding USAID/Afghanistan’s recent
    previous engagements.                                                       decision not to collect from implement-
A list of completed, new, and ongoing financial audits can be found in          ing partners all of the costs questioned
Appendix C of this quarterly report.                                            in SIGAR’s financial audits. These
                                                                                questioned costs represent taxpayer
Financial Audits Published                                                      dollars that, if not used to support the
This quarter, SIGAR completed six financial audits of U.S.-funded contracts,    reconstruction effort of Afghanistan as
grants, and cooperative agreements to rebuild Afghanistan. These finan-         intended, should be returned to the
cial audits identified nearly $5.6 million in questioned costs as a result of   U.S. government. For more information,
internal-control deficiencies and noncompliance issues. These deficiencies      see page 48 of this section.
and noncompliance issues included, among other things, ineligible business
class travel costs, unapproved purchases of nonexpendable equipment and
property, over-reimbursement of indirect costs, unsupported or insufficient
sole source procurement justifications, incorrectly calculated currency
exchange transactions, inadequate monitoring of subrecipients, improper
disposition of nonexpendable equipment, lack of supporting documenta-
tion, poor record retention, and failure to conduct vendor-suspension and       COMPLETED FINANCIAL AUDITS
debarment checks.                                                               •	 Financial Audit 14-91-FA: USAID’s
                                                                                   Local Governance and Community
                                                                                   Development Project in Northern and
Financial Audit 14-91-FA: USAID’s Local Governance and                             Western Regions of Afghanistan: Audit
Community Development Project in Northern and Western                              of Costs Incurred by ARD Inc.
Regions of Afghanistan: Audit of Costs Incurred by ARD Inc.                     •	 Financial Audit 14-93-FA: USAID’s
                                                                                   Partnership for Advancing Community
USAID entered into a contract task order with ARD Inc. (ARD) to support            Based Education in Afghanistan: Audit
the Local Governance and Community Development (LGCD) Project in                   of Costs Incurred by CARE International
the Northern and Western Regions of Afghanistan. The objective of ARD’s         •	 Financial Audit 14-94-FA: USAID’s
                                                                                   Afghanistan Social Outreach Program:
LGCD task order was to help the Afghan government extend its reach into            Audit of Costs Incurred by AECOM
unstable areas and engage at-risk populations by building the capacity of          International Development Inc.
provincial and local government officials to deliver services and address       •	 Financial Audit 14-95-FA: Department
                                                                                   of State’s Demining Activities in
citizen needs, create an environment which encourages local communi-               Afghanistan: Audit of Incurred Costs by
ties to take an active role in their own development, and promote stability        Mine Clearance Planning Agency
                                                                                •	 Financial Audit Financial Audit 14-100-
by addressing the underlying causes of violence and support for insur-             FA: USAID’s Afghanistan Municipal
gency. SIGAR’s financial audit, performed by Crowe Horwath LLP (Crowe              Strengthening Program: Audit of Costs
Horwath), covered the period October 9, 2006, through October 8, 2009, and         Incurred by International City/County
                                                                                   Management Association
expenditures of $55,981,242 for LGCD.                                           •	 Financial Audit 15-7-FA: USAID’s
   Crowe Horwath identified three material weaknesses and five signifi-            Afghanistan Vouchers for Increased
cant deficiencies with ARD’s internal control. It also found six instances         Production in Agriculture Program: Audit
                                                                                   of Costs Incurred by International Relief
of ARD’s noncompliance with the terms of the award and applicable laws             & Development Inc.
and regulations. For example, Crowe Horwath found instances in which




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2014            29
                                             SIGAR OVERSIGHT ACTIVITIES




                                             ARD failed to follow procurement guidelines for justifying sole-source pro-
                                             curements and determining reasonableness of costs for the LGCD Project.
                                             Specifically, ARD’s sole-source procurement justifications were insufficient
                                             or inadequately supported, and labor costs in its subcontracts exceeded
                                             market rates. In addition, ARD could not provide documentation showing
                                             that USAID approved the purchase of nonexpendable equipment and prop-
                                             erty which may have been available from other federally funded projects.
                                             Lastly, Crowe Horwath found that ARD used incorrect rates when calcu-
                                             lating indirect costs incurred on the project. Thus, USAID subsequently
                                             over-reimbursed the company for its work. As a result of these findings,
Supported by a grant from USAID’s            Crowe Horwath questioned $463,957 in costs, which included $337,677 in
LGCD project, the National Youth Council
of Khowst held a bicycle-maintenance
                                             unsupported costs (costs not supported by sufficient documentation to
vocational-skills course for 60 unemployed   allow Crowe Horwath to determine their accuracy and allowability), and
young men in Khowst City. (USAID photo)      $126,280 in ineligible costs (costs prohibited by the contract, applicable
                                             laws, or regulations).
                                                In addition, Crowe Horwath found that the U.S. government lost a calcu-
                                             lated $102 in interest income in advances provided to ARD. Crowe Horwath
                                             requested prior audit reports or other assessments related to the LGCD
                                             project from ARD and USAID, but no pertinent reports were identified.
                                                In Crowe Horwath’s opinion, ARD’s Special Purpose Financial Statement
                                             presented fairly in all material respects, revenues received, costs incurred,
                                             and the balance for the indicated periods in accordance with requirements
                                             established by SIGAR.
                                                Based on the results of the audit, SIGAR recommends that the Mission
                                             Director of USAID/Afghanistan:
                                                 1.	 Determine the allowability of and recover, as appropriate, $463,957
                                                     in questioned costs identified in the report.
                                                 2.	 Recover $102 in lost interest revenue from advances provided.
                                                 3.	 Advise ARD to address the report’s eight internal-control findings.
                                                 4.	 Advise ARD to address the report’s six noncompliance findings.

                                             Financial Audit 14-93-FA: USAID’s Partnership for Advancing
                                             Community Based Education in Afghanistan: Audit of Costs
                                             Incurred by CARE International
                                             USAID entered into a cooperative agreement with CARE International
                                             (CARE) to implement the Partnership for Advancing Community Based
                                             Education in Afghanistan. The program was intended to expand commu-
                                             nity-based education by enhancing supporting structures and processes,
                                             improving quality, and developing cooperation between community-based
                                             education and Afghanistan Ministry of Education schools. SIGAR’s financial
                                             audit, performed by Crowe Horwath, reviewed $30,973,141 in expenses
                                             incurred between April 10, 2006, and August 31, 2011.
                                                Crowe Horwath did not identify any internal-control deficiencies or
                                             instances of noncompliance with applicable laws, rules, regulations, and




                                               30                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
              SIGAR OVERSIGHT ACTIVITIES




the terms and conditions of the cooperative agreement in its audit of
costs incurred by CARE under the Partnership for Advancing Community
Based Education in Afghanistan program. Crowe Horwath did not iden-
tify any ineligible costs (costs prohibited by the contract, applicable
laws, or regulations) or unsupported costs (costs not supported by
sufficient documentation to allow Crowe Horwath to determine their
accuracy and allowability).
   Crowe Horwath did not report any findings related to the Partnership
for Advancing Community Based Education in Afghanistan program.
Therefore, SIGAR has no recommendations related to this audit.

Financial Audit 14-94-FA: USAID’s Afghanistan Social
Outreach Program: Audit of Costs Incurred by AECOM
International Development Inc.
On July 5, 2009, USAID signed a contract with AECOM International
Development Inc. (AECOM) to establish community councils (shuras) at
the district level and to promote communication and collaboration between
the Afghan government and communities. This support to the Afghanistan
Social Outreach Program (ASOP) was intended to expand the role of the
traditional shuras, overcome corruption, and increase participation in the
political process by women, youth, and other marginalized groups. SIGAR’s
financial audit, performed by Kearney & Company (Kearney), reviewed
$34,458,220 in expenditures charged to the ASOP contract from July 5, 2009,
through January 31, 2012.
   Kearney identified one material internal-control weakness, two signifi-
cant deficiencies in internal controls, and two instances of noncompliance




USAID’s ASOP program established district community councils, like this meeting
in Logar Province, to promote communication and collaboration between the Afghan
government and communities. (USAID photo)




REPORT TO THE UNITED STATES CONGRESS     I   OCTOBER 30, 2014                  31
SIGAR OVERSIGHT ACTIVITIES




with contract terms. Specifically, Kearney found that AECOM’s internal pro-
cesses did not prevent documentation loss or provide for backup records
of transactions for the Afghanistan Social Outreach Program. These trans-
actions involved payroll, other direct costs, program costs, subcontracts,
travel, and per diem costs. AECOM could not provide sufficient documen-
tation of management reviews and approvals related to subcontracts and
other direct costs. It was also not able to provide sufficient documentation
of approval for purchase of nonexpendable property by USAID, or provide
or retain sufficient documentation related to the disposition of the nonex-
pendable property. As a result, Kearney identified $455,084 in unsupported
costs (costs not supported by sufficient documentation to allow auditors to
determine their accuracy and allowability). Kearney did not find any ineligi-
ble costs (costs prohibited by the contract, applicable laws, or regulations).
   In addition, Kearney also identified six findings from a prior audit report
that could have a material effect on AECOM’s Special Purpose Financial
Statement. Because AECOM did not provide any evidence that corrective
actions had been taken, Kearney concluded that AECOM has not taken ade-
quate corrective action to address these prior audit findings. Kearney issued
a disclaimer of opinion on AECOM’s Special Purpose Financial Statement,
meaning that Kearney was prevented from expressing an opinion on the
Statement’s fair presentation and whether it was free from material mis-
statement. Specifically, although AECOM signed a representation letter, the
letter did not address required representations on which Kearney would
rely in rendering an opinion. For example, AECOM did not confirm its
responsibility for the system of internal controls related to the preparation
and fair presentation of the Statement.
   Based on the results of the audit, SIGAR recommends that the Mission
Director for USAID/Afghanistan:
    1.	 Determine the allowability of and recover, as appropriate, $455,084
        in questioned costs identified in the report.
    2.	 Advise AECOM to address the report’s three internal-control
        findings.
    3.	 Advise AECOM to address the report’s two noncompliance findings.

Financial Audit 14-95-FA: Department of State’s Demining
Activities in Afghanistan: Audit of Incurred Costs by Mine
Clearance Planning Agency
From April 1, 2008, to March 31, 2013, State’s Bureau of Political-Military
Affairs’ Office of Weapons Removal and Abatement (PMWRA) issued five
grants to the Mine Clearance Planning Agency (MCPA)—an Afghanistan-
based international humanitarian demining organization—for demining
activities in Afghanistan. Totaling over $13 million, these grants were to
provide support for the removal of land mines and unexploded ordnance
in Afghanistan. SIGAR’s financial audit, performed by RMA Associates LLC




  32                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
             SIGAR OVERSIGHT ACTIVITIES




(RMA), reviewed $13.4 million in expenditures charged to the five grants
from April 1, 2008, through March 31, 2013.
    RMA identified four internal-control deficiencies and one instance of
noncompliance in its audit of costs incurred by MCPA. For example, MCPA
lacked documentation to support its comparative price analysis and pur-
chase requisitions, lacked purchase-requisition documents, and did not
provide business-supplier identification. Specifically, for costs incurred
under three grants, MCPA did not complete its internal-control process
for price analysis in compliance with the Federal Acquisition Regulation
for five equipment procurements. Completing that process would have
ensured that the U.S. government received the best value for its money.
In eight instances, MCPA lacked requisite documentation to validate that
its management signed and/or properly coded expense statements. Also,
MCPA could not provide purchase-requisition forms for four procure-
ment transactions. Finally, MCPA did not collect from suppliers required
business-registration information or a national identification for four
procurements. These are generally accepted forms of identification that
provide some assurance that a vendor is credible and will use U.S. govern-       A deminer from the MCPA at work
ment funds appropriately.                                                        clearing a minefield in Parwan Province.
    As a result, RMA identified $688,206 in unsupported costs (costs not         (UNAMA photo)
supported by sufficient documentation to allow auditors to determine their
accuracy and allowability). RMA did not find any ineligible costs (costs
prohibited by the grant, applicable laws, or regulations). A reconciliation
of funds showed an outstanding balance of $50,337, which MCPA reported
to the State on December 31, 2012. In May 2014—more than a year after
the end of five grants—MCPA requested that State approve its use of the
remaining funds. However, SIGAR is questioning the amount because the
request, its possible approval, and any use of the funds fell well outside the
scope of the audit and the period of performance of any of the grants.
    Based on the results of the audit, SIGAR recommends that State’s
Grants Officer:
    1.	 Determine the allowability of and recover, as appropriate, $688,206
        in unsupported costs identified in the report.
    2.	 Collect from MCPA the $50,337 due to the Department of State.
    3.	 Advise MCPA to address the report’s four internal-control findings.
    4.	 Advise MCPA to address the report’s one noncompliance finding.

Financial Audit 14-100-FA: USAID’s Afghanistan Municipal
Strengthening Program: Audit of Costs Incurred by
International City/County Management Association
On May 1, 2007, USAID awarded the International City/County Management
Association (ICMA) a cooperative agreement to implement the Afghanistan
Municipal Strengthening Program. Under the program, ICMA sought to
improve the delivery of public services in provincial capitals through such




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2014              33
SIGAR OVERSIGHT ACTIVITIES




activities as public works and utility projects, city-to-city partnerships, and
human capital development. SIGAR’s financial audit, performed by Williams
Adley & Company-DC LLP (Williams Adley), reviewed expenditures of
$25,124,306 from May 1, 2007, through August 31, 2010.
   Williams Adley identified five internal-control deficiencies and five
instances of noncompliance in auditing costs incurred by ICMA in
implementing USAID’s Afghanistan Municipal Strengthening Program.
Specifically, Williams Adley found that ICMA’s internal-control processes
did not ensure the retention of sufficient supporting documentation for
transactions related to the Other Direct Costs, Travel and Transportation,
and Activities cost categories. This included USAID’s approval of a security
contract for more than $1.4 million. Williams Adley also noted that ICMA’s
misunderstanding of applicable travel rules prompted it to improperly
charge USAID more than $40,000 in business-class travel costs for seven
travelers. Further, Williams Adley found that ICMA failed to enforce its own
policies relative to competitive procurements related to municipal waste-
management equipment and a construction project in Asadabad, the capital
of Kunar province.
   As a result of these deficiencies and instances of noncompliance, Williams
Adley identified $2,056,308 in total questioned costs, comprising $1,951,122
in unsupported costs—costs for which inadequate supporting documenta-
tion was provided—and $105,186 in ineligible costs—costs prohibited by
the agreement, applicable laws, or regulations. Williams Adley identified five
prior recommendations that could have had a material impact on ICMA’s
Special Purpose Financial Statement. It found that ICMA took corrective
action on all five recommendations. Williams Adley rendered a qualified
opinion on ICMA’s Special Purpose Financial Statement because of the mate-
rial effects associated with more than $2 million in questioned costs.
   Based on the results of the audit, SIGAR recommends that the Mission
Director for USAID/Afghanistan:
    1.	 Determine the allowability of and recover, as appropriate, $2,056,308
        in questioned costs identified in the report.
    2.	 Advise ICMA to address the report’s five internal control findings.
    3.	 Advise ICMA to address the report’s five noncompliance findings.

Financial Audit 15-7-FA: USAID’s Afghanistan Vouchers for
Increased Production in Agriculture Program: Audit of Costs
Incurred by International Relief & Development Inc.
On September 1, 2008, USAID awarded a cooperative agreement
to International Relief & Development Inc. (IRD) to implement the
Afghanistan Vouchers for Increased Production in Agriculture Program.
This program was intended to increase basic food crop production in
Afghanistan and enable the country to meet its food requirements by pro-
viding accessible and affordable agriculture goods to farmers, thereby




  34                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
              SIGAR OVERSIGHT ACTIVITIES




USAID programs intended to increase basic food-crop production in Afghanistan include
activities like wheat seed distribution. (USAID photo)

contributing to community and economic development through cash-for-
work programs. SIGAR’s financial audit, performed by Crowe Horwath,
reviewed $503 million in expenses charged to the award from September 1,
2008, through April 22, 2013.
   Crowe Horwath identified 14 material weaknesses and significant defi-
ciencies in internal controls and 12 instances of material noncompliance
with the cooperative agreement terms. Crowe Horwath found that IRD was
not able to provide sufficient documentation to support transactions and
financial records for the Afghanistan Vouchers for Increased Production
in Agriculture Program. For example, IRD could not provide adequate
supporting documentation for three armored vehicles from which a
determination regarding its compliance with USAID’s nonexpendable prop-
erty disposition requirements could be made. In addition, IRD’s indirect
costs charged to the award exceeded the approved amount by $929,103.
Furthermore, IRD incorrectly calculated and recorded currency-exchange
transactions which resulted in an unreasonable cost passed on to the U.S.
government. Lastly, IRD did not invest $11,657 in program income earned
back into the program.
   As result of these deficiencies and instances of noncompliance,
Crowe Horwath identified $1,893,484 in total questioned costs, con-
sisting of $294,513 in unsupported costs—costs not supported with
adequate documentation or that did not have required prior approval—
and $1,598,971 in ineligible costs—costs prohibited by the agreement,
applicable laws, or regulations.
   Crowe Horwath also determined that IRD held excessive advanced cash
balances that resulted in $5,754 in interest lost by the U.S. government.




REPORT TO THE UNITED STATES CONGRESS     I   OCTOBER 30, 2014                  35
                                         SIGAR OVERSIGHT ACTIVITIES




                                         Crowe Horwath reviewed prior audits of IRD, but determined that the find-
                                         ings were not pertinent to this audit. Crowe Horwath issued a disclaimer
                                         of opinion on the Special Purpose Financial Statement. Specifically, Crowe
                                         Horwath was unable to verify the data present in the Statement and there-
                                         fore was prevented from issuing an opinion because (1) IRD was not able
                                         to produce sufficient audit evidence to determine if revenues earned under
                                         the award, as reported on the Statement, were materially accurate and fully
                                         verifiable, and (2) certain subcontract and subgrantee transactions were
                                         recorded inconsistently in the financial records.
                                            Based on the results of the audit, SIGAR recommends that the Mission
                                         Director for USAID/Afghanistan:
                                             1.	 Determine the allowability of and recover, as appropriate, $1,893,484
                                                 in questioned costs identified in the report.
                                             2.	 Collect from IRD the $5,754 in interest payable to USAID.
                                             3.	 Advise IRD to address the report’s 14 internal-control findings.
                                             4.	 Advise IRD to address the report’s 12 noncompliance findings.


                                         INSPECTIONS
                                         Inspection Reports Published
                                         This quarter SIGAR published one inspection report. It identified defective
COMPLETED INSPECTIONS                    workmanship and work not completed according to contract requirements
•	 Inspection 15-11-IP: Pol-i-Charkhi
   Prison: Renovation Project Remains    at the Pol-i-Charkhi prison. It also discovered that the prison is being used,
   Far from Complete after 5 Years and   but is overcrowded.
   $18.5 Million

                                         Inspection 15-11-IP: Pol-i-Charkhi Prison
                                         Renovation Project Remains Far from Complete after 5 Years and $18.5 million
                                         Pol-i-Charkhi prison, Afghanistan’s largest correctional facility, was built in
                                         1973 to house approximately 5,000 prisoners. In June 2009, the Department
                                         of State’s Bureau of International Narcotics and Law Enforcement Affairs
                                         (INL) awarded a contract with a modified value of $20.2 million to Al-Watan
                                         Construction Company (AWCC) to replace prison-block holding areas with
                                         individual cells and renovate the prison’s infrastructure, including its plumb-
                                         ing, electrical, and septic systems. On November 26, 2010, State terminated
                                         the contract for convenience. State also funded three capital-improvement
                                         projects—a potable-water tower, a commercial power upgrade, and a new
                                         staff barracks—at a cost of $5.3 million. All three projects were transferred
                                         to Afghan prison authorities. SIGAR assessed whether (1) the work was
                                         completed in accordance with contract requirements and applicable con-
                                         struction standards, and (2) the prison facility was being used as intended
                                         and maintained.
                                            More than five years after renovation work began, Pol-i-Charkhi
                                         prison has not been completed, and the contract has been terminated for




                                           36                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
              SIGAR OVERSIGHT ACTIVITIES




An aerial view shows the Pol-i-Charkhi prison complex. (INL photo)

convenience. INL paid AWCC $18.5 million of the $20.2 million contract
value, although AWCC only completed about 50% of the required work.
Furthermore, an independent firm identified defective workmanship includ-
ing failure to backfill trenches, improper roof flashing, and soil-settlement
issues. SIGAR found that not all of AWCC’s work was completed according
to contract requirements. Most notably, AWCC substituted wood for metal
roof trusses without authorization and covered some 30-year old wood
trusses with new roofing material rather than replacing them as required.
AWCC’s renovation work was overseen by a contracting officer’s repre-
sentative—a State Department employee—who was later convicted in the
United States of taking a bribe on a different contract.
   State plans to award an estimated $11 million contract to complete the
renovation work and another $5 million contract to construct a wastewater-
treatment plant. Wastewater is pooling on the surface of the two septic/
leach fields that AWCC installed under the renovation contract despite
tests conducted prior to installation showing that such pooling could occur
because of poor soil porosity. INL officials plan to award the two new
contracts by November 2014, but INL has focused on an above-ground
treatment plant rather than potentially less expensive and more easily main-
tained alternatives. Both projects will require close monitoring to avoid
repeating the situation that occurred under the original renovation work.
One item that should not be delayed is the six back-up diesel generators
that were installed but never connected to the prison’s power grid.
   In contrast to the issues identified under the renovation contract,
SIGAR found that the three capital-improvement projects—water




REPORT TO THE UNITED STATES CONGRESS      I   OCTOBER 30, 2014         37
                                            SIGAR OVERSIGHT ACTIVITIES




                                            tower, commercial-power upgrade, and staff barracks—generally were
                                            completed in accordance with contract requirements. Furthermore,
                                            Pol-i-Charkhi prison is being used, but is overcrowded, with prisoners
                                            housed in hallways. The prison was designed for about 5,000 prisoners,
                                            but currently houses about 7,400. The security advantage of reconfigur-
                                            ing prisoner holding areas into smaller cells—the primary basis for the
                                            renovation work—that could contain and separate maximum-security and
                                            other prisoners has been lost. Despite overcrowding, SIGAR found the
                                            prison to be relatively well maintained.
                                               SIGAR recommends that the Secretary of State direct INL to (1) deter-
                                            mine the extent to which AWCC substituted wood for metal trusses or
                                            covered, rather than replaced, existing wooden trusses without autho-
                                            rization, and take appropriate action to recoup any funds due from the
                                            contractor; (2) conduct an inquiry into whether the contracting officer
                                            negotiated an equitable settlement agreement with AWCC, document all
                                            accelerated construction schedule payments, and take steps to recoup funds
                                            as appropriate; (3) conduct a cost-benefit analysis of alternative wastewater
                                            management systems, and, if warranted, reissue a request for information
                                            soliciting proposed solutions to managing the prison’s wastewater man-
                                            agement needs; (4) ensure that before the follow-on renovation work and
                                            construction of the wastewater treatment plant or alternative system begins,
                                            that it has a written monitoring plan in place to oversee the work performed
                                            pursuant to the two contracts; and (5) identify the scope of work and
                                            conduct a cost-benefit analysis of awarding a separate contract—on an expe-
                                            dited basis—to hook up the prison’s six back-up power diesel generators.

                                            New Inspections Announced This Quarter
                                            This quarter, SIGAR has initiated three new inspections. Each inspection
                                            will assess whether (1) construction has been or is being completed in
NEW INSPECTIONS                             accordance with contract requirements and applicable construction stan-
•	 Warehouse facilities in the South Park
   region of Kandahar Airfield              dards, and (2) the parts of the facility, if any, that are occupied are being
•	 Special Operations Task Force-South      used as intended and properly maintained. These inspections will assess:
   Command and Control Facility at Camp     •	 Warehouse facilities in the South Park region of Kandahar Airfield
   Brown, Kandahar Airfield
                                            •	 Special Operations Task Force-South Command and Control Facility at
•	 Counter-Narcotics Justice Center
                                               Camp Brown, Kandahar Airfield
                                            •	 Counter-Narcotics Justice Center

                                            Status of SIGAR Recommendations
                                            The Inspector General Act of 1978, as amended, requires SIGAR to report on
                                            the status of its recommendations. This quarter, SIGAR closed 29 recommen-
                                            dations contained in 11 audit reports. Four of the recommendations resulted
                                            in the recovery of $1,978,151 in ineligible or unsupported contract costs paid
                                            by the U.S. government. (Financial Audits 13-09-FA, 14-18-FA, and 14-23-
                                            FA). From 2009 through September 2014, SIGAR published 150 audits, alert




                                              38                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
            SIGAR OVERSIGHT ACTIVITIES




letters, and inspection reports and made 453 recommendations to recover
funds, improve agency oversight, and increase program effectiveness.            COMPLETED SPECIAL PROJECTS
   SIGAR has closed over 81% of these recommendations. Closing a recom-         •	 Special Project 14-86-SP: Inquiry
mendation generally indicates SIGAR’s assessment that the audited agency           Letter: Fuel Storage Tanks
has either implemented the recommendation or otherwise appropriately            •	 Special Project 14-87-SP: Inquiry
                                                                                   Letter: Kandahar Bridging Solution
addressed the issue. In some cases, a closed recommendation will be the         •	 Special Project 14-88-SP: Inquiry
subject of follow-up audit work.                                                   Letter: DOD Anti/Counter Corruption
                                                                                   Efforts
   The Inspector General Act of 1978, as amended, also requires SIGAR to
                                                                                •	 Special Project 14-89-SP: Inquiry
report on any significant recommendations from prior reports on which cor-         Letter: Korak Uzbeki School Collapse in
rective action has not been completed. In this quarter, SIGAR continued to         Sar-i-Pul
monitor agency actions on recommendations in 29 audit and five inspection       •	 Special Project 14-90-SP: Inquiry
                                                                                   Letter: Communications Towers
reports. In this quarter there were no recommendations over 12 months old          Response
where the agency had yet to produce a corrective action plan that SIGAR         •	 Special Project 14-92-SP: Inquiry
believes would resolve the identified problem. However, there are six audit        Letter: IRD Whistleblower Protections
                                                                                   Response
reports over 12 months old where SIGAR is waiting for the respective agen-
                                                                                •	 Special Project 14-96-SP: Inquiry
cies to complete their agreed-upon corrective actions.                             Letter: Recruitment of Third-Country
   SIGAR recently initiated audits of the agency resolution process at the         Nationals for Afghan Work
Departments of Defense and State, and USAID. The audits examine the             •	 Special Project 14-97-SP: Inquiry
                                                                                   Letter: Recruitment of Third-Country
status and oversight process for reaching audit resolution at these agencies.      Nationals for Afghan Work
SIGAR issued the final report for the Department of State last quarter and      •	 Special Project 14-98-SP: Inquiry
identified a nearly 75% implementation rate. This quarter, SIGAR issued the        Letter: UNDP LOTFA Oversight Response
final report for USAID and identified a more than 80% implementation rate.      •	 Special Project 14-99-SP: Inquiry
                                                                                   Letter: CSTC-A Role of UNDP Oversight
Report issuance for the work performed at the Department of Defense is             and Financial Management of LOTFA
expected later this year.                                                       •	 Special Project 14-101-SP: Inquiry
                                                                                   Letter: Afghan Budget Bailout
                                                                                •	 Special Project SP-78: ANSF
                                                                                   Requirement Validation
SPECIAL PROJECTS                                                                •	 Special Project 15-02-SP: Inquiry
The Inspector General’s Office of Special Projects was created to examine          Letter: Scrapping of 16 G222 Aircraft at
                                                                                   Kabul International Airport
emerging issues and deliver prompt, actionable reports to federal agencies
                                                                                •	 Special Project 15-03-SP: Inquiry
and the Congress. The team conducts a variety of assessments, producing            Letter: ANA Slaughterhouse in Pol-i-
reports on all facets of Afghanistan reconstruction. The directorate is made       Charkhi District
up of auditors, analysts, investigators, lawyers, subject-matter experts, and   •	 Special Project 15-04-SP: Inquiry
                                                                                   Letter: Status of Four G222 Aircraft at
other specialists who can quickly and jointly apply their expertise to emerg-      Ramstein Air Force Base, Germany
ing problems and questions.                                                     •	 Special Project 15-05-SP: Inquiry
   SIGAR’s Office of Special Projects wrote inquiry letters to the U.S. Army       Letter: USAID’s Questioned Costs
Corps of Engineers (USACE), USAID, DOD, IRD, DynCorp, the United                •	 Special Project 15-06-SP: Inquiry
                                                                                   Letter: Contract Terminations Due to
Nations Development Programme (UNDP), CSTC-A, the U.S. Air Force,                  Security Changes
the U.S. Central Command (CENTCOM), and the International Security              •	 Special Project 15-08-SP: Disposition
Assistance Force (ISAF). These letters expressed concerns about a range            of U.S.-Owned Excess Equipment in
                                                                                   Afghanistan
of issues, including the unsafe fuel-storage tanks at Camp Shaheen, the         •	 Special Project 15-09-SP:
soundness of plans for the Kandahar electricity-supply bridging solution, a        Inquiry Letter: State Department
                                                                                   Communication Trucks
dangerous school collapse in Sar-i-Pul, anti- and counter-corruption efforts,
                                                                                •	 Special Project 15-10-SP: Special
an incomplete response to a communications-towers inquiry, a troubling             Report: Poppy Cultivation in Afghanistan
response to a whistleblower-protection inquiry, potentially exploitative        •	 Special Project 15-14-SP: Review:
                                                                                   Direct Assistance: Review of Processes
                                                                                   and Controls Used by CSTC-A, State,
                                                                                   and USAID

REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2014            39
SIGAR OVERSIGHT ACTIVITIES




recruitment of TCNs, weak oversight of LOTFA funds, an unnecessary sec-
ond ANA slaughterhouse in Pol-i-Charkhi District, the scrapping of 16 G222
planes, USAID’s recovery of questioned costs, a contract cancelled due to
rising security costs, incomplete documentation of DOD’s excess-equipment
disposition processes, and potentially wasteful expenditures on unused
communications trucks. The office also reviewed the processes and con-
trols used by CSTC-A, State, and USAID for providing direct assistance to
the Afghan government. The Office of Special Projects also issued a special
report which examined an all-time high in opium-poppy cultivation, despite
the $7 billion U.S. investment in counternarcotics.

Inquiry Letter 14-86-SP: Fuel Storage Tanks
On July 31, 2014, SIGAR wrote to the commanding general of USACE to
warn of an urgent safety concern regarding the fuel farms located at the
power plants that provide electricity to Camp Shaheen. The bulk-fuel stor-
age tanks were not properly constructed to allow removal of water and
particulate matter. If water and contaminants build up in these fuel tanks,
the power plants they support could mechanically fail. Furthermore, the
operations and maintenance contracts for the fuel tanks call for removal of
water and debris only at six-month intervals. Contamination of fuel at Camp
Thunder in Gardez has already caused its power plant to fail.

Inquiry Letter 14-87-SP: Kandahar Bridging Solution
On July 30, 2014, SIGAR wrote to DOD, State, and USAID officials to
address their responses to SIGAR’s June 10 inquiry letter about the
Kandahar Bridging Solution and the U.S. government’s plans to provide
electric power to Kandahar after December 2014. Those responses give
SIGAR little confidence that the important objectives of delivering electric-
ity in Kandahar and demonstrating Afghan government capability to provide
basic services and improve living conditions will be achieved. Furthermore,
SIGAR remains concerned that the United States still has no realistic plan
to help the Afghan government develop a sustainable source of electricity
between the end of the Kandahar Bridging Solution and the point at which a
stable source of power generation is projected to come online.

Inquiry Letter 14-88-SP: DOD Anti/Counter Corruption Efforts
SIGAR wrote to the commander of U.S. Forces-Afghanistan (USFOR-A)
on July 31, 2014, to inquire about plans for maintaining the U.S. military’s
support for programs and task forces to fight corruption in Afghanistan
after U.S. combat operations conclude at the end of 2014. Corruption is
widely considered one of the most serious obstacles to Afghan recon-
struction, and although the United States has not had a comprehensive
anti- or counter-corruption strategy, U.S. military agencies did estab-
lish various task forces to try to understand and counter the pervasive




  40                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
            SIGAR OVERSIGHT ACTIVITIES




corruption. SIGAR is concerned that maintaining these task forces and
other initiatives to stem corruption will grow increasingly complex and
difficult as the U.S. military drawdown accelerates, and as the Afghan gov-
ernment takes on additional responsibilities.
   In a letter dated September 18, 2014, the Combined Joint Interagency
Task Force at ISAF responded that it was undergoing reorganization under
new leadership. The ISAF described the new assigned organizational
responsibilities and how each would seek to resolve the findings of the Joint
and Coalition Operational Analysis anti/counter-corruption report, which
concluded that “lack of unity of effort reduces the effectiveness of CAC
operations” and “lack of political will on the part of GIRoA (Afghanistan gov-
ernment) rendered almost all counter-corruption efforts moot.”

Inquiry Letter 14-89-SP: Korak Uzbeki School Collapse
in Sar-i-Pul
SIGAR sent an inquiry letter to the USAID Mission Director for Afghanistan
on September 9, 2014, to request more information about USAID’s response
to media reports that an Afghan school funded by a program supported by
the agency recently collapsed. The media reports indicated that up to 32
students and one teacher were injured when the school’s roof collapsed. An
Afghan official said the National Solidarity Program (NSP) constructed the
school four years ago. The NSP manages funds donated to the Afghan gov-
ernment through the multilateral Afghanistan Reconstruction Trust Fund, to
which USAID provides on-budget assistance.
   In a letter dated September 22, 2014, the USAID Acting Mission
Director for Afghanistan responded that the agency provided no funding
for the Korak Uzbeki School, which USAID stated had been built with
World Bank funds. “USAID has contacted the World Bank to learn more
about the circumstances surrounding this incident,” according to the
agency’s letter of response.

Inquiry Letter 14-90-SP: Communications Towers Response
On September 9, 2014, SIGAR wrote to Secretary of State John Kerry to
address the State Department’s response to SIGAR’s February 25, 2014, let-
ter regarding six communication towers constructed in Afghanistan. Based
on State’s response, SIGAR is concerned that the $6.5 million project was
never used as intended, and that officials responsible for planning and exe-
cuting the project did not take into account red flags raising concerns about
project viability. The State Department’s response to SIGAR also failed to
include key contractual and other documents related to the communica-
tions-tower project. The State Department responded to SIGAR’s inquiry
letter on October 9 and SIGAR is presently evaluating the detailed response.




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2014             41
SIGAR OVERSIGHT ACTIVITIES




Inquiry Letter 14-92-SP: IRD Whistleblower
Protections Response
On July 30, 2014, SIGAR wrote to International Relief and Development
(IRD) to address the company’s response to SIGAR’s original inquiry letter,
dated May 20, 2014. SIGAR’s review of 81 separation agreements signed by
IRD employees determined that 48 of the agreements contain unaccept-
able gag provisions that attempt to limit the rights of former employees.
Furthermore, the emails sent from IRD to the 48 prior employees failed to
explicitly state that those gag provisions are null and void with regard to the
former employees’ rights as potential whistleblowers.
   Given IRD’s persistent resistance to notifying its former employees of
their rights as potential whistleblowers, SIGAR requested that IRD send
a letter to the 48 former employees it compelled to sign separation agree-
ments with gag provisions and inform them of their rights under the False
Claims Act and 41 U.S.C. § 4712. SIGAR also requests that IRD include
appropriate language related to 41 U.S.C. § 4712 in all of its future separa-
tion agreements. Such language should include an unambiguous statement
that no provision of the separation agreement will be construed as a
waiver of their rights under 41 U.S.C. § 4712 or any other law protecting
whistleblowers.
   SIGAR’s letter also requested that IRD provide evidence that it has
notified its current employees of their rights under 41 U.S.C. § 4712 and
provided them with a list of all the government offices authorized to receive
protected disclosures of information. Finally, the inquiry letter asks IRD to
send its revised code of business ethics and conduct, as well as the results
of its review of the old code of business ethics and conduct.
   SIGAR has received a written response from IRD detailing the firm’s
actions to address SIGAR’s requests on protection of the disclosure rights of
whistleblowers. SIGAR is analyzing the response.

Inquiry Letters 14-96-SP and 14-97-SP: Recruitment of Third-
Country Nationals for Afghan Work
On September 12, 2014, SIGAR wrote to DynCorp International Inc.
(DynCorp) and to the U.S. Army Sustainment and Contracting Commands,
echoing concerns articulated in two inquiry letters sent last reporting
period about improper recruiting of third-country nationals (TCNs).
   These concerns were raised after SIGAR special agents conducted inter-
views with third-country-national workers who indicated that they usually
must borrow substantial sums of money at high interest rates in their home
countries in order to pay recruitment fees. In some cases, the substantial
sums that the TCN workers borrow to pay these fees will take many months
of work to pay back. The high levels of indebtedness that often result may
make it difficult for these TCNs to leave their jobs.




  42                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
             SIGAR OVERSIGHT ACTIVITIES




   To continue its investigation of improper recruitment practices and mis-
treatment of third-country nationals working at U.S. military bases, SIGAR’s
letters request additional information and records concerning: (1) DynCorp
International’s compliance with the many laws, policies, and contract provi-
sions prohibiting human trafficking; and (2) the U.S. Army Sustainment and
Contracting Commands’ procedures for implementing the government’s
zero-tolerance policy against human trafficking.
   In a letter dated September 30, 2014, the U.S. Army Materiel Command,
of which the Sustainment Command and Contracting Command are a part,
reiterated their commitment to the DOD Trafficking in Persons regulations,
and that appropriate antitrafficking clauses are included in all wartime
contracts, including LOGCAP. The Command indicated it would provide
further information on other specific human trafficking issues addressed by
SIGAR’s letter of inquiry at a near-term date.

Inquiry Letter 14-98-SP: UNDP LOTFA Oversight Response
SIGAR sent a letter on September 12, 2014, to the UNDP administrator to
address UNDP’s June 6 response to SIGAR’s original May 13, 2014, inquiry
about UNDP’s administration of LOTFA. SIGAR notes that the UNDP’s
response regarding its oversight responsibilities contradicts the language
contained in the LOTFA financing agreement and fails to acknowledge the
problems that continue to plague the program. These issues include the
potential payment of artificially inflated ANP salaries, possible fraud related
to MOI salary deductions, unsupported charges against LOTFA, miscoded
and ineligible expenses, diverted funds, and direct cash disbursements to
MOI and ANP personnel.
   Even more troubling is UNDP’s apparent assertion that the organization
is not responsible for ensuring that LOTFA funds are only used for legiti-
mate purposes, and that UNDP cannot seek a comprehensive accounting of
how the funds are being spent. Given the roughly $3.17 billion contributed
to LOTFA to date, it is extremely important that SIGAR’s concerns are taken
seriously, and that these issues are addressed, especially as negotiations
for the next phase of LOTFA funding begin. New negotiations offer the
opportunity to write a new financing agreement that includes provisions
guaranteeing full oversight access and accountability.
   In two separate letters of response, dated September 29, 2014, and
October 7, 2014, UNDP offered a more robust and fulsome outline of its
management of LOTFA, including a 16-page attachment to the second letter.
That attachment addressed SIGAR’s specific questions about LOTFA fund-
ing. It highlighted efforts to curtail suspect deductions from police salaries,
and indicated that UNDP plans to engage a private entity to conduct a scop-
ing study of the payroll process to provide recommendations on possible
technical improvements. UNDP officials also met with SIGAR to reaffirm




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2014              43
SIGAR OVERSIGHT ACTIVITIES




their intention to adopt any necessary corrective action or reforms concern-
ing LOTFA and donor funds.

Inquiry Letter 14-99-SP: CSTC-A Role of UNDP Oversight
and Financial Management of LOTFA
On September 17, 2014, SIGAR wrote to CSTC-A to express continued con-
cerns about LOTFA’s program to fund the ANP. As it has articulated in prior
inquiry letters, SIGAR believes UNDP officials are not proactively address-
ing many of the problems plaguing the program, claiming they do not
have the authority to conduct comprehensive oversight of this multibillion
dollar program. SIGAR’s inquiry letter lauds CSTC-A’s efforts to improve
accountability for LOTFA, and asks for the agency to demand a new financ-
ing agreement with provisions for full oversight access and accountability
for all donor countries and the UNDP as negotiations for the new phase of
LOTFA funding is negotiated.
   In a letter of response dated October 7, 2014, the commanding general of
CSTC-A wrote that the command’s position is that “UNDP has the duty and
authority to oversee the expenditure of LOTFA funds. CSTC-A will continue
to demand that UNDP exercise its oversight role and responsibilities for
administering LOTFA. Furthermore, CSTC-A will insist that UNDP incorpo-
rate appropriate provisions outlining their full oversight and accountability
as part of the development of the next phase of LOTFA funding.”

Inquiry Letter 14-101-SP: Afghan Budget Bailout
SIGAR sent an inquiry letter on September 26, 2014, to the State
Department to ask for information about press reports that the Afghan
Ministry of Finance had requested an immediate infusion of $537 million
to cover its FY 1393 (December 21, 2013–December 20, 2014) budgetary
shortfalls and pay government salaries. While the reported request was
new, the issue of fiscal sustainability is not a new one in Afghanistan. The
financing gap—the disparity between government revenues and expendi-
tures—is estimated to be $7.7 billion on average through 2018, which will
limit Afghanistan’s ability to pay for discretionary services and delay its
progress to self-reliance. These issues raise concerns about not only the
fiscal sustainability of Afghanistan, but also the extent to which the Afghan
government in general and the MOF in particular have managed the billions
of dollars in U.S. and international-donor reconstruction assistance.
    In a letter dated October 10, 2014, the State Department responded “there
is a widespread belief that the current shortfall grew from a combination of
economic inertia associated with a protracted political transition and the
government of Afghanistan’s unrealistic budget.” The letter asserted that,
“Both President Ghani and Chief Executive Officer Abdullah Abdullah have
articulated a commitment to implementing the kinds of reforms required to
avert a similar situation in the future.” State Department officials later added




  44                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
             SIGAR OVERSIGHT ACTIVITIES




that a formal request for additional funds had not yet been made, and that
it was not clear that $537 million would be the precise amount of additional
assistance needed, despite widespread press reports to the contrary.

Special Project SP-78: ANSF Requirement Validation
In a letter sent October 1, 2014, SIGAR informed DOD of its review of the
process by which DOD entities validate and fulfill requirements for equip-
ment for the ANSF. The purpose of the review is to document and evaluate
the requirements validation process used to support decisions to procure
vehicles, weapons systems, communications systems, and other items on
the tashkils for the ANSF. Due to the limited revenue of the Afghan govern-
ment and continuing challenges from antigovernment forces, the ANSF will
rely on the United States and other international donors for funding and
equipment for years to come. Therefore, the ability of DOD entities to iden-
tify and fulfill realistic requirements for the ANSF is a key factor in ensuring
those forces’ future viability and effectiveness.

Inquiry Letter 15-03-SP: ANA Slaughterhouse in
Pol-i-Charkhi District
On October 2, 2014, SIGAR wrote to CENTCOM, ISAF, and USACE request-
ing information to assist with completing the inspection of the ANA
slaughterhouse in the Pol-i-Charkhi District. To date, SIGAR has been pre-
vented from completing its report because inspectors have been unable to
obtain adequate documentation supporting the decision to build this new
slaughterhouse, the second such facility in the Kabul area.
   This new slaughterhouse project was initiated to address insufficient
capacity at the original facility, then abruptly terminated when CSTC-A
stated that the first facility could, in fact, support the ANA’s requirements.
Although the new slaughterhouse was only 10% complete and only $1.4 mil-
lion in costs had been incurred, the contractor has requested an additional
$4.2 million for a “fair and final settlement.”
   While trying to conduct its inspection of the new slaughterhouse project,
SIGAR’s work was complicated by limited documentation, the frequent
rotation of military and civilian personnel, consolidation of commands, and
changing responsibilities. In addition to requesting information to facilitate
the completion of this inspection, SIGAR’s inquiry letter also raises con-
cerns about the $4.2 million settlement requested by the contractor and the
imminent danger of an improperly sealed water well, which could be filled
with contaminants or poisons, impacting the water supply in the surround-
ing community.

Inquiry Letters 15-02-SP and 15-04-SP: Status of G222 Fleet
SIGAR has long been concerned with the $486 million program to procure
a fleet of 20 G222 (or C-27A) aircraft for use in Afghanistan, and wrote two




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2014               45
SIGAR OVERSIGHT ACTIVITIES




inquiry letters this quarter requesting additional information. For a detailed
description of SIGAR’s concerns and actions taken, please see the Quarterly
Highlight on page 47.

Inquiry Letter 15-05-SP: USAID’s Questioned Costs
On October 7, 2014, SIGAR wrote to USAID to express concerns regard-
ing USAID/Afghanistan’s recent decision not to collect from implementing
partners all of the costs questioned in SIGAR’s financial audits. These
questioned costs represent taxpayer dollars that, if not used to support the
reconstruction effort of Afghanistan as intended, should be returned to the
U.S. government. While SIGAR acknowledges USAID’s authority to deter-
mine the allowability and recovery of questioned costs, recent trends in
decisions raise some concerns.
   Specifically, SIGAR found in several instances that the contracting and
agreement officer was providing implementing partners with what seems
to be an inordinate amount of time and preference in justifying costs that
SIGAR had questioned. After accepting millions of dollars to implement
projects and programs on behalf of the U.S. government, implementing
partners should be able to provide documentation to support an audit con-
temporaneously. Allowing implementing partners an inordinate amount of
time to substantiate the costs incurred increases the risks that documenta-
tion may be falsified.

Inquiry Letter 15-06-SP: Contract Terminations
Due to Security Changes
SIGAR wrote to USACE and USAID on October 7, 2014, to request informa-
tion about a USACE contract with Perini Management Services (Perini) for
work pertaining to the Southeast Power System (SEPS) program. SIGAR
was informed by a USAID official that a request by Perini for an additional
$30 million to cover security costs may have prompted the termination of
the contract. The impact of the Coalition troop drawdown on security and
the reconstruction effort in Afghanistan has long been a concern. SIGAR will
continue seeking information regarding how increased security costs may
lead to the termination of contracts supporting reconstruction programs.

Inquiry Letter 15-08-SP: Disposition of U.S.-Owned Excess
Equipment in Afghanistan
SIGAR wrote to DOD on October 14, 2014, to inquire about DOD’s ongoing
effort to dispose of excess equipment at U.S. military bases in Afghanistan.
SIGAR is concerned about recent reports that equipment acquired at a cost
of billions to U.S. taxpayers is now being resold to Afghan merchants for
a fraction of its original cost. Furthermore, a 2012 GAO report indicated
that DOD was unable to fully document how decisions regarding disposal
of U.S. equipment in Afghanistan were made. Military services also could




  46                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                        QUARTERLY HIGHLIGHT



SIGAR’S ONGOING CONCERNS ABOUT $486 MILLION
G222 PROGRAM
On a November 2013 visit to
Afghanistan, Special Inspector
General Sopko became aware
of G222 aircraft abandoned at
Kabul International Airport by the
Department of Defense (DOD).
Afterward, SIGAR’s Office of Special
Projects initiated a review of the                           Abandoned G222s at the Kabul Airport.                            The 16 G222s at Kabul Airport were
                                                             (SIGAR photo)                                                    recently scrapped. (DLA photo)
$486 million G222 program, which
was terminated in March 2013 after                           from January through September                                   $32,000. This is a fraction of the funds
sustained, serious performance, main-                        2012. In March 2013, the G222 pro-                               expended on the program, and in
tenance, and spare parts problems.                           gram was effectively ended when the                              an inquiry letter sent to the U.S. Air
    The program to provide 20 G222s                          announcement was made that the                                   Force this quarter, SIGAR expressed
to the Afghan Air Force began in                             AAF would use an alternative aircraft                            concerns that the officials respon-
2008. The G222s are twin-propeller                           to meet its long-term medium airlift                             sible for planning and executing the
military transport aircraft built in                         requirement. Sixteen of the planes                               scrapping of the planes may not have
Italy. In January 2013, a DOD OIG                            were grounded at the Kabul airport,                              considered other possible alternatives
report indicated that the program                            while another four were transported                              in order to salvage taxpayer dollars.
office did not properly manage                               to Ramstein Airbase in Germany.                                      DLA has yet to make a final
the effort to obtain the spare parts                            SIGAR was recently alerted                                    decision regarding the fate of the
needed to keep the aircraft flight-                          that the Defense Logistics Agency                                remaining four G222s in Germany.
worthy. The DOD OIG also pointed                             (DLA) had scrapped the 16 aircraft                               In another inquiry letter this quar-
out that an additional $200 million                          that had been sitting idle at the                                ter, SIGAR requested that DOD
of ASFF might have to be spent on                            Kabul International Airport. An                                  provide sufficient advance notice
spare parts for the aircraft to be                           Afghan construction company paid                                 of any change in the status of the
operational, and that the G222s only                         approximately six cents per pound                                four remaining G222s to supplement
flew 234 of the 4,500 required hours                         for the scrapped planes for a total of                           SIGAR’s ongoing review of the fleet.

Timeline of Significant Events in the G222 Program

               October – SIGAR’s Office of Special Projects sends inquiry letters to determine status of G222 inventory
2014




               December – SIGAR’s Office of Special Projects initiates review of terminated G222 program
2013




               November – SIGAR observes abandoned G222 fleet at Kabul International Airport
               March – G222 program effectively ended by announcement that AAF would use alternatives to the G222
               January – DOD OIG publishes audit report indicating that the effort to obtain necessary spare parts to keep G222s flightworthy was not managed properly; DOD
2012




               addresses AAF medium airlight capability concerns by ordering the delivery of four C-130s by the end of 2014
               December – Afghan Ministry of Defense requests four C-130 aircraft for the AAF
               August – A U.S. Air Force team deployed to Afghanistan analyzes the failing G222 program and briefs ISAF on future of AAF airlift and potential alternative airframes
2011




               December – NAT-C grounds the AAF G222 aircraft because of problems with maintenance and spare parts
               September – U.S. Air Force signs contract for provision of 20 G222s to the AAF
2008




Source: SIGAR SP-19, SIGAR 15-02-SP, and SIGAR 15-04-SP.



REPORT TO THE UNITED STATES CONGRESS                        I   OCTOBER 30, 2014                                       47
                                             SIGAR OVERSIGHT ACTIVITIES




                                             not provide cost-benefit analyses used to make the decision to destroy
                                             equipment, transfer it to other DOD locations, or transfer it to another U.S.
                                             agency or another country.

                                             Inquiry Letter 15-09-SP: State Department
                                             Communication Trucks
                                             On October 15, 2014, SIGAR wrote to Secretary of State John Kerry regard-
                                             ing a State Department contract to purchase mobile television-production
                                             trucks for donation to various Afghan television networks. SIGAR is con-
                                             cerned that the trucks were delivered two years late, at an escalated price,
                                             and they are sitting under tarps in Kabul, still unused.

                                             Special Report 15-10-SP: Poppy Cultivation in Afghanistan:
                                             After a Decade of Reconstruction and Over $7 Billion in
                                             Counternarcotics Efforts, Poppy Cultivation Levels Are at an
Communications trucks shipped to             All-Time High
Afghanistan in July 2014 still sit covered   SIGAR issued a special report on October 14, 2014, to provide SIGAR’s anal-
in tarps and shrinkwrap as of September
                                             ysis of recent trends in opium-poppy cultivation in Afghanistan. According
2014. (State OIG photo)
                                             to the United Nations Office on Drugs and Crime (UNODC), Afghan farmers
                                             were tending an unprecedented 209,000 hectares of opium poppy in 2013,
                                             surpassing the previous peak of 193,000 hectares in 2007.
                                                Affordable deep-well technology has turned 200,000 hectares of desert
                                             in southwestern Afghanistan into arable land over the past decade. Due
                                             to relatively high opium prices and the rise of an inexpensive, skilled, and
                                             mobile labor force, much of this newly arable land is dedicated to opium
                                             cultivation. Poppy-growing provinces that were once declared “poppy free”
                                             have seen a resurgence in cultivation. Furthermore, the UNODC estimates
                                             that the value of opium and derivative products produced in Afghanistan
                                             was nearly $3 billion in 2013, up from $2 billion in 2012—a 50% increase.
                                                Despite spending over $7 billion to combat opium-poppy cultivation and
                                             to develop the Afghan government’s counternarcotics capacity, opium-poppy
                                             cultivation levels in Afghanistan hit an all-time high in 2013. With deteriorat-
                                             ing security in many parts of rural Afghanistan and low levels of eradication
                                             of poppy fields, further increases in cultivation are likely in 2014.
                                                SIGAR remains concerned about these troubling trends, as the narcotics
                                             trade poisons the Afghan financial sector and undermines the Afghan state’s
                                             legitimacy by stoking corruption, sustaining criminal networks, and provid-
                                             ing significant financial support to the Taliban and other insurgent groups.

                                             Review 15-14-SP: Direct Assistance: Review of Processes
                                             and Controls Used by CSTC-A, State, and USAID
                                             SIGAR reviewed the systems used by DOD, State, and USAID for providing
                                             direct assistance to the Afghan government. For this review, SIGAR identified
                                             the processes and controls used by each agency to ensure the proper use of




                                               48                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
             SIGAR OVERSIGHT ACTIVITIES




direct assistance funds. SIGAR found that DOD, State, and USAID provide
direct assistance through different processes using the Afghan public financial
management and procurement systems. Specifically, DOD’s direct assistance
funds provided to support the ANA and ANP come from the Afghanistan
Security Forces Fund and are disbursed to the Afghan government on quar-
terly or as required basis and overseen by CSTC-A. State, through its Bureau
of International Narcotics and Law Enforcement Affairs, provides direct assis-
tance to the Ministry of Counter Narcotics for the Good Performer’s Initiative
and Governor-Led Eradication program on cost reimbursement bases. USAID
also uses a cost reimbursement method of disbursement to fund its four
direct-assistance programs with the Afghan government.
   SIGAR also found that agencies have instituted varying levels of controls
to help ensure the appropriate use of those funds. Building the Afghan gov-         Criminal Information: a written accusation
ernment’s capacity to deliver better governance, economic development,              made by a public prosecutor, without the
and security for the Afghan people through direct assistance has been a             participation of a grand jury. The function
priority of U.S. government agencies and international donors for years.            of a criminal information is to inform the
However, providing direct assistance to institutionally weak Afghan govern-         defendant of the nature of the charge
ment ministries remains a concern and requires U.S. agencies to institute           made against him, and the act constituting
a comprehensive control regime and conduct robust oversight to protect              such charge so that he can prepare for trial
                                                                                    and to prevent his being tried again for the
those funds from waste, fraud, and abuse.
                                                                                    same offense.


INVESTIGATIONS
SIGAR investigations resulted in 14 arrests, three indictments, four criminal     Source: Black’s Law Dictionary.

informations, two plea agreements, and one sentencing. Additionally, 24
individuals were barred from U.S. military installations and nine employees
                                                                                  FIGURE 2.1
were terminated. SIGAR’s suspension and debarment program referred 44
individuals and 13 companies for suspension or debarment based on evi-            SIGAR INVESTIGATIONS: NUMBER OF OPEN
dence developed from investigations conducted in Afghanistan and the U.S.         INVESTIGATIONS, AS OF SEPTEMBER 30, 2014
This marks the largest number of referrals made to date in any quarter since
SIGAR initiated its suspension and debarment program. Ongoing SIGAR
                                                                                                            Total: 322
investigations saved the U.S. government over $1 million. Criminal fines and
restitution amounted to an additional $25,000. SIGAR’s investigations this
quarter have brought the total U.S. Government savings to over $500 million                                         Public
representing a significant milestone. SIGAR initiated 36 new investigations                                         Corruption
                                                                                                Procurement         79
and closed 33, bringing the total number of ongoing investigations to 322, as
                                                                                                and Contract              Other/
shown in Figure 2.1.                                                                            Fraud                     Miscellaneous
                                                                                                121                       60
Money Laundering Investigation Results in
Conviction and Sentencing                                                                                                    Money
                                                                                                 Theft
On July 16, 2014, in the Western District of Tennessee, Jerry Wayne Dennis                         31                        Laundering
pled guilty to a one-count criminal information for money laundering.                                                        31
Dennis was released on a personal-recognizance bond pending his sentenc-
ing, scheduled for November 20, 2014.                                             Source: SIGAR Investigations Directorate, 10/7/2014.




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2014              49
SIGAR OVERSIGHT ACTIVITIES




   On September 8, 2014, in the Eastern District of Tennessee, James C.
Pittman was sentenced to 12 months’ incarceration, followed by one year
of supervised release for money laundering. Pittman also satisfied a $25,000
forfeiture order.
   The investigation of James Pittman, Jerry Dennis, and Jimmy Dennis
(who pled guilty in May 2014) focused on Afghan contractors bribing the
three U.S. military members in return for government contracts associated
with the Bagram Airfield Humanitarian Aid Yard (HA Yard). The HA Yard
functions as storage for large quantities of clothing, food, school supplies,
and other items available to military units, in support of humanitarian aid
for the Afghan people.

U.S. Military Members Prosecuted Following
Embezzlement Scheme
On June 30, 2014, U.S. Army Sergeant First Class (SFC) Cleo Autry and
U.S. Army SFC Deric Harper were arrested at Fort Bragg Army Base
in Fayetteville, NC. The subjects were transported to the U.S. Federal
Courthouse in the Eastern District of North Carolina and on July 1, 2014,
were subsequently arraigned on one count of theft of government property
and one count of conspiracy to defraud.
   On July 1, 2014, William Todd Chamberlain, retired from U.S. Army,
turned himself in at the U.S. Federal Courthouse in the Eastern District
of North Carolina. He was arraigned on one count of theft of government
property and one count of conspiracy to defraud.
   On July 7, 2014, in the Eastern District of North Carolina, a criminal
information was filed against U.S. Army SFC Jeffrey Arthur Cook for con-
spiracy to defraud.
   On September 8, 2014, U.S. Army SFC Barry Lee Walls appeared before
a federal judge in the Eastern District of North Carolina and pled guilty to a
criminal information filed July 7, 2014, for conspiracy in an illegal scheme to
embezzle funds. His sentencing is scheduled for December 9, 2014.
   Between October 2008 and April 2012, the subjects of the investigation
were deployed with the Special Forces Group under the Combined Joint
Special Operations Task Force (CJSOTF) at Forward Operating Base (FOB)
Jalalabad, Afghanistan. During their deployment, they conspired to embez-
zle funds from the Commanders Emergency Response Fund and from Army
“1208” funds used by Special Forces Groups to support counterterrorism
operations. Over time, they stole cash, purchased a substantial number of
$1,000 money orders, and sent the funds to their spouses, to electronic bank
accounts, or to various vendors.

Former U.S. Military Member Charged for Fuel Theft Scheme
On August 25, 2014, a criminal information was filed against former U.S.
Army Specialist Alexander Swim in the Eastern District of North Carolina.




  50                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
            SIGAR OVERSIGHT ACTIVITIES




Swim was charged with one count of theft and conversion of public prop-
erty, and aiding and abetting.
   From January 2012 until October 2012, Swim was deployed to Afghanistan
under the command of CJSOTF at FOB Sharana. During his deployment,
Swim served as an advanced operating-base mechanic with responsibility for
overseeing the maintenance of vehicles and the distribution of fuel to spe-
cial-operations forces. On multiple occasions during his deployment, Swim
participated in a conspiracy to steal government-appropriated fuel from FOB
Sharana by escorting Afghan national-operated fuel trucks on and off the
installation. Because of these actions, the U.S. government suffered a loss of
over $400,000 in fuel.

Nine Arrested for Theft of Containers
Nine Pakistani nationals were arrested for theft on April 16, 2014, and
nearly $260,000 in U.S. government property was recovered.
    Seven Maersk containers were stolen in transit from Pakistan to Bagram
Air Field (BAF). The truck drivers were arrested just outside BAF and the
containers were temporarily taken into the custody of the Bagram police            Barment Letter: the administrative record
department. It was determined that four of the containers belonged to the          presented to the person(s) prohibited from
U.S. Transportation Command and three belonged to Army and Air Force               accessing any USFOR-A or ISAF facility in
Exchange Service. A subsequent inventory of the containers accounted for           Afghanistan on the basis of activity that
all items and confirmed their combined value to be nearly $260,000.                is criminal in nature or detrimental to
    On August 11, 2014, the ANP, Parwan Province, confirmed the arrest of          good order and discipline. Exclusion from
the seven truck drivers, the company’s administrative assistant, and another       military installations via barment does not
company employee. Based on the investigative effort, U.S. Army Colonel             prevent the award of contracts.
Stephanie Gradford, the garrison commander at BAF, issued barment letters
to four of the drivers, which permanently ban them from all U.S. installa-
tions in Afghanistan.                                                            Source: SIGAR Investigations Directorate.



Afghan Truck Drivers Arrested for Fuel Theft Scheme
Three Afghans involved in an elaborate fuel-theft scheme at BAF were
arrested; the recovered fuel was valued at approximately $76,000. In addi-
tion, four Afghan fuel trucks valued at $81,500 were seized and turned over
to Parwan officials.
   On August 2, 2014, U.S. Army Chief Warrant Officer Brett Nelson, who
serves as the responsible officer at the Defense Logistics Agency (DLA),
reported to SIGAR that two truck drivers had utilized fraudulent documents
in an attempt to steal fuel from the entry-control point at BAF. 	
   Nelson noticed two sets of fraudulent documents utilized by Afghan
drivers to upload and transfer fuel under the National Afghan Trucking
contract. The fraudulent documents were duplicates of legitimate
Transportation Movement Requests (TMRs) to upload trucks with 5,000
gallons of fuel. Prior to Nelson’s discovery, one driver had successfully
uploaded 5,000 gallons of fuel into his truck but had not yet departed.




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2014             51
SIGAR OVERSIGHT ACTIVITIES




Nelson was able to contact the fuel-upload site and cancel the upload on the
second truck. Subsequently, SIGAR and the Defense Criminal Investigative
Service seized both trucks and detained the drivers and a coconspirator.
Parwan and Bagram law-enforcement personnel arrested and transported
the subjects to the local detention center.
   A SIGAR audit of DLA records for the months of May through July 2014
confirmed the theft of approximately 90,000 gallons of fuel, with a value
of $1.3 million, utilizing fraudulent TMRs. To date, 10 Afghan truck drivers
were identified as having participated in the theft; barment letters were
issued for each.

Contract Employee Pleads Guilty
On July 30, 2014, in Tucson, Arizona, Robert Bertolini pled guilty to one
count of conspiracy to commit wire fraud and receive an illegal kickback.
Bertolini also agreed to forfeit $59,975, the sum of money involved in the
crime. His sentencing is scheduled for October 27, 2014.
   In December 2010, the U.S. Army Corps of Engineers awarded a contract
to Lakeshore Engineering Services Inc. (Lakeshore) to design and construct
FOB Rocco for the ANA in Kabul, Afghanistan. In March of 2011, Lakeshore
awarded Shams Group International (Shams) a subcontract to provide
materials, design services, equipment, labor and other subcontractor ser-
vices for the FOB Rocco project. In January 2010, Lakeshore hired Bertolini
to be the project manager for the FOB Rocco project. In May of 2011,
Bertolini approved two modifications to Lakeshore’s contract with Shams.
The adjustment, which Lakeshore did not authorize, increased the project
cost by nearly $1.7 million. In return for the two modifications, Shams wired
$59,975 to an Ohio bank account belonging to Bertolini’s son.

Contractor Employee Arrested for Fraud
On July 6, 2014, the ANP arrested an Afghan employee of a USAID contrac-
tor, Maruf Lalzada, with assistance from SIGAR.
   Chemonics, a contractor for a USAID-funded project, conducted an inter-
nal investigation of Lalzada. The investigation was based upon complaints
lodged by other Chemonics employees that Lalzada had submitted false
claims to Chemonics that overstated wages paid to Afghan workers, as well
as claims related to “ghost” workers. His fraudulent activity resulted in an
$8,342 loss. The matter was referred to the Afghan Attorney General’s Office
(AGO) and after several attempts, Lalzada was arrested. After the arrest,
Lalzada attempted to flee while being transported to an ANP station, but
was apprehended by the ANP.
   The AGO will provide future updates pertaining to Lalzada’s prosecution.




  52                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
            SIGAR OVERSIGHT ACTIVITIES




$150,000 Recovered from SIGAR Investigation
The Legal Aid Organization of Afghanistan (LAOA) was awarded a sub-
grant from International Development Law Organization (IDLO), under an
INL grant for justice-sector improvement in Afghanistan. A complainant
reported to SIGAR that LAOA management was overcharging for expenses
under the subgrant by generating fake invoices and presenting them to
IDLO for reimbursement.
   The investigation, along with an independent audit, confirmed allegations
that funds had been misappropriated. On August 3, 2014, LAOA reimbursed
IDLO $150,000.

Fuel Theft Scheme Thwarted
 SIGAR initiated an investigation in March 2014, after receiving information
that excess fuel was being uploaded into trucks at BAF and subsequently
removed and sold in the Afghan market.
   When a truck was identified as having excess fuel, a series of interviews
and interrogations ensued. During one interrogation, an Afghan national
employee of Fluor International confessed to conspiracy to steal fuel. He
implicated six other Afghan nationals and an Indian national, all Fluor
employees. The individuals were subsequently terminated from employ-
ment and barred permanently from all U.S. military installations.
   During the investigation it was discovered that bypass valves had been
utilized to allow excess fuel to be uploaded without ever passing through a
meter. Based on these findings, the Defense Contract Management Agency
issued a letter of technical direction to Fluor demanding all bypass valves
be disconnected. Additionally, the investigation recovered 1,350 gallons of
fuel valued at approximately $20,000.
   An audit of DLA and Fluor fuel records covering the previous five-month
period revealed that approximately 240,000 gallons fuel could not be
accounted for. The value of the missing fuel is approximately $2.4 million.

Undercover Operation Resulted in Three Arrests
An undercover operation at BAF resulted in the arrest of three Afghans, nine
barments from U.S. military installations, and the suspension of a business.
   On September 30, 2014, members of the International Contract
Corruption Task Force (ICCTF) debriefed a third-country national (TCN)
regarding his knowledge of criminal misconduct occurring at BAF. The
information provided by the TCN pertained to small equipment theft as well
as major fraud and corruption involving U.S. personnel. Among potential
targets he identified was Aziz Abduzaziz, the owner of Aziz Restaurant and
a bazaar, who was allegedly engaging in various criminal schemes on BAF,
                                                                               Cash seized from the Afghan owner of a
including vehicle thefts. The TCN advised that on previous occasions Aziz      restaurant on a U.S. base was delivered
had approached him about obtaining stolen vehicles.                            to the ANP in Parwan Province. (U.S. Army
                                                                               CID photo)




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2014            53
                                                        SIGAR OVERSIGHT ACTIVITIES




                                                           Based on the information, the ICCTF initiated an undercover reverse
                                                        operation during which a special agent acting in an undercover capacity
                                                        would consummate the sale of a purported stolen vehicle to Aziz. The TCN
                                                        telephoned Aziz and informed him of someone working at BAF who had a
                                                        vehicle he wanted to sell. Aziz advised the TCN he would buy the vehicle
                                                        for $2,700. Subsequently, Aziz met the TCN and undercover special agent
                                                        and paid $2,500 for what he believed was a stolen government vehicle.
                                                        Subsequent to the money exchange, members of the ICCTF detained Aziz
                                                        and seized an additional $15,813 he was carrying. Two other Aziz Restaurant
                                                        employees who had accompanied Aziz were also apprehended, interro-
                                                        gated, and released to Afghan authorities.
SIGAR special agents, with CID and DCIS                    As a result of the operation, it was disclosed that Aziz possessed a
agents, deliver cash seized from Aziz to
                                                        Bagram Access Memorandum which allowed him to move freely on and off
members of the ANP in Parwan Province.
(U.S. Army Photo)                                       base to deliver foodstuffs to his restaurant. Aziz had the memorandum in
                                                        his possession when apprehended and his apparent intention was to use it
                                                        to remove the stolen vehicle from BAF. At a follow-up meeting with the U.S.
                                                        Forces-Afghanistan Director of Emergency Services/Program Management
                                                        Office, the director advised he will brief the BAF garrison commander and




   SIGAR and FBI Sign Memorandum of Understanding                                 determine whether they have provided support to Afghan insurgent
   to Share Terrorist Identity Information                                        groups, narco-trafficking groups, or are affiliated with al-Qaeda and its
   On October 3, SIGAR’s Deputy Inspector General and Assistant Inspector         subordinate organizations.
   General for Investigations, along with Investigations Directorate staff, met
   with the Federal Bureau of Investigation’s (FBI) director of the Terrorist
   Screening Center (TSC), Christopher M. Piehota, and members of his
   staff. SIGAR and the FBI signed a Memorandum of Understanding
   (MOU) that will significantly enhance the U.S. government’s
   counterterrorism efforts by preventing known or suspected terrorists from
   participating in or threatening Afghan reconstruction programs.
      Since February 2014, SIGAR’s Investigations Directorate has been
   working with the FBI’s TSC to develop this MOU to enable information
   sharing between SIGAR’s Investigations Case Management System
   (ICMS) and the Terrorist Screening Database (TSDB). The purpose
   of the MOU is to ensure that data gathered about individuals
   and companies that are the subjects of criminal investigations in              On October 3, SIGAR Deputy Inspector General Gene
   Afghanistan is preserved and made available to relevant agencies               Aloise (seated right), FBI Terrorist Screening Center Director
   tasked with vendor vetting, preventing threat finance, targeting               Christopher Piehota (seated left), and members of their staffs
                                                                                  signed a memorandum of understanding (MOU) on sharing
   international money laundering, issuing visas and other travel
                                                                                  information to prevent known or suspected terrorists from
   documents, as well as other governmental functions that utilize                participating in or threatening Afghan reconstruction programs.
   access to the TSDB. In addition, the MOU will allow SIGAR to screen            Douglas Domin, SIGAR Assistant IG for Investigations (standing
   individuals that it encounters as part of its investigative activities to      fourth from left), helped negotiate the MOU. (FBI photo)




                                                           54                       SPECIAL INSPECTOR GENERAL          I   AFGHANISTAN RECONSTRUCTION
                    SIGAR OVERSIGHT ACTIVITIES




recommend Aziz and all nine employees be barred from all U.S. military
facilities and that the restaurant operations be suspended.

Suspensions and Debarments
This quarter, SIGAR’s suspension and debarment program referred 44 indi-
viduals and 13 companies for suspension or debarment based on evidence
developed as part of investigations conducted by SIGAR in Afghanistan and
the United States. Of these 57 contractors, five individuals and six compa-
nies were referred for suspension or debarment based on allegations that
they engaged in fraud and nonperformance as part of contracts valued at
$398,445,878. Eight other individuals were referred for suspension based
upon criminal convictions resulting from SIGAR investigations into the
theft of fuel from U.S. installations in Afghanistan. These referrals bring the
total number of individuals and companies referred by SIGAR since 2008 to
547 encompassing 292 individuals and 255 companies to date, as shown in
Figure 2.2.
   As of the end of June 2014, SIGAR’s efforts to utilize suspension
and debarment to address fraud, corruption, and poor performance in
Afghanistan have resulted in a total of 84 suspensions and 218 finalized
debarments of individuals and companies engaged in U.S.-funded recon-
struction projects. An additional seven individuals and companies have
entered into administrative-compliance agreements with the government in
lieu of exclusion from contracting.


FIGURE 2.2

SIGAR INVESTIGATIONS: CUMULATIVE REFERRALS FOR SUSPENSION AND DEBARMENT,
Q2 FY 2011–Q4 FY 2014

 600

 500


 400


 300


 200


 100


    0
        Q2     Q3      Q4     Q1      Q2     Q3        Q4       Q1   Q2    Q3      Q4   Q1   Q2   Q3    Q4

             FY 2011                   FY 2012                        FY 2013                FY 2014


Source: SIGAR Investigations Directorate, 10/7/2014.




REPORT TO THE UNITED STATES CONGRESS                        I   OCTOBER 30, 2014                       55
SIGAR OVERSIGHT ACTIVITIES




   Suspensions and debarments are an important tool for ensuring that
agencies award contracts only to responsible entities. SIGAR’s program
addresses three challenges posed by U.S. policy and the contingency con-
tracting environment in Afghanistan: the need to act quickly, the limited
U.S. jurisdiction over Afghan nationals and Afghan companies, and the
vetting challenges inherent in the use of multiple tiers of subcontractors.
SIGAR continues to look for ways to enhance the government’s responses
to these challenges through the innovative use of information resources and
investigative assets both in Afghanistan and the United States.
   SIGAR makes referrals for suspensions and debarments—actions taken
by U.S. agencies to exclude companies or individuals from receiving fed-
eral contracts or assistance because of misconduct—based on completed
investigations in which SIGAR participates. In most cases, SIGAR’s referrals
occur in the absence of acceptance of an allegation for criminal prosecution
or remedial action by a contracting office, and are therefore the primary
remedy to address contractor misconduct. In making referrals to agencies,
SIGAR provides the basis for a suspension or debarment decision by the
agency as well as all of the supporting documentation needed for an agency
to support that decision should it be challenged by the contractor at issue.
Based on the evolving nature of the contracting environment in Afghanistan
and the available evidence of contractor misconduct and/or poor perfor-
mance, on occasion SIGAR has found it necessary to refer individuals or
companies multiple times for consideration by agency suspension and
debarment officials.
   SIGAR’s emphasis on suspension and debarment is illustrated by the
fact that of the 547 referrals for suspension and debarment that have been
made by the agency to date, 461 have been made since the second quarter
of 2011. During the 12-month period prior to October 1, 2014, referrals
by SIGAR’s suspension and debarment program resulted in the exclusion
of 237 individuals and companies from contracting with the government.
SIGAR’s referrals over this period represent allegations of theft, fraud, poor
performance, financial support to insurgents, and mismanagement as part
of reconstruction contracts valued at approximately $938,908,042.

Debarment of 15 Companies and Individuals in Connection
with the Fraudulent Award of $53.5 Million in Afghan National
Army Training Contracts
During the previous quarter, referrals from SIGAR’s suspension and debar-
ment program resulted in debarment of U.S. Army Lieutenant Colonel David
Andrew Young, Christopher Harris of the American International Security
Corporation, and 12 other affiliated companies and individuals. The debar-
ments were based on the fraudulent award of five contracts in 2007 for the
training of ANA commandos regarding the management of supplies and




  56                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
             SIGAR OVERSIGHT ACTIVITIES




equipment stocks provided as part of reconstruction effort, collectively val-
ued at approximately $53.5 million.
   Specifically, in exchange for the provision of procurement-sensitive
information, Young and multiple companies affiliated with him were paid
kickbacks of approximately $9.4 million by American International Security
Corporation via the company’s country manager, Harris. On December 13,
2013, Young’s guilty plea in the U.S. District Court for the District of Utah
to violation of the Procurement Integrity Act and money laundering was
accepted and he was sentenced to 42 months confinement. On December 9,
2013, also in the U.S. District Court for the District of Utah, Harris pled guilty
to conspiracy to commit government procurement fraud and conspiracy to
commit money laundering and was sentenced to 24 months’ confinement.
   Based on this conviction the Army suspension and debarment official
debarred Young, American International Security Corporation, and 12
other affiliated companies and individuals for a period of six years and
four months, ending on December 13, 2020. Harris was also debarred for a
period of five years, ending on June 23, 2019.

Proposed Debarment of 22 Individuals Participating in
Fraudulent Linguist Certification Testing
During the previous quarter, the efforts of SIGAR’s investigators and its
suspension and debarment program resulted in proposed debarment of 22
individuals due to the discovery of a fraudulent test-taking scheme designed
to process unqualified linguists for deployment to Afghanistan under the
U.S. Army’s linguist contract. Specifically, the evidence revealed that linguist
recruiters working for FedSys Inc., a subcontractor to Mission Essential
Personnel LLC, hired test takers to take and pass the oral proficiency lan-
guage test for new linguists in order to advance them to Mission Essential
Personnel’s pre-deployment processing center. To perpetrate the scheme,
recruiters provided test takers with the personal information of prospec-
tive linguists, allowing them to take the oral-proficiency language test on
their behalf. Following the receipt of a passing score, the actual prospec-
tive linguists would be deployed to Afghanistan as part of the contract. The
scheme was discovered by FedSys and Mission Essential Personnel in June
2012, and was disclosed to the government at that time. Based upon the ini-
tial allegations in SIGAR’s referral and research by the Army Procurement
Fraud Branch, the Army proposed all 22 individuals for debarment on
September 17, 2014, resulting in their exclusion from contracting. A final
debarment decision on this matter is currently pending with the Army.




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2014                 57
                                                 SIGAR OVERSIGHT ACTIVITIES




                                                 OTHER SIGAR OVERSIGHT ACTIVITIES THIS QUARTER
                                                 SIGAR Recognized with Five CIGIE Awards
                                                 As part of its 17th annual inspector-general community awards ceremony,
                                                 the Council of the Inspectors General on Integrity and Efficiency (CIGIE)
                                                 presented SIGAR with five awards—the most SIGAR has ever received.
                                                    Special Agent Jeffrey Millslagle accepted the Sentner Award for
                                                 Dedication and Courage (see box below). The SIGAR team who contrib-
                                                 uted to the publication of SIGAR Audit 13-8, Taxes: Afghan Government
                                                 Has Levied Nearly a Billion Dollars in Business Taxes on Contractors
                                                 Supporting U.S. Government Efforts in Afghanistan, accepted the
                                                 Award for Excellence-Audit. The team who contributed to the publica-
                                                 tion of SIGAR Audit 13-13, Afghan Special Mission Wing: DOD Moving
                                                 Forward with $771.8 Million Purchase of Aircraft that the Afghans
                                                 Cannot Operate and Maintain, also accepted the Award for Excellence-
                                                 Audit. SIGAR’s Suspension and Debarment team received the Award for
                                                 Excellence-Special Act in recognition of excellence in developing and
                                                 implementing a comprehensive suspension and debarment program,
                                                 resulting in hundreds of referrals and debarments over a three-year
                                                 period. The Research and Analysis Directorate also received the Award for
                                                 Excellence-Special Act recognizing their quarterly reports, which provide
                                                 the comprehensive data and timely analysis needed by Congress to oversee
                                                 Afghan reconstruction.




Special Agent Jeffrey Millslagle Receives CIGIE Award
SIGAR Special Agent Jeffrey Millslagle received the Sentner Award for
Dedication and Courage in recognition of the courage, uncommon
selflessness, and dedication to duty he displayed during an insurgent
attack on the Herat Consulate in September 2013. The blast killed
several guards and heavily damaged the consulate. After the explosion,
a group of armed insurgents tried to storm the compound. Millslagle
immediately jumped into action to help the Regional Security Officer.
He conducted an armed sweep to ensure that all U.S. Chief of Mission
personnel were accounted for, and that no insurgents had penetrated the
consulate. Millslagle also helped move casualties and held a weapons      SIGAR Special Agent Jeffrey Millslagle boards a helicopter
position covering the blown-open entrance to the consulate.               after conducting an armed sweep of the Herat Consulate.
                                                                          (U.S. government photo)




                                                    58                     SPECIAL INSPECTOR GENERAL     I   AFGHANISTAN RECONSTRUCTION
              SIGAR OVERSIGHT ACTIVITIES




Deputy Inspector General Aloise Speaks at CIGIE Federal
Audit Executive Council Annual Conference
In September, Deputy IG Aloise spoke in Alexandria, Virginia, at the CIGIE
annual Federal Audit Executive Council Conference. Aloise highlighted
the aspects of SIGAR that are unique, including a temporary but broad-
reaching mission, and the fact that the agency is truly independent of any
other federal agency. The temporary nature of SIGAR, Aloise explained,
has encouraged the agency to adopt an innovative approach to oversight,
including initiatives like the Office of Special Projects, which quickly issues
letters and reports and letters, not bound by GAGAS, to help decision-
makers enact changes before additional damage occurs. Other innovative
methods include working to seize assets held in Afghanistan, using interna-
tional firms to conduct financial audits of reconstruction contractors, and
making numerous referrals for suspension and debarment of bad actors and
poor performers. Aloise also emphasized SIGAR’s commitment to transpar-
ency, and its strategy of pursuing publicity to increase the positive impact
of the agency’s reports. Finally, the speech discussed SIGAR’s role in the
future of Afghan reconstruction, noting that there is still much oversight
work to be done to protect taxpayers’ investment.

Inspector General Sopko Speaks at Georgetown University
Special Inspector General Sopko spoke in September at Georgetown
University about the lessons SIGAR has learned from Afghanistan. The
speech provided background on the massive reconstruction effort in




In September, Special Inspector General Sopko spoke at Georgetown University.
(Georgetown University photo)




REPORT TO THE UNITED STATES CONGRESS     I   OCTOBER 30, 2014                   59
SIGAR OVERSIGHT ACTIVITIES




Afghanistan, and discussed SIGAR’s mission and structure. Sopko also
articulated three major inter-agency challenges that are crucial for recon-
struction success: sustainability, corruption, and narcotics trafficking.
Additionally, the speech highlighted why oversight must be mission critical,
explained SIGAR’s approach to oversight and publicity, and discussed how
to improve the reconstruction effort.

SIGAR Participates in Annual Afghan Arts
and Culture Festival
On October 12, 2014, SIGAR participated in the annual Afghan Arts and
Culture Festival held in Rosslyn, Virginia. SIGAR hosted a booth featuring
SIGAR publications and handouts in Dari and English. SIGAR person-
nel manned the booth and provided information to attendees, including
handouts featuring Hotline and Facebook contact information for SIGAR.
Many of the event’s 2,500 to 3,000 attendees stopped by the SIGAR booth.
Investigative Analyst Shokoor Siddiqi was interviewed by the Voice of
America and explained SIGAR’s mission and the benefit of having SIGAR
attend the festival.




SIGAR staff participate in the annual Afghan arts and culture festival in Virginia on
October 12. (SIGAR photo by Jamol Brathwaite)




   60                   SPECIAL INSPECTOR GENERAL      I   AFGHANISTAN RECONSTRUCTION
            SIGAR OVERSIGHT ACTIVITIES




SIGAR BUDGET
SIGAR received a budget of $49.65 million for FY 2014 in the Consolidated
Appropriations Act from Congress. The budget supports SIGAR’s oversight
activities and products by funding SIGAR’s five directorates: (1) Audits and
Inspections, (2) Special Projects, (3) Investigations, (4) Management and
Support, and (5) Research and Analysis.


SIGAR STAFF
SIGAR staff remained steady since its last report to Congress with 197
employees on board at the end of the quarter. At the end of the quar-
ter, there were 29 employees at the U.S. Embassy Kabul and eight other
employees in Afghan locations outside the U.S. Embassy. SIGAR staff
members were stationed at four locations across the country, including
Kandahar and Bagram airfields, Mazar-e-Sharif, and the U.S. Embassy
Kabul. SIGAR employed three local Afghans in its Kabul office to support
the Investigations and Audits directorates. In addition, SIGAR supports its
work with staff assigned to short-term temporary duty in Afghanistan. This
quarter, SIGAR had 14 employees on temporary duty in Afghanistan for a
total of 165 days.




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2014            61
   “As Afghanistan enters this new
   chapter in its history, the United
 States looks forward to deepening its
enduring partnership with a sovereign,
unified, and democratic Afghanistan.”
        — U.S. Secretary of State John Kerry




          Source: State Department, Press Statement, September 29, 2014.
3   RECONSTRUCTION
    UPDATE




        63
                                              RECONSTRUCTION UPDATE




                                              RECONSTRUCTION UPDATE CONTENTS
                                              CONTENTS

                                              Overview	65
                                              Funding for Afghanistan Reconstruction	                        68
                                              Status of Funds	                                               70
                                              Security	84
                                              Governance	126
                                              Economic and Social Development	                              162




Photo on previous page
U.S. Ambassador James Cunningham shakes hands with Afghan National Security Adviser Hanif Atmar after
signing the Bilateral Security Agreement between the countries on September 30, while Afghanistan’s new
Chief Executive Officer Abdullah Abdullah, center, and other officials look on. The new Afghan government
also signed a Status of Forces Agreement with NATO. (State Department photo)




                                                 64                   SPECIAL INSPECTOR GENERAL    I   AFGHANISTAN RECONSTRUCTION
                 RECONSTRUCTION UPDATE




RECONSTRUCTION UPDATE
OVERVIEW
On September 29, 2014, Ashraf Ghani was inaugurated president of
Afghanistan following a highly contentious election process. President
Ghani’s inauguration marked the first democratic transition of power in
Afghanistan’s history.
   The messy aftermath of the Afghan presidential election dominated
the quarter. After a June runoff election, presidential candidate Abdullah
claimed victory in July and again in September, while the Independent
Election Committee (IEC) released preliminary results showing Ghani
to be the presumptive victor. President Barack Obama and Secretary of
State John Kerry made significant interventions, encouraging the candi-
dates to agree to an audit process and form a national-unity government.
Following the June 14 runoff election, President Obama called both candi-
dates six times, Secretary Kerry called the candidates 30 times and twice
visited the country, and U.S. Ambassador James Cunningham held 81
meetings with the candidates. The European Union Election Assessment
Team (EU EAT) labeled the audit process “unsatisfactory” and claimed
the audit produced clear evidence of large-scale fraud, particularly ballot
stuffing. EU EAT estimated that between two million and three million
runoff votes were fraudulent.
    On September 30, 2014, one day after President Ghani’s inaugura-
tion, Afghan and U.S. officials signed the long-awaited Bilateral Security
Agreement (BSA)—formally the Security Cooperation and Defense
Agreement between the United States of America and the Islamic Republic
of Afghanistan. Afghan and NATO officials also signed the NATO Status of
Forces Agreement. In a statement, the International Security Assistance
Force (ISAF) said “the two agreements provide the legal framework for the
United States, NATO, and its partner nations’ continued commitment to
train, advise, and assist Afghan National Security Forces (ANSF).”
   This quarter also brought a change of command of ISAF with General
John Campbell assuming command of the force from General Joseph F.
Dunford. General Campbell will be the last ISAF commander, as that orga-
nization will be replaced by an advisory mission at the beginning of 2015.
In addition, during a September summit in Wales, NATO allies and ISAF




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2014          65
RECONSTRUCTION UPDATE




partners reaffirmed their intent to continue training, advising, and assisting
ANSF beyond 2014.
   SIGAR is closely following developments in the security sector. SIGAR
is concerned about ISAF’s recent classification of a previously unclassified
ANSF assessment report summary, accountability for DOD contracting,
high levels of ANSF attrition, continued uncertainty about the Afghan gov-
ernment’s plan to provide site and convoy security for U.S. and international
personnel, and increasing violence around the country.
   Afghanistan is suffering from acute budgetary shortfalls threaten-
ing to affect payments of civil servant salaries, pensions, and operating
and development spending. In the first seven months of Afghan FY 1393
(December 21, 2013–December 20, 2014), domestic revenues missed
Ministry of Finance (MOF) budget targets by 22% and decreased by about
3.8% from the same period last year. At the same time, Afghan government
expenditures are expected to continue rising—to 30.5% of GDP in 2016
versus 27.3% in 2014, according to World Bank projections. This will limit
Afghanistan’s ability to pay for discretionary services without significant
donor support and improved revenue mobilization. The MOF is in discus-
sion with donors for additional monies to cover the budget shortfall for
remainder of FY 1393.
   In one his first official actions upon being sworn into office, President
Ashraf Ghani directed Afghan government officials to immediately reopen
the Kabul Bank case, recover stolen funds, hold accountable those involved
in the theft of $982.6 million, and move ahead with privatizing the succes-
sor New Kabul Bank. According to the Independent Joint Anti-Corruption
Monitoring and Evaluation Committee, only $175.2 million has been recov-
ered so far—less than 18% of total amounts owed. Seven offenders charged
in the original indictment have reportedly been re-arrested, but others are
no longer in Afghanistan.
   The United Nations Office of Drug and Crime (UNODC) and Ministry of
Counternarcotics (MCN) published their final poppy eradication verifica-
tion report for the year. Compared to 2013, there was a 63% decrease: only
2,692 hectares were eradicated in 2014. The MCN attributes the reduced
number to the reallocation of resources for election security. Interdiction
results likewise decreased this quarter with the reduced Coalition footprint.
According to the Department of Defense (DOD), drug labs, storage sites,
and major trafficking networks are concentrated in rural areas and are
increasingly denied to Afghan forces due to the ISAF drawdown and declin-
ing security in these areas.
   As of September 30, 2014, approximately $104.1 billion had been
appropriated for Afghanistan relief and reconstruction since 2002, and
approximately $14.5 billion remained in the funding pipeline for poten-
tial disbursement. On September 19, 2014, President Obama signed the
Continuing Appropriations Resolution, 2015, funding the government




  66                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                 RECONSTRUCTION UPDATE




through December 11, 2014, at the FY 2014 enacted levels. While                TABLE 3.1
Afghanistan reconstruction funding levels for FY 2015 cannot be deter-
mined until a full-year appropriations bill is passed, the FY 2015 budget       U.S. ON-BUDGET ASSISTANCE TO
                                                                                AFGHANISTAN, SINCE 2002 ($ MILLIONS)
request would add another $5.8 billion to six of the seven major reconstruc-
                                                                                Government-To-Government
tion funds if enacted. DOD is not requesting additional funding for the
                                                                                DOD                                   $2,905
Afghanistan Infrastructure Fund (AIF) for FY 2015.
                                                                                State                                      92
   The United States provides on-budget assistance to Afghanistan
                                                                                USAID                                  1,152
through direct payments to Afghan government entities and through con-
tributions to multinational trust funds. Since 2002, the United States has      Multilateral Trust Funds
                                                                                LOTFA                                 $1,446
provided more than $7.7 billion in on-budget assistance. This includes
                                                                                ARTF                                   2,039
about $4.1 billion to Afghan government ministries and institutions, and
                                                                                AITF                                      105
nearly $3.6 billion to three multinational trust funds—the World Bank’s
Afghanistan Reconstruction Trust Fund (ARTF), the United Nations               Note: Government-To-Government figures reflect amounts
                                                                               the United States has committed in on-budget assistance,
Development Programme’s Law and Order Trust Fund for Afghanistan               excluding commitments to multilateral trust funds.
                                                                               Multilateral trust fund figures reflect amounts the United
(LOTFA), and the Asian Development Bank’s Afghanistan Infrastructure           States has paid in to each trust fund.

Trust Fund (AITF). Table 3.1 shows U.S. on-budget assistance to Afghan         Source: SIGAR, Audit Report 14-32-AR, Direct Assistance:
                                                                               USAID Has Taken Positive Action to Assess Afghan
government entities.                                                           Ministries’ Ability to Manage Donor Funds, but Weaknesses
                                                                               Remain, 1/2014; SIGAR, Special Project Report 14-12-
                                                                               SP, Comprehensive Risk Assessments of MOD and MOI
                                                                               Financial Management Capacity Could Improve Oversight
                                                                               of Over $4 Billion in Direct Assistance Funding, 12/2013;
                                                                               USAID, response to SIGAR data call, 10/9/2014; World
                                                                               Bank, ARTF: Administrator’s Report on Financial Status as of
                                                                               September 22, 2014, p. 5; UNDP, Law and Order Trust Fund
                                                                               for Afghanistan (LOTFA) 2014 Second Quarter Project Progress
                                                                               Report, 9/24/2014, p. 33; SIGAR analysis of UNDP’s quar-
                                                                               terly and annual LOTFA reports, 10/19/2014.




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2014           67
                                                  RECONSTRUCTION UPDATE




                                                  FUNDING FOR AFGHANISTAN RECONSTRUCTION
 DOD       ASFF: Afghanistan Security Forces      Since 2002, Congress has appropriated nearly $104.1 billion for Afghanistan
           Fund                                   relief and reconstruction. Of this amount, $87.7 billion (84%) was appropri-
           CERP: Commander’s Emergency            ated to the seven major reconstruction funds, as shown in Table 3.2.
           Response Program
                                                     As of September, 30, 2014, approximately $14.5 billion of appropri-
           AIF: Afghanistan Infrastructure Fund   ated funds remained for possible disbursement, as shown in Figure 3.1.
           TFBSO: Task Force for Business and     These funds will be used to complete on-going, large-scale infrastructure
           Stability Operations
                                                  projects, such as those funded by the AIF and ESF; train, equip, and sus-
           DOD CN: DOD Drug Interdiction and
           Counter-Drug Activities                tain the ANSF; combat narcotics production and trafficking; and advance
                                                  the rule of law, strengthen the justice sector, and promote human rights.
 USAID ESF: Economic Support Fund
                                                  Approximately 40% of the funding in the pipeline has yet to be obligated.
 State INCLE: International Narcotics
       Control and Law Enforcement                About $8.7 billion of the $14.5 billion remaining has been obligated.
                                                  TABLE 3.2

                                                   CUMULATIVE AMOUNTS APPROPRIATED, OBLIGATED, AND DISBURSED
FIGURE 3.1                                         FY 2002–2014 ($ BILLIONS)
                                                                                                   Appropriated           Obligated          Disbursed          Remaining
CUMULATIVE AMOUNT REMAINING TO BE                  ASFF                                               $57.33               $51.77              $48.94              $7.26
DISBURSED ($ BILLIONS)                             CERP                                                 3.67                   2.28              2.26              $0.02
                                                   AIF                                                  1.04                   0.75              0.30              $0.65
             Total Appropriated: $87.7             TFBSO                                                0.81                   0.77              0.60              $0.19
                                                   DOD CN                                               2.70                   2.62              2.62              $0.09
 Expired                                           ESF                                                 17.72                 16.43              12.25              $5.04
 $3.1
             Remaining                             INCLE                                                4.44                   4.16              3.15              $1.23
             $14.5
                                                   Total 7 Major Funds                               $87.72               $78.78              $70.11             $14.47
                                                   Other Reconstruction Funds                           7.36
                         Disbursed                 Civilian Operations                                  9.00
                         $70.1
                                                   Total                                            $104.08
                                                  Note: Numbers have been rounded. Amount remaining reflects the total disbursement potential of the seven major
                                                  reconstruction funds after deducting approximately $3.1 billion that expired before being obligated. Obligated and disbursed
                                                  DOD CN funds reflect amounts transferred to the military services and defense agencies to be spent for Afghanistan.

                                                  Source: SIGAR analysis of appropriating legislation and quarterly obligation and disbursement data provided by DOD, State, and
                                                  USAID, 10/21/2014.


                                                     The President’s FY 2015 budget request, if appropriated, would add
                                                  another $5.8 billion for the seven major reconstruction funds. Amounts
                                                  requested for four of these funds—ASFF, DOD CN, ESF, and INCLE—
                                                  account for over 99% of the FY 2015 request. Only $20 million was requested
                                                  for CERP and TFBSO combined. No additional funding was requested for
                                                  the AIF. SIGAR’s audit of the AIF, issued in July 2012, raised concerns that
                                                  most AIF projects were 6–15 months behind schedule, potentially limiting
                                                  the projects’ counterinsurgency benefits and necessitating continued fund-
                                                  ing of $80–100 million a year for diesel fuel to power Kandahar City. Nearly
                                                  $943 million of the $1.3 billion appropriated the AIF since FY 2011 remains
                                                  to be disbursed when the amount transferred to the ESF for USAID’s infra-
                                                  structure project is included.


                                                      68                            SPECIAL INSPECTOR GENERAL                   I   AFGHANISTAN RECONSTRUCTION
                            RECONSTRUCTION UPDATE




   Congress appropriated nearly $8.1 billion to the seven major reconstruc-
tion funds for FY 2013. Of that amount, nearly $3.8 billion remained for
possible disbursement, as of September 30, 2014, as shown in Table 3.3 and
Figure 3.2.
TABLE 3.3                                                                                                                        FIGURE 3.2

 FY 2013 AMOUNTS APPROPRIATED, OBLIGATED, AND DISBURSED
 ($ MILLIONS)                                                                                                                    FY 2013 AMOUNT REMAINING TO BE
                                                 Appropriated           Obligated          Disbursed         Remaining           DISBURSED ($ MILLIONS)
 ASFF                                               $4,946               $4,946              $3,621            $1,325
 CERP                                                  200                    42                 36                 6                         Total Appropriated: $8,082
 AIF                                                   146                   137                 37               100
 TFBSO                                                 138                   136                103                33
 DOD CN                                                256                   256                256                 0
                                                                                                                                 FY 2013 AMOUNT REMAINING TO BE
 ESF                                                 1,803                 1,748                  1             1,747            DISBURSEDRemaining
                                                                                                                                             ($ MILLIONS)
 INCLE                                                 594                   594                 42               552                         $3,762
                                                                                                                                                               Disbursed
 Total 7 Major Funds                               $8,082               $7,858              $4,095            $3,762                                           $4,095
                                                                                                                                              Total Appropriated: $8,082
Note: Numbers have been rounded. Amount remaining reflects the total disbursement potential of the seven major
reconstruction funds after deducting approximately $224 million that expired before being obligated. Obligated and disbursed
DOD CN funds reflect amounts transferred to the military services and defense agencies to be spent for Afghanistan.                 Expired
                                                                                                                                    $224
Source: SIGAR analysis of appropriating legislation and quarterly obligation and disbursement data provided by DOD, State, and
USAID, 10/21/2014.
                                                                                                                                              Remaining
                                                                                                                                 FY 2014 AMOUNT
                                                                                                                                          $3,762 REMAINING TO BE
                                                                                                                                                        Disbursed
   Congress appropriated more than $6.2 billion to the seven major recon-                                                        DISBURSED ($ MILLIONS) $4,095
struction funds for FY 2014. Of that amount, more than $6 billion remained
for possible disbursement, as of September 30, 2014, as shown in Table 3.4
                                                                                                                                              Total Appropriated: $6,241
and Figure 3.3.                                                                                                                     Expired
                                                                                                                                    $224
                                                                                                                                 FIGURE 3.3
TABLE 3.4

 FY 2014 AMOUNTS APPROPRIATED, OBLIGATED, AND DISBURSED                                                                          FY 2014 AMOUNT REMAINING TO BE
                                                                                                                                          Remaining
 ($ MILLIONS)                                                                                                                    DISBURSED$6,011
                                                                                                                                            ($ MILLIONS)
                                                                                                                                                                              Disbursed
                                                Appropriated            Obligated         Disbursed          Remaining                                                        $206
 ASFF                                               $4,727                  $302            $162               $4,565                         Total Appropriated: $6,241
 CERP                                                    30                     7               2                   4
 AIF                                                   199                      0               0                 199
 TFBSO                                                 122                   109               39                  83                                                      Expired
                                                                                                                                                                           $23
 DOD CN                                                  86                     1               1                  85                           Remaining
                                                                                                                                                $6,011
 ESF                                                   852                      0               0                 852                                                         Disbursed
                                                                                                                                                                              $206
 INCLE                                                 225                      3               3                 222
 Total 7 Major Funds                               $6,241                  $420            $206               $6,011
Note: Numbers have been rounded. Amount remaining reflects the total disbursement potential of the seven major reconstruc-
tion funds after deducting approximately $23 million that expired before being obligated. Obligated and disbursed DOD CN
funds reflect amounts transferred to the military services and defense agencies to be spent for Afghanistan.                                                               Expired
                                                                                                                                                                           $23
Source: SIGAR analysis of appropriating legislation and quarterly obligation and disbursement data provided by DOD, State, and
USAID, 10/21/2014.




REPORT TO THE UNITED STATES CONGRESS                         I   OCTOBER 30, 2014                                    69
STATUS OF FUNDS CONTENTS

U.S. Reconstruction Funding
for Afghanistan	                       72
Afghanistan Security Forces Fund	      74
ASFF Budget Activities	                75
Commander’s Emergency
Response Program	                      76
Afghanistan Infrastructure Fund	       77
Task Force for Business and
Stability Operations	                  78
DOD Drug Interdiction and
Counter-Drug Activities	               79
Economic Support Fund	                 80
International Narcotics Control
and Law Enforcement 	                  81
International Reconstruction Funding
for Afghanistan	                       82




  70
                                                           STATUS OF FUNDS




STATUS OF FUNDS
To fulfill SIGAR’s legislative mandate, this section details the status of U.S.
funds appropriated, obligated, and disbursed for reconstruction activities in
Afghanistan. As of September 30, 2014, the United States had appropriated
approximately $104.08 billion for relief and reconstruction in Afghanistan
since FY 2002. This total has been allocated as follows:
•	 $61.54 billion for security ($4.07 billion for counternarcotics initiatives)
•	 $30.65 billion for governance and development ($3.69 billion for
   counternarcotics initiatives)
•	 $2.89 billion for humanitarian aid
•	 $9.00 billion for civilian operations
Figure 3.4 shows the major U.S. funds that contribute to these efforts.


FIGURE 3.4

U.S. FUNDS SUPPORTING AFGHANISTAN RECONSTRUCTION EFFORTS ($ BILLIONS)


                                      FUNDING SOURCES (TOTAL: $104.08)
                                                                                                                       ASFF: Afghanistan Security Forces Fund
                                                                                                                       CERP: Commander’s Emergency
       ASFF        CERP         AIF        TFBSO       DOD CN              ESF               INCLE          Other
                                                                                                                       Response Program
                                                                                                                       AIF: Afghanistan Infrastructure Fund
     $57.33       $3.67        $1.04       $0.81        $2.70            $17.72              $4.44        $16.36
                                                                                                                       TFBSO: Task Force for Business and
                                                       AGENCIES                                                        Stability Operations
                                                                                                                       DOD CN: DOD Drug Interdiction and
                                                                                       Department of     Distributed   Counter-Drug Activities
                  Department of Defense (DOD)                            USAID                           to Multiple
                                                                                       State (State)
                           $65.56                                        $17.72           $4.44           Agenciesa    ESF: Economic Support Fund
                                                                                                           $16.36      INCLE: International Narcotics Control and
                                                                                                                       Law Enforcement
Note: Numbers have been rounded. Total funding decreased this quarter due to a reduction in DOD CN funding. DOD        Other: Other Funding
transferred $179.5 million from FY 2013 AIF to the ESF for USAID's Northern Electrical Power System project.
a   Multiple agencies include DOJ, State, DOD, USAID, Treasury, USDA, DEA, BBG, and SIGAR.
Source: DOD, responses to SIGAR data call, 10/20/2014, 10/16/2014, 10/6/2014, 10/22/2012, 10/14/2009, and
10/1/2009; State, responses to SIGAR data call, 10/20/2014, 10/17/2014, 4/15/2014, 6/27/2013, 10/5/2012 and
6/27/2012; Treasury, response to SIGAR data call, 10/9/2014; OMB, responses to SIGAR data call, 7/14/2014,
7/19/2013 and 1/4/2013; USAID, responses to SIGAR data call, 10/9/2014, 10/15/2010, 1/15/2010, and
10/9/2009; DOJ, responses to SIGAR data call, 10/17/2014 and 7/7/2009; USDA, response to SIGAR data call, 4/2009;
CRS, response to SIGAR data call, 1/8/2014; DFAS, response to SIGAR data call, 7/17/2014; P.L. 113-76, 1/17/2014;
P.L. 113-6, 3/26/2013; P.L. 112-74, 12/23/2011; P.L. 112-10, 4/15/2011; P.L. 111-212, 10/29/2010; P.L. 111-118,
12/19/2009; FY 2010 Defense Explanatory Statement.




REPORT TO THE UNITED STATES CONGRESS                       I   OCTOBER 30, 2014                               71
                                                                  STATUS OF FUNDS




                                                                  U.S. RECONSTRUCTION FUNDING FOR AFGHANISTAN
 ASFF   CERP    AIF     TFBSO DODCN    ESF        INCLE           As of September 30, 2014, cumulative appropriations for relief and recon-
                                                                  struction in Afghanistan totaled approximately $104.08 billion, as shown
                                                                  in Figure 3.5. This total can be divided into four major categories of recon-
               DOD                    USAID State
                                                                  struction funding: security, governance and development, humanitarian, and
                                                                  oversight and operations. Approximately $7.76 billion of these funds support
The amount provided to the seven major
                                                                  counternarcotics initiatives which crosscut both the security ($4.07 billion)
U.S. funds represents nearly 84.3% (nearly
$87.72 billion) of total reconstruction                           and governance and development ($3.69 billion) categories.
assistance in Afghanistan since FY 2002. Of                          The Department of Defense (DOD) reported an overall funding reduction of
this amount, over 89.8% (over $78.78 billion)
   ASFF                                                           $225.58 million for the DOD Drug Interdiction and Counter-Drug Activities fund
has been obligated, and over 79.9% (more                          from $2.93 billion reported last quarter to $2.70 billion due in part to the threat
than $70.11 billion) has been disbursed.                          of sanctions against parts suppliers for the Russian Mi-17 helicopters used by
An estimated  $3.14 billion of the amount
            DOD                                                   the Afghan Air Force Special Mission Wing as well as reductions in the overall
appropriated for these funds has expired.                         scope of Afghanistan counternarcotics operational support from prior years.
                                                                  For complete information regarding U.S. appropriations, see Appendix B.

FIGURE 3.5

CUMULATIVE
    CERP APPROPRIATIONS BY FUNDING CATEGORY, AS OF SEPTEMBER 30, 2014 ($ BILLIONS)


$110
               DOD                                                                                                                                                          $104.08
$100                                                                                                                                                  $96.64

 $90                                                                                                                           $86.97

 $80
                           DOD CN                                                                        $72.27
 $70


 $60                                                                              $56.40
               DOD
 $50

                                                           $39.69
 $40


 $30
                                      $29.28
                                       ESF
               $23.09
 $20


 $10                                  USAID

  $0
           2002–2007                  2008                  2009                   2010                  2011                   2012                   2013                   2014

                                       Security           Governance/Development               Humanitarian             Civilian Operations                 Total
                                               INCLE
Note: Numbers have been rounded. Total funding decreased this quarter due to a reduction in DOD CN funding. DOD transferred $179.5 million from FY 2013 AIF to the ESF for USAID's NEPS
transmission lines project. DOD reprogrammed $1 billion from FY 2011 ASFF. DOD reprogrammed $1 billion from FY 2012 ASFF. P.L. 113-6 rescinded $1 billion from FY 2012 ASFF. DOD reprogrammed
$178 million from FY 2013 ASFF. DOD transferred $101 million from FY 2011 AIF to FY 2011 ESF to fund an infrastructure project to be implemented by USAID.
                                              State 10/16/2014, 10/6/2014, 10/22/2012, 10/14/2009, and 10/1/2009; State, responses to SIGAR data call, 10/20/2014, 10/17/2014,
Source: DOD, responses to SIGAR data call, 10/20/2014,
4/15/2014, 6/27/2013, 10/5/2012 and 6/27/2012; Treasury, response to SIGAR data call, 10/9/2014; OMB, responses to SIGAR data call, 7/14/2014, 7/19/2013 and 1/4/2013; USAID,
responses to SIGAR data call, 10/9/2014, 10/15/2010, 1/15/2010, and 10/9/2009; DOJ, responses to SIGAR data call, 10/17/2014 and 7/7/2009; USDA, response to SIGAR data call, 4/2009;
CRS, response to SIGAR data call, 1/8/2014; DFAS, response to SIGAR data call, 10/16/2014 and 7/17/2014; P.L. 113-76, 1/17/2014; P.L. 113-6, 3/26/2013; P.L. 112-74, 12/23/2011; P.L.
112-10, 4/15/2011; P.L. 111-212, 10/29/2010; P.L. 111-118, 12/19/2009; FY 2010 Defense Explanatory Statement.

                AIF

                                                                      72                            SPECIAL INSPECTOR GENERAL                 I   AFGHANISTAN RECONSTRUCTION
               DOD
                                                           STATUS OF FUNDS




The Consolidated Appropriations Act, 2014, provided an additional                                                                TABLE 3.5
$7.44 billion for FY 2014, as shown in Figure 3.6. Of this amount, nearly                                                         FY 2014 APPROPRIATIONS
$4.73 billion was appropriated to the Afghanistan Security Forces Fund.91                                                         COMPARED TO THE FY 2015 BUDGET
                                                                                                                                  REQUEST ($ MILLIONS)
    On September 19, 2014, President Obama signed the Continuing
                                                                                                                                                        FY 2014            FY 2015 Req
Appropriations Resolution, 2015, funding the government through
                                                                                                                                  ASFF                  $4,726                $4,109
December 11, 2014, at the FY 2014 enacted levels. The FY 2015 budget                                                              CERP                        30                    15
request for the seven major reconstruction funds is approximately 5%                                                              AIF                       199                       0
lower than the amount appropriated these funds for FY 2014. DOD is not                                                            TFBSO                       64                      5
requesting funds for the Afghanistan Infrastructure Fund for FY 2015 and                                                          DOD CN                      86                  148
is requesting only $5 million for the Task Force for Business and Stability                                                       ESF                       852                 1,225
Operations, as shown in Table 3.5.                                                                                                INCLE                     225                   325
    As reported in prior quarters, a significant amount of reconstruction                                                         TOTAL                $6,182                $5,827
funding is still in the pipeline. Approximately $14.47 billion remains for
                                                                                                                                 Note: Numbers have been rounded. TFBSO amount excludes
potential disbursement. For more information about the reconstruction                                                            funding used for the task force’s operational costs.

funding pipeline, see pages 68–69.                                                                                               Source: OMB, “Amendments to the President’s Fiscal Year (FY)
                                                                                                                                 2015 Overseas Contingency Operations (OCO) Request for the
                                                                                                                                 Department of Defense (DOD) and the Department of State
FIGURE 3.6                                                                                                                       and Other International Programs (State/OIP),” 6/26/2014;
                                                                                                                                 State, response to SIGAR data call, 4/15/2014; OMB,
APPROPRIATIONS BY FISCAL YEAR, AMOUNT, AND CATEGORY ($ BILLIONS)                                                                 response to SIGAR data call, 7/16/2014.




$18

$17                                                                               $16.71
$16                                                                                                      $15.86

$15                                                                                                                            $14.70
$14

$13

$12

$11                                                        $10.41
              $10.04
$10                                                                                                                                                   $9.67
 $9

 $8                                                                                                                                                                           $7.44
 $7
                                     $6.19
 $6

 $5

 $4

 $3

 $2

 $1

 $0
              2007                   2008                   2009                   2010                  2011                   2012                   2013                   2014

                                      Security            Governance/Development               Humanitarian             Civilian Operations                 Total

Note: Numbers have been rounded. Total funding decreased this quarter due to a reduction in DOD CN funding. DOD transferred $179.5 million from FY 2013 AIF to the ESF for USAID's NEPS
transmission lines project. DOD reprogrammed $1 billion from FY 2011 ASFF. DOD reprogrammed $1 billion from FY 2012 ASFF. P.L. 113-6 rescinded $1 billion from FY 2012 ASFF. DOD reprogrammed
$178 million from FY 2013 ASFF. DOD transferred $101 million from FY 2011 AIF to FY 2011 ESF to fund an infrastructure project to be implemented by USAID.
Source: DOD, responses to SIGAR data call, 10/20/2014, 10/16/2014, 10/6/2014, 10/22/2012, 10/14/2009, and 10/1/2009; State, responses to SIGAR data call, 10/20/2014, 10/17/2014,
4/15/2014, 6/27/2013, 10/5/2012 and 6/27/2012; Treasury, response to SIGAR data call, 10/9/2014; OMB, responses to SIGAR data call, 7/14/2014, 7/19/2013 and 1/4/2013; USAID,
responses to SIGAR data call, 10/9/2014, 10/15/2010, 1/15/2010, and 10/9/2009; DOJ, responses to SIGAR data call, 10/17/2014 and 7/7/2009; USDA, response to SIGAR data call, 4/2009;
CRS, response to SIGAR data call, 1/8/2014; DFAS, response to SIGAR data call, 10/16/2014 and 7/17/2014; P.L. 113-76, 1/17/2014; P.L. 113-6, 3/26/2013; P.L. 112-74, 12/23/2011; P.L.
112-10, 4/15/2011; P.L. 111-212, 10/29/2010; P.L. 111-118, 12/19/2009; FY 2010 Defense Explanatory Statement.




REPORT TO THE UNITED STATES CONGRESS                       I   OCTOBER 30, 2014                                   73
                                                       STATUS OF FUNDS
 ASFF    CERP   AIF    TFBSO DODCN    ESF    INCLE




                DOD                  USAID State




                                                       AFGHANISTAN SECURITY FORCES FUND
  ASFF                                                 The Congress created the Afghanistan Security Forces Fund (ASFF) to
                                                       provide the ANSF with equipment, supplies, services, training, and funding,
                                                       as well as facility and infrastructure repair, renovation, and construction.92
                DOD                                    The primary organization responsible for building the ANSF is the North
                                                       Atlantic Treaty Organization Training Mission-Afghanistan/Combined
ASFF FUNDS TERMINOLOGY                                 Security Transition Command-Afghanistan.93 A financial and activity plan
DOD reported ASFF funds as appropriated,               must be approved by the Afghanistan Resources Oversight Council (AROC)
obligated, or disbursed                                before ASFF funds may be obligated.94
Appropriations:
      CERP      Total monies available for                The Consolidated Appropriations Act, 2014, appropriated nearly
commitments                                            $4.73 billion for the ASFF for FY 2014, increasing total cumulative funding
Obligations: Commitments to pay monies                 to nearly $57.33 billion.95 As of September 30, 2014, more than $51.77 billion
                DOD                                    of total ASFF funding had been obligated, of which nearly $48.94 billion had
Disbursements: Monies that have been
                                                       been disbursed.96 Figure 3.7 displays the amounts made available for the
expended
                                                       ASFF by fiscal year.
Source: DOD, response to SIGAR data call, 4/13/2010.      DOD reported that cumulative obligations increased by more than
                                                       $1.74 billion over the quarter, and cumulative disbursements increased by
                          DOD CN
                                                       nearly $712.11 million.97 Figure 3.8 provides a cumulative comparison of
                                                       amounts made available, obligated, and disbursed for the ASFF.
                DOD                                    FIGURE 3.7                                                         FIGURE 3.8

                                                       ASFF APPROPRIATED FUNDS BY FISCAL YEAR ASFF FUNDS, CUMULATIVE COMPARISON
                                                       ($ BILLIONS)                                                      ($ BILLIONS)



                                     ESF               $12.0                                                             $60.0
                                                                                                                                               Appropriated             Appropriated
                                                                                                                                               $57.33                   $57.33
                                     USAID             $10.0                                                             $55.0

                                                                                                                                                                        Obligated
                                                                                                                                               Obligated                $51.77
                                                        $8.0                                                             $50.0
                                                                                                                                               $50.03                   Disbursed
                                                                                                                                               Disbursed                $48.94
                                                                                                                                               $48.23
                                             INCLE
                                                        $6.0                                                             $45.0


                                             State      $4.0                                                             $40.0



                                                        $2.0                                                             $35.0
                AIF

                                                        $0.0                                                                 $0
                                                                05 06 07 08 09 10 11a 12b 13c 14                                   As of Jun 30, 2014         As of Sep 30, 2014
                DOD
                                                       Note: Numbers have been rounded.
                                                       a DOD reprogrammed $1 billion of FY 2011 ASFF.
                                                       b DOD reprogrammed $1 billion of FY 2012 ASFF; another $1 billion was rescinded in P.L. 113-6.
                                                       c DOD reprogrammed $178 million of FY 2013 ASFF.

                      TFBSO                            Source: DFAS, "AR(M) 1002 Appropriation Status by FY Program and Subaccounts September 2014," 10/16/2014; DOD,
                                                       response to SIGAR data call, 7/17/2014; P.L. 113-76, 1/17/2014; P.L. 113-6, 3/26/2013.



                DOD
                                                           74                            SPECIAL INSPECTOR GENERAL                   I   AFGHANISTAN RECONSTRUCTION
                                                      STATUS OF FUNDS




ASFF BUDGET ACTIVITIES
DOD allocates funds to three budget activity groups within the ASFF:                                                  Budget Activity Groups: categories
•	 Defense Forces (Afghan National Army, ANA)                                                                         within each appropriation or fund account
•	 Interior Forces (Afghan National Police, ANP)                                                                      that identify the purposes, projects, or
•	 Related Activities (primarily Detainee Operations)                                                                 types of activities financed by the appro-
                                                                                                                      priation or fund
   Funds for each budget activity group are further allocated to four sub-
activity groups: Infrastructure, Equipment and Transportation, Training and                                           Subactivity Groups: accounting groups
Operations, and Sustainment.98 The AROC must approve the requirement                                                  that break down the command’s disburse-
                                                                                                                      ments into functional areas
and acquisition plan for any service requirements in excess of $50 mil-
lion annually and any non-standard equipment requirement in excess of
$100 million.99
   As of September 30, 2014, DOD had disbursed nearly $48.94 billion for                                            Source: DOD, “Manual 7110.1-M Department of Defense
                                                                                                                    Budget Guidance Manual,” accessed 9/28/2009; Department
ANSF initiatives. Of this amount, more than $32.40 billion was disbursed                                            of the Navy, “Medical Facility Manager Handbook,” p. 5,
                                                                                                                    accessed 10/2/2009.
for the ANA, and more than $16.17 billion was disbursed for the ANP; the
remaining nearly $364.49 million was directed to related activities.100
   As shown in Figure 3.9, the largest portion of the funds disbursed for
the ANA—nearly $12.45 billion—supported ANA troop sustainment. Of the
funds disbursed for the ANP, the largest portion—more than $6.31 billion—
also supported sustainment of ANP forces, as shown in Figure 3.10.101 

FIGURE 3.9                                                 FIGURE 3.10

ASFF DISBURSEMENTS FOR THE ANA                             ASFF DISBURSEMENTS FOR THE ANP
BY SUBACTIVITY GROUP,                                      BY SUBACTIVITY GROUP,
FY 2005–SEP 30, 2014 ($ BILLIONS)                          FY 2005–SEP 30, 2014 ($ BILLIONS)


                    Total: $32.40                                             Total: $16.17


Infrastructure                            Training and     Infrastructure                            Training and
                                                           $2.86                 Equipment and       Operations
$5.31                  Equipment and      Operations                             Transportation      $3.40
                       Transportation     $3.20                                  $3.61
                       $11.44


                 Sustainment
                 $12.45                                                     Sustainment
                                                                            $6.31



Note: Numbers have been rounded.
Source: DFAS, "AR(M) 1002 Appropriation Status by FY Program and Subaccounts September 2014," 10/16/2014.




REPORT TO THE UNITED STATES CONGRESS                  I   OCTOBER 30, 2014                              75
                                                       STATUS OF FUNDS
  ASFF



                DOD




                                                       COMMANDER’S EMERGENCY RESPONSE PROGRAM
         CERP                                          The Commander’s Emergency Response Program (CERP) enables U.S.
                                                       commanders in Afghanistan to respond to urgent humanitarian relief and
                                                       reconstruction requirements in their areas of responsibility by supporting
                DOD                                    programs that will immediately assist the local population. Funding under
                                                       this program is intended for small projects that are estimated to cost less
CERP FUNDS TERMINOLOGY                                 than $500,000 each.102 Projects with cost estimates exceeding $1 million are
DOD reported CERP funds as appropriated,               permitted, but they require approval from the Commander of U.S. Central
obligated, or disbursed                                Command; projects over $5 million require approval from the AROC. CERP-
                         DOD CN
Appropriations: Total monies available for             funded projects may not exceed $20 million.103 
commitments                                               The Consolidated Appropriations Act, 2014, appropriated $30 million
                                                       for CERP, increasing total cumulative funding to nearly $3.67 billion.104 Of
Obligations:DOD
             Commitments to pay monies
                                                       this amount, DOD reported that nearly $2.28 billion had been obligated, of
Disbursements: Monies that have been                   which nearly $2.26 billion had been disbursed as of September 30, 2014.105
expended                                               Figure 3.11 shows CERP appropriations by fiscal year, and Figure 3.12 pro-
Source: DOD, response to SIGAR data call, 4/14/2010.
                                                       vides a cumulative comparison of amounts appropriated, obligated, and
                                    ESF                disbursed for CERP projects.

                                                       FIGURE 3.11                                                  FIGURE 3.12
                                   USAID
                                                       CERP APPROPRIATIONS BY FISCAL YEAR                          CERP FUNDS, CUMULATIVE COMPARISON
                                                       ($ MILLIONS)                                                ($ BILLIONS)




                                           INCLE       $1,000                                                      $4.0
                                                                                                                                        Appropriated              Appropriated
                                                                                                                   $3.6                 $3.67                     $3.67

                                            State       $800                                                       $3.2

                                                                                                                   $2.8

                                                        $600                                                       $2.4                 Obligated                 Obligated
                AIF                                                                                                                     $2.28                     $2.28
                                                                                                                   $2.0                 Disbursed                 Disbursed
                                                                                                                                        $2.26                     $2.26
                                                        $400                                                       $1.6
                DOD
                                                                                                                   $1.2

                                                        $200                                                       $0.8

                      TFBSO                                                                                        $0.4

                                                           $0                                                      $0.0
                                                                04 05 06 07 08 09 10 11 12 13 14                          As of Jun 30, 2014           As of Sep 30, 2014
                DOD
                                                       Note: Numbers have been rounded. Data may include inter-agency transfers.
                                                       Source: DOD, responses to SIGAR data call, 10/20/2014 and 7/17/2014; OMB, response to SIGAR data call, 1/4/2013;
                                                       P.L. 113-76, 1/17/2014; P.L. 113-6, 3/26/2013; P.L. 112-74, 12/23/2011; P.L. 112-10, 4/15/2011.




                                                          76                           SPECIAL INSPECTOR GENERAL                  I   AFGHANISTAN RECONSTRUCTION
                                                                                                                                                               USAID

                                                           STATUS OF FUNDS
                                                                                                                                                                       INCLE



                                                                                                                                                                       State



AFGHANISTAN INFRASTRUCTURE FUND
The Afghanistan Infrastructure Fund (AIF) was established in FY 2011                                                                       AIF
to pay for high-priority, large-scale infrastructure projects that support
the U.S. civilian-military effort. Congress intended for projects funded by
the AIF to be jointly selected and managed by DOD and State. The AROC                                                                     DOD

must approve all AIF-funded projects and project-execution plans, and the
Secretaries of State and Defense must notify Congress with details of the                                                   AIF FUNDS TERMINOLOGY
proposed project, including a plan for its sustainment and a description of                                                 DOD reported AIF funds as appropriated,
                                                                                                                                             TFBSO
                                                                                                                            obligated, or disbursed
how it supports the counter-insurgency strategy in Afghanistan.106
   The Consolidated Appropriations Act, 2014, appropriated $199 million                                                     Appropriations: Total monies available for
for the AIF. During the quarter, DOD transferred $179.5 million of FY 2013                                                  commitmentsDOD
AIF funds to the Economic Support Fund for USAID’s Northeast Power                                                          Obligations: Commitments to pay monies
System transmission lines project, decreasing AIF’s cumulative appropri-
                                                                                                                            Disbursements: Monies that have been
ated amount to $1.04 billion from the $1.22 billion reported last quarter.
                                                                                                                            expended
To date, $280.5 million has been transferred to USAID to carry out AIF-
funded projects.107 Figure 3.13 shows AIF appropriations by fiscal year. As                                                 Source: DOD, response to SIGAR data call, 4/13/2012.

of September 30, 2014, nearly $751.63 million of total AIF funding had been
obligated, of which more than $296.91 million had been disbursed, as shown
in Figure 3.14.108

FIGURE 3.13                                                 FIGURE 3.14

AIF APPROPRIATIONS BY FISCAL YEAR                           AIF FUNDS, CUMULATIVE COMPARISON
($ MILLIONS)                                                ($ MILLIONS)




$800                                                        $1,400

                                                                                   Appropriated
                                                            $1,200                 $1,223.00

$600                                                                                                         Appropriated
                                                            $1,000                                           $1,043.50


                                                               $800
                                                                                                             Obligated
$400                                                                               Obligated                 $751.63
                                                                                   $701.55
                                                               $600


                                                               $400
$200
                                                                                   Disbursed                 Disbursed
                                                                                   $273.95                   $296.91
                                                               $200


   $0                                                            $0
          2011a         2012         2013b         2014               As of Jun 30, 2014            As of Sep 30, 2014

Note: Numbers have been rounded.
a FY 2011 figure excludes $101 million that was transferred to USAID to execute an AIF project.
b FY 2013 figure excludes $179.5 million that was transferred to USAID to execute an AIF project.

Source: DFAS, "AR(M) 1002 Appropriation Status by FY Program and Subaccounts September 2014," 10/16/2014; DFAS,
"AR(M) 1002 Appropriation Status by FY Program and Subaccounts June 2014," 7/18/2014; P.L. 113-76, 1/17/2014; P.L.
113-6, 3/26/2013; P.L. 112-74, 12/23/2011; P.L. 112-10, 4/15/2011.




REPORT TO THE UNITED STATES CONGRESS                       I   OCTOBER 30, 2014                                  77
                                           State

                                                       STATUS OF FUNDS
               AIF



              DOD



                                                       TASK FORCE FOR BUSINESS AND STABILITY OPERATIONS
                     TFBSO                             In 2010, the Task Force for Business and Stability Operations (TFBSO)
                                                       began operations in Afghanistan aimed at stabilizing the country and coun-
                                                       tering economically motivated violence by decreasing unemployment and
              DOD                                      creating economic opportunities for Afghans. TFBSO projects include activ-
                                                       ities that facilitate private investment, industrial development, banking and
TFBSO FUNDS TERMINOLOGY                                financial-system development, agricultural diversification and revitalization,
DOD reported TFBSO funds as appropriated,              and energy development.109
obligated, or disbursed                                    Through September 30, 2014, the TFBSO has been appropriated more
Appropriations: Total monies available for             than $122.24 million for FY 2014, increasing cumulative appropriations
commitments                                            for the task force to nearly $814.83 million.110 Of this amount, more than
Obligations: Commitments to pay monies                 $767.78 million had been obligated and more than $595.12 million had been
                                                       disbursed.111 Figure 3.15 displays the amounts appropriated for TFBSO
Disbursements: Monies that have been
                                                       projects by fiscal year, and Figure 3.16 provides a cumulative comparison
expended
                                                       of amounts made available, obligated, and disbursed for TFBSO projects.
Source: DOD, response to SIGAR data call, 4/13/2010.
                                                       FIGURE 3.15                                                  FIGURE 3.16

                                                       TFBSO APPROPRIATIONS BY FISCAL YEAR                           TFBSO FUNDS, CUMULATIVE COMPARISON
                                                       ($ MILLIONS)                                                  ($ MILLIONS)

                                                                                                                                           Appropriated             Appropriated
                                                       $250                                                          $800                                           $814.83
                                                                                                                                           $809.53

                                                                                                                     $700                 Obligated                 Obligated
                                                                                                                                          $741.16                   $767.78
                                                       $200
                                                                                                                     $600                 Disbursed                 Disbursed
                                                                                                                                          $578.99                   $595.12

                                                                                                                     $500
                                                       $150

                                                                                                                     $400

                                                       $100
                                                                                                                     $300

                                                                                                                     $200
                                                        $50
                                                                                                                     $100

                                                         $0                                                             $0
                                                              2009 2010 2011 2012 2013 2014                                  As of Jun 30, 2014           As of Sep 30, 2014

                                                       Note: Numbers have been rounded. Of the $814.83 million appropriated for the TFBSO, $358.03 million was from the
                                                       Army’s Operations and Maintenance account to pay for the sustainment of U.S. assets, civilian employees, travel, security,
                                                       and other operational costs.
                                                       Source: DOD, responses to SIGAR data call, 10/6/2014, 7/8/2014, and 10/4/2011; P.L. 113-76, 1/17/2014; P.L.
                                                       113-6, 3/26/2013; P.L. 112-74, 12/23/2011; P.L. 112-10, 4/15/2011.




                                                          78                            SPECIAL INSPECTOR GENERAL                   I   AFGHANISTAN RECONSTRUCTION
                                                                                                                                          DOD




                                                         STATUS OF FUNDS
                                                                                                                                   CERP



                                                                                                                                           DOD




DOD DRUG INTERDICTION AND COUNTER-DRUG ACTIVITIES
DOD’s Drug Interdiction and Counter-Drug Activities fund (DOD CN) sup-                                                                                DOD CN
ports efforts to stabilize Afghanistan by combating the drug trade and related
activities.112 DOD CN funds are appropriated by Congress to a single budget
line for all military services. DOD reprograms the funds from the Counter-                                                                DOD
narcotics Central Transfer Account (CTA) to the military services and defense
agencies, which track obligations of the transferred funds. DOD reported                                                  DOD CN FUNDS TERMINOLOGY
DOD CN accounts for Afghanistan as a single figure for each fiscal year.113                                               DOD reported DOD CN funds as appropriated,
   As of September 30, 2014, DOD CN has been appropriated $2.70 bil-                                                      obligated, or disbursed
                                                                                                                                                                    ESF
lion since 2004. Of this amount, nearly $2.62 billion had been transferred                                                Appropriations: Total monies available for
to the military services and defense agencies for DOD CN projects. DOD                                                    commitments
reported an overall funding reduction of $225.58 million for the DOD CN fund                                              Obligations: Commitments toUSAID
                                                                                                                                                      pay monies
from $2.93 billion reported last quarter to $2.70 billion due in part to the threat
                                                                                                                          Disbursements: Monies that have been
of sanctions against parts suppliers for the Russian Mi-17 helicopters used by
                                                                                                                          expended
the Afghan Air Force Special Mission Wing as well as reductions in the overall
scope of Afghanistan counternarcotics operational support from prior years.114                                            Source: DOD, response to SIGAR data call, 4/13/2010.
                                                                                                                                                                            INCLE
Figure 3.17 shows DOD CN appropriations by fiscal year, and Figure 3.18
provides a cumulative comparison of amounts appropriated and transferred
from the DOD CN CTA.                                                                                                                                                        State



FIGURE 3.17                                                  FIGURE 3.18
                                                                                                                                            AIF
DOD CN APPROPRIATIONS BY FISCAL YEAR                         DOD CN FUNDS, CUMULATIVE COMPARISON
($ MILLIONS)                                                 ($ BILLIONS)

$500                                                         $3.0                                                                         DOD
                                                                                Appropriated
                                                                                $2.93

                                                             $2.8
$400
                                                                                                         Appropriated
                                                                                                                                                  TFBSO
                                                                                                         $2.70
                                                                                Transferreda
                                                             $2.6                                       Transferred   a
                                                                                $2.61
$300                                                                                                    $2.62
                                                                                                                                          DOD
                                                             $2.4
$200

                                                             $2.2                                                         Note: Numbers have been rounded. Prior-year adjustments are
                                                                                                                          done periodically to reflect deobligation and/or realignment of
                                                                                                                          multi-year procurement funding. Obligations of FY14 appropriated
$100                                                                                                                      funds have been significantly lower than the planned $317.7
                                                                                                                          million. Factors causing the under-execution included a
                                                             $2.0                                                         temporary lapse in global DoD CN authorities that were absent
                                                                                                                          from the FY14 Continuing Resolution, tension in U.S.-Russia
                                                                                                                          political relations and the threat of sanctions against Mi-17 parts
  $0                                                           $0                                                         suppliers, and reductions in the overall scope of Afghanistan
       04 05 06 07 08 09 10 11 12 13 14                                                                                   operational support from prior years as the overall U.S. support
                                                                      As of Jun 30, 2014       As of Sep 30, 2014         footprint has declined.
                                                                                                                          a DOD reprograms all funds to the military services and defense
Source: DOD, responses to SIGAR data call, 10/20/2014 and 7/3/2014.                                                       agencies for obligation and disbursement.




REPORT TO THE UNITED STATES CONGRESS                     I   OCTOBER 30, 2014                               79
              DOD



                                                         STATUS OF FUNDS
                        DOD CN



              DOD




                                                         ECONOMIC SUPPORT FUND
                                    ESF                  Economic Support Fund (ESF) programs advance U.S. interests by helping
                                                         countries meet short- and long-term political, economic, and security needs.
                                                         ESF programs support counter-terrorism; bolster national economies; and
                                   USAID                 assist in the development of effective, accessible, independent legal systems
                                                         for a more transparent and accountable government.115
ESF FUNDS TERMINOLOGY                                       The ESF was appropriated $852 million for FY 2014. During the quar-
USAID reported ESF funds as appropriated,                ter, DOD transferred $179.5 million of FY 2013 AIF funds to the ESF for
obligated, or disbursed         INCLE                    USAID’s Northeast Power System transmission lines project, increasing
Appropriations: Total monies available                   cumulative funding for the ESF to more than $17.72 billion. Of this amount,
for commitments                                          more than $16.43 billion had been obligated, of which nearly $12.25 billion
                                            State        had been disbursed.116 Figure 3.19 shows ESF appropriations by fiscal year.
Obligations: Commitments to pay monies
                                                            USAID reported that cumulative obligations as of September 30, 2014,
Disbursements: Monies that have been
                                                         increased by nearly $1.74 billion from the amount reported last quarter.
expended
                                                         Cumulative disbursements as of September 30, 2014, increased by nearly
               AIF
Source: USAID, response to SIGAR data call, 4/15/2010.   $157.31 million over cumulative disbursements as of June 30, 2014.117 Figure
                                                         3.20 provides a cumulative comparison of the amounts appropriated, obli-
              DOD                                        gated, and disbursed for ESF programs.


                                                         FIGURE 3.19                                                     FIGURE 3.20
                     TFBSO
                                                         ESF APPROPRIATIONS BY FISCAL YEAR                               ESF FUNDS, CUMULATIVE COMPARISON
                                                         ($ BILLIONS)                                                    ($ BILLIONS)


              DOD
                                                         $3.5                                                            $18                                              Appropriated
                                                                                                                                              Appropriated
                                                                                                                                              $17.53                      $17.72
                                                                                                                                                                          Obligated
                                                         $3.0                                                            $16                                              $16.43

                                                                                                                                              Obligated
                                                         $2.5
                                                                                                                                              $14.69
                                                                                                                         $14

                                                         $2.0
                                                                                                                                              Disbursed                   Disbursed
                                                                                                                         $12                                              $12.25
                                                                                                                                              $12.09
                                                         $1.5

                                                                                                                         $10
                                                         $1.0

                                                                                                                           $8
                                                         $0.5


                                                         $0.0                                                              $0
                                                                02 03 04 05 06 07 08 09 10 11 12 13 14                          As of Jun 30, 2014           As of Sep 30, 2014

                                                         Note: Numbers have been rounded. FY 2011 figure includes $101 million that was transferred to the ESF from the Afghanistan
                                                         Infrastructure Fund (AIF). FY 2013 figure includes $179.5 million that was transferred to the ESF from the AIF.
                                                         Source: USAID, responses to SIGAR data call, 10/9/2014 and 7/10/2014; State, responses to SIGAR data call, 4/15/2014.




                                                             80                            SPECIAL INSPECTOR GENERAL                    I   AFGHANISTAN RECONSTRUCTION
                                                                                                                                        DOD



                                                            STATUS OF FUNDS
                                                                                                                                                              ESF



                                                                                                                                                             USAID




INTERNATIONAL NARCOTICS CONTROL
AND LAW ENFORCEMENT                                                                                                                                                  INCLE
The U.S. Bureau of International Narcotics and Law Enforcement Affairs
(INL) manages an account for advancing rule of law and combating narcot-
                                                                                                                                                                      State
ics production and trafficking—the International Narcotics Control and
Law Enforcement (INCLE) account. INCLE supports several INL program
groups, including police, counternarcotics, and rule of law and justice.118                                              INL FUNDS TERMINOLOGY
   State reported that INCLE was appropriated $225 million for FY 2014,                                                  INL reported INCLE and other INL funds as
                                                                                                                                     AIF
bringing cumulative funding for INCLE to more than $4.44 billion. Of this                                                appropriated, obligated, or disbursed
amount, more than $4.16 billion had been obligated, of which, more than                                                  Appropriations: Total monies available
$3.15 billion had been disbursed.119 Figure 3.21 shows INCLE appropriations                                              for commitments
                                                                                                                                    DOD
by fiscal year.                                                                                                          Obligations: Commitments to pay monies
   State reported that cumulative obligations as of September 30, 2014,
                                                                                                                         Disbursements: Monies that have been
increased by more than $600.55 million compared to cumulative obligations
                                                                                                                         expended
as of June 30, 2014. Cumulative disbursements as of September 30, 2014,                                                                       TFBSO
increased by nearly $150.55 million over cumulative disbursements as of                                                  Source: State, response to SIGAR data call, 4/9/2010.

June 30, 2014.120 Figure 3.22 provides a cumulative comparison of amounts
                                                                                                                                       DOD
appropriated, obligated, and disbursed for INCLE.

FIGURE 3.21                                                     FIGURE 3.22

INCLE APPROPRIATIONS BY FISCAL YEAR                             INCLE FUNDS, CUMULATIVE COMPARISON
($ MILLIONS)                                                    ($ BILLIONS)




$700                                                            $4.5             Appropriated             Appropriated
                                                                                 $4.41                    $4.44
                                                                                                          Obligated
$600                                                                                                      $4.16
                                                                $4.0

$500                                                                             Obligated
                                                                $3.5             $3.56

$400                                                                                                      Disbursed
                                                                                 Disbursed                $3.15
                                                                $3.0
                                                                                 $3.00
$300

                                                                $2.5
$200


$100                                                            $2.0


   $0                                                             $0
        02 03 04 05 06 07 08 09 10 11 12 13 14                         As of Jun 30, 2014       As of Sep 30, 2014

Note: Numbers have been rounded. Data may include inter-agency transfers.
Source: State, responses to SIGAR data call, 10/17/2014 and 7/16/2014.




REPORT TO THE UNITED STATES CONGRESS                        I   OCTOBER 30, 2014                             81
STATUS OF FUNDS




INTERNATIONAL RECONSTRUCTION FUNDING
FOR AFGHANISTAN
In addition to assistance provided by the United States, the international
community provides a significant amount of funding to support Afghanistan
relief and reconstruction efforts. As noted in previous SIGAR quarterly
reports, most of the international funding provided is administered through
trust funds. Contributions provided through trust funds are pooled and then
distributed for reconstruction activities. The two main trust funds are the
Afghanistan Reconstruction Trust Fund (ARTF) and the Law and Order
Trust Fund for Afghanistan (LOTFA).121

Contributions to the Afghanistan Reconstruction Trust Fund
The largest share of international contributions to the Afghan opera-
tional and development budgets comes through the ARTF. From 2002 to
September 22, 2014, the World Bank reported that 33 donors had pledged
nearly $7.92 billion, of which more than $7.26 billion had been paid in.122
According to the World Bank, donors had pledged more than $1.01 billion
to the ARTF for Afghan fiscal year 1393, which runs from December 21,
2013 to December 20, 2014.123 Figure 3.23 shows the 11 largest donors to the
ARTF for FY 1393.

FIGURE 3.23

ARTF CONTRIBUTIONS FOR FY 1393 BY DONOR, AS OF SEPTEMBER 22, 2014 ($ MILLIONS)

                                                    Total Commitments: $1,011       Total Paid In: $355
                                                                                                              431
   United States                          77
                                                         139
United Kingdom          0
                                               90
           EC/EU                          76
                                          77
        Germany         0
                                         70
            Japan                        70
                                    58
        Australia                   58
                               35
          Norway              33
                             26
     Netherlands        0
                            23
        Denmark         0
                            19
          Canada            19
                            17
           France       0
                             27
           Others           21

                    0                         100                200                300                 400         500
                                                        Commitments                           Paid In

Note: Numbers have been rounded. FY 1393 = 12/21/2013–12/20/2014.
Source: World Bank, ARTF: Administrator's Report on Financial Status as of September 22, 2014, p. 1.




    82                              SPECIAL INSPECTOR GENERAL                   I   AFGHANISTAN RECONSTRUCTION
                                       STATUS OF FUNDS




As of September 22, 2014, the United States had pledged more than                 FIGURE 3.24
$2.39 billion and paid in nearly $2.04 billion since 2002.124 The United States
                                                                                  ARTF CONTRIBUTIONS PAID IN BY
and the United Kingdom are the two biggest donors to the ARTF, together
                                                                                  DONORS, SY 1381 (2002)–
contributing 45% of its total funding, as shown in Figure 3.24.                   SEPTEMBER 22, 2014 (PERCENT)
   Contributions to the ARTF are divided into two funding channels—
the Recurrent Cost (RC) Window and the Investment Window.125 As of
                                                                                                  Total Paid In: $7.3 billion
September 22, 2014, according to the World Bank, nearly $3.14 billion of
ARTF funds had been disbursed to the Afghan government through the RC
Window to assist with recurrent costs such as salaries of civil servants.126                               United States
The RC Window supports the operating costs of the Afghan government                                        28%
because the government’s domestic revenues continue to be insufficient                                                  United
                                                                                                                        Kingdom
to support its recurring costs. To ensure that the RC Window receives ade-                          Others              17%
quate funding, donors to the ARTF may not “preference” (earmark) more                               39%
than half of their annual contributions for desired projects.127                                                                     Canada
                                                                                                                                     8%
   The Investment Window supports the costs of development programs. As
of September 22, 2014, according to the World Bank, more than $3.64 billion
                                                                                                                         Germany
had been committed for projects funded through the Investment Window, of                                                 7%
which nearly $2.70 billion had been disbursed. The World Bank reported 22
active projects with a combined commitment value of more than $2.33 bil-          Note: Numbers have been rounded. "Others" includes 29
                                                                                  donors.
lion, of which more than $1.39 billion had been disbursed.128                     Source: World Bank, ARTF: Administrator's Report on Financial
                                                                                  Status as of September 22, 2014, p. 5.

Contributions to the Law and Order Trust Fund for Afghanistan
The United Nations Development Programme (UNDP) administers the                   FIGURE 3.25
LOTFA to pay ANP salaries and build the capacity of the Ministry of
Interior.129 Since 2002, donors have pledged nearly $3.83 billion to the          DONOR CONTRIBUTIONS TO THE LOTFA
LOTFA, of which nearly $3.63 billion had been paid in, according to the           SINCE 2002, AS OF JUNE 30, 2014 (PERCENT)
most recent data available.130 The LOTFA’s sixth support phase started on
January 1, 2011. Phase VI was initially planned to end on March 31, 2013, but
after two extensions, the planned end date is currently December 31, 2014.131                     Total Paid In: $3.6 billion
In the 42 months since Phase VI began, the UNDP had transferred nearly
$1.76 billion from the LOTFA to the Afghan government to cover ANP and
Central Prisons Directorate staff remunerations and an additional $47.10 mil-
lion for capacity development and other LOTFA initiatives.132 As of June 30,                   United States          Japan
2014, donors had committed nearly $2.30 billion to the LOTFA for Phase VI.                     40%                    29%
Of that amount, the United States had committed nearly $967.10 million, and
Japan had committed more than $744.76 million. Their combined commit-                               Others        EU
ments make up nearly 75% of LOTFA Phase VI commitments. The United                                  13%           12%
States had committed more than $1.52 billion and paid in nearly $1.45 billion
to the LOTFA since the fund’s inception.133 Figure 3.25 shows the four largest                                  Germany
                                                                                                                6%
donors to the LOTFA since 2002, based on the latest data available.
                                                                                  Note: Numbers have been rounded. EU = European Union.
                                                                                  "Others" includes 18 donors.
                                                                                  Source: UNDP, Law and Order Trust Fund for Afghanistan
                                                                                  (LOTFA) 2014 Second Quarter Project Progress Report,
                                                                                  9/24/2014, p. 33; SIGAR analysis of UNDP's quarterly and
                                                                                  annual LOTFA reports, 10/19/2014.




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2014              83
SECURITY




SECURITY CONTENTS

Key Issues and Events This Quarter	                    85
U.S. Forces in Afghanistan	                            91
Despite Weaknesses in Contracting
Identified Two Years Ago, DOD’s
Accountability Remains a Concern	                      91
ANSF Strength	                                         92
Ministry of Defense and
Ministry of Interior Assessments
on Hold Until January	                                 96
Afghan Local Police 	                                  98
Afghan National Army	                                  98
Afghan National Police	                              106
ANSF Medical/Health Care	                            109
Removing Unexploded Ordnance	                        110
Counternarcotics	112




  84             SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                              SECURITY




SECURITY
As of September 30, 2014, the U.S. Congress had appropriated more than
$61.5 billion to support the Afghan National Security Forces (ANSF). Most
of these funds ($57.3 billion) were channeled through the Afghanistan
Security Forces Fund (ASFF) and obligated by either the Combined
Security Transition Command-Afghanistan (CSTC-A) or the Defense
Security Cooperation Agency. Congress established the ASFF to build,
equip, train, and sustain the ANSF, which comprises the Afghan National
Army (ANA) and the Afghan National Police (ANP). Of the $57.3 billion
appropriated for the ASFF, approximately $51.8 billion had been obligated
and $48.9 billion disbursed as of September 30, 2014.134
   This section gives an overview of U.S. funds used to build, equip, train,
and sustain the ANSF; and provides an update on efforts to combat the
cultivation of and commerce in illicit narcotics in Afghanistan. This section
also discusses the challenges of transitioning to Afghan-led security by the
end of this year.


KEY ISSUES AND EVENTS THIS QUARTER
Key issues and events this quarter include the signing of the U.S.-Afghan
Bilateral Security Agreement (BSA), the change of command of the
International Security Assistance Force (ISAF), the international commu-
nity’s renewed commitment to Afghanistan’s future at the NATO summit
in Wales, the transition of ISAF to its new support mission, the transition
of convoy and facility security responsibilities from the Afghan Public
Protection Force (APPF), and ongoing concerns about ANSF attrition lev-
els. In addition, the United Nations (UN) reported a continuing trend of
increased violence in Afghanistan.

Bilateral Security Agreement Finally Signed
After prolonged uncertainty and negotiation, the United States and
Afghanistan signed a bilateral security agreement that, among other things,
defines the legal status of U.S. forces in Afghanistan after 2014. The BSA—
or formally the Security Cooperation and Defense Agreement between the
United States of America and the Islamic Republic of Afghanistan—was




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2014             85
SECURITY




signed on September 30, 2014, one day after the inauguration of new
Afghan president Ashraf Ghani. President Ghani and newly appointed
Chief Executive Officer Abdullah Abdullah were on hand to witness U.S.
Ambassador James Cunningham and Afghan National Security Advisor
Mohammad Hanif Atmar sign the agreement.135
    Although the BSA does not establish how many U.S. troops will remain
in Afghanistan, it is a necessary condition for them to remain after 2014.136
President Obama announced in May that U.S. forces will be reduced to
approximately 9,800 by the beginning of 2015.137 The BSA enumerates pro-
tections that will be afforded to Department of Defense (DOD) military and
civilian personnel. As under the 2003 status of forces agreement, under the
BSA contractors are not immune from prosecution under the Afghan legal
system, but U.S. soldiers are.138 Among the many issues covered in the BSA,
the agreement also:139
 •	 reaffirms the United States’ obligation to develop, equip, and seek
    funding to support the ANSF
 •	 establishes agreement to develop measures for analyzing Afghanistan’s
    use of defense and security resources
 •	 requires semiannual assessments of actual performance of
    Afghanistan’s use of defense and security resources
 •	 develops a process for making timely cooperative assessments of
    internal and external threats to Afghanistan
 •	 directs that specific recommendations are made on enhancing
    information and intelligence sharing
 •	 makes available facilities and areas, without fee, to U.S. forces and
    authorizes those forces to control entry into those facilities and areas
 •	 authorizes U.S. forces to move freely by land, water, or air without
    being subject to fees
 •	 provides for the United States to enter into contracts in Afghanistan
    and directs both countries to “work together to improve transparency,
    accountability, and effectiveness of contracting processes in Afghanistan
    with a view to preventing misuse and bad contracting practices.”

    The new BSA arrives as most foreign troops are leaving and as the Taliban
is increasingly attacking areas around the country in an effort to regain con-
trol. According to DOD, the continued U.S. military presence in Afghanistan
after 2014 will encourage the international community to continue to provide
financial assistance to reconstruction programs, allowing Afghanistan to
maintain progress in the security, governance, and economic sectors.140
    Following the signing of the BSA, a Status of Forces Agreement was
signed by the Afghan national-security advisor and NATO’s senior civilian
representative to Afghanistan, Maurits R. Jochems.141 These agreements
provide the legal framework for the United States, NATO, and its partner
nations to continue their commitment to train, advise, and assist the ANSF.




  86                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                              SECURITY




NATO is expected to contribute 2,700 to 2,900 troops, bringing the total
post-2014 international troop presence to 12,500 to 12,700 personnel. Those
numbers will decline over the next year.142

ISAF Change of Command
On August 26, 2014, U.S. Army General John F. Campbell assumed com-
mand of the International Security Assistance Force (ISAF) from U.S.
Marine Corps General Joseph F. Dunford. Senior Afghan, NATO, and U.S.
officials, including Chairman of the Joint Chiefs of Staff, Army General
Martin E. Dempsey, attended the ceremony.143 General Campbell, who is on         U.S. Army General John Campbell takes
                                                                                 command of ISAF, August 26, 2014. (U.S.
his third tour in Afghanistan, will serve as the last ISAF commander before
                                                                                 Air Force photo)
the NATO transition to the Resolute Support Mission (RSM).144 The U.S.
Senate confirmed General Dunford as the 36th commandant of the U.S.
Marine Corps on July 23, 2014.145
                                                                                    “Tomorrow is going to
Wales Summit Declaration                                                          begin just like today with
On September 4, 2014, NATO allies and ISAF partners reaffirmed their               the men and women of
intent to conduct a noncombat train, advise, and assist mission in                ISAF focused on training,
Afghanistan beyond 2014 at a summit in Wales, United Kingdom.146 In a
declaration, participating heads of state and government reaffirmed their
                                                                                  advising and assisting the
commitment to the RSM, as well as their support for the financial sustain-         Afghan Security Forces
ment of the ANSF, and for a long-term NATO-Afghanistan partnership.147            as they secure the Afghan
As the ISAF mission comes to a close at the end of this year, the ANSF will         people. Tomorrow will
assume full responsibility for national security.148 The international com-
                                                                                     begin just like today,
munity reaffirmed its 2012 Chicago Summit commitment to provide over
$1 billion annually for ANSF sustainment through 2017.149 Participants also      coalition and Afghan forces
restated their aim that the Afghan government should assume full financial          taking the fight to the
responsibility for their security forces no later than 2024.150                        common enemy.”
Resolute Support Mission                                                                    —General Joseph F. Dunford
NATO’s new RSM advisory mission will commence at the beginning of 2015.
The RSM will advise the security ministries, ANA at the corps level, police
at the zone level, and Afghan special-operations forces at the tactical level.   Source: ISAF change of command ceremony, “Gen. Campbell
                                                                                 assumes ISAF command from Gen. Dunford,” 8/26/2014.
This noncombat mission will initially include approximately 12,000 troops.
Four NATO members have agreed to serve as “framework nations”: Turkey
will lead in the Kabul capital area, Germany in the north, Italy in the west,
and the United States in the south and east.151
   ISAF has developed a security-forces assistance framework that empha-
sizes improving the capacity of the defense and interior ministries and their
associated institutions to perform eight essential functions:152
•	 Planning, Programming, Budgeting, and Execution
•	 Internal Controls to Assure Transparency, Accountability, and Oversight
•	 Rule of Law and Governance
•	 Force Generation




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2014             87
SECURITY




•	 Force Sustainment
•	 Command and Control
•	 Intelligence
•	 Strategic Communications
As the RSM begins its work next year, SIGAR will follow its progress in sup-
porting the Afghan government and its security forces.

Transition of Afghan Public Protection Force Site Security
Responsibilities Remain Unresolved
The Afghan Public Protection Force (APPF), a state-owned enterprise
under the authority of the Ministry of Interior (MOI), was established to
provide contract-based facility and convoy-security services in Afghanistan
following President Karzai’s 2010 decree prohibiting operation of private
security companies.153 However, on February 17, 2014, the Council of
Ministers, acting on then-President Karzai’s orders, directed the APPF to
be dissolved and its guard functions transitioned to the ANP.154 The United
States has provided more than $51 million to support the APPF, which pro-
vided security for many U.S.-funded programs and projects.155
    In response to a SIGAR request for information about why the APPF was
dissolved, the NATO Training Mission-Afghanistan (NTM-A) explained that
the Minister of Interior on June 10, 2014, told ISAF that the APPF “worked,”
but President Karzai “was not happy with its existence.”156 It was not clear
why President Karzai was dissatisfied with a program he created. According
to NTM-A, four committees were tasked to develop a plan for transition-
ing APPF operations into the ANP. Although the committees reportedly
completed their work, the Minister of Interior, under considerable pressure
from President Karzai, was dissatisfied with the progress of the transition
and ordered the APPF’s convoy-security operations to transfer to the ANP
on May 22, 2014.157
    U.S. concerns about legal restrictions on using some U.S. reconstruction
funding to pay for police services resulted, to some degree, in the MOI revis-
ing their plan.158 One of those concerns was that the United States could end
up paying double for ANP security services: once under terms established
by the UN Law and Order Trust Fund for Afghanistan (LOTFA), and again
in direct convoy-security fees.159 Following conversations between the MOI,
U.S. Forces-Afghanistan (USFOR-A), and USAID, the MOI restructured its
security services into three parts:
 •	 Convoy security will be provided by the Convoy Transportation Guard
    Brigade (CTGB). CTGB, under the MOI, will provide fee-for-service
    convoy-escort services, using uniformed civilian contract employees.
    According to NTM-A, CTGB was 70% manned at the end of July.
    According to ISAF’s legal advisor, however, the final method by which
    convoy transportation guards are organized and paid is still in flux.160
 •	 The APPF will continue to provide security at fixed-site facilities.161




  88                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                              SECURITY




•	 The APPF-supported national business-operations center will continue
   to provide scheduling and invoicing for security services, collect funds,
   and reimburse the CTGB and APPF for guard salaries and operating
   expenses until an alternative is established. NTM-A reported that the
   Afghan National Security Council rejected MOI’s proposal to select a
   risk-management company to perform these functions.162

   As of August 2014, the APPF provided security for two ISAF forward
operating bases (FOBs): the New Kabul Compound (at a cost of $2.26 mil-
lion) and Camp Morehead ($704,600). Private security companies secured
                                                                                 Tashkil: List of personnel and equipment
an additional 36 FOBs, according to U.S. Central Command (CENTCOM).163
                                                                                 requirements used by the MOD and MOI
   According to NTM-A, the official number of APPF personnel is in flux          that detail authorized staff positions
due to tashkil changes, elimination of civilian billets assumed by the MOI,      and equipment items. The word means
and ANP assumption of functions. The most recent APPF unofficial person-         “organization” in Dari.
nel count is 16,981 authorized and 16,015 assigned.164
   NTM-A said “Discussions indicate MOI is working to establish a process
closely resembling APPF in order to mitigate concerns.”165 This again raises
                                                                               Source: GAO, GAO-08-661, Afghanistan Security, 6/2008,
the question of why the APPF is being dissolved.                               p. 18.



ANSF Attrition Remains a Concern
Attrition continues to be a major challenge for the ANSF. Between
September 2013 and August 2014, more than 36,000 ANA personnel were
dropped from ANA rolls.166 Moreover, the ANA continues to suffer serious
combat losses. Between March 2012 and August 2014, more than 2,850
ANA personnel were killed in action (KIA) and 14,600 were wounded in
action (WIA).167
   For the ANP, attrition fell from 2.35% for the month of July to 1.68% in
the month of August, the latest period for which SIGAR was provided data.
Unlike the ANA, the ANP does not report on personnel present for duty,
absent without leave, or killed or wounded in action. The ANP remains
short of its goal to maintain less than 1.4% monthly attrition.168

UN Reports Afghan Violence Continuing to Rise
According to the UN Secretary-General, the conflict in Afghanistan con-
tinues to intensify. In his September 9 report to the UN Security Council,
the Secretary-General said insurgent groups, international terrorists, and
associated networks took advantage of the protracted electoral crisis and
political uncertainty to mount major assaults around the country.169 As
reflected in Table 3.6 on the following page, the number of security inci-
dents continued to increase, with this period reflecting the second-highest
level of violence, after 2011, since the fall of the Taliban.170
   The majority of the security incidents once again occurred in the south,
south-east, and east.171 The UN recorded 211 assassinations and 30 failed
assassination attempts, an increase of 7.1% for both over the same period




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2014            89
                                                        SECURITY




                                                        TABLE 3.6


                                                        NUMBER OF SECURITY INCIDENTS
                                                                                                                 Number of                 Number            Average Number of
                                                         Time Period                                             Incidents                 of Days            Incidents per Day
                                                         November 16, 2013–February 15, 2014                        4,649                     92                     50.5
                                                         March 1–May 31, 2014                                       5,864                     92                     63.7
                                                         June 1–August 15, 2014                                     5,456                     76                     71.8
                                                         Total                                                   15,969                     260                     61.4
                                                        Source: UN Security Council, The Situation in Afghanistan and its implications for international peace and security, 9/9/2014,
                                                        p. 6, 6/18/2014, p. 5, and 3/7/2014, p. 5.



                                                        in 2013.172 Armed clashes (47.3%) and improvised explosive device (IED)
                                                        events (29.1%) accounted for 76.4% of all security incidents.173 The UN
                                                        reported that some insurgents attempted not only to capture but also to
                                                        hold territory through the use of “swarm attacks” consisting of several
                                                        hundred attackers attempting to overwhelm district administrative centers
                                                        and security checkpoints.174
                                                           Afghan and American commanders say the ANSF is holding well near
                                                        main cities, but are being tested as more remote districts come under
                                                        heavy attacks.176 Afghan interior minister Mohammad Omar Daudzai


                                                             In Tribute to Major General
                                                             Harold Joseph ‘Harry’ Greene

                                                             Army Major General Harold J. Greene,
                                                             Deputy Commanding General of CSTC-A,
  “In every job I had we got                                 was honored by a memorial ceremony on
   things done that I think                                  August 13. MG Greene was killed by an
                                                             Afghan soldier while visiting the Marshal
    made our Army better,                                    Fahim National Defense University in Kabul
  and it was done by other                                   on August 5. The two-star general was the
   people. All I did was try                                 highest-ranking U.S. military officer to be
  to pull people in the right                                killed in a hostile action since the terrorist
                                                             attack on the Pentagon on 9/11, and the
   direction and they went                                                                                                 (U.S. Army photo)
                                                             highest-ranking officer killed in an active
  out and did great things.”                                 combat zone since the Vietnam War. U.S.                       attended the ceremony. On August 24, the
                                                             Ambassador James Cunningham, Deputy                           Major General Harold J. Greene Building at
    —Major General Harold J. Green                           Ambassador P. Michael McKinley, General                       ISAF headquarters in Kabul was dedicated
                                                             Joseph F. Dunford, Afghan Defense Minister                    as a residential facility for the multinational
                                                             Bismillah Khan Mohammadi, Afghan General                      coalition service members and civilians. The
Source: WJLA, “Army Maj. Gen. Harold Greene, slain in
Afghanistan, buried with honors at Arlington National        Shir Karimi, Afghan General Mohammad                          general was interred with full military honors
Cemetery,” 8/14/2014.
                                                             Ayub Salangi, and ISAF and SIGAR personnel                    at Arlington National Cemetery.175




                                                            90                             SPECIAL INSPECTOR GENERAL                   I    AFGHANISTAN RECONSTRUCTION
                                                              SECURITY




testified to the Afghan parliament that the past six months had been the
deadliest of the 13-year-long conflict, with 1,368 ANP personnel killed
and 2,370 wounded since the beginning of the current Afghan year. Police
casualties have generally run at twice the level of Afghan Army casualties
through much of the war.177


U.S. FORCES IN AFGHANISTAN
According to ISAF, 25,000 U.S. forces were serving in Afghanistan as of          Coalition Forces Withdraw
September 29, 2014, a decrease of 7,800 since June 1, 2014.178 Approximately     Slovakia’s mission in Afghanistan came
12,154 Coalition forces were serving as of September 3, 2014.179 On May 27,      to an end with a ceremony at Kandahar
2014, President Obama announced U.S. forces in Afghanistan will reduce to        Airfield on September 22, 2014. The Slovaks
approximately 9,800 by January 2015 and will be reduced further through-         advised one of the ANA mobile strike force
                                                                                 kandaks and provided base defense.
out 2015.180 Since operations began in 2001, a total of 2,208 U.S. military
personnel have died in Afghanistan—83% of whom were killed in action—            Source: ISAF News, “Slovak land force ends mission in
                                                                                 Afghanistan,” 9/24/2014.
and 19,890 were wounded as of October 1, 2014.181


DESPITE WEAKNESSES IN CONTRACTING IDENTIFIED
TWO YEARS AGO, DOD’S ACCOUNTABILITY REMAINS
A CONCERN
In January 2012, more than 100 representatives of U.S. Central Command
(CENTCOM), USFOR-A, ISAF Joint Command, contracting organizations,
and others, held a contracting shura or conference in Kabul.182 The confer-
ence identified weaknesses in contracting including the “failure to enforce
existing standards, policies and procedures by all entities” involved in
federal contracting in Afghanistan.183 DOD reported to Congress in June
2012 that the shura “identified and agreed to pursue 26 actions to improve
contract oversight and management,” and stated that “Actions are well
under way.”184 SIGAR has repeatedly asked about the follow-up steps for the
shura, whose summary memo also noted “poor accountability” for enforc-
ing standards, policies and procedures.185
   As noted in the July 2014 Quarterly Report to the United States
Congress, DOD has provided SIGAR with descriptions of steps taken to
address the findings of the 2012 contracting conference. But it is unable to
provide instances of people or entities being held accountable for failing to
meet contracting standards.186 Moreover, an October 2014 SIGAR interview
with a Pentagon official indicated that DOD was not aware of any track-
ing mechanisms or metrics in place to determine whether the 26 follow-up
actions, if implemented, had achieved desired results.187 The official offered
to seek additional information, and noted that DOD has faced several chal-
lenges to contracting in Afghanistan, among them short deployment times,
rapid turnover, and the ongoing drawdown of personnel in country.




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2014             91
                                                                 SECURITY




                                                                    SIGAR recognizes the difficulties of contract management and oversight
                                                                 in combat zones and welcomes DOD’s initiative in launching follow-up
                                                                 actions, but finds its apparent shortfalls in tracking, results assessment, and
                                                                 accountability unfortunate and troubling. As DOD’s own current action plan
                                                                 notes, “Operational contract support (OCS) is a core defense capability and
                                                                 a critical component of total force readiness”; addressing shortfalls and
                                                                 transforming capability requires “an ‘owner’ for every task” and “continu-
                                                                 ous monitoring.”188 This is a sound judgment on an issue that is not confined
                                                                 to military doctrine. For example, a Massachusetts Institute of Technology
                                                                 presentation on “Project Management 101” lists “Track, Control, Report
                                                                 and Review” as a basic step in project management.189 In view of the costs
                                                                 and mission criticality of the continuing heavy reliance on contractors in
                                                                 Afghanistan and in DOD total-force planning, more energetic and thorough
                                                                 effort in tracking OCS-improvement results and monitoring accountability
                                                                 for noncompliance appears to be needed.


                                                                 ANSF STRENGTH
    SIGAR AUDIT                                                  This quarter, ANSF’s assigned force strength was 349,546, according to
                                                                 ISAF.190 This is 97% of the ANSF’s end-strength goal of 352,000 personnel.
    An ongoing SIGAR audit is assessing                          DOD’s goal to reach 352,000 ANSF by 2014 (187,000 ANA by December
    the reliability and usefulness of data                       2012, 157,000 ANP by February 2013, and 8,000 Air Force by December
    on the number of ANSF personnel                              2014) has mostly been met.191 The ANA is within 4%, the ANP is within 2.5%,
    authorized, assigned, and trained.                           and the Afghan Air Force (expected to reach its goal at the end of the year)
                                                                 is within 6% of their target end strength, as shown in Table 3.7.

TABLE 3.7


ANSF ASSIGNED FORCE STRENGTH, AUGUST 20, 2014
                                                                                                                                      Difference Between Current Strength
 ANSF Component                                      Current Target                          Status as of 8/2014                          and Target End-Strength Goals
 Afghan National Army                 187,000 personnel by December 2012                       181,439 (97%)                                        -5,561 (-4.1%)
 Afghan National Police               157,000 personnel by February 2013                       152,123 (97%)                                        -4,877 (-2.4%)
 Afghan Air Force                     8,000 personnel by December 2014                            6,731 (84%)                                       -1,269 (-5.9%)
 ANSF Total                           352,000                                                 340,293 (97%)                                      -11,707 (-3.4%)
 ANA Civilians                        8,004 personnel authorized                                  8,749 (109.3%)                                       745 (8.5%)
 AAF Civilians                        278 personnel authorized                                       227 (81.7%)                                        51 (-22.5%)
 ANSF Total with Civilians             360,282                                                349,546 (97.0%)                                     10,736 (-3.1%)
Source: DOD, Report on Progress Toward Security and Stability in Afghanistan, 12/2012, p. 56; CSTC-A response to SIGAR data call, 10/2/2014; SIGAR analysis 10/2/2014.




                                                                     92                           SPECIAL INSPECTOR GENERAL                 I   AFGHANISTAN RECONSTRUCTION
                                                                                     SECURITY




ANA Civilians’ Authorization Separated from ANA Strength
SIGAR has long been concerned about civilians being counted as part of
ANA force strength. Over the years, CSTC-A has sometimes counted civil-
ians in the ANA’s force strength and sometimes not counted them, as
reflected in Table 3.8.

TABLE 3.8


CIVILIANS COUNTED TOWARD ANA STRENGTH
                           Q2        Q3         Q4      Q1       Q2     Q3        Q4       Q1        Q2         Q3
                          2012      2012       2012    2013     2013   2013      2013     2014      2014       2014
 Civilians Included
                            Yes       No        No      No      Yes      Yes      Yes      Yes       Yes        No
 in Force Strength?
 Number of Civilians
                            NA        NA        NA     NA      7,806   8,698    9,336     9,486    9,647        0
 Included?

Note: Reflects calendar-year quarters; NA = unknown.

Source: CSTC-A responses to SIGAR data calls, 10/2/2014, 7/1/2014, 3/31/2014, 1/6/2014, 10/1/2013, 7/2/2013,
4/1/2013, 1/2/2013, 10/1/2012, and 7/2/2012.



    In February 2012, a DOD Office of Inspector General (DOD OIG) report
identified counting civilians as part of the ANA as a risk. In that report, the
DOD OIG found that ANA finance officers had “coded” civilian personnel
as military or armed forces personnel and included them for payment by
CSTC-A, despite an agreement between NTM-A/CSTC-A and the Ministry
of Defense (MOD) that only military personnel would be reimbursed. At
that time, CSTC-A finance personnel were unaware that civilians had been
included for military pay.192
    According to the Center for Naval Analyses’ (CNA) independent assess-
ment released earlier this year, “uniformed ANSF positions in the MOD
and MOI should be civilianized. If civilians with the appropriate expertise
cannot be recruited or trained for these positions—or if active-duty ANSF
personnel cannot be transitioned to the civil service—then ANSF force
structure will need to be increased to accommodate them.”193
    This quarter, CSTC-A reported separate authorizations for ANA military
and civilian positions:194
 •	 Military:	195,000                                                                                                   Civilian position: a civilian that is included
 •	 Civilian:	8,004                                                                                                     in the ANA authorized end strength count.
 •	 Total:	203,004

  This quarter, CSTC-A reported 8,976 civilians assigned to the ANA and                                               Source: CSTC-A, response to SIGAR vetting, 4/10/2014.
Afghan Air Force—12% above the authorized level for civilian positions.195




REPORT TO THE UNITED STATES CONGRESS                     I    OCTOBER 30, 2014                                 93
SECURITY




ANSF Assessment’s Classification Raises Concerns
for Transparency and Oversight
The ANSF capability assessments prepared by the ISAF Joint Command
(IJC) have recently been classified, leaving SIGAR without a critical tool to
publicly report on development of the ANSF.196
    This is a significant change. SIGAR has routinely reported on assess-
ments of the ANA and ANP as indicators of the effectiveness of U.S. and
Coalition efforts to build, train, equip, and sustain the ANSF. These assess-
ments provide both U.S. and Afghan stakeholders—including the American
taxpayers who pay the costs of recruiting, training, feeding, housing, equip-
ping, and supplying Afghan soldiers—with updates on the status of these
forces as transition continues and Afghanistan assumes responsibility for
its own security.
    ISAF uses the Regional ANSF Status Report (RASR) to rate the ANSF.197
According to the IJC, the RASR provides a monthly operational-level
update on readiness, long-term sustainability, and associated shortfalls of
the ANA and ANP.198 From its inception until this quarter, the RASR execu-
tive summary, which provides a high-level overview of ANSF corps-level
units across several operational effectiveness pillars, was unclassified. The
remainder of the RASR, which assessed individual units in a more qualified
and detailed way, was classified. From the RASR’s foreword: “The [then-
unclassified] EXSUM presents a synthesized analysis of observations and
identified shortfalls, highlighting main findings and most pressing issues
that hamper ANSF long-term sustainability.”199
    SIGAR’s reporting has been taken from the executive summary at an
aggregated corps level, not at an operational or tactical level that might be
of use to Afghan insurgents’ attack planning. It is not clear what security
purpose is served by denying the American public even high-level informa-
tion. SIGAR will continue to press for explanations of the classification
change and seek some modification of this serious obstacle to its oversight
role in the security area of reconstruction. Until such time as parts of the
ANSF assessment are again unclassified, SIGAR will report on developmen-
tal progress and/or shortfalls from other sources.

Afghan Training Advances
During September, two graduation ceremonies occurred to mark mobile
strike force (MSF) training achievements. ANA soldiers completed three
months of intense training before being commissioned into the 7th MSF.
They were the last graduating class in this program; new training programs
are being developed to better prepare Afghan forces to assume sole respon-
sibility for combat missions at the end of this year. The new training will
provide enhanced capabilities by integrating all specialty branches—armor,
artillery, and infantry—for training, equipping, and deploying as combined-
arms units.200




  94                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                                                    SECURITY




   Also in September, 51 Afghan soldiers constituted the first graduating
class of Mine-Resistant Ambush Protected (MRAP) vehicle and MRAP
Recovery Vehicle (MRV) operators. The course covered MRAP operation,
preventive maintenance, and driving. Training also included operating
MRVs, the large support vehicles capable of righting overturned MRAPs or
transporting damaged vehicles back to a base for repair.201
   By next summer, the ANA plans to have over 500 soldiers trained to oper-
ate the Afghan fleet of 200 MRAPs and 20 MRVs. The course will include
training select Afghans how to teach the MRAP/MRV courses to future
classes of Afghan soldiers.202

ANSF to Begin Providing Literacy Training but Planning Lags
Both the MOD and MOI agreed in April to full ownership of their respective
literacy programs beginning January 1, 2015.203 The ANSF, with the advice and
assistance of NTM-A, was to have finalized program and contracting plans
by July 31, 2104, six months before the NTM-A contracts end.204 However no
progress report has been received. The MOD and MOI are to develop:205
 •	 centralized institutional literacy training for new recruits at regional
    training centers
 •	 an organic literacy-training capability via a train-the-trainer program

   NTM-A will continue to assist with literacy training contracting support.
However, MOD and MOI procurement advisors are to take the lead for the
final transition in January 2015.206
   The NTM-A literacy program was to provide basic literacy training
(Dari/Pashto reading and writing) to the ANSF and to develop the organic
capability to teach basic literacy training.207 The NTM-A has met its goal to
have 100,000 ANSF personnel (both ANA and ANP) functionally literate by
December 2014. Further, NTM-A is unable to confirm how many of those
trained personnel are still in the ANSF due to lack of personnel-tracking
capabilities within the ANSF.208 NTM-A estimated that “due to attrition less
than 30% of the ANSF will be functionally literate [level 3 literacy] by the
end of December 2014.”209
   NTM-A reported the number of ANSF personnel who have completed
each literacy program level as of August 1, 2014, which is shown in
Table 3.9.

TABLE 3.9


ANSF LITERACY TRAINING, AS OF AUGUST 1, 2014
 Literacy Trained                  ANA                    ANP          Total ANSF      Goal End 2014
 Level 1                        185,030             100,908             285,938        Up to 300,000
 Level 2                          68,556              64,749            133,305      120,000–130,000
 Level 3                          64,426              43,909            108,335      100,000–110,000
Source: CSTC-A, response to SIGAR data call, 10/6/2014.




REPORT TO THE UNITED STATES CONGRESS                       I    OCTOBER 30, 2014                   95
SECURITY




   Level 1 literacy is the ability to read and write single words, count up
to 1,000, and add and subtract whole numbers. At level 2, an individual
can read and write sentences, carry out basic multiplication and division,
and identify units of measurement. At level 3, an individual has achieved
functional literacy and can “identify, understand, interpret, create, commu-
nicate, compute, and use printed and written materials.”210
   From 2010 through 2013, the United States has funded literacy training
contracts for the ANSF. Beginning in 2014, the NATO Trust Fund provided
$24.6 million funding for the literacy contracts. The final task orders for
those contracts will expire on December 31, 2014, at which time, the liter-
acy program will transition to the Afghan government. It will be the Afghan
government’s responsibility to establish their own contracts and request
funds from NATO to pay for those contracts.211 According to USFOR-A, the
NATO ANA Trust Fund has identified ANA literacy training funds for 2015.212
   A SIGAR audit of ANSF literacy training in January highlighted NTM-A’s
inability to fully measure the effectiveness of the literacy program for lack of
independent verification of testing or personnel tracking.213 NTM-A proposed
an improved program plan, incorporating five years of lessons learned, for
the MOD and MOI. NTM-A recommended that ANSF utilize the Ministry of
Education (MOE) for personnel verification and tracking and capitalize on
the MOE’s organic “train the trainer” capability currently being developed.214


MINISTRY OF DEFENSE AND MINISTRY OF INTERIOR
ASSESSMENTS ON HOLD UNTIL JANUARY
The assessment process for Afghan ministries is on hold until January.
The DOD reported this quarter that the ministerial-development planning
process for the MOD and MOI is undergoing a complete rewrite.215 The
objective is to have the new process in place to perform ministerial assess-
ments for the period October–December 2014.216
   The final assessments under the Capability Milestone (CM) rating
system, as reported last quarter, reflected no rating improvements in devel-
oping MOD and MOI capacity to perform critical functions, as shown in
Figure 3.26. To rate the operational capability of these ministries, NTM-A
used this system to assess staff sections (such as the offices headed by
assistant or deputy ministers) and cross-functional areas (such as general
staff offices) using four primary and two secondary ratings:217
•	 CM-1A: capable of autonomous operations
•	 CM-1B: capable of executing functions with Coalition oversight
•	 CM-2A: capable of executing functions with minimal Coalition
   assistance
•	 CM-2B: can accomplish its mission but requires some Coalition
   assistance




  96                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                                                             SECURITY




FIGURE 3.26

CAPABILITY MILESTONE RATINGS OF MOD AND MOI, QUARTERLY STATUS

                                                               Ministry of Defense                                                                 Ministry of Interior

CM-1A: capable of                               1                                                                                              3
autonomous operations          CM-1A                                                                              CM-1A
                                           0                                                                                                   3
CM-1B: capable of                                                      6                                                                                            10
executing functions with       CM-1B                                                                              CM-1B
Coalition oversight only                                               6                                                                                                               15
CM-2A: capable of                                                               9                                                                           7
executing functions with       CM-2A                                                                              CM-2A
minimal Coalition assistance                                                    9                                                                       6

CM-2B: can accomplish its                                                                                    17                                         6
mission but requires some      CM-2B                                                                              CM-2B
Coalition assistance                                                                                    16                                              6
CM-3: cannot accomplish its                                4                                                                           2
mission without significant    CM-3                                                                               CM-3
Coalition assistance                                       4                                                                       1

CM-4: exists but cannot                    0                                                                                  0
accomplish its mission         CM-4                                                                               CM-4
                                           0                                                                                  0

                                       0             3             6        9           12        15         18           0                3        6           9         12      15         18


                                               Q1 2014 MOD Staff Sections           Q2 2014 MOD Staff Sections                    Q1 2014 MOI Staff Sections        Q2 2014 MOI Staff Sections


Note: MOD as of 6/30/2014. MOI as of 6/14/2014. Reflects downgrading of MOI Deputy Minister Counter Narcotics from CM-1B to CM-2A. Quarters are calendar-year.
Source: CSTC-A responses to SIGAR data calls, 3/31/2014, 7/1/2014, 7/3/2014, and 9/22/2014.




•	 CM-3: cannot accomplish its mission without significant Coalition
   assistance
•	 CM-4: exists but cannot accomplish its mission
                                                                                                                                           SIGAR SPECIAL PROJECT
                                                                                                                                           In a special project report released last
   The last quarterly CM ratings were for 35 MOD staff sections and cross-                                                                 year, SIGAR found that CSTC-A had
functional areas, down from 37 in prior quarters.218 Six MOD offices attained                                                              not conducted a comprehensive risk
the second-highest rating of CM-1B.219 Thirty-one staff sections at MOI were                                                               assessment of the capabilities of the
assessed. Three attained the highest rating of CM-1A: the Chief of Staff                                                                   MOD and MOI to manage and account
Public Affairs Office, the Deputy Minister for Security Office of the Afghan                                                               for U.S. direct-assistance dollars, of
National Civil Order Police, and the Deputy Minister of Security for Force                                                                 which $4.2 billion has been committed
Readiness. In addition, 15 MOI staff sections had attained a CM-1B rating.220                                                              and nearly $3 billion disbursed.
   The United States has provided $1.2 million for the MOD and $1.5 mil-
lion for the MOI for ministry development.221 ISAF has 191 personnel
assigned to or supporting it for advising the MOD, and another 231 for
advising the MOI.222




REPORT TO THE UNITED STATES CONGRESS                           I   OCTOBER 30, 2014                               97
                                            SECURITY




                                            AFGHAN LOCAL POLICE
                                            The Afghan Local Police (ALP) is under MOI authority and functions under
                                            the supervision of the district Afghan Uniform Police (AUP). ALP mem-
   SIGAR AUDIT                              bers are selected by village elders or local power brokers to protect their
   SIGAR has an ongoing audit               communities against Taliban attack, guard facilities, and conduct local
   on the Combined Joint Special            counterinsurgency missions.223 As of September 14, 2014, the ALP com-
   Operations Task Force-Afghanistan’s      prised 28,814 personnel, all but 4,298 of whom were fully trained, according
   implementation of the Afghan Local       to the NATO Special Operations Component Command-Afghanistan
   Police program.                          (NSOCC-A). The current goal is to have 30,000 personnel in 150 districts
                                            by the end of December 2014, assigned to 3,120 checkpoints across 29
                                            provinces.224
                                                As of September 29, 2014, $409.2 million of the ASFF had been obligated
                                            and expended to support the ALP.225 According to NSOCC-A, the ALP will
                                            cost $121 million per year to sustain once it reaches its target strength.226 To
                                            date the United States has provided the ALP with equipment such as rifles,
                                            machine guns, light trucks, motorcycles, and radios.227
                                                According to NSOCC-A, between October 1, 2013, and September 30,
                                            2014, the ALP had a retention rate of 93%. During that period, NSOCC-A
                                            reported a 1.6% attrition rate (losses not including casualties) while 6.4% of
                                            the force were killed or wounded in action.228
                                                The Afghan government has not determined the final disposition of the
                                            ALP or its funding source. However, NSOCC-A noted that post-transition
                                            funding depends on when transition takes place.229 According to DOD,
                                            U.S. government policy on funding the ALP has not yet been determined.230
                                            According to an independent assessment released last quarter, public per-
                                            ceptions of ALP’s value to community security are positive overall, although
                                            there is room for improvement.231 A second assessment, conducted by
                                            NSOCC-A based on data provided by Eureka Research and Evaluation focus-
                                            group surveys in ALP districts, is under way.232 This second assessment will
                                            in part evaluate if actions recommended in the first assessment were imple-
                                            mented and had the desired effect. Those recommendations were:233
                                             •	 support and supervision from the ANP
                                             •	 transparent, locally-owned recruitment processes
                                             •	 balanced tribal representation
                                             •	 regular information exchanges between community leaders and ALP
                                                commanders


                                            AFGHAN NATIONAL ARMY
                                            As of September 30, 2014, the United States had obligated $34.4 billion
                                            and disbursed $32.4 billion of ASFF funds to build, train, equip, and sus-
Afghan National Defense University, under   tain the ANA.234
construction, Kabul, September 2014.
(USACE photo)




                                              98                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                                                            SECURITY




ANA Strength
As of August 20, 2014, the overall end strength of the ANA was 195,257 per-
sonnel (187,427 Army and 7,830 Air Force), according to ISAF.235 However,
as noted previously, this quarter ISAF reported separate authorizations for
ANA military and civilian positions:236
•	 Military:	195,000
•	 Civilian:	8,004
•	 Total:	203,004

   The above end strength includes a total of 8,976 civilians (8,749 ANA
and 227 Air Force civilians).237 Overall, the total assigned is 96.5% of the
combined end-strength goal. However, the ANA civilian count exceeds its
authorization target by 9%; refer to Table 3.10 for details. All components
except for the special-operations forces (SOF) had a modest authorization
increase. Most components, however, experienced a decrease in the num-
ber of assigned personnel, as shown in Table 3.10. Personnel absent without
official leave (AWOL) increased from 5,746 last quarter to 8,610 this quarter,
but were still significantly less than the 10,292 reported AWOL in the last
quarter of 2013.238

TABLE 3.10


ANA STRENGTH, QUARTERLY CHANGE
                                                Authorized                                       Assigned
                                                                  Quarterly                                      Quarterly
 ANA Component                   Q2 2014         Q3 2014           Change         Q2 2014        Q3 2014          Change
 201st Corps                        18,130          18,205            75            17,606          17,401          (205)
 203rd Corps                        20,798          22,520         1,722            22,114          21,057       (1,057)
 205th Corps                        19,097          19,116            19            18,534          18,128          (406)
 207th Corps                        14,879          15,089           210            14,204          13,761          (443)
 209th Corps                        15,004          15,214           210            14,674          14,566          (108)
 215th Corps                        17,555          18,329           774            16,999          17,106            107
 111th Capital Division               9,174          9,410           236              8,356          8,866            510
 Special Operations Force           11,013          10,746         (267)            10,649           9,827          (822)
 Echelons Above Corpsa              36,002          37,713         1,711            36,610          38,248         1,638
 TTHSb                                      -       13,359        13,359             12,299         10,908       (1,391)
 Civilians                                  -        7,726         7,726              9,394          8,749          (645)
 ANA Total                       161,652        187,427            25,775        181,439         178,617        (2,822)
 Afghan Air Force (AAF)               7,370          7,552             182            6,478          6,695            217
 AAF Civilians                              -           278            278              253             227          (26)
 ANA + AAF Total                 169,022        195,257            26,235        188,170         185,539        (2,631)
Note: Quarters are calendar-year; Q2 2014 data as of 5/31/2014; Q3 2014 data as of 8/2014.
a Includes MOD, General Staff, and Intermediate Commands
b	Trainee, Transient, Holdee, and Student; these are not included in counts of authorized personnel; Q2 Assigned Includes
  4,701 cadets; Q3 Assigned includes 5,157 cadets

Source: CSTC-A, responses to SIGAR data calls, 7/1/2014 and 10/2/2014.




REPORT TO THE UNITED STATES CONGRESS                          I   OCTOBER 30, 2014                                   99
                                          SECURITY




                                             The decrease in SOF strength does not bode well, but simply increas-
                                          ing SOF numbers would not necessarily improve the ANSF’s ability to
                                          conduct special operations. The Center for Naval Analyses (CNA) said in
                                          a DOD-commissioned, independent assessment released earlier this year,
                                          “Afghanistan has a significant need for SOF, but the ANSF cannot support
                                          more SOF.”239 CNA also said “ANA SOF currently depends on the U.S. and
                                          ISAF for logistics, intelligence, and air mobility. Simply increasing the num-
                                          ber of ANA SOF personnel without addressing these support requirements
                                          would not increase the overall capability of SOF to disrupt insurgent and
                                          terrorist networks.”240

                                          ANA Attrition Challenges
                                          Attrition continues to be a major challenge for the ANA. Between
                                          September 2013 and August 2014, more than 36,000 ANA personnel were
                                          dropped from ANA rolls.241 The ANA continues to suffer serious losses
                                          from fighting. Between March 2012 and August 2014, more than 2,850
                                          ANA personnel were killed in action (KIA) and 14,600 were wounded in
                                          action (WIA).242

                                          ANA Sustainment
                                          As of September 30, 2014, the United States had obligated $13.4 billion and
                                          disbursed $12.4 billion of ASFF funds for ANA sustainment.243

                                          ANA Salaries, Food, and Incentives
                                          As of September 30, 2014, CSTC-A reported that the United States had
                                          provided $2.5 billion through the ASFF to pay for ANA salaries, food,
                                          and incentives since FY 2008. CSTC-A also estimated the annual amount
                                          of funding required for ANA base salaries, bonuses, and incentives at
SIGAR AUDIT                               $693.9 million. That estimate did not change from last quarter, but the allo-
                                          cation increased pay-related expenditures by $85.5 million and decreased
A SIGAR audit last quarter on the
                                          incentives by the same value. However, CSTC-A noted that funding is
ANA Mobile Strike Force (MSF) found
                                          provided on the basis of 100% of the ANA’s authorized strength. Since
that: the security environment limited
                                          December 21, 2013, CSTC-A no longer provides funding for food.244
the contractor from providing training
and maintenance services; U.S.
government oversight personnel had
                                          ANA Equipment, Transportation, and Ammunition
                                          After a challenging period which saw multiple corrections to the recorded
limited ability to visit MSF locations
                                          cost of equipment procured for the ANA, CSTC-A reported an increase in the
outside Kabul; an absence of spare
                                          total cost from $5.5 billion to $5.8 billion.245 The trend in total ANA weapons,
parts hindered vehicle operability; MSF
                                          vehicles, and communication equipment costs is shown in Table 3.11.
vehicle operators needed training;
                                             Additionally, CSTC-A reported the cost of ANA equipment remaining to
and difficulties had occurred with ANA
                                          be procured is $82.9 million, a slight decrease from last quarter.246
supply-chain ordering and distribution
                                             As of September 30, 2014, the United States had obligated $11.5 billion
of spare parts.
                                          and disbursed $11.4 billion of the ASFF for ANA equipment and transporta-
                                          tion.247 Most of these funds were used to purchase vehicles, weapons and




                                           100                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                                                    SECURITY




TABLE 3.11


CUMULATIVE U.S. COSTS TO PROCURE ANA EQUIPMENT ($ MILLIONS)
                                  Weapons                  Vehicles      Communications             Total
 April 2013                       $878.0                  $5,556.5          $580.5                $7,015.0
 July 2013                         622.8                    5,558.6          599.5                 6,780.9
 October 2013                      447.2                    3,955.0          609.3                 5,011.5
 December 2013                     439.2                    4,385.8          612.2                 5,437.2
 March 2014                        461.2                    4,385.8          670.3                 5,517.3
 July 2014                         461.2                    4,385.8          670.3                 5,517.3
 September 2014                    522.3                    4,638.9          688.2                 5,849.4
Source: CSTC-A, responses to SIGAR data calls, 4/1/2013, 7/2/2013, 10/1/2013, 12/30/2013, 3/31/2013, 7/1/2014, and
9/29/2014.


related equipment, communications equipment, aircraft, and aviation-
related equipment. More than 79% of U.S. funding in this category was for
vehicles and transportation-related equipment, as shown in Table 3.12.
TABLE 3.12

COST OF U.S.-FUNDED ANA WEAPONS, VEHICLES, AND COMMUNICATION
EQUIPMENT
 Type of Equipment                                        Procured                Remaining to be Procured
 Weapons                                            $522,336,282                          $13,803,951
 Vehicles                                          4,638,861,237                           38,124,578
 Communications                                       688,157,101                          31,010,799
 Total                                         $5,849,354,620                          $82,939,328
Source: CSTC-A, response to SIGAR data call, 9/29/2014.



   The United States has also procured $1.6 billion in ammunition, $4.6 bil-
lion in aircraft for the ANA, and $9.6 billion worth of other equipment and
supplies to sustain the ANA. However, SIGAR has some concern about
how that $9.6 billion cost of other equipment and supplies was determined.
According to CSTC-A, it was determined by subtracting the cost of weap-
ons, vehicles, communications equipment, aircraft, and ammunition from
overall equipment and sustainment costs—in other words, computed as a
residual, rather than based on an inventory list or actual record keeping.248                                        SIGAR INSPECTION
                                                                                                                     SIGAR has initiated an inspection of
ANA Infrastructure                                                                                                   the U.S.-funded construction of the
As of September 30, 2014, the United States had obligated $6.2 billion and
                                                                                                                     MOD headquarters to determine if
disbursed $5.3 billion of the ASFF for ANA infrastructure.249 At that time,
                                                                                                                     construction is being completed in
the United States had completed 329 infrastructure projects (valued at
                                                                                                                     accordance with contract requirements
$4.3 billion), with another 46 projects ongoing ($950 million) and nine
                                                                                                                     and if any occupied portions of the
planned ($97.8 million), according to CSTC-A.250
                                                                                                                     headquarters are being properly
   The largest ongoing ANA infrastructure projects this quarter were bri-
                                                                                                                     maintained and used as intended.
gade garrisons for the 3rd Brigade/205th Corps in Kandahar ($91 million)
and the 2nd Brigade/215th Corps in Nimroz (at a cost of $78.7 million), and




REPORT TO THE UNITED STATES CONGRESS                       I   OCTOBER 30, 2014                          101
                                            SECURITY




                                            phase three of the MOD headquarters and garrisons ($58.6 million).251 In
                                            addition, five projects were awarded this quarter at a cost of $61.7 million,
                                            16 projects were completed at a cost of $226.6 million, six contracts were
                                            descoped to a value of $182.1 million, including the brigade garrisons for
                                            the 2nd Brigade/201st Corps in Kunar (originally costing $115 million), and
                                            one contract worth $31.3 million was terminated.252 CSTC-A reported that
                                            18 facilities were transferred to the ANSF since the end of July; an addi-
                                            tional 13 facilities will be transferred by the end of January 2015.253
                                               According to CSTC-A, the projected operations-and-maintenance (O&M),
                                            sustainment, restoration, and minor-construction cost for ANA infra-
                                            structure for FY 2015 through FY 2019 is $168 million a year, for a total of
                                            $840 million.254
                                               According to DOD, the MOD Construction and Property Management
                                            Department’s capacity to plan, design, contract, and execute new con-
                                            struction is limited to $20 million per year until greater capacity is
Ministry of Defense Headquarters Building   demonstrated.255
under construction in Kabul, September
2014. (CSTC-A photo)
                                            ANA and MOD Training and Operations
                                            As of September 30, 2014, the United States had obligated and disbursed
                                            $3.2 billion of the ASFF for ANA and MOD operations and training.256 Aside
                                            from literacy training discussed previously in this section, the other training
                                            includes English-language, officer, and operational-specialty training such
                                            as artillery, infantry, logistics, and medical.257 SIGAR received incomplete
                                            responses to its questions on operations and training for this quarter.

                                            Women in the ANA and Afghan Air Force
                                            Women currently make up less than 1% of the ANA, despite the current
                                            recruitment and retention goal published in September 2013 for 10% of the
                                            force to be female. To achieve this goal, the ANA has waived a requirement
                                            that the recruitment of women be balanced among Afghanistan’s vari-
                                            ous ethnic groups. Additionally, assignment locations are being reviewed
                                            to pinpoint locations with accommodation for females, such as separate
                                            restrooms. The ANA Recruiting Command also airs local television com-
                                            mercials directed at women beginning 20 days before training classes.258
                                               ISAF said the Coalition believes that as more women serve in the ANSF,
                                            men will learn to accept and respect women in the workplace. The involve-
                                            ment of families and communities is critical to recruiting women. ISAF has
                                            requested funding for media advertisements and programming to educate
                                            the Afghan public about the need for women to join the army and police.259
                                               This quarter, the ANA reported to ISAF that 833 women serve in the
                                            ANA: 785 in the Army and 48 in the Air Force. Of those, 291 were officers,
                                            324 were non-commissioned officers (NCOs), 140 were enlisted, 29 were
                                            in training, and 49 were cadets. In addition, the ANA reported to CSTC-A
                                            that there are 413 civilian women supporting the ANA.260 The ANA’s




                                             102                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                                                            SECURITY




12-week Basic Warrior Training course includes a class on behavior and
expectations of male soldiers who work with ANA women. The Afghan
Independent Human Rights Commission conducts two-day seminars for the
ANSF that include training in eliminating violence against women.261
   The National Defense Authorization Act for FY 2014, Public Law 113-66,
authorizes $25 million to be used for the programs and activities to support
the recruitment, integration, retention, training, and treatment of women in
the ANSF.262
   SIGAR received incomplete responses to its questions on women in the
ANA and the Air Force this quarter.

Afghan Air Force and the Special Mission Wing
The United States has a considerable investment in the Afghan Air Force.
Between FY 2010 and FY 2014, the United States provided more than
$6.5 billion to support and develop the 6,922-person Afghan Air Force,
including over $3 billion for equipment and aircraft. In addition, DOD
requested more than $925 million, including $21.4 million for equipment
and aircraft, in FY 2015 for the Afghan Air Force. However, the major-
ity of the funding requested is for sustainment and training, as shown in
Table 3.13.
   SIGAR has questioned the Afghan Air Force’s ability to fully utilize the
aircraft that the United States has provided at a considerable cost to the
American taxpayer. For example, after DOD provided the Afghan Air Force
with two C-130H medium transport aircraft, SIGAR questioned DOD plans
to deliver two additional C-130Hs after an audit raised concerns about the
Afghan Air Force’s ability to absorb the new aircraft. As a result, DOD this
quarter concurred with SIGAR’s recommendation to defer the decision on
delivering a fourth aircraft until a review of Afghan Air Force requirements
is completed, for a potential savings of $40.5 million. A third aircraft will be
delivered to mitigate the risk to Afghan air capabilities should one of the
aircraft become unavailable.263

TABLE 3.13


U.S. FUNDING TO SUPPORT AND DEVELOP THE AFGHAN AIR FORCE, 2010–2015                                                             ($ THOUSANDS)

 Funding Category                              FY 2010                     FY 2011                  FY 2012                  FY 2013                   FY 2014            FY 2015 (request)
 Equipment and Aircraft                      $461,877                    $778,604               $1,805,343                 $111,129                     $2,300                  $21,442
 Training                                       62,438                    187,396                   130,555                 141,077                   164,187                   123,416
 Sustainment                                  143,784                     537,650                   571,639                 469,230                   520,802                   780,370
 Infrastructure                                 92,200                    179,600                   113,700                   53,000                           0                         0
 Total                                     $760,299                 $1,683,250                $2,621,237                 $774,436                  $687,289                  $925,228
Source: DOD, Budget Fiscal Year (FY) 2012, Justification for FY 2012 Overseas Contingency Operations Afghanistan Security Forces Fund, 2/2011, pp. 8, 19, 30, and 44; DOD, Budget Fiscal
Year (FY) 2013, Justification for FY 2013 Overseas Contingency Operations Afghanistan Security Forces Fund, 2/2012, pp. 5, 13, 19, and 32; DOD, Budget Fiscal Year (FY) 2014, Justification for
FY 2014 Overseas Contingency Operations Afghanistan Security Forces Fund, 5/2013, pp. 5, 11, 20, and 37; DOD, Budget Fiscal Year (FY) 2015, Justification for FY 2015 Overseas Contingency
Operations Afghanistan Security Forces Fund, 6/2014, pp. 10, 24, 26, and 29.




REPORT TO THE UNITED STATES CONGRESS                        I   OCTOBER 30, 2014                                   103
SECURITY




An A-29 Super Tucano arrives at Moody Air Force Base, Georgia, September 26, 2014.
(U.S. Air Force photo)


   According to CENTCOM and the NATO Air Command–Afghanistan, as of
October 11, 2014, the Afghan Air Force inventory consisted of 101 aircraft:264
•	 56 Mi-17 transport helicopters (down from 58 after two combat losses;
   includes three on loan to the Special Mission Wing)
•	 26 C-208 light transport planes
•	 Six C-182 fixed-wing training aircraft
•	 Five MD-530F rotary-wing helicopters
•	 Five Mi-35 attack helicopters
•	 Three C-130H medium transport aircraft

    Twelve additional MD-530F helicopters equipped with air-to-ground
attack capability are on contract, as is conversion of five existing MD-530F
helicopters to air-to-ground attack capability, thereby providing the AAF
with 17 attack helicopters.265
    Beginning in the fourth quarter 2015, the first of 20 A-29 Super Tucanos,
a light attack aircraft for counterinsurgency, close air support, and aerial
reconnaissance, will be deployed to Afghanistan following the training
in the United States, beginning in February 2015, of pilots and the initial
maintenance cadre.266 Four Super Tucanos will be delivered each year in
2015, 2016, and 2017; and eight in 2018.267 The planes are intended to replace
aging Mi-35 aircraft.
    The Afghan Air Force has 131 fully trained pilots. All pilots are officers
who have attended the Air Academy or a similar officer training program
and completed undergraduate pilot training.268 The AAF capability to




  104                  SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                              SECURITY




perform casualty evacuation (CASEVAC) missions has steadily increased
over the last three years:269
•	 2012: 391 missions
                                                                                 SIGAR ALERT LETTERS
•	 2013: 1,540 missions (128/month; 394% increase)                               During an ongoing review, SIGAR
•	 2014: 1,295 missions YTD (162/month); assuming this trend continues through   learned that the Defense Logistics
•	 December, a total of 1,944 missions this year is expected (150% increase)     Agency had scrapped 16 G222 aircraft
                                                                                 that had been delivered to Afghanistan
    Despite this improving CASEVAC capability, the AAF still faces chal-         but saw little usage and were ultimately
lenges such as increasing operational demand without commensurate                grounded due to safety concerns and
gain in capability, lack of trained CASEVAC medics, and misuse of limited        their inability to fully meet operational
CASEVAC resources.270                                                            requirements. Scrap metal from
    The Special Mission Wing (SMW), while not part of the AAF, provides aer-     those 16 aircraft—now shredded but
ial intelligence, surveillance, and reconnaissance (ISR) capability to support   originally valued at nearly $390 million
counterterrorism and counternarcotics operations, and—aside from two             in acquisition and sustainment
Afghan Air Force crews—is the only ANSF unit to be night-vision goggle-          costs—were sold for approximately 6
qualified for air-assault and fixed-wing ISR capability.271 The SMW has 266      cents a pound or $32,000 for all 16
members, of which 76 are pilots.272 Of SMW missions flown during FY 2014,        aircraft. SIGAR has not been notified
26% have been counterterrorism related, and 74% counternarcotics related.273     of any decision regarding the ultimate
    MOI, MOD, and National Directorate of Security leaders signed the SMW        disposition of the remaining four G222
air charter on May 14, 2014, outlining the creation of a new Joint Command       aircraft in Germany. SIGAR reported its
and Control Coordination Center (JCCC) to facilitate priority SMW support.       concern to the Secretary of Defense
Both MOD and MOI special operations forces will have liaison officers to         and the Secretary of the Air Force. DOD
the JCCC. The AAF is to provide personnel, recruiting, and other admin-          officials have said they kept lawmakers
istrative (non-operational) support to SMW. The SMW commander meets              informed of this matter for nearly two
weekly with special operations unit leaders to discuss pending operations        years. Congress provided the authority
and synchronize requirements and priorities.274                                  to convert equipment no longer needed
    With the AAF’s FY 2015 budget in excess of $900 million, aggressive cost     by the ANSF to DOD equipment in the
cutting was needed to bring the budget in line with the estimated donor-         2014 National Defense Authorization
nation funding of $450 million by FY 2017 as agreed to at the Chicago            Act. After determining that the aircraft
Summit in 2012.275 A joint Secretary of the Air Force-International Affairs      were unusable and obsolete, DOD
and Department of Defense Acquisition, Technology and Logistics (AT&L)           notified Congress it was converting the
team was assembled to assist NATO Air Training Command–Afghanistan               G222s to DOD stock and was preparing
(NATC-A) in creating a construct and mechanism to reduce to overall cost         them to be scrapped. For more
and improve AAF self-sufficiency.276 After three weeks of research in a com-     information, see Section 2, page 47.
bat environment, the team proposed changes in four main areas:277
 •	 Increase capacity for maintenance training.
 •	 Decrease the number of Western contract logistics support (CLS)              SIGAR’s preliminary review of an audit
    contractor personnel.                                                        of AAF capability to absorb additional
 •	 Consolidate each individual CLS supply system into one AAF aviation          equipment indicates DOD plans to
    supply depot.                                                                provide two more C-130 aircraft that
 •	 Reduce aviation maintenance redundancies.                                    may not be needed or sustainable
                                                                                 by the Afghans. SIGAR reported its
  Using these concepts, the team proposed 65 major changes in the                concern to DOD, CENTCOM, ISAF, and
contracts supporting the AAF’s Mi-17, Mi-35, PC-12, C-130, C-208, C-182,         NTC-A.




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2014             105
SECURITY




MD-530, and A-29 programs. They estimated that if all of the 65 requested
changes were adopted, programmed FY 2014–FY 2019 cost savings
would be $895 million. These efforts, combined with a potential reduc-
tion in medium airlift acquisition, and the accelerated consolidation of
CLS support to the Kabul International Airport, met COMISAF’s directed
$450 million budget cap in FY 2017.278 According to DOD, these results will
be factored into planning that is currently under way to determine sustain-
ment requirements for DOD-fielded aircraft. The costs may be adjusted
following this more in-depth review of these requirements.279
   Encouraged by the team results, CSTC-A adopted the methodology to
resolve issues with its ANA wheeled-vehicles program.280 SIGAR will report
on those results next quarter.


AFGHAN NATIONAL POLICE
As of September 30, 2014, the United States had obligated $17 billion and dis-
bursed $16.2 billion of ASFF funds to build, equip, train, and sustain the ANP.281

ANP Strength
This quarter, the overall strength of the ANP totaled 153,317 personnel,
including 113,515 Afghan Uniform Police (AUP), 21,643 Afghan Border
Police (ABP), 14,881 Afghan National Civil Order Police (ANCOP), 2,492
students in training, and 786 “standby” personnel awaiting assignment.282 Of
the 113,515 personnel in the AUP, 25,512 were MOI headquarters staff or
institutional support staff.283 Overall, the ANP’s strength increased 1,194
since last quarter, as shown in Table 3.14.

TABLE 3.14


ANP STRENGTH, QUARTERLY CHANGE
                                              Authorized                                      Assigned
                                                              Quarterly                                      Quarterly
 ANP Component                   Q2 2014        Q3 2014        Change            Q2 2014      Q3 2014         Change
 AUPa                            122,644        120,003        (2,641)           113,385b     113,515c            130
 ABP                               23,573         22,955         (618)            21,667        21,643           (24)
 ANCOP                             13,106         15,223         2,117            12,731        14,881         2,150
 NISTA                              3,000          3,000                 -         4,313         2,492       (1,821)
 Standby d                                -              -               -            27            786           759
 ANP Total                      162,323        161,181       (1,142)             152,123     153,317          1,194

Note: Quarters are calendar-year; Q2 2014 data as of 5/2014; Q3 2014 data as of 8/2014. AUP = Afghan Uniform Police; ABP =
Afghan Border Police; ANCOP = Afghan National Civil Order Police; NISTA = Not In Service for Training.
a	Includes MOI headquarters and institutional support and CNPA personnel.
b	Includes 28,092 MOI headquarters staff.
c	 Includes 25,512 MOI headquarters staff.
d	Personnel that are pending assignment.


Source: CSTC-A, responses to SIGAR data calls, 7/1/2014 and 10/6/2014.




  106                            SPECIAL INSPECTOR GENERAL                   I   AFGHANISTAN RECONSTRUCTION
                                                                                   SECURITY




   According to CSTC-A, the MOI, unlike the ANA, does not report ANP
personnel who are on leave, AWOL, sick, or on temporary assignment in its
personnel reports. For this reason, the actual effective strength of the ANP
is not known.284
   SIGAR received incomplete responses to its data-call questions on ANP
strength this quarter.

ANP Sustainment
As of September 30, 2014, the United States had obligated $6.7 billion and
disbursed $6.3 billion of ASFF funds for ANP sustainment.285 This includes
$1.3 billion in U.S. contributions to the Law and Order Trust Fund for
Afghanistan (LOTFA) to support the ANP.286

ANP Salaries
From 2008 through September 30, 2014, the U.S. government had provided
$1.32 billion, paid through the LOTFA, to pay ANP salaries, food, and incen-
                                                                                                             SIGAR SPECIAL PROJECTS
tives (extra pay for personnel engaged in combat or employed in specialty                                    This quarter, SIGAR issued an inquiry
fields), CSTC-A reported.287 An additional $158.5 million has been provided                                  letter to the State Department to raise
since 2010 for the Afghan Local Police and subject-matter experts’ salaries                                  concerns about Afghan government
and incentives, which are not funded from LOTFA.288                                                          budgetary shortfalls. In that letter,
    According to CSTC-A, when the ANP reaches its final strength of 157,000                                  SIGAR also noted its concern about
personnel, it will require an estimated $483 million per year to fund salaries                               reports that Afghan police units had
($263 million) and incentives ($220 million). This is a decrease of $38.2 mil-                               cut power to Kandahar due to a lack
lion from last quarter’s estimate, based on a foreign-exchange rate of 56                                    of funding over the next several years.
afghanis to one U.S. dollar. Beginning in fiscal year 1394 (December 21,                                     For more information, see Section 2,
2014), food costs are no longer covered by CSTC-A.289                                                        page 44.

ANP Equipment, Transportation, and Ammunition
As of September 30, 2014, the United States had obligated and disbursed                                      SIGAR sent an inquiry letter this
$3.6 billion of ASFF funds for ANP equipment and transportation.290 Most of                                  quarter to UNDP and CSTC-A
these funds were used to purchase weapons and related equipment, vehi-                                       expressing concern that the UNDP is
cles, and communications equipment.291 More than 83% of U.S. funding in                                      not overseeing how LOTFA funds are
this category was for vehicles and vehicle-related equipment, as shown in                                    spent, that they are not proactively
Table 3.15.                                                                                                  addressing problems, and that they
                                                                                                             claim to lack authority to conduct
TABLE 3.15
                                                                                                             oversight. For more information, see
COST OF U.S.-FUNDED ANP WEAPONS, VEHICLES, AND                                                               Section 2, pages 43–44.
COMMUNICATION EQUIPMENT
 Type of Equipment                                        Procured                Remaining to be Procured
 Weapons                                            $187,251,477                        $4,093,066
 Vehicles                                          2,046,681,026                         2,385,261
 Communications                                       211,062,672                          544,573
 Total                                         $2,444,995,175                         $7,022,900
Source: CSTC-A, response to SIGAR data call, 9/29/2014.




REPORT TO THE UNITED STATES CONGRESS                       I   OCTOBER 30, 2014                      107
                                                         SECURITY




                                                            For two earlier quarters, CSTC-A reported no change in the total
                                                         cost of the weapons and communications equipment procured for the
                                                         ANP. This quarter, however, CSTC-A reported increases in the total cost
                                                         of vehicles and ammunition procured for the ANP of $80.6 million and
                                                         $167.6 million, respectively.292
Border Patrol Boat Status                                   The United States has also procured $534.3 million in ammunition for the
In FY 2011, CSTC-A requested eight                       ANP and $1.3 billion worth of other equipment and supplies to sustain the
rigid-hull, inflatable, riverine border-patrol           ANP. However, SIGAR has some concern about how that $1.3 billion cost
boats for the ANP. CSTC-A canceled the                   of other equipment and supplies was determined. According to CSTC-A, it
$3 million procurement near the end of the               was determined by subtracting the cost of weapons, vehicles, communica-
boats’ manufacturing process. On July 25,                tions equipment, and ammunition from overall equipment and sustainment
2014, DOD notified Congress that the
                                                         costs, rather than being based on inventory lists or actual record keeping.293
boats purchased with ASFF funds were no
                                                         In response to a vetting draft of this report, USFOR-A asserted that the
longer required by the ANSF and would be
treated as DOD stock. The boats remain                   $1.3 billion cost of other equipment is not calculated in this way, but instead
in storage awaiting a Department of the                  was used to calculate the numbers that were provided to SIGAR. USFOR-A
Navy determination whether to use, sell, or              also said that “Headquarters ISAF has always made it a point to advise the
dispose of the them.                                     MOI on ammunition forecasting and inventory procedures” and that “this is
Source: OUSDP, response to SIGAR data call, 10/6/2014.
                                                         very much a priority in force train, advise, and assist efforts.”294 SIGAR will
                                                         seek clarification for its next report and request that future reporting reflect
                                                         actual accounting for equipment and supplies provided to the ANP.
                                                            Examples of some equipment purchased for the ANP include sophis-
                                                         ticated items such as high-mobility, multi-purpose wheeled vehicles
                                                         (HMMWV); MRAP vehicles; night-vision devices; global-positioning systems;
                                                         explosive-ordnance disposal equipment; and biometrics; as well as ordinary
                                                         items such as ambulances, spare parts, pistols, machine guns, radios, cloth-
                                                         ing, dental and medical equipment, and transportation services.295

                                                         ANP Infrastructure
                                                         As of September 30, 2014, the United States had obligated $3.2 billion and
                                                         disbursed $2.9 billion of ASFF funds for ANP infrastructure.296 At that time,
                                                         the United States had completed 685 infrastructure projects (valued at
                                                         $3.2 billion), with another 45 projects ongoing ($327.6 million), and one
                                                         planned ($7 million), according to CSTC-A.297
                                                            This quarter, three projects valued at $25.9 million were awarded, 16 proj-
                                                         ects valued at $48.3 million were completed, and one valued at $614 million
                                                         was terminated.298 The largest ongoing ANP infrastructure projects were a
                                                         building and utilities ($34.3 million) at MOI headquarters, an AUP provincial
                                                         headquarters in Kandahar ($25 million), and the ANP command center and
                                                         barracks at MOI headquarters ($24.1 million).299 CSTC-A reported that seven
                                                         facilities were transferred to the ANSF since the end of July.300
Ministry of Interior headquarters under
construction in Kabul, September 2014.                      According to CSTC-A, the projected annual operations and maintenance,
(USACE photo)                                            sustainment, restoration, and minor-construction cost for ANP infrastruc-
                                                         ture for FY 2015 through FY 2019 is $147 million ($735 million over five
                                                         years), with 2,184 skilled personnel required to maintain the facilities.301




                                                          108                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                              SECURITY




   CSTC-A noted that any estimated post-transition costs are based on cur-
rent capacity levels and do not take into account any future policy decisions
that could affect cost estimates.302

ANP Training and Operations
As of September 30, 2014, the United States had obligated $3.5 billion and
disbursed $3.4 billion of the ASFF for ANP and MOI operations and train-
ing.303 Since January 1, 2014, the NATO Trust Fund has paid the cost for all
ANSF literacy training. Additionally, Japan has assumed the cost of most of
the police-academy training in Turkey formerly funded by the United States.
Aside from the literacy training discussed previously in this section, other
training includes English-language and operational-specialty training, such
as police intelligence, logistics, medical, and special-operations force.304

ANP Still Struggling to Meet Quotas for Women
Police Personnel
As in prior quarters, the number of women in the ANP is increasing, but
the ANP is far from reaching its goal of 5,000 women by the end of 2014.
Women still make up only 1% of the force. This quarter, ANP personnel
included 2,074 women, according to CSTC-A.305 This is an increase of 103
women since last quarter and an increase of 870 since August 22, 2011.306
However, the annual attrition rate for women in the ANP is high at 16%.307
ISAF said the ANP is focused on finding secure workplaces with appropri-
ate facilities for females and developing strategies to attract and retain
qualified female recruits.308
   As noted previously, the National Defense Authorization Act for FY 2014,
Public Law 113-66, provides $25 million to be used for the programs and
activities to support the recruitment, integration, retention, training, and
treatment of women in the ANSF.309


ANSF MEDICAL/HEALTH CARE
As of September 30, 2014, the United States had funded construction of 181
completed ANSF medical facilities valued at $184.5 million.310 The figure
includes this quarter’s completion of four hospitals and facilities valued at
$8.5 million. The sole construction project in progress is the national medi-
cal hospital barracks renovation including the construction of a barracks
for women.311
   This quarter, ISAF reported the ANSF health-care system had 808 physi-
cians; of these, 464 were assigned to the ANA and 344 were assigned to
the ANP. This represents two quarters with a decreasing number of physi-
cians: seven left last quarter and 151 this quarter. The ANA has a shortage
of 140 physicians and the ANP a shortage of 168.312 The ANSF also has 2,826
nurses, physicians’ assistants, and other medical personnel; although 950




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2014           109
SECURITY




positions remain unfilled in part due to increased authorizations to staff
new hospital.313
   ISAF reports efforts to solidify the healthcare logistics operations for
both the ANA and ANP. Advisors are developing a system to report on com-
bat life-saving training in the field with the capability for corps commanders
to identify where point-of-injury care is needed.314 Additionally advisors are
in the final stages of an Afghan-led program that will allow for online access
to free continuing education for physicians. Another initiative under way
is a course in repairing equipment and facilities. Advisors are also assisting
the ANP, in concert with the Ministry of Public Health (MOPH) and Ministry
of Higher Education, to recruit healthcare-professional graduates.315


REMOVING UNEXPLODED ORDNANCE
Since FY 2002, the U.S. Department of State (State) has provided more than
$283 million in funding for weapons destruction and demining assistance to
Afghanistan, according to its Bureau of Political-Military Affairs’ Office of
Weapons Removal and Abatement (PM/WRA).316 Through its Conventional
Weapons Destruction program, State funds five Afghan nongovernmental
organizations (NGOs), four international NGOs, and one U.S. govern-
ment contractor. These funds enable clearance of areas contaminated by
explosive remnants of war (ERW) and support removal and destruction
of abandoned weapons that insurgents might use to construct improvised
explosive devices (IEDs).317
   The Mine Action Coordination Centre of Afghanistan (MACCA), which
keeps a database of contaminated areas, estimates that 100 individuals suf-
fer casualties monthly from detonations of unexploded ordnance (UXO).
This is a significant decrease from 2002, when about 750 people suffered
casualties from UXO monthly.318 The head of MACCA states that 4,400 areas
in Parwan, Khowst, Logar, Nangahar, Herat, Jowzjan, Faryab, and other
provinces still need to be cleared. Those areas would be cleared by 2023
according to the landmine-clearance plan.319 Figure 3.27 shows the contami-
nated and non-contaminated areas as of July 2014.
   As of June 30, 2014, State-funded implementing partners have cleared
more than 159 million square meters of land and removed or destroyed
approximately 7.8 million land mines and other ERW such as UXO, aban-
doned ordnance, stockpiled munitions, and homemade explosives (see
Table 3.16). There is a substantial decrease in the contaminated area as
MACCA has revised its estimate and no longer includes contaminated fir-
ing ranges.320 PM/WRA defines a minefield as the area contaminated by
land mines, whereas a contaminated area can include both land mines and
other ERW.321
   Comprehensive fourth-quarter FY 2014 reports are not yet available.
Quarterly reports are generally available one month after the end of each




 110                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                                                         SECURITY




FIGURE 3.27

MINE CONTAMINATION STATUS, AS OF JULY 1, 2014




                                                                                            Cleared of known hazards

                                                                                            No recorded mines/ERW

                                                                                            Contaminated




Source: Mine Action Coordination Centre of Afghanistan (MACCA), Mine Action Programme of Afghanistan, Newsletter, August 2014.




TABLE 3.16


CONVENTIONAL WEAPONS DESTRUCTION PROGRAM METRICS, JANUARY 1, 2013–JUNE 30, 2014
                                                                                                                 Fragments              Minefields          Estimated Contaminated
 Date Range                           AT/AP Destroyed           UXO Destroyed          SAA Destroyed              Cleared              Cleared (m2)           Area Remaining (m2)
 1/1–3/31/2013                                1,984                100,648                105,553                3,722,289               7,978,836                  552,000,000
 4/1–6/30/2013                                1,058                 18,735                  49,465               1,079,807               5,586,198                  537,000,000
 7/1–9/30/2013                                1,243                 21,192                  98,306               1,673,926               4,229,143                  521,000,000
 10/1–12/30/2013                              8,211                   2,460                 54,240               3,064,570               5,729,023                  518,000,000
 1/1–3/31/2014                                1,780                254,734                245,380                  262,750               5,473,170                  638,400,000
 4/1–6/30/2014                                1,077                   3,264                 25,362               3,227,697               5,163,035                  519,000,000
 TOTAL                                     15,353                401,033                 578,306             13,031,039              34,159,405                  519,000,000
Note: AT/AP = anti-tank/anti-personnel ordnance. UXO = unexploded ordnance. SAA = small-arms ammunition. Fragments are reported because their clearance requires the same care as for other
objects until their nature is determined.

Source: PM/WRA, response to SIGAR data call, 10/6/2014.



quarter; thus, the fourth-quarter FY 2014 (covering July 1, 2014, through
September 30, 2014) will be published in SIGAR’s next quarterly report in
January 2015.322




REPORT TO THE UNITED STATES CONGRESS                       I   OCTOBER 30, 2014                                111
                                             SECURITY




                                             COUNTERNARCOTICS
SIGAR AUDIT                                  As of September 30, 2014, the United States has provided $7.8 billion for
                                             counternarcotics efforts in Afghanistan since 2002. Congress appropriated
A SIGAR audit this quarter examined          most of these funds through the DOD Drug Interdiction and Counter–
the financial support provided to the        Drug Activities (DOD CN) Fund ($2.7 billion), the ASFF ($1.4 billion),
Counternarcotics Police of Afghanistan       the Economic Support Fund ($1.4 billion), and $2.1 billion of the State
(CNPA) provincial units by State, DOD,       Department’s International Narcotics Control and Law Enforcement
and DEA. SIGAR learned that it was not       (INCLE) account.323 In addition to reconstruction funding, the Drug
possible to fully determine the amount       Enforcement Administration (DEA) receives funding through direct appro-
of direct assistance given to those          priations to operate in Afghanistan. (See Appendix B.)
units and that no formal assessments            Since 2009, the focus of U.S. drug-control policy has shifted from eradi-
of their operational capabilities existed,   cation to interdiction and a greater emphasis on agricultural-development
making it difficult to quantify the          assistance that aims to provide farmers with alternative livelihoods.324
effectiveness of the U.S. aid. Although      The Department of State’s Bureau of International Narcotics and Law
provincial units have received some          Enforcement Affairs (INL) laid out the following objectives for its pro-
support, overall U.S. financial resources    grams in Afghanistan in its fiscal year 2013 Program and Budget Guide:
devoted to the CNPA have only                (1) disrupt and dismantle the narcotics/insurgent/corruption-nexus targets,
tangentially benefitted them. For more       (2) increase support for the Afghan government’s demand-reduction and
information, see Section 2, page 25.         treatment programs, (3) support subnational supply-reduction programs,
                                             (4) improve counternarcotics strategic communications, (5) combat cor-
                                             ruption and expand access to justice, (6) develop a corrections system in
                                             line with international standards, and (7) develop the justice sector’s institu-
                                             tional capacity.325
                                                INL’s programs support the U.S. counternarcotics strategy for
                                             Afghanistan and the key priorities of Afghanistan’s National Drug Control
                                             Strategy, approved in October 2013.326 The Ministry of Counter Narcotics
                                             (MCN) coordinates the actions of other ministries and takes the lead in
                                             developing counternarcotics policy.327
                                                Drug-reduction activities occur under the Governor Led Eradication
                                             (GLE), the Good Performer’s Initiative (GPI), and Counternarcotics Public
                                             Information programs.328 Interdiction activities are carried out by the
                                             CNPA with DOD and ISAF elements providing training and support. The
                                             Combined Joint Interagency Task Force-Nexus (CJIATF-N) whose mission
                                             ended in September 2014, and the Interagency Operations Coordination
                                             Center (IOCC) also support interdiction efforts.329

                                             Counternarcotics Efforts Hindered by Troop Drawdown and
                                             Election Security Challenge
                                             The drawdown of Coalition personnel has impacted interdiction results,
                                             particularly in southern regions of the country. The reduced troop presence
                                             limited the number of joint operations between Coalition or U.S. drug-
                                             enforcement personnel and Afghan forces.330 Similarly, poppy eradication
                                             decreased this year in part because Afghan security forces were diverted
                                             from that effort to assist with election security.331 Opium-cultivation




                                              112                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                              SECURITY




results are not yet available, but according to UN data, final results will
likely exceed last year’s all-time record. According to the United Nations,
more land is being cultivated with poppy in 2014 than in 2013 in Helmand,
Afghanistan’s chief opium-producing province.332 Moreover, eradication
decreased by 63% in 2014 from the previous year, which the MCN attributed
partly to the need for presidential-election security.333 According to some
analysts, nearly every district where security has been handed over from
ISAF to Afghan security forces has seen an increase in attacks.334 Those
conditions impede both reconstruction and eradication efforts.
    The Director of the Defense Intelligence Agency (DIA) noted in testimony
before the Senate Armed Services Committee earlier this year that Afghan
security forces had fought successfully against insurgents, but could not
control contested areas long-term.335 He further noted that while the Taliban-
led insurgency failed to gain control of Kandahar and Helmand in 2013, it
increased attacks targeted at the ANSF with nationwide destructive effects
comparable to those of the previous two years.336 Nangahar’s southern dis-
tricts, for instance, experienced deteriorating security conditions during the
months preceding December 2013, when winter crops were planted.337
    Rural areas of Nangahar were not under the government’s control, as
illustrated by the rise in poppy cultivation across the province in early
2014.338 Specifically, in Upper Achin, the provincial police chief met with the
elders in December 2013 to ask them to refrain from poppy cultivation—–a
request the farmers largely ignored.339 The government’s weakness in rural
areas of Nangahar led to increased cultivation of poppy there.340
    The World Bank, in its latest report on the Afghan economic outlook,
                                                                                  SIGAR SPECIAL PROJECT
anticipates the political and security uncertainty to continue through the        This quarter, a SIGAR special project
first half of 2015.341 Given these parameters, areas under poppy cultivation      reported that despite over $7 billion
will probably expand next year.                                                   in U.S. spending on counternarcotics
                                                                                  efforts, poppy-cultivation levels in
Governor Led Eradication Program                                                  Afghanistan are at an all-time high.
INL funds Afghanistan’s Governor Led Eradication Program (GLE). The               SIGAR and the U.S. Army Geospatial
GLE eradicates poppies with tractors or manually, using sticks, blades, or        Center developed maps for the project
hand uprooting.342 The MCN, in partnership with UNODC, is responsible for         that provide a more refined view of
verifying poppy cultivation and eradication.343 During the quarter, the INL       the concentration of poppy cultivation.
office in Kabul hosted a GLE Lessons Learned conference for Afghan pro-           Using geospatial overlays of arable
vincial governors that focused on methods to improve eradication efforts.         land in Afghanistan combined with
Additionally, INL is expecting delivery and distribution of 47 new tractors       district-level opium-poppy cultivation
designated for provincial poppy eradication.344                                   rates, these maps show the intensity
   UNODC and the MCN published their final poppy-eradication verification         of opium cultivation and where those
report for this year. Compared to 2013, results decreased by 63%: 2,692 hect-     cultivation levels are rising or receding.
ares were eradicated in 17 provinces versus 7,348 hectares eradicated in 18       For more information, see Section 2,
provinces in 2013. The MCN attributes the decrease to the convergence of          page 48.
the eradication campaigns and presidential elections. Security presented a
challenge as well in all provinces where eradication took place.345 The report




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2014             113
                                                                 SECURITY




                                                                 FIGURE 3.28

                                                                 HECTARES OF POPPY CULTIVATED AND ERADICATED, 2008–2013 (THOUSANDS)

                                                                   250


                                                                   200                                                                                         209


                                                                   150     157                                                                154
                                                                                                                           131
                                                                                            123            123
                                                                   100


                                                                    50

                                                                                   5               5                                4               10               7             3
                                                                                                                    2
                                                                      0
                                                                             2008             2009            2010           2011                2012           2013        2014*
                                                                                       Hectares Under Cultivation          Hectares Eradicated           TBD


                                                                 Note: A hectare is 10,000 square meters, or almost 2.5 acres. *2014 cultivation data has yet to be released by UNODC.
                                                                 Source: UNODC, Afghanistan Poppy Eradication Verification Final Report, 8/2014, p. 4; UNODC, Afghanistan Opium Survey
                                                                 2013, 12/2013, pp. 18, 33–35, 99; UNODC, World Drug Report, 6/2014, p. 21.




                                                                 notes the poor quality of eradication this year, particularly in Badakhshan,
     The growth stages of poppy are:                             where fields were eradicated by beating the plants with sticks due to the
     1.	emergence stage or growth of                             terrain. Manual eradication, which is the traditional practice, in some cases
        seedlings                                                only resulted to partial eradication, as shown by a review of aerial imagery.346
     2.	cabbage stage, when poppy plants are                     Moreover, if eradication occurred at the “cabbage” stage, when plants are
        easily recognizable and form rosette-                    still young, there is a greater likelihood of regrowth of the poppy plant.347
        type leaves and stalks                                   Figure 3.28 compares eradication levels for 2013 and 2014 by province and
     3.	stem-elongation stage                                    illustrates the significant increase in manual eradication this year. Figure
     4.	flowering stage                                          3.29 provides the final eradication results by province.
     5.	capsule stage                                                Last quarter, INL told SIGAR the Afghan government’s eradication target
     6.	lancing stage, when harvesters make                      for 2014 was 22,500 hectares.348 Based on the poppy-eradication verification
        cuts on the poppy capsule so opium                       final report, the Afghan government resoundingly missed that objective:
        latex will ooze out and dry. Harvesters                  only 2,692 hectares were eradicated this year, or 12% of the target level. The
        scrape off the dry latex. Several lancing                presidential election and ballot audit likely played a role by diverting official
        cycles occur in the traditional method.                  energies. INL also informed SIGAR that an interministerial GLE plan was
                                                                 not approved until late in the season, thereby limiting its effectiveness. INL
Source: UNODC, Afghanistan Poppy Eradication Verification,
Final Report, 8/2014, pp. 3, 16; UNODC, Bulletin on Narcotics:
                                                                 noted that political will at the national and provincial level is necessary for
Cultivation of the Opium Poppy and the Oil Poppy in the Soviet
Union, 1/1969; UNODC, World Drug Report Methodology,
                                                                 the GLE program to be effective.349
6/2014, p. 9.




                                                                   114                            SPECIAL INSPECTOR GENERAL               I   AFGHANISTAN RECONSTRUCTION
                                                                                      SECURITY




FIGURE 3.29

GOVERNOR LED ERADICATION RESULTS BY PROVINCE, 2013 AND 2014 (HECTARES)

Badakshan
  Helmand
  Kandahar
   Uruzgan
      Farah
 Nangarhar
     Nimroz
      Kunar
      Balkh
      Herat
     Takhar
   Baghlan
  Laghman
     Kapisa
  Daykundi
                                                                                                                                            2013
     Faryab
       Ghor                                                                                                                                 2014
   Badghis
    Kunduz
  Sar-e Pul
      Zabul

              0                         500                    1,000                     1,500                      2,000                       2,500   3,000

Note: Provinces declared poppy-free are not listed.
Source: UNODC, Afghanistan Poppy Eradication Verification Final Report, 08/2014, p. 16; UNODC, Afghanistan Opium Survey 2013, 12/2013, p. 33.




Good Performer’s Initiative
INL also supports the MCN’s efforts to achieve and sustain poppy-free prov-
inces through the Good Performer’s Initiative (GPI).350 Under the current
terms of the GPI program, a province is eligible for $1 million in GPI devel-
opment projects for each year that it achieves poppy–free status, as verified
by UNODC.351 INL told SIGAR that the GPI program incentivizes continued
counternarcotics performance in the year ahead. It also shows provincial
leadership and citizens that there are tangible benefits to countering poppy
cultivation, and it reinforces the writ of the government in the province, dis-
trict, and community.352




REPORT TO THE UNITED STATES CONGRESS                    I   OCTOBER 30, 2014                                115
SECURITY




   The MCN in partnership with UNODC verifies poppy cultivation and
eradication. According to UNODC’s Afghanistan Opium Survey 2013
published last winter, 15 of the country’s 34 provinces were declared
poppy free—two less than in 2012. According to INL, poppy cultivation
increased overall in 2013 partly due to economic insecurity and high opium
prices. INL told SIGAR that fluctuations in cultivation can and will occur
as Afghan authorities take on increasing responsibilities. The goal is to
encourage and facilitate sustainable overall poppy-cultivation reductions
over the long term.353
   GPI II was announced on August 30, 2014, and expands the award catego-
ries for “good performers” to include public outreach and law enforcement
beginning with the 2014–2015 poppy-cultivation season. GPI II development
assistance will also be tailored to better meet the needs of rural communities
by prioritizing alternative-livelihoods projects that support farmers as they
transition away from poppy cultivation. GPI II also reduces the amount a
province may receive for being poppy-free to $500,000.354
   As of August 31, 2014, there were 221 approved GPI projects with a total
value of $108 million: 132 projects were completed, 83 projects are ongo-
ing, and six projects are nearing completion. The 89 ongoing projects all
relate to infrastructure or construction, and include alternative-livelihoods
infrastructure projects such as irrigation structures and protection walls,
which prevent erosion.355 Based on third-party audit recommendations, GPI
changed its practice of using a flat conversion rate of one U.S. dollar to 50
afghanis (AFN), rather than using the actual conversion rate on the day of
the project bid, per Da Afghanistan Bank’s official website. The total value
of GPI projects in prior quarterly reports is therefore not directly compa-
rable to the values in this report.356
   Under INL’s direction and through the “Strengthening Sub-National
Governance” grant with the Aga Khan Foundation (AKF), the AKF
facilitated workshops between community, district, and provincial level
representatives and stakeholders of the GPI program between September
and December 2013. The purpose of these workshops was to disseminate
information about GPI and to solicit feedback on the program, including
recommendations for improvement.357 The AKF November 2013 report
submitted to INL found that GPI projects failed to address the needs of
rural farmers for competitive, licit livelihood alternatives to poppy cultiva-
tion.358 Conducting the bidding and procurement process from Kabul led
to project delays and increased costs, and provided no economic benefit
to local communities.359 Moreover, the preponderance of infrastructure
projects did not demonstrate to the local communities the benefits of
reducing poppy cultivation.360
   Certain poppy-free regions were ignored, possibly leading to the per-
ception that farmers needed to cultivate poppy in order to qualify for
GPI funding and thereby negating the program’s aspirations. The district




 116                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                              SECURITY




governors of areas free of poppy cultivation recommended a review of
the policy and procedures to include non-poppy-growing areas.361 INL
informed SIGAR that GPI implementing instructions do not preclude non-
poppy-growing areas from eligibility for GPI projects though workshop
participants, and that the AKF recommended GPI projects directly benefit
rural poppy-growing communities.362
   Based on the workshop feedback, AKF submitted three recommenda-
tions to INL in its report: (1) increase the number of district and community
level institutions, women, and other stakeholders in poppy-growing
communities consulted throughout the project identification and imple-
mentation process to ensure more contextually appropriate projects are
prioritized; (2) decentralize project selection, procurement, and contractual
bidding, making the process more localized to reduce award processing
times and costs, and increasing indirect economic and employment ben-
efits to rural poppy-growing communities; and (3) shift from infrastructure
projects based around provincial capitals, to projects that directly benefit
rural poppy-growing communities by offering competitive and sustainable
sources of income to poppy cultivation.
   According to INL, the MCN and INL incorporated two of the three recom-
mendations into GPI II, to be launched with the 2014–2015 poppy cultivation
season. The 2014 GPI Awards, which will be made following the publication
of the UNODC Afghanistan Opium Survey 2014—currently scheduled for
October 2014—will be the final awards for achievements under the old GPI
program. The first awards under GPI II will be made in the fall of 2015.
   INL told SIGAR that GPI II awards will continue to be issued at the
provincial level. Provincial governors, who have the best knowledge of
local conditions throughout their province, will continue to select which
communities receive GPI projects. Project selection will be the result of con-
sultations with the input of local community structures, such as agricultural
cooperatives and community-development councils; district stakeholders,
including district governors and district development assemblies; and the
provincial government. Where feasible and relevant, local structures will be
responsible for the ongoing maintenance of GPI II projects.363
   INL informed SIGAR that after much consideration, INL and the MCN
decided not to implement the AKF’s third recommendation to decentral-
ize the GPI procurement and contractual bidding processes. INL said the
changes would weaken INL’s oversight of the program, and had the poten-
tial to increase project costs and decrease project quality by restricting
bidding to local companies. Under the current GPI procurement process,
projects are bid nationally, which does not preclude local contractors that
meet the bidding requirements, such as previous experience and financial
liquidity, from bidding. Bid openings are conducted in the provincial capi-
tals, in the presence of bidders, the MCN, and provincial officials. Once the
bids have been recorded, the bid documents are transported to Kabul.




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2014            117
SECURITY




   As part of its oversight of the GPI program and under the requirements of
the GPI On-Budget Memorandum of Understanding, INL participates in the
bid evaluation and decision processes. Due to security restrictions, how-
ever, INL is unable to participate in procurement activities in the provinces.
Conducting bid evaluation activities in Kabul provides the U.S. government
with greater management control and oversight of the GPI program. INL
and the MCN will consider future modifications to the procurement and bid-
ding processes as lessons are learned under GPI II.364

Kandahar Food Zone
The Kandahar Food Zone (KFZ) program is a two-year project funded by
USAID and designed to identify and address the drivers of poppy culti-
vation in targeted districts of the province through grants.365 As of early
September 2014, no infrastructure or alternative-livelihood projects have
been implemented, but over $5 million have been disbursed.366 The August
2014 monthly report lists USAID vetting approval as one of the challenges
to project implementation. Security instability is frequently an impediment
to the KFZ projects, causing delays or interruptions.
   The USAID pillar of this $18.7 million USAID program has two compo-
nents: (1) building MCN capacity and (2) providing alternative livelihoods
(AL) and community infrastructure.367 Seven districts were chosen by
USAID, the MCN, and the provincial governor to participate in the program.
KFZ’s anticipated goals and results are to:368
•	 rehabilitate more than 150 km of irrigation canals in three target districts
•	 have more than 85,000 people benefit from infrastructure and
    alternative livelihood activities
•	 improve approximately 20,000 hectares with irrigation to provide
    farmers with alternative licit income
•	 reduce poppy cultivation in areas where KFZ improved the irrigation
    system369

   According to USAID, the KFZ is using community-based planning
to support alternatives to poppy cultivation. This approach involves
communities in identifying root causes of poppy cultivation and address-
ing them through projects approved by community representatives or
elders, Community Development Councils (CDCs), District Development
Assemblies, district governors, the KFZ-Coordination Committee
(KFZ-CC), and the provincial governor.370
   USAID informed SIGAR that the two-year timeframe for the KFZ pro-
gram is problematic since 2014 and 2015 are Afghan election years (the
presidential election in 2014 and parliamentary elections in 2015). USAID
noted that the Afghan government and provincial offices could be less
willing to eradicate poppy during this period. Moreover, the agency says
the causes of poppy cultivation are long-term problems that cannot be




 118                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                              SECURITY




addressed within a two–year period.371 According to USAID, the MCN
wishes to apply the KFZ model to the 17 remaining provinces with poppy
cultivation, including Uruzgan, Farah, Badakshan, and Nangarhar. The MCN
is seeking support from other donors as USAID has no plans to fund the
proposed food-zone expansion.372
    According to USAID, the KFZ program coordinates closely and inti-
mately with the Regional Agriculture Development Program (RADP)
interventions so as to maximize impact and avoid duplication.373 The
USAID-funded Regional Agricultural Development Program-South
(RADP-S) is a five-year program which aims at improving the productivity
of wheat, high-value crops, and livestock in southern Afghanistan, includ-
ing Helmand Province.374 USAID told SIGAR that KFZ and RADP-S in Zharai
and Panjwayi districts are working together closely to avoid targeting the
same areas for greenhouse projects. Additionally, RADP-S will continue
working with those beneficiaries once the KFZ program comes to a close.
USAID also informed SIGAR that KFZ and RADP-S coordinate interven-
tions for the Afghanistan National Agriculture Sciences and Technology
University (ANSTU), where KFZ intends to construct a demonstration
greenhouse and RADP-S intends to build a demonstration farm for high-
value orchard and vineyard crops.375

Drug Demand Reduction Activities
INL supports 76 treatment programs. This quarter, INL provided support for
clinical-staff training, treatment services, and outpatient and village-based
demand-reduction programs, while continuing to implement a transition
plan to transfer 13 of its 76 treatment programs to Afghan responsibility.376
   The transition plan includes building staff capacity and promoting
continued cooperation between the MCN and MOPH. INL said it seeks to
create uniformity among the treatment centers nationwide and to help
incorporate existing Afghan treatment professionals into the Afghan gov-
ernment civil service. Under the plan, treatment programs will transition to
the Afghan government as INL support to programs slowly decreases over
the coming years.377
   According to the final September 2014 report of the Afghan National
Development Strategy (ANDS), the MCN set a target to increase drug-pre-
vention and treatment capacity for heroin and opium users by 30% between
2012 and 2016.378 Considering the country’s insufficient number of treatment
facilities, that goal may be overly ambitious. By contrast, the 2013 U.S. goal
for lowering illicit drug consumption among 12-to-17-year-olds in the United
States is only 15% by 2015.379
   State also funded the Afghanistan National Urban Drug Use Study
(ANUDUS) to glean reliable information on illicit drug use in order to
develop approaches for demand reduction and prevention.380 Nearly 2,200
households were randomly selected, representing over 19,000 household




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2014            119
                                                               SECURITY




                                                                   Opiate Consumption                                          Nevertheless, little heroin in the United
                                                                                                                            States originates in Afghanistan. Although
                                                                   According to UNODC, local consumption                    a recently released U.S. government report
                                                                   accounts for at most 5% of the Afghanistan’s             noted a significant rise of U.S. heroin
                                                                   opium production.385 Afghan opium is                     overdose deaths,391 DEA reports that the
                                                                   exported to Western and Central Europe                   availability of heroin from Afghanistan has
                                                                   through Iran and Turkey, through the so-                 not increased and is not increasing in the
                                                                   called Balkan route.386 China and India also             United States based on all its indicator
                                                                   receive direct shipments by air or land.387              programs and investigative reporting. New
                                                                   Heroin from Afghanistan is heavily used                  England, in particular, has seen a surge of
                                                                   in Eastern Europe, where levels of opiate                heroin used, but DEA told SIGAR there is no
                                                                   use are higher than the global average.388               indication that heroin from Afghanistan is
                                                                   Afghan opium is exported through the                     crossing the border from Canada into New
                                                                   country’s northern neighbors for the                     England.392 DEA’s indicator programs and
                                                                   Russian Federation market.389 The Canadian               investigative reporting identify that most
                                                                   government also estimates that 90% of its                of the heroin available in New England
                                                                   heroin originates in Afghanistan.390                     originates from South America.393

                                                               Source: UNODC, World Drug Report 2014, 6/2014, pp. x, 2, 26, 27, 95; UNODC, Afghanistan: Opium Survey 2013, 10/2013,
                                                               pp. 69, 71; CDC, Increases in Heroin Overdose Deaths—28 States, 2010 to 2012, 10/3/2014.


                                                               members. Over 5,200 people were tested.381 The ANUDUS survey found that
                                                               drug use was more than twice as high among Afghan men as the world aver-
                                                               age for adults. In all provinces, 10.7% of Afghan men tested positive for drug
                                                               use, compared to 4.3% of women and 2.2% of children.382 UNODC estimates
                                                               that 5.2% of adults worldwide have used illicit drugs, with 0.7% being the
                                                               best global estimate for the opioid user and 0.35% for users of opiates.383
                                                               Opioids were the most prevalent drug in the biological samples, although
                                                               prescription drugs (prescription pain pills, sedatives, and tranquilizer) were
                                                               the most commonly reported in the past 30 days in the questionnaires.
  The Paris Pact: the partnership of several
  countries and international organizations                    Monitoring, Verification and Regional Cooperation
  to combat illicit opium traffic from                         The Paris Pact Policy Consultative Group Meeting (PCGM) occurred at the
  Afghanistan. It originated from a meeting                    end of September in Vienna; INL participated. The Paris Pact functions as a
  of various ministers held in Paris in 2003                   balanced and neutral forum to promote collaborative action in the region,
  on central Asian drug routes. It aims
                                                               emphasizing long-term donor assistance to Afghanistan and drawing atten-
  at reducing opium poppy cultivation,
                                                               tion to cross-border smuggling and illicit drug abuse in the region.384
  production and global consumption of
  heroin and other opiates, and at the                            INL currently has two ongoing monitoring and evaluation programs to
  establishment of a broad international                       assess its counternarcotics work:
  coalition to combat illicit traffic in opiates.                  1.	 a cooperative agreement to develop an analytical framework to
                                                                       assess the effect of programs designed to encourage Afghan farmers
                                                                       to reduce opium cultivation
Source: Paris Pact, website “What is it?” https://www.paris-
pact.net, accessed 7/16/2014.




                                                                 120                           SPECIAL INSPECTOR GENERAL               I   AFGHANISTAN RECONSTRUCTION
                                                              SECURITY




   2.	 a contract to develop a simulation model of the Afghan drug industry
       that will enable INL to assess the impact of its CN programs in
       Helmand

  INL awarded the MCN Public Financial Management Risk Assessment
contract on September 19, 2014, for $172,120. During the quarter, UNODC
performed eradication verification in support of the Afghanistan Opium
Survey, tentatively scheduled for release in October.394

Counter Narcotics Community Engagement
INL also funds the Counter Narcotics Community Engagement (CNCE) pro-
gram, which assists the Afghan government in combating the production,
trafficking, and use of narcotics in Afghanistan through periodic communi-
cation and outreach campaigns in targeted provinces. CNCE, implemented
through Sayara Media Communications, targets farmers through national
and local public-awareness and media campaigns in opium-poppy-growing
areas.395 To date, INL has disbursed $5.3 million of the $8.2 million obligated
under CNCE.
   Sayara monitors the effectiveness of media campaigns through target-
audience analysis reports, including a baseline report to identify provincial
drivers of drug trafficking and cultivation, and public sentiment about
narcotics. Sayara also conducts geographic information system mapping
in partnership with a contractor and has 42 observers in all provinces. The
provinces are ranked in tiers based on cultivation levels. The observers
gather information on and gauge perceptions of the counternarcotics mes-
sage campaigns. Sayara also conducts monthly media monitoring, assesses
how counternarcotics media products fit into the current Afghan media
landscape, and evaluates counternarcotics-related items in the media.
   According to INL, the CNCE program began in 2013, so no correla-
tion would exist between 2013 cultivation data and program activities.
Cultivation estimates are not yet available for the current calendar year.396
The CNCE program will conclude in May 2015 and after that, the MCN, cur-
rently undergoing capacity-building training, will take over responsibility
for CN media and public information campaigns.397

Aga Khan Foundation Grant
INL funded $6 million of the project called Strengthening Sub-National
Governance in Afghanistan, implemented by the Aga Khan Foundation
(AKF), which ended May 28, 2014.398 The AKF is a non-profit, international
development agency that focuses on health, education, civil society and
other development projects.399 INL provided assistance to local governance
institutions to shift six provinces in central and northern Afghanistan away
from growing poppies and toward licit livelihoods.400




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2014             121
SECURITY




   In July 2014, INL awarded a new $12 million grant to AKF for the
Strengthening Afghan Governance and Alternative Livelihoods (SAGAL)
project. The grant will enable AKF to work in 16 provinces across
Afghanistan to improve alternative livelihoods for vulnerable popula-
tions. SAGAL has five main objectives to help address the key drivers of
poppy cultivation:
•	 improve agricultural yields of high-potential licit crop systems
•	 increase economic return for licit crop systems
•	 improve farmers’ access to financing
•	 reduce vulnerability of at-risk populations to engage in the illicit economy
•	 improve sub-national governance systems401

   According to INL, the SAGAL project builds upon the work of USAID
projects wherever possible and expands U.S. government-funded alterna-
tive-livelihood projects to new areas. INL and its implementing partners
consult with USAID to avoid pitfalls such as duplicative work with the same
beneficiaries or offering competing activities, and to develop complemen-
tary activities wherever possible.402

Ministry of Counter Narcotics Capacity Building Program
The MCN and INL signed the MCN Capacity Building Program/Advisor
Support memorandum of understanding on February 18, 2014. The pro-
gram, which was renewed for 18 months, provides funding for 24 local
and national advisors and helps build the MCN’s capacity. INL is develop-
ing benchmarks for methods and processes that will track and evaluate
the program’s effectiveness. According to INL, this process not only helps
stakeholders monitor the success of the advisor-support program, but
also improves the MCN human resources department’s employee-evalua-
tion practices.403
   This quarter, MCN with INL’s assistance, conducted a skills assessment
of nearly 200 MCN staff. The results of that assessment will be used to
design a series of courses, to be taught by a local university, with the goal
of increasing staff members’ work-related skills and overall capacity. INL
informed SIGAR it is expecting delivery and distribution of six four-wheel-
drive vehicles for the MCN Kabul headquarters and 34 trucks for MCN
provincial offices, which need reliable transportation. Also this quarter,
three female students from the Asian University for Women began fellow-
ships at MCN.404

Interdiction Operations
DOD reported that from July 1, 2014, to September 19, 2014, Afghan secu-
rity and law-enforcement forces conducted 40 drug-interdiction operations
resulting in the detention of 64 individuals. Overall, 441 individuals have
been detained this fiscal year (168 detainees during the first quarter, 119




 122                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                              SECURITY




detainees during the second quarter, and 90 during the third quarter). These
operations included routine patrols, cordon-and-search operations, vehicle
interdictions, and detention operations. The U.S. military provided general
logistics and intelligence support, while the DEA provided mentorship and
support to specialized Afghan investigative units.405
    INL provides operations-and-maintenance support to the CNPA
Headquarters and the specially vetted units in Kabul. INL does not provide
operations-and-maintenance support to the provincial CNPA.406 The U.S.
Intelligence Community provided supplemental targeting and analytical
support to coalition mentors. Afghan operations during this period also
resulted in the seizures of the following narcotics contraband:
 •	 11,888 kg of opium
 •	 467 kg of heroin
 •	 4,850 kg of morphine
 •	 1,437 kg of hashish/marijuana
 •	 18,062 kg of precursor chemicals407                                          Precursor chemical: substance that may
                                                                                 be used in the production, manufacture
   According to DOD, most interdiction activities occurred in southern           and/or preparation of narcotic drugs and
and southwestern Afghanistan, where the majority of opiates are grown,           psychotropic substances.
processed, and smuggled out of the country. Almost all U.S. interdiction
activities partnered with Afghan forces as ISAF continued its drawdown
during this reporting period. Interagency elements, including the Combined     Source: UNODC, Multilingual Dictionary of Precursors and
                                                                               Chemicals, 2009, viii.
Joint Interagency Task Force-Nexus (CJIATF-N) and the Interagency
Operations Coordination Center (IOCC), continued to support combined
Afghan and ISAF interdiction efforts. Both CJIATF-N and IOCC integrated
data from military and law enforcement sources to enable operations
against corrupt narco-insurgent elements. All operations were coordinated
with and received support from U.S. and Coalition military commanders on
the ground.408 The CJIATF-N mission ended in September 2014.409

Interdiction Results
Since 2008, a total of 2,818 Afghan and Coalition interdiction operations
have resulted in 2,939 detentions and seizure of the following narcotics
contraband:
•	 747,977 kg of hashish
•	 391,080 kg of opium
•	 52,957 kg of morphine
•	 29,207 kg of heroin
•	 460,067 kg of precursor chemicals410

   According to DOD, the drawdown of Coalition forces has had a nega-
tive impact on the CNPA and other Afghan counternarcotics agencies. The
impact is most pronounced in Helmand and Kandahar, where the coalition
troop surge and subsequent withdrawal was focused. Overall, counterdrug




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2014           123
SECURITY




FIGURE 3.30


AFGHAN OPIUM PRODUCED AND SEIZED, 2008–2014 (KILOGRAMS)


  2008
             15,361

  2009
             79,110

  2010
             49,750

  2011        98,327

  2012       70,814

  2013       41,350

  2014       36,368

         0             1,000,000        2,000,000         3,000,000        4,000,000        5,000,000          6,000,000

                            Opium produced                     Opium seized                    TBD

Note: 2014 production data has yet to be released by UNODC.

Source: UNODC, Afghanistan Opium Survey 2013, 12/2013, pp. 12, 40, 42, 44; DOD, response to SIGAR data call,
9/30/2014.



operations decreased 17%, from 624 in fiscal year 2011 at the height of the
ISAF surge, to 518 in fiscal year 2013. Heroin seizures decreased 77%, from
10,982 kg in fiscal year 2011 to 2,489 kg in fiscal year 2013. Opium seizures
decreased 57%, from 98,327 kg in fiscal year 2011 to 41,350 kg in fiscal year
2013, according to the Consolidated Counterdrug Database (CCDB). DOD
told SIGAR that the decrease of overall counterdrug missions was likely the
result of reduced partnering of ISAF with Afghan forces conducting coun-
terdrug operations.411 As shown in Figure 3.30, seizures have been declining
since 2012.
   Information entered into the CCDB comes from multiple sources includ-
ing the ANSF. DOD told SIGAR it was unable to verify ANSF-reported
unilateral interdictions conducted by Afghan military or law-enforcement
units where Coalition mentors are not present. In those instances, the
Defense Intelligence Agency (DIA), which maintains the database, seeks to
corroborate the reported seizure from other sources to increase confidence
in the information.412
   DOD said they assess the majority of Afghan seizures to be the result
of routine police operations near population centers or transportation
corridors, such as at checkpoints or border crossings. Drug labs, storage
sites, and major trafficking networks are concentrated in rural areas and




  124                           SPECIAL INSPECTOR GENERAL              I   AFGHANISTAN RECONSTRUCTION
                                                              SECURITY




according to DOD, are increasingly denied to Afghan forces due to the         The Consolidated Counterdrug Database
ISAF drawdown and declining security in these areas. The notable excep-       (CCDB) is a database that tracks drug in-
tions are U.S.-and UK-supported vetted Afghan counterdrug units like          terdictions and seizures in Afghanistan and
the Intelligence and Investigative Unit (IIU), Sensitive Investigative Unit   is maintained by DIA.
(SIU), Technical Investigative Unit (TIU), and National Interdiction Unit     Source: DOD, response to SIGAR data call, 9/30/2013.

(NIU), which have shown increased ability to conduct counter-network
drug investigations and operations. These units also have been negatively
impacted by the Coalition drawdown, most significantly by losing access
to ISAF-provided enablers. However, DOD said that over the past year, the
units have successfully conducted complex counterdrug investigations and
operations without coalition assistance.413

Aviation Support
During this reporting period, Department of State aircraft provided a
total of 60.9 flight hours, conducted 51 sorties, moved 260 passengers,
and transported 13,272 pounds of cargo in Afghanistan. DEA flight hours
are unusually low this quarter because the program was restricted from
conducting CN missions during the election recount.414 According to INL,
State provided no flight hours supporting DEA intelligence, surveillance,
and reconnaissance missions, no flight hours supporting DEA interdiction
efforts, and 10.3 flight hours supporting Afghan NIU and DEA passen-
ger movements and training flight hours. INL maintains an air wing at
Kandahar Airfield with dedicated helicopters supporting DEA missions in
southern Afghanistan.415




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2014          125
GOVERNANCE




GOVERNANCE CONTENTS
CONTENTS

Key Events	                                         127
Elections	128
U.S. Assistance to the Afghan
Government Budget	                                  133
National Governance	                                140
Subnational Governance	                             144
Reconciliation and Reintegration	                   148
Rule of Law and Anticorruption	                     151
Human Rights	                                       160




 126            SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                  GOVERNANCE




GOVERNANCE
As of September 30, 2014, the United States had provided nearly $30.6 bil-
lion to support governance and economic development in Afghanistan.
Most of this funding, more than $17.7 billion, was appropriated to the
Economic Support Fund (ESF) administered by the State Department and
the United States Agency for International Development (USAID). The cur-
rent ESF appropriation of $852 million is down from a high of $3.3 billion
that was appropriated in 2010.


KEY EVENTS
On September 29, 2014, Ashraf Ghani was inaugurated president of
Afghanistan following a highly contentious election process. President
Ghani’s inauguration marked the first democratic transition of power in
Afghanistan’s history.416
   After the acting Supreme Court chief justice swore in Ashraf Ghani as
president, the new president administered oaths of office to his first and
second vice presidents, Abdul Rashid Dostum and Sarwar Danish. He also
swore in his former presidential election rival, Abdullah Abdullah, to the
newly created chief executive officer position, as well as Muhammad Khan
and Muhammad Mohaqiq—Abdullah’s former vice presidential running
mates—to serve as Abdullah’s deputies. President Ghani also swore in          On September 29, Ambassador James
Ahmad Zia Massoud to serve in the newly created position of high represen-    Cunningham and John Podesta, head of the
                                                                              U.S. delegation to the inauguration of new
tative for reform and governance.417                                          Afghan President Dr. Ashraf Ghani and Chief
   The messy aftermath of the Afghan presidential election dominated          Executive Officer Dr. Abdullah Abdullah, held
the quarter. After a June runoff election, presidential candidate Abdullah    a press conference to congratulate Ghani
claimed victory in July and again in September, while the Independent         and Abdullah. (State Department photo)
Election Commission (IEC) released preliminary results showing Ghani
to be the presumptive victor.418 The UN Secretary-General warned in
September that the elections impasse created “grave destabilizing conse-
quences for the political, security, economic and social environment of the
country.”419 He attributed the disruption to more aggressive actions by the
Taliban, other insurgent and terrorist groups, criminals, and local power
brokers, and to popular disenchantment reflecting post-election political
uncertainty and the international military drawdown.420




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2014         127
GOVERNANCE




U.S. Secretary of State John Kerry shakes hands with Afghan presidential candidates
Abdullah Abdullah and Ashraf Ghani after a press conference in Kabul on August 8,
2014. (State Department photo)


   President Barack Obama and Secretary of State John Kerry made signifi-
cant interventions encouraging the candidates to agree to an audit process
and form a national unity government. Following the June 14 runoff elec-
tion, President Obama called both candidates six times, Secretary Kerry
called the candidates 30 times and twice visited the country, and U.S.
Ambassador James Cunningham held 81 meetings with the candidates.421


ELECTIONS
Afghanistan held its first round of presidential elections and provincial
council elections on April 5. None of the presidential candidates secured
a majority of votes, triggering a legal requirement for a second, runoff
election that was held on June 14. On July 7, the preliminary results for
the second round were released, against the advice of the United Nations,
while talks were ongoing between the candidates’ teams.422 The preliminary
results showed Ghani with 56.4% and Abdullah with 43.6% of the vote.423
This was a reversal from the first round, in which Abdulllah scored 45% of
the validated votes and Ghani scored 31.6%.424
   The results of the provincial council elections were due on June 7; how-
ever, these results were delayed due to the IEC’s focus on the presidential
election.425 According to State, the delay in finalizing the provincial council
election results has meant that “lame duck” members of the Meshrano
Jirga (the upper house of parliament) continue to hold office. The
Meshrano Jirga, however, has continued to do its work in the interim.426
   After negotiations with Secretary Kerry, both Abdullah and Ghani
stated in his presence on July 12 that they had agreed to a framework for a




  128                  SPECIAL INSPECTOR GENERAL    I   AFGHANISTAN RECONSTRUCTION
                                                  GOVERNANCE




national-unity government.427 The following day, however, the candidates’
campaigns offered differing interpretations: Abdullah’s spokesmen proposed
a “shared government” with an executive prime minister who would be
appointed by presidential decree; Ghani’s spokesmen said the losing candi-
date could participate in the new government “through legal ways,” but that
details would be negotiated after the presidential winner was announced.428
   Following the agreement between the candidates to establish a govern-
ment of national unity, protests broke out on August 17 in Kandahar City
during which some protesters threatened to support the Taliban if a coali-
tion government were “imposed.”429
   In a press conference on September 8, Abdullah announced that he was
the victor in both the first and second rounds and that he would not “accept
a government based on fraudulent votes.”430 The following day, the UN
Secretary-General urged the two candidates to respect their previous com-
mitments and form a national-unity government.431
   Following Abdullah’s announcement, on September 10, Ghani called for
the release of the audit results and said that any political deal should not
result in a “two-headed government.”432 The next day, September 11, the
UN deputy secretary-general visited Afghanistan to meet with the candi-
dates and urge a resolution. Following a meeting with the deputy secretary
general, Abdullah’s camp said there were no communications between the
rival campaigns.433
   The two campaigns continued to disagree on the national-unity govern-
ment concept until September 21, when they signed a power-sharing deal
at the presidential palace.434 This final agreement followed two visits by
Secretary Kerry that resulted in previous agreements between the cam-
paigns: the Technical and Political Framework issued on July 12 and the
Joint Declaration issued on August 8.435 The Ghani and Abdullah camps
committed to the following:
•	 convening a loya jirga (grand assembly) to amend the Afghan
    constitution and to consider the proposal to create the post of executive
                                                                                Afghan presidential candidates Abdullah
    prime minister
                                                                                Abdullah and Ashraf Ghani sign the Joint
•	 completing distribution of electronic/computerized identity cards to all     Declaration of the Electoral Teams in Kabul
    citizens as quickly as possible                                             on August 8, 2014. (State Department
•	 creating, by presidential decree, the position of chief executive officer    photo)
    (CEO), supported by two deputies, with the functions of an executive
    prime minister
•	 proposing reforms in all government agencies and decisively combating
    official corruption
•	 acknowledging that the president, as the head of state and government,
    will lead the cabinet
•	 acknowledging that the CEO will be responsible for managing the
    cabinet’s implementation of government policies and will head a
    council of ministers distinct from the cabinet




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2014           129
                                               GOVERNANCE




                                               •	 ensuring parity between the president and the CEO in selecting
                                                  personnel at the level of head of key security and economic institutions
                                                  and independent directorates
                                               •	 establishing a special commission to reform the election system436

                                                  Five hours after the signing of the national-unity government agreement,
                                               the IEC announced that Ashraf Ghani was the winner of the election. As
                                               a condition of the national-unity government deal, the IEC did not imme-
                                               diately announce the full elections results.437 On September 26, however,
                                               the IEC presented then President-Elect Ghani with a winner’s certificate
                                               stating that Ghani won 55.27% of the total votes (3.93 million out of 7.12 mil-
                                               lion votes). At the same event, the IEC chairman was quoted saying that
                                               “the IEC was not the only institution involved in fraud. Fraud was wide-
                                               ranging.”438 The Abdullah campaign issued a statement complaining that the
                                               results certificate was contrary to the agreement reached between the cam-
                                               paigns and that the certified results were not authentic.439
                                                  Assuming the results listed on the IEC certificate given to Ghani
                                               are accurate, the audit reduced Ghani’s share of the vote by 1.17% and
                                               increased Abdullah’s by 1.21%.440

                                               Audits and Fraud Detection
                                               On July 12, Secretary Kerry, along with candidates Abdullah and Ghani,
                                               announced terms of an agreement to overcome the runoff election impasse.
                                               One of the items agreed to was a comprehensive audit of all of the 8.1 mil-
                                               lion votes cast in the second round.441
                                                  On September 14, the IEC announced that the audit was completed.
                                               According to the IEC chairman, 1,683 of 2,200 complaints lodged by
                                               Abdullah’s campaign were found legitimate and 242 of the 729 complaints
                                               lodged by Ghani’s campaign were found legitimate.442 Ultimately, 1,260 out
                                               of 23,000 polling stations were invalidated by the IEC.443
Workers of IEC count ballots at a polling
                                                  The European Union Election Assessment Team (EU EAT) deployed one
center in Kabul during the presidential run-
off. (USAID Afghanistan photo)                 of the largest international-observer missions to support the runoff audit,
                                               with up to 410 observers.444 It labeled the audit process “unsatisfactory” and
                                               claimed the audit produced clear evidence of large-scale fraud, particularly
                                               ballot stuffing.445 EU EAT estimated that between two and three million run-
                                               off votes were fraudulent.446
                                                  A senior State Department official, in a background briefing, noted
                                               that while the runoff audit sought to meet best international standards,
                                               institutionalized fraud by the IEC prevented any audit from resolving all
                                               allegations of fraud.447 According to EU EAT, effective anti-fraud measures
                                               have been neglected for years in Afghanistan. EU EAT assessed that the
                                               negotiated audit procedures in the recent audit were inconsistently applied
                                               during a time of elevated political tensions. EU EAT did not specify which




                                                130                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                  GOVERNANCE




organizations, international or domestic, they found deficient, but promised
to issue a full report shortly.448
   The National Democratic Institute (NDI) issued a statement on
September 24 that “while electoral fraud as well as certain problems in the
audit process make it impossible for any official results to precisely reflect
the votes cast, evidence was not unveiled that would cause the outcome to
be reversed.”449
   This quarter, USAID declined to assess the conduct of the IEC and ECC
during the 2014 elections and said it will be unable to do so until the pro-
cess, including the provincial council elections, is concluded.450 According
to State, Afghan preparations for the elections consistently exceeded expec-
tations, with Afghan electoral institutions and security ministries working in
cooperation to ready plans and deliver materials “in the hope for a credible,
inclusive, and transparent election.” State also assessed the ECC to have
handled complaints efficiently and in a timely manner.451

Initial Appointments
On October 1, President Ghani issued a decree designating existing min-
isters and directors as acting heads of their respective ministries and
directorates until their replacements are appointed. Acting ministers and
directors are not allowed to hire or dismiss government employees in the
interim.452 A Ghani legal advisor told ToloNews that President Ghani intends
to form the new cabinet within 45 days after the inauguration.453
    At press time, the following appointments had been made in the new
Ghani administration:
 •	 Ahmad Zia Massoud was appointed as the special representative to the
    president in the national-unity government for reform and governance
    affairs.454
 •	 Former Finance Minister Hazrat Omar Zakhilwal was appointed
    national-economy advisor and acting minister of finance.
 •	 Former Minister of Interior Mohammad Hanif Atmar was appointed
    national-security advisor.455
 •	 Salam Rahimi was appointed head of office of the administrative affairs
    and council of ministers secretariat.
 •	 Hekmat Karzai was appointed deputy minister of foreign affairs.
 •	 Ahmad Ali Mohammadi was appointed legal advisor to the president.456

U.S. Support for the Elections
The U.S. government funded programs providing technical support,
outreach, and deployment of domestic and international observers
intended to help the Afghan government hold “credible, inclusive, and
transparent elections.”457
   USAID expects to contribute $65.7 million to the United Nations
Development Programme (UNDP) Enhancing Legal and Electoral Capacity




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2014            131
GOVERNANCE




for Tomorrow-Phase II (ELECT II) to help the Afghan electoral manage-
ment bodies by providing technical assistance to the IEC, the ECC, and the
Media Commission. Additionally, UNDP ELECT II develops the capacity
of the electoral management bodies to administer elections on its own for
future election cycles. UNDP ELECT II is supported through a multilateral
“basket fund” that includes funding from at least a dozen other donors. For
instance, the United Kingdom, the European Union, Italy, Germany, France,
Netherlands, Sweden, Denmark, Norway, and Japan contributed the remain-
der of the $129 million that ELECT II estimated was necessary to support
the recent elections.458
   ELECT II is currently undergoing a midterm review that will allow for an
assessment of the fraud-mitigation measures used in the recent election.459
The review will examine the progress, risks, and challenges of Afghanistan’s
election-management bodies including the IEC, ECC, and the Media
Commission as well as the ELECT II program.460
   USAID supported election-observation missions through awards to three
organizations: NDI via the Supporting Political Entities and Civil Society
(SPECS) program; Democracy International (DI); and the Organization for
Security and Co-operation in Europe (OSCE).461 DI fielded 18 observers for
the first and second rounds of the presidential election to 90 and 105 poll-
ing stations, respectively, for coverage of 0.005% of total polling stations.462
NDI also deployed 100 NDI Afghan staff to observe the runoff elections at
312 polling stations in 26 provinces.463
   SPECS awarded subgrants to four Afghan civil-society organizations
to deploy approximately 2,200 domestic elections observers.464 During
the first round, USAID‐supported domestic monitoring groups deployed
observers to 2,999 polling stations with coverage of 15.4% of all polling
stations. During the second round, these same groups deployed observ-
ers to 4,032 polling stations with coverage of 17.7% of all polling stations.
Domestic observer groups, in collaboration with journalists, contributed
8,402 reports to an online incident-mapping activity. These groups reported
an additional 369 reports during the second round.465
   USAID further supported the elections through the Initiative to Promote
Afghan Civil Society (IPACS II) and the Afghan Civic Engagement Program
(ACEP) as well as the Peaceful Election Campaign (PEC). IPACS II and
ACEP contributed to the elections through small-grant support to civil
society and media partners for conducting civic-education activities, get-
out-the-vote election awareness sessions, distributing election-related
publications, and radio and television advertisements. IPACS II ended
on March 31, 2014, and spent approximately $800,000 in support of the
election, while ACEP spent approximately $1.4 million.466 PEC supported
a “Vote for Peace” campaign using community-outreach events such as
athletics and poetry, as well as a multimedia program using radio, televi-
sion, and the Internet to increase voter turnout, reduce violence, and raise




 132                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                                         GOVERNANCE




TABLE 3.17


USAID PROGRAMS INTENDED TO SUPPORT THE 2014 PRESIDENTIAL AND PROVINCIAL COUNCIL ELECTIONS
                                                                                                                           Total Estimated                 Cuulative Disbursements
 Project Title                                                                     Start Date            End Date              Cost ($)                     as of 9/30/2014 ($)
 Afghan Civic Engagement Program (ACEP)*                                         12/4/2013            12/3/2018            $70,000,000                             $8,804,817
 Enhancing Legal and Electoral Capacity for Tomorrow (ELECT) II                  9/28/2013          12/31/2014                 65,720,825                          28,397,554
 Electoral Reform and Civic Advocacy (AERCA)                                       7/7/2009         12/31/2015                 38,702,682                          30,704,119
 Supporting Political Entities and Civil Society (SPECS)                           7/7/2013            7/6/2016                18,000,000                            9,278,855
 International Election Observation (NDI)                                          2/1/2014         12/31/2014                  6,017,700                            3,781,699
 International Election Observation (DI)                                           2/1/2014         12/31/2014                  6,959,188                            5,652,697
 Peaceful Elections Campaign**                                                   9/10/2013            9/30/2015                 3,000,000                            1,362,237
 International Election Observation (TAF)                                          8/4/2014            1/5/2015                 2,356,724                              161,977
Note:
*ACEP programming that contributed to the April and June 2014 elections cost approximately $1.4 million as of June 30, 2014.
**As of September 15, 2014. These disbursements do not reflect operational expenditures.

Source: USAID, responses to SIGAR data call, 9/29/2014 and 10/9/2014.



awareness that future peace and stability in Afghanistan required a peace-
ful transfer of power.467
   A summary of USAID programs that supported the 2014 elections
appears in Table 3.17.
   The International Security Assistance Force (ISAF) and UN transported
second-round ballot boxes from 33 provinces to Kabul. According to DOD,
the IEC and Afghan National Security Forces (ANSF) had the capability
and capacity to move the ballot boxes, but did not due to political con-
cerns. ISAF and UNDP helicopters transported the ballots to regional hubs
and from there to the IEC compound in Kabul via fixed-wing aircraft and
road movements.468
                                                                                                                                 On-budget assistance encompasses
                                                                                                                                 donor funds that are aligned with Afghan
U.S. ASSISTANCE TO THE AFGHAN GOVERNMENT BUDGET                                                                                  government plans, included in Afghan
                                                                                                                                 government budget documents, and
The World Bank reported this quarter that Afghanistan is headed for a fiscal
                                                                                                                                 appropriated by the parliament and
crisis. Government cash balances are low and it is behind in operations and                                                      managed by the Afghan treasury system.
maintenance as well as discretionary development spending.469 The Ministry                                                       On-budget assistance is primarily delivered
of Finance (MOF) reported that Afghanistan is suffering from acute budget-                                                       either through direct bilateral agreements
ary shortfalls470 and the World Bank estimates a shortfall of $500 million                                                       between the donor and Afghan government
in FY 1393 (December 21, 2013–December 20, 2014), threatening to affect                                                          entities, or through multidonor trust funds.
payments of civil servant salaries, pensions, and operating and development
spending. However, the Bank warns that the fiscal gap will be even larger                                                        Off-budget assistance encompasses donor
if revised government-revenue targets are not reached and donor grants                                                           funds that are excluded from the Afghan
are not paid.471 For more information on the revenue challenges, please see                                                      national budget and not managed through
pages 164–167 in this report.                                                                                                    Afghan government systems.
    In May, the Afghan Minister of Finance was quoted saying that                                                                Source: SIGAR, Quarterly Report to the United States Congress,
                                                                                                                                 7/30/2014, p. 130; Ministry of Finance, “Aid Management
donors have not released on-budget development funding to the Afghan                                                             Policy for Transition and Beyond,” 12/10/2012, p. 8.




REPORT TO THE UNITED STATES CONGRESS                       I   OCTOBER 30, 2014                                  133
                                           GOVERNANCE




                                           government, creating “a major hole in [the Afghan government’s] devel-
                                           opment budget.”472 In August, a MOF spokesman warned that a host of
                                           development projects to build and maintain roads, schools, and clinics had
                                           been suspended for lack of funds.473 The MOF instituted control measures to
                                           reduce discretionary spending and operations and maintenance expenses.474
                                               According to USAID, most nonsecurity donor contributions to the
                                           Afghan government are to the development budget and intended to be spent
                                           on development-project activities. In practice, however, the provision of
                                           donor funding for a particular purpose can free Afghan government funds
                                           that would have otherwise been expended for that particular item. Donor
                                           funding can, in effect, provide the Afghan government with the budgetary
                                           latitude to prioritize and redistribute its own funding based on its most
                                           pressing needs, including covering recurrent costs such as salaries.475
                                               In August and September, the deputy minister of finance and the
                                           director general of the treasury publicly expressed concerns regarding
                                           Afghanistan’s fiscal solvency, forcing a delay in salary payments to civil
                                           servants in late September.476 According to USAID, the Afghan government
SIGAR SPECIAL PROJECT                      is facing its greatest shortfall in discretionary spending, something that is
                                           generally not supported by on-budget assistance. Only the ARTF Recurrent
SIGAR sent an inquiry letter this quar-
                                           Cost Window, including the Incentive Program, would relate directly to the
ter to the Special Representative for
                                           current shortfall.477 State said U.S. officials are in discussions with the MOF
Afghanistan and Pakistan and the U.S.
                                           about the scope and cause of the shortfall. USAID said the MOF has not yet
Ambassador to Afghanistan regarding
                                           formally requested support from the international community.478 According
the reports of budget shortfalls and the
                                           to U.S. Ambassador James Cunningham, Afghanistan has discussed the
planned US response. See Section 2,
                                           funding shortfall through the end of the year; however, any requested
page 44.
                                           funds would have to be borrowed from coming years’ donor commitments.
                                           According to Cunningham, “There isn’t going to be new money.”479

                                           Summary of On-Budget Agreements
                                           To improve governance and align development efforts with Afghan priori-
                                           ties, international donors have committed to increase the proportion of
                                           development aid delivered on-budget through the Afghan government.480
                                              Four years ago, international donors at the 2010 Kabul Conference com-
                                           mitted to increase the proportion of civilian development aid delivered
                                           on-budget through the Afghan government to at least 50% to improve gov-
                                           ernance and align development efforts. The donors, including the United
                                           States, reiterated this pledge at the July 2012 Tokyo Conference.481
                                              At the 2012 Chicago Conference, the international community com-
                                           mitted to financially support the Afghan security forces through separate
                                           mechanisms for the army and police with an estimated annual budget of
                                           $4.1 billion.482 This quarter at the Wales Summit, NATO allies and partners
                                           renewed their commitment to contribute significantly to financial sustain-
                                           ment of the ANSF through the end of 2017 and to financially sustain the
                                           ANSF over the next 10 years. The international community has pledged




                                            134                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                                       GOVERNANCE




nearly €1 billion, approximately $1.29 billion,483 annually to sustain the
ANSF for 2015 through the end of 2017. The United States has requested
up to $4.1 billion in the 2015 budget, which would help sustain the ANSF
surge end strength of 352,000 through 2015. The United States expects that
Afghanistan will assume an increasing portion of ANSF sustainment costs,
beginning with $500 million in 2015, as agreed to at the Chicago Summit.484
   As shown in Table 3.18, USAID expects to spend $971 million dollars on
active direct bilateral assistance programs. It also expects to contribute
$1.9 billion to the ARTF, on top of $1.37 billion disbursed under the previous

TABLE 3.18


USAID ON-BUDGET PROGRAMS
                                                                                      Special                                                                      Cumulative
                                               Afghan Government                       Bank                                              Total Estimated       Disbursements as of
 Project/Trust Fund Title                      On-Budget Partner                     Account?         Start Date          End Date           Cost ($)            9/30/2014 ($)
 Bilateral Government-to-Government Projects
 Power Transmission Expansion and              Da Afghanistan Breshna Sherkat
                                                                                        Yes         12/5/2012        12/31/2016          $342,000,000                 $7,049,338
 Connectivity Project (PTEC)                   (DABS)
 Partnership Contracts for Health
                                               Ministry of Public Health (MOPH)         Yes         7/20/2008          1/31/2015           236,455,840              182,975,290
 Services (PCH) Program
 Sheberghan Gas Development Project            Ministry of Mines and Petroleum
                                                                                        Yes         5/26/2012          4/30/2015            90,000,000                              0
 (SGDP)                                        (MOMP)
 Kajaki Unit 2 Project (Installation of
 Turbine Generator Unit 2 at Kajaki Dam        DABS                                     Yes         4/30/2013        12/31/2015             75,000,000                 9,067,538
 Hydropower Plant)
                                               Ministry of Agriculture, Irrigation
 Agriculture Development Fund (ADF)                                                     Yes         7/18/2010        12/31/2014             74,407,662                54,000,000
                                               and Livestock (MAIL)
 Basic Education and Literacy and
 Vocational Education and Training (BELT) Ministry of Education (MOE)                   Yes        10/29/2013        10/28/2017             56,000,000                              0
 - Community-Based Education
 Civilian Technical Assistance Program
                                               Ministry of Finance (MOF)                Yes         9/30/2009          9/30/2014            36,256,560                28,810,610
 (CTAP)
 Afghanistan Workforce Development
                                               MOE                                      Yes         7/31/2013        04/03/2016             30,000,000                   150,150
 Project (AWDP)
 Basic Education and Literacy and
 Vocational Education and Training (BELT) MOE                                           Yes        11/16/2011        12/31/2014             26,996,813                23,016,555
 - Textbooks Printing
                                               Ministry of Communications and
 E-Government Resource Center (EGRC)                                                    Yes         8/28/2013           6/1/2016              3,900,000                             0
                                               Information Technology (MOCIT)
 Multi-Donor Trust Funds
 Afghanistan Reconstruction Trust Fund
                                               Multiple                                  No         3/31/2012          3/31/2017           721,057,556              604,829,100
 (ARTF) (current award)*
 Afghanistan Infrastructure Trust Fund
                                               Multiple                                  No           3/7/2013          3/6/2018           417,600,000              105,000,000
 (AITF)
Note:
**USAID had a previous award to the ARTF that concluded in March 2012 and totaled $1,371,991,195 in disbursements. Cumulative disbursements from the two ARTF awards is currently
$1,976,820,295.

Source: USAID, OPPD, response to SIGAR data call, 10/9/2014.




REPORT TO THE UNITED STATES CONGRESS                      I    OCTOBER 30, 2014                               135
                                                                  GOVERNANCE




                                                                  grant agreement between USAID and the World Bank.485 USAID also plans
                                                                  to contribute more than $417.6 million to the AITF.486
                                                                     DOD expects to spend approximately $2.09 billion through the LOTFA
                                                                  and disbursed approximately $1.16 billion as of June 30.487 DOD also
                                                                  expects to spend approximately $826.3 million this year on direct con-
                                                                  tributions to MOD with approximately $227.7 million in development
                                                                  disbursements and $587.1 million in operating disbursements.488

                                                                  Civilian On-Budget Assistance
                                                                  USAID provides on-budget civilian assistance through (1) bilateral agree-
                                                                  ments with seven Afghan government entities and (2) through contributions
                                                                  to two multidonor trust funds, the Afghanistan Reconstruction Trust Fund
                                                                  (ARTF) and the Afghanistan Infrastructure Trust Fund (AITF).489 According
                                                                  to USAID, all bilateral-assistance funds are deposited in a separate bank
                                                                  account established by the MOF expressly for each program.490
                                                                     The ARTF, administered by the World Bank, provides funds to both
                                                                  the Afghan government’s operating and development budgets in support
TABLE 3.19


US GOVERNMENT AFGHANISTAN RECONSTRUCTION TRUST FUND (ARTF) PREFERENCES*
                                                    Afghan Government                                                                                                   Cumulative Amount
 Preferenced Projects                  Agency       On-Budget Partner                                 Year of First Preference             Year of Latest Preference     Preferenced ($)
 National Solidarity Program                        Ministry of Rural Rehabilitation and                Solar Year (SY) 1383                Fiscal Year (FY) 1391
                                       USAID                                                                                                                               $865,000,000
 (NSP)                                              Development (MRRD)                             (3/20/2004–3/20/2005)              (3/21/2012–12/20/2012)
 Education Quality Improvement                                                                                   SY 1387                             FY 1392
                               USAID                Ministry of Education (MOE)                                                                                               92,000,000
 Program (EQUIP II)                                                                                (3/20/2008–3/20/2009)             (12/21/2012–12/21/2013)
 Strengthening Health Activities                                                                                 FY 1393                             FY 1393
                                       USAID        Ministry of Public Health (MOPH)                                                                                        107,230,000
 for the Rural Poor (SHARP)                                                                      (12/22/2013–12/21/2014)             (12/22/2013–12/21/2014)
 National Solidarity Program                                                                                     SY 1389                              SY 1389
                                       DOD          MRRD                                                                                                                      50,000,000
 (NSP)**                                                                                           (3/21/2010–3/20/2011)                (3/21/2010–3/20/2011)
 National Emergency                                 MRRD & Ministry of Public Works                              SY 1384                              SY 1387
                                       USAID                                                                                                                                  23,000,000
 Employment Program (NEEP)                          (MOPW)                                        (3/21/2005–3/20/2006)"                (3/20/2008–3/20/2009)
 On-Farm Water Management                           Ministry of Agriculture, Irrigation, and                     FY 1393                             FY 1393
                                       USAID                                                                                                                                  15,000,000
 Project (OFWM)                                     Livestock (MAIL)                             (12/22/2013–12/21/2014)             (12/22/2013–12/21/2014)
 Public Financial Management                                                                                     FY 1392                             FY 1392
                                       USAID        Ministry of Finance (MOF)                                                                                                  6,000,000
 Reform Project (PFMR II)                                                                        (12/21/2012–12/21/2013)             (12/21/2012–12/21/2013)
 Microfinance for Poverty                           Microfinance Investment and Support                          SY 1383                              SY 1383
                                       USAID                                                                                                                                   5,000,000
 Reduction Project                                  Facility Afghanistan (MIFSA)                   (3/20/2004–3/20/2005)                (3/20/2004–3/20/2005)
                                                    Independent Administrative Reform
 Capacity Building for Results                                                                                   FY 1393                             FY 1393
                                       USAID        and Civil Service Commission                                                                                               5,000,000
 Facility Project (CBR)                                                                          (12/22/2013–12/21/2014)             (12/22/2013–12/21/2014)
                                                    (IARCSC)
                                                                                                                 SY 1381                             FY 1393
 (Unpreferenced funding, total)        USAID        Multiple                                                                                                                927,020,295
                                                                                                   (3/21/2002–3/20/2003)             (12/22/2013–12/21/2014)
Note:
*This table includes programs for which the US government expressed a minimum of $5 million preference as well as the cumulative unpreferenced funds. According to the agreement with the
ARTF Administrator (World Bank), donors can only express a preference on how their donations are used up to 50% of their total contribution. The remaining ARTF funds are unpreferenced and may
be used at the World Bank’s discretion.
**These funds were transferred from the DOD Commander’s Emergency Response Fund (CERP) to the NSP Community Recovery Intensification and Prioritization (CRIP) as part of the Afghanistan
Peace and Reintegration Program (APRP).

Source: USAID, OPPD, response to SIGAR data call, 10/9/2014; World Bank, Administrator’s Report on Financial Status, 9/22/2014, p. 6.




                                                                     136                            SPECIAL INSPECTOR GENERAL                  I   AFGHANISTAN RECONSTRUCTION
                                                  GOVERNANCE




of Afghan government operations, policy reforms, and national prior-
ity programs.491 The AITF, a multidonor trust fund administered by the
Asian Development Bank, coordinates donor assistance for infrastructure
projects in Afghanistan.492 According to USAID, the majority of on-budget
funding has been and will continue to be directed through the multidonor
trust funds, particularly the ARTF.493
   As shown in Table 3.19, the US government has “preferenced” portions
of its contributions to the ARTF to the following programs. According to
the agreement with the ARTF Administrator (World Bank), donors cannot
dictate how their donations are used. They can only express preferences,
up to 50% of their total contribution. The remaining ARTF funds are unpref-
erenced and may be used at the World Bank’s discretion.494
   In May 2012, the Norwegian Agency for Development Cooperation
(NORAD) issued an evaluation of Norway’s donor assistance to
Afghanistan. NORAD noted that multidonor trust funds reduce donor expo-
sure to risk and may reflect donors’ desire to reduce their management and
oversight burden.495 The review found that the World Bank-hired monitor-
ing agent for nonsecurity Afghan government operating costs had, from
March 2009 to issuance of the report, not conducted any site visits outside
of Kabul due to security risks.496
   This quarter, SIGAR requested USAID to provide information on the
ARTF monitoring agent for operating costs (recurrent-cost window). USAID
said it does not know how frequently monitoring agents visit the provinces
and has no findings from these visits. The agency added that while the World
Bank may share monitoring-agent reports with donors at its discretion, it
does not regularly provide them.497 USAID has previously reported that the
monitoring agent at the time of the NORAD report has been replaced and
that the new monitoring agent has staff stationed in the provinces.498
   According to USAID, the actual disbursement of funds through bilateral
on-budget programs is slower than either side would like. USAID has attrib-
uted the low budget-execution rate to limited Afghan government capacity
and the risk-mitigation measures USAID applies to on-budget assistance.499
   At the 2010 Kabul Conference, the Afghan government was directed to
develop National Priority Programs (NPP) in response to limited donor
resources and the weak implementation capacity of ministries. Each NPP
contains key objectives, goals, and a medium-term implementation plan
with results, outcomes, deliverables, and key activities. Unlike previous
strategies where the international community took the lead role, NPPs are
led by the Afghan government with donors, civil society, and private sector
serving as partners for the whole process.500
   According to the USAID Assistance to Legislative Bodies of Afghanistan
program (ALBA), there has been no fundamental change in the way the
Afghan budget is aligned or implemented despite the introduction of NPPs.
The development-budget execution rate continues to be around 50% or




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2014          137
                                          GOVERNANCE




                                          less. According to ALBA, most ministries and donors have not shown any
                                          noticeable change in the way projects within the NPPs are aligned and
                                          implemented to achieve the performance indicators and goals outlined
                                          in the NPPs. ALBA attributed the lack of NPP progress to limited Afghan
                                          cabinet-level commitment contributing to a “business as usual” attitude
                                          toward NPPs, fragmented donor efforts, and a general lack of performance
                                          orientation in ministries that focus mainly on expenditures rather than
                                          ministry-level performance monitoring. ALBA acknowledged that ministries
                                          have articulated performance indicators; however, they are in the form of
                                          narratives and are not supported by a sound accountability framework and
                                          follow-up mechanisms.501

                                          On-Budget Assistance to the ANSF
                                          A large portion of on-budget assistance is for the Afghan security forces.
                                          DOD provides on-budget assistance to the Afghan government through
                                          (1) direct contributions from the Afghanistan Security Forces Fund (ASFF)
                                          to the Ministry of Defense (MOD) and the Ministry of Interior (MOI), and
                                          (2) ASFF contributions to the multidonor Law and Order Trust Fund for
                                          Afghanistan, or LOTFA. Administered by the UNDP, LOTFA primarily funds
                                          Afghan National Police (ANP) salaries.502 Direct-contribution funding is also
                                          provided to the MOF, and later allotted incrementally to the MOD and MOI,
                                          as required.503
                                             According to DOD, the Combined Security Transition Command-
                                          Afghanistan (CSTC-A) has several mechanisms for monitoring U.S. direct
                                          contributions to the Afghan budget for the Afghan security forces. CSTC-A
                                          uses a bilateral-commitment letter to ensure that the Afghan government
                                          understands the terms and conditions for proper utilization of CSTC-A
                                          funds (including purpose, time, and amount) and the possible consequences
                                          of improper use of funds.504
                                             In August 2013, CSTC-A adopted a “financial levers” strategy which,
                                          combined with an incremental disbursement of donor funds, aims to incen-
SIGAR SPECIAL PROJECTS                    tivize Afghan partners to implement accountable and transparent financial
SIGAR issued inquiry letters to CSTC-A    processes (see pages 149–151 of SIGAR’s April 2014 Quarterly Report to
and UNDP this quarter expressing          the United States Congress for more information on the lever strategy
concern regarding the administration of   including key phases). CSTC-A commitment letters stipulate that the MOD
LOTFA. See Section 2, pages 43–44.        and MOI must allocate funds to specific accounting codes and require the
                                          ministries to use automated accounting systems such as the Afghanistan
                                          Financial Management Information System (AFMIS). CSTC-A established
                                          an audit division to perform independent assessments, which place greater
                                          scrutiny over Afghan financial processes.505
                                             CSTC-A audits of MOI fuel purchases, MOI clothing purchases, and
                                          MOD payroll in Herat Province are currently in the withhold phase of the
                                          financial levers process, in which CSTC-A delays disbursement of 50%
                                          of the affected budget code.506 As of September 2014, CSTC-A identified




                                           138                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                  GOVERNANCE




recoupment of 651 million afghani ($13 million) inappropriately paid in
clothing purchases due to noncompliance with the Berry Amendment
(a 1941 law meant to promote purchase of certain U.S. goods, including
textiles)507 and an estimated 96 million afghani ($2 million) in unbilled
expenses subject to the Berry Amendment.508
    Every week CSTC-A monitors AFMIS expenditure reports to detect
abnormalities that warrant further investigation. According to CSTC-A,
these abnormalities generally occur when expenditures are registered
in accounting codes that CSTC-A does not fund or when expenditures in
the correct accounting code exceed the amounts specified in the commit-
ment letter.509 CSTC-A also uses AFMIS data to note whether a particular
expenditure code, for example, wages and salaries or acquisition of assets,
is “under-executed” (below the expected disbursements).510 According
to CSTC-A, direct contributions to the Afghan government are at risk for
reduction due to their failure to fully execute (spend) the current Afghan
fiscal-year budget. Interestingly, CSTC-A considers slow execution rates of
items such as goods and services as undercutting the ability of Afghan min-
istries to show they are good stewards of donor contributions.511
    CSTC-A acknowledges that AFMIS data is entered by Afghan ministry
staff, making the reliability of AFMIS data dependent on those same Afghan
government staff. If a transaction is omitted, for example, CSTC-A would
not necessarily be aware of it. CSTC-A does not know of any periodic data-
validity checks of AFMIS data quality.512
    Additionally, ISAF Commander General John Campbell has noted that
going forward, international forces face new challenges in overseeing funds
for the Afghan security forces. According to General Campbell, interna-
tional forces no longer have the presence—“touch points”—at brigade and
battalion levels to observe the end use of international funds. Instead, inter-
national forces will be restricted to the corps and ministries to focus on
Afghan government budget planning and execution systems. He acknowl-
edged that these systems are challenging for outsiders to understand.513          Ashraf Ghani, president of the Islamic
    CSTC-A’s assessment is that once funds enter the Afghan govern-               Republic of Afghanistan, speaks during a
ment’s bank account, oversight becomes significantly more challenging.            meeting held at the presidential palace in
                                                                                  Kabul. (U.S. Army photo)
According to the CSTC-A commanding general in February 2014, “It is
important to remember that once funds are donated to the Government of
the Islamic Republic of Afghanistan, the sovereign nation may use those
funds without further coordination with the United States Department of
Defense.”514 CSTC-A direct contributions are pooled with all sources of
Afghan government revenues (including other donor-nation and domestic
revenues) deposited in the single treasury account of the central bank.
According to CSTC-A, this approach has the advantage of simplicity and
provides the Afghan government flexibility, but requires additional effort
from CSTC-A to reconcile the reported use of funds.515 The Department of
Defense Inspector General (DOD OIG) found that as a result of CSTC-A’s




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2014             139
GOVERNANCE




use of the Treasury Single Account, CSTC-A could not verify that the ASFF
direct contributions were used for their intended purposes as defined
by the commitment letters.516 This quarter, CSTC-A reported that it has
requested MOF to establish a special bank account and provide bank state-
ments for direct contributions.517
   In August, DOD OIG released an audit that concluded that the Afghan
government lacked the basic controls to provide reasonable assurance
that it appropriately spent $3.3 billion of ASFF direct contributions.518 The
audit found that MOD and MOI did not have adequate controls in place over
the payroll process to ensure that ASFF direct contributions were used as
intended and that ANSF salaries appropriately paid. According to DOD OIG,
this occurred because MOD and MOI lacked the capacity to develop and
implement controls over the payroll process.519 The Afghan government had
developed accounting (AFMIS) and human-resources systems, but the nec-
essary interfaces between the financial and human-resources systems were
not in place.520
   DOD OIG also observed that MOF changed the fund codes within AFMIS
from ASFF direct contribution codes to Afghan government revenue codes
when funds were received. MOF officials stated that AFMIS and personnel
lack the capacity to perform fund accounting, in which the sources of funds
(such as CSTC-A’s direct contributions) are identified. DOD OIG observed
that AFMIS is a fund-based system and, therefore, should be able to track
this information.521 The DOD OIG audit did not elaborate on why the MOF
would change the revenue codes.


NATIONAL GOVERNANCE
The United States provides assistance to Afghan governing institutions
to build capacity to perform critical services and thereby increase their
legitimacy in the eyes of the Afghan population. Assistance is provided in
two ways: (1) through contracts, grants, and cooperative agreements, and
increasingly, (2) through on-budget assistance. In this final year of the secu-
rity transition, the U.S. government is particularly focused on increasing
the financial and program-management capabilities of Afghan government
institutions. It is using a combination of capacity building and on-budget
programs to achieve this end.522
   The Tokyo Mutual Accountability Framework (TMAF) serves as a cor-
nerstone of international engagement and is the agreed instrument for
measuring mutual accountability.523 The international community and
Afghan government agreed to the TMAF at the Tokyo Conference of Donors
in July 2012. Later the TMAF was augmented with intermediate targets for
the Afghan government and the international community called “hard deliv-
erables,” such as the passage of a mining law.524




 140                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                                      GOVERNANCE




   SIGAR has previously reported on the progress of TMAF “hard deliver-
ables.” (See pages 127–129 of SIGAR’s April 2014 Quarterly Report to the
United States Congress for more information.) A Special Joint Coordination
and Monitoring Board (JCMB) meeting was held on January 29, 2014, to
assess TMAF progress and to formulate guidance in anticipation of a new
Afghan government following the elections.525 According to USAID, the
JCMB meeting was the final opportunity for reviewing the existing set of
hard deliverables. The United States temporarily extended the window for
passage of a mining law to April 16, 2014, but the window closed before the
government passed the law.526
   This quarter USAID reported that, as a matter of policy, the U.S. Embassy
Kabul is no longer evaluating or updating the initial version of hard deliver-
ables. USAID is looking forward to engaging with a new government and a
“refreshed” TMAF this fall after an international conference on Afghanistan
tentatively planned for November in London.527 According to USAID, the
previous set of hard deliverables is no longer part of the discussion. Some
incomplete actions from the original list may make it into the future frame-
work, but that determination has not yet been made.528 USAID reported last
quarter that the process of finalizing these new targets will likely continue
through the London conference and into early 2015.529
   During his first meeting with the cabinet, President Ghani directed the
ministers to report within 15 days on each ministry’s political appointees
and contracted staff with information on staff gender, level of education,
and years of service.530

Capacity-Building Programs
USAID capacity-building programs seek to improve Afghan ministries’
ability to prepare, manage, and account for on-budget assistance. SIGAR’s
January 2014 audit of USAID’s assessments of seven Afghan ministries
receiving on-budget assistance from the U.S. government found that these
assessments and reviews identified no ministry capable of effectively
managing and accounting for funds without implementing risk-mitiga-
tion measures.531 As shown in Table 3.20, programs include USAID’s

TABLE 3.20


USAID CAPACITY-BUILDING PROGRAMS AT THE NATIONAL LEVEL
                                                                                                                       Total Estimated   Cumulative Disbursements
 Project Title                                                Afghan Government Partner     Start Date     End Date        Cost ($)        as of 9/30/2014 ($)
                                                              Ministry of Public Health
 Leadership, Management, and Governance Project                                              9/25/2012   10/31/2014 $31,248,400               $24,963,134
                                                              Ministry of Education
 Assistance to Legislative Bodies of Afghanistan (ALBA) Parliament                           3/28/2013     3/27/2018    23,455,326              5,367,139
 Ministry of Women's Affairs Organizational
                                                              Ministry of Women's Affairs   12/20/2012   12/19/2015    14,182,944               3,686,349
 Restructuring and Empowerment (MORE)
Source: USAID, responses to SIGAR data call, 10/9/2014.




REPORT TO THE UNITED STATES CONGRESS                      I   OCTOBER 30, 2014                       141
GOVERNANCE




$31 million Leadership, Management, and Governance Project that aims
to strengthen Afghanistan’s financial-management systems and the capac-
ity of the Ministry of Public Health and the Ministry of Education to meet
requirements set at the 2010 Kabul International Conference for increased
on-budget aid.532 USAID is also funding the $15 million Ministry of Women’s
Affairs Organizational Restructuring and Empowerment (MORE) project,
which among other things assists the ministry to improve its financial man-
agement, as required for future on-budget assistance.533
   To encourage Afghan ministries to rely more heavily upon the civil ser-
vice and reduce dependency on the “parallel civil service” created through
certain donor-funded programs, USAID has decided to move assistance to
the ARTF’s Capacity Building for Results (CBR) program.534 For example,
the Independent Directorate of Local Governance (IDLG) acknowledged in
2012 that “the large majority of the civil servants on the regular pay scale
have a limited skill set and cannot execute most of the tasks that the [Afghan
government] and the international community needs IDLG to deliver.” IDLG
therefore had to rely heavily upon externally funded staff holding manage-
ment, technical, and administrative positions in the IDLG. These staff in
effect acted as civil servants even though they usually did not have that for-
mal status and formed the “Second Civil Service.”535 CBR supports ongoing
public administration reforms across government, training for selected civil
servants, and limited technical assistance to support ministry reforms.536
   The CBR organizes Afghan ministries into three tiers of increasing levels
of support. All Afghan government ministries are automatically classified
initially as Tier 1 and must compete for higher levels of support afforded
Tiers 2 and 3. The seven criteria for Tier 2 include progress on pay and
grade reforms at the central and subnational levels; a functional human
resources department with 30% of pay- and grade-reform civil service staff
evaluated through performance evaluations; an approved strategic or busi-
ness plan with at least one annual progress report; a development-budget
execution rate (the portion of budgeted amounts that controlling agencies
actually spend) of at least 40%; and the ministry either (1) collects key rev-
enues of at least 5% of the revenues collected by all ministries or (2) the
ministry contributes to at least one key governmental service in human
capital development, key economic infrastructure development, or judicial
services. In order to advance to Tier 2 status, a ministry must meet at least
five of the seven criteria.537
   In August 2014, the World Bank found moderately unsatisfactory
progress toward the CBR development objective of assisting the Afghan
government in improving the capacity and performance of select line min-
istries carrying out their mandates and delivering services. The World Bank
noted that the ministries themselves are the only data source for indicators
covering improved business processes and service-delivery progress, and
that this data is not confirmed by the CBR program.538




 142                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                  GOVERNANCE




   Overall progress has been slow due to aspects of the project design,
capacity issues, and political‐economic factors. According to USAID, there
is now clear demand for the program across government with two major
service-delivery ministries now participating and over 50% of eligible minis-
tries having submitted their pre‐qualification applications. USAID believes
that CBR will ultimately be more sustainable than relying on donor-funded
staff.539 However, the pace of project implementation requires significant
acceleration to reach the project objectives within the targeted time frame.540
   USAID funds the $23.5 million Assistance to Legislative Bodies of
Afghanistan project (ALBA) to help Afghanistan’s parliament operate
as an independent and effective legislative, representative, and over-
sight body.541 Over the past few months, ALBA worked closely with the
Meshrano Jirga secretariat leadership to support the Meshrano Jirga ori-
entation session scheduled for October 2014. This orientation is meant
to provide information and training to newly elected senators. This ori-
entation/training will help senators understand rules and procedures, the
Meshrano Jirga structure, and their key legislative, oversight, and rep-
resentational duties. During the past quarter, ALBA also held a series of
widely attended trainings for Wolesi Jirga and Meshrano Jirga secretariat
staff during the recent parliamentary recess. ALBA also supported inter-
actions between Afghan civil society and the parliament through regular
parliamentary reporting—including daily plenary reports, key commission
reports, and legislative tracking reports—that were widely disseminated
to the civil society community.542
   An ALBA report on NPPs found that the Afghan parliament has not been
involved with the NPPs and was never consulted or formally informed
about them. This is despite Article 90 of the Afghan constitution that gives
the parliament the power to “approve plans for economic, social, cultural
and technological developments, [and] approve the state budget.”543

National Assembly
Parliament was on recess from July 23 to September 6.544 According to
State, the recess and the resolution of the election slowed parliamentary
approval of executive-branch activities.545
   On September 7, the Meshrano Jirga (the upper house) held its first ple-
nary session of the fall term. Quorum was reached with 60 of 102 senators
present. USAID anticipates future challenges with achieving quorum in the
Meshrano Jirga until the provincial-council results are certified and sena-
tors are elected from the provincial councils to the Meshrano Jirga.546
   The Wolesi Jirga (the lower house) also held its first plenary session of
the fall term on September 7. Quorum was not reached; only 64 of 249 mem-
bers were present. However, USAID anticipates that members will return
from the provinces, making quorum less of an issue.547




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2014             143
GOVERNANCE




   The Wolesi Jirga summoned the minister of public works (MOPW) for
questioning in the case of MOPW-contracted, Asian Development Bank-
supported road in Faryab and Badghis Provinces. Over $100 million was
reported paid to the contractor, who left after completing only 15% of the
work. The minister of public works was quoted saying “I have always been
against this contract of the Asian Development Bank” and blamed the com-
panies involved in the project.548
   The Meshrano Jirga summoned the ministers of defense and interior for
questions regarding the security situation and issues along the border with
Pakistan. A member of parliament was escorted out of the session after
accusing the minster of defense of being a Taliban spy.549 The Meshrano
Jirga also summoned the minister of finance to discuss government salaries;
however, the deputy minister attended in the place of the minister.550


SUBNATIONAL GOVERNANCE
The United States government supports initiatives at the subnational level
to give Afghans a greater stake in their own government. The goal is to
make local government more visible, accountable, and responsive to the
Afghan people, particularly in the south and east, where the insurgency has
been tenacious.551
   On October 2, President Ghani announced that all provincial governors
will serve as acting governors, without the authority to hire or dismiss
employees, until their replacements are appointed. Ghani suggested that
benchmarks be established for governors’ appointments.552 Governor Atta
Mohammad Noor, the acting governor of Balkh Province and a promi-
nent supporter of Abdullah Abdullah, who was quoted during the election
impasse as saying “if the vote recount is one-sided or fraudulent, we will
not bow down and accept the results,” called President Ghani to say that he
would respect a replacement order.553

Rural Stabilization Programs
USAID has several stabilization programs aimed at helping the Afghan gov-
ernment extend its reach into unstable areas and build local governance
capacity. These programs include USAID’s four Stability in Key Areas
(SIKA) projects, the two Community Cohesion Initiative (CCI) programs,
the Afghan Civilian Assistance Program II (ACAP II), and the ARTF’s
National Solidarity Program (NSP). The United States has requested that
$865 million of its ARTF contributions support the NSP, but has not prefer-
enced support for NSP since 2012.554 Table 3.21 summarizes total program
costs and disbursements to date.
   The USAID Measuring Impacts of Stabilization Initiatives (MISTI) project,
a third-party monitoring and evaluation program that evaluates the impact
of USAID stabilization programs, has conducted 84 verifications in support




 144                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                                          GOVERNANCE




TABLE 3.21


USAID SUBNATIONAL (RURAL) PROGRAMS
                                                                                                                                                               Cumulative Disbursements
 Project Title                                                                     Start Date            End Date         Total Estimated Cost ($)               as of 9/30/2014 ($)
 National Solidarity Program (NSP) via the Afghanistan
 Reconstruction Trust Fund (ARTF)*                                                       2004                2012              $865,000,000                          $865,000,000
 Stability in Key Areas (SIKA) South**                                           4/10/2012             4/9/2015                  234,213,281                            48,627,514
 SIKA East                                                                       12/7/2011             9/6/2015                  177,054,663                            78,182,534
 Community Cohesion Initiative (East, South, Southwest)***                         3/1/2012           2/28/2015                  161,499,422                            60,127,085
 Afghanistan Civilian Assistance Program (ACAP II)                               9/27/2011            9/26/2014                    64,000,000                           45,194,000
 SIKA West                                                                       1/29/2012            8/31/2015                    54,000,000                           34,412,722
 SIKA North                                                                      3/15/2012            4/30/2015                    38,000,000                           24,089,255
 Community Cohesion Initiative (North, West)**                                   9/10/2013             9/9/2015                    36,221,640                             3,758,532
Note:
*This includes USAID contributions to the ARTF with an express preference for the National Solidarity Program (NSP). According to the agreement with the World Bank, donors can only express a
preference on how their donations are used up to 50% of their total contribution. The remaining, unpreferenced funds provided to the ARTF may also be used to support NSP.
**The total estimated cost and disbursement data includes the totals for both SIKA South awards.
***As of September 15, 2014. These disbursements do not reflect operational expenditures.

Source: USAID, responses to SIGAR data call, 9/29/2014 and 10/9/2014.




of USAID’s oversight of stabilization programs. Some 183 verifications or
reports were in progress for completion in August and September. MISTI is
verifying that individual activities, projects and other initiatives have been
or are being implemented as reported for the four SIKA programs, ACAP II,
and the Kandahar Food Zone (KFZ), a project aimed at strengthening and
diversifying licit livelihoods by addressing the root causes and sources of
instability that lead to opium cultivation. MISTI aims to conduct on-site veri-
fication of at least 50% of all USAID stabilization projects.555
   MISTI has faced challenges in project verification due to stabilization-
program implementing partners failing to provide sufficient and accurate
geospatial coordinates and the lack of standardized project tracking across
stabilization programs. MISTI submitted to USAID a list of projects that,
according to satellite imagery, were in suspicious locations such as on a
mountainside or far from population centers. Since then, MISTI has noted
a marked improvement in geospatial coordinate data.556 The fact that MISTI
had to flag the issue of geospatial data quality raises questions about the
amount of quality control the implementing partners exercise. SIGAR
has previously written on the accuracy of data contained in the USAID
Afghanistan Infrastructure and Security Cartography System (AISCS)
and raised concerns with 42 out of 227 sample records that the National
Geospatial-Intelligence Agency (NGA) identified as having either incorrect
or inconclusive coordinates in AISCS.557




REPORT TO THE UNITED STATES CONGRESS                        I   OCTOBER 30, 2014                                   145
                                         GOVERNANCE




                                         Stability in Key Areas (SIKA)
                                         The objective of SIKA is to help district- and provincial-level Afghan govern-
                                         ment officials respond to the local population’s development and governance
                                         concerns, thus instilling confidence in the government and bolstering stabil-
                                         ity.558 USAID intended the four SIKA programs to “be seen as an extension of
                                         the [Afghan government], not as increased foreign presence,” and stipulated
                                         that SIKA “must work within Afghan structures” in order to partner with the
                                         Afghan Ministry of Rural Rehabilitation and Development (MRRD).559
                                             During the quarter, the MISTI program issued a mid-term performance
                                         evaluation of the SIKA North program. According to the evaluation, SIKA
                                         North activities and grants addressed sources of instability and appear to
                                         be having a measurable long-term stabilizing impact. Results of the three
                                         semiannual MISTI surveys from September 2012 to January 2014 indicated
                                         relatively positive stability index scores and a relatively positive confidence
                                         in local government in all sampled SIKA North districts.560 However, the
                                         evaluation found that by continuing the use of in-kind grants, SIKA North
                                         has not complied with recommendations made in SIGAR Audit 13-16 to
SIKA East conducts governance training   ensure clear implementation of community contracting. SIGAR found that
in Sharana District, Paktika Province.   in-kind grants do not meet a key requirement of SIKA—having Afghan dis-
(SIKA East photo)                        trict entities directly responsible for project implementation.561
                                             The evaluation found that SIKA North continues to use in-kind grants
                                         in violation of the contractually mandated Kandahar Model and despite
                                         significant opposition from the MRRD, reduced government and com-
                                         munity ownership that negatively impacts stabilization goals. SIKA North
                                         continues to use in-kind grants with USAID concurrence due to the
                                         implementing partner’s corporate risk aversion and reportedly in order
                                         to save money.562 According a SIGAR interview with SIKA North staff in
                                         April 2013, SIKA North preferred in-kind grants executed by companies
                                         and nongovernmental organizations to fixed obligation grants executed
                                         by the communities themselves because fixed-obligation grants required
                                         more documentation and trust in the community grantee. SIKA North felt
                                         this situation put the program at undue risk and because of this decided to
                                         focus on in-kind grants.563
                                             The MRRD has opposed in-kind grants and told MISTI they will disen-
                                         gage from SIKA North should in-kind grants continue. The evaluation found
                                         that in-kind grants do not effectively involve the government or the com-
                                         munity in the execution portion of the grant,564 a concern also raised in the
                                         SIGAR audit from July 2013.565
                                             MISTI also found that certain activities had questionable impacts. In par-
                                         ticular, the evaluation noted that capacity-building trainings on finance and
                                         grant management provided to communities were ineffective at properly
                                         building the community’s capacity to conduct project management. The
                                         trainings were too short, did not have enough repetition, and did not cover
                                         all the necessary modules. Other “soft” activities, such as poetry-reading




                                          146                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                  GOVERNANCE




competitions, also had questionable impact. While SIKA North said the
events provided for increased district government exposure, the stabiliza-
tion impact was not entirely clear. MISTI’s evaluation team found that many
people showed up solely for the free lunch.566
   MISTI repeated some of its findings from the SIKA West midterm per-
formance evaluation,567 namely, that SIKA North lacks a defined theory of
change and that current outcome indicators are actually mislabeled output
indicators. A theory of change is a specific and measurable description of
a social (behavior) change program that forms the basis for planning, deci-
sion making, and evaluation of a program’s outcomes. MISTI recommended
that SIKA North’s outcome indicators should focus on progress towards the       In Khanabad District, Kunduz Province,
intermediate results and assistance objective and be linked to the program’s    SIKA North held a youth sports event to
theory of change, rather than simply measuring the number of meetings           strengthen the relationship between the
held or percentage increases in activity participation.568                      district government officials and youth.
                                                                                (SIKA North photo)
   Despite the challenges, the evaluation found that SIKA North activities
have been presented as government-led activities and major efforts have
been made to work through government structures in order to provide
service delivery. Afghan government entities are involved in monitor-
ing large infrastructure projects, and the branding and logos at SIKA
North-sponsored events are of the Afghan government, not USAID or the
implementing partner. The MISTI evaluation team found that few beneficia-
ries knew there was an international donor behind activities and assumed
the Afghan government, or more specifically the MRRD, was funding
development. While more-educated beneficiaries understood there was an
international donor behind the activities, they still credited the government
for connecting people to resources and for service delivery.569

Community Cohesion Initiative (CCI)
USAID’s CCI programs, split between one program covering the east, south,
and southwest, and another covering the north and west, aim to build
what USAID calls “resilience” in areas vulnerable to violence and insurgent
exploitation. CCI implements initiatives such as local community-develop-
ment projects that engage community leaders and government officials in
their identification and oversight. The CCI also supports peace-advocacy
campaigns at sporting events.570
   Last quarter, MISTI issued a midterm performance evaluation of CCI as
implemented in the east, south, and southwest.571 The evaluation examined
61 projects from eight CCI districts.572
   SIGAR asked the USAID Office of Transition Initiatives (OTI) for a
response to the evaluation, particularly on the findings that the CCI objec-
tive of supporting cohesion was a conceptually difficult objective and that
CCI staff had differing interpretations of how projects supported cohesion.
According to the evaluation, some CCI staff viewed the defining aspect of
cohesion projects as those that originated from the community, while other




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2014           147
GOVERNANCE




CCI staff saw cohesion projects as those that benefited more people, such
as schools and roads, or connected people across communities.573 It was not
clear from the evaluation how cohesion projects per the second definition
differed from a school or road project implemented by another program
without a cohesion objective.
   OTI insists that although the MISTI evaluation found that the CCI
implementing partners were concerned over the “amorphous nature of the
concepts of cohesion and resilience when designing programs,” the CCI
theory of change clearly articulates the definitions of these concepts and
the program architecture speaks to the core program goals of building com-
munity resiliency and cohesion.574 According to OTI, a key aspect of CCI is
the use of project shuras made up of Afghan government and community
leaders who monitor and own the projects.575 OTI views CCI as standing
apart from other programs in its use of project shuras.576 However, other
large-scale USAID supported programs, including the four SIKA programs
and the National Solidarity Program, integrate community and government
project ownership and monitoring as well.577
   The evaluation also noted that monitoring and evaluation were a chal-
lenge for CCI.578 Although many of those interviewed testified to the
effectiveness of CCI, the evidence they offered in support was not always
clear.579 According to OTI, assessing and evaluating the CCI program goals
of resilience and cohesion requires impact-level analysis. Output-level
evaluations are insufficient for making statements about the efficacy of
CCI activities in building resilience and cohesion. According to OTI, the
MISTI midterm evaluation conducted its fieldwork in January and February
of 2014, at a time when CCI was just beginning to complete a sufficient
amount of projects to allow for impact-level analysis.580
   Since the MISTI evaluation, CCI has worked to design and implement
several outcome- and impact-level case studies that take geographic or
thematic clusters of CCI activities and work to analyze their effects in
aggregate. One example, a water-conflict case study, examined 10 CCI proj-
ects that rehabilitated water-related infrastructure. The case study sought to
understand both the efficacy of CCI projects in mitigating water-resource-
related conflict as well as their overall ability to enable leaders to manage
resources both within and across communities. According to OTI, the case
study found that water projects reduced conflicts within and between com-
munities or bolstered community-based systems that were already reported
to be distributing water in an acceptable and fair manner. Villages where
focus group participants reported conflict over water observed a decline in
conflict after the water infrastructure projects were completed.581




 148                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                  GOVERNANCE




RECONCILIATION AND REINTEGRATION
The current U.S. Civil-Military Framework states that political reconcili-
ation between the Afghan government and insurgency is “the solution to
ending the war in Afghanistan.”582 However, the UN Secretary-General noted
last quarter little progress in establishing a formal dialogue between the
Afghan government and armed opposition groups.583
   In late July, then-President Karzai defended his policy of releasing Taliban
prisoners following the alleged killing of 15 civilians in Ghor by released
insurgents. Karzai’s first vice president, Mohammad Younus Qanuni, was
recently quoted saying, “I am against the release of those who kill the people
of Afghanistan. We knew that when they were released from prison that they
would return to the battlefields and commit more crimes.”584

Reconciliation
In August, the deputy chairman of the High Peace Council (HPC) said that
all meaningful HPC work stopped in the spring during the April 2014 elec-
tions. He also indicated that the Taliban refused to engage with the Karzai
government as they assumed that the incoming government would have dif-
ferent policies from the old.585
    In late September, an HPC member was quoted as saying the HPC has
“not been successful in restoring peace or talking with Mullah Omar and
other Taliban leaders.” He blamed Pakistan for the failure of the HPC.586

Afghanistan Peace and Reintegration Program
The Afghanistan Peace and Reintegration Program (APRP), an Afghan-led
program to reintegrate low-level insurgent foot soldiers and their command-
ers into Afghan civil society, is financed by $182.3 million in contributions
from 12 donor nations. Operational funding for the program is provided
by seven donor nations (primarily Japan and Germany). The United States
provides funding towards community-recovery efforts administered by the
World Bank.587
   According to the Force Reintegration Cell (FRIC), an International
Security Assistance Force element supporting the APRP, the APRP Joint
Secretariat and Provincial Joint Secretariat Teams continue to make out-
                                                                                  A member of the Jordanian Engagement
reach a priority through local peace meetings and radio and television
                                                                                  Team talks with an Afghan religious scholar
advertisements.588 In August, the UNDP and Nangarhar Provincial Peace             at a peace conference in Jalalabad City,
Council hosted an APRP-supported peace meeting between two imams                  Nangarhar Province, August 18, 2014.
from the Jordanian Armed Forces and 400 Afghan religious scholars from            (U.S. Army photo)
neighboring provinces. According to the FRIC, the Jordanian imams, who
are members of Jordanian Engagement Teams that have been operating
in Afghanistan since 2006, stressed peace building and tolerance, but the
participating Afghan religious scholars who denounced the role of the inter-
national community in Afghanistan received the lion’s share of audience
support and cheers.589




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2014             149
GOVERNANCE




   The FRIC also reports 53 small grant projects and 1,246 Afghan govern-
ment projects are under way in 32 provinces and 130 districts.590
   In its January 2014 Quarterly Report to the United States Congress,
SIGAR reported on the challenges associated with the NSP Community
Recovery Intensification and Prioritization (CRIP) mechanism of the APRP
(pages 130–131). In particular, U.S. Embassy Kabul was concerned that
CRIP projects did not have a clear connection to reintegration goals, and
had raised this concern with the MRRD.591
   This quarter, U.S. Embassy Kabul disapproved the draft MRRD APRP
annual implementation plan on the grounds that the plan sought to formal-
ize the ongoing failure of NSP to identify projects funded through the APRP.
According to State, MRRD claimed it was unable to clearly identify APRP
projects because (1) it would be “too difficult” from an accounting perspec-
tive and (2) could create security problems for NSP implementing partners
on the ground. The MRRD remains concerned about publicizing APRP
programming at the village level due to possible targeting of its implement-
ing partners because of the political nature of the peace process. This was
unacceptable to the United States and Australia, two major APRP donors.
The MOF has withheld funding to the MRRD as a result, pending resolution
of this issue.592
   In a follow-on meeting in July with the Joint Secretariat (JS) and MRRD,
the MRRD NSP Executive Director and APRP Deputy CEO committed to
address donor concerns. First, NSP will provide a list of CRIP projects
for which FY 2014 APRP funding will be provided. These projects will be
reviewed and visited by the JS development team. This information, along
with an assessment of the impact of this programming on reintegration,
will be shared with donors. Second, NSP will undertake APRP-funded
outreach, beginning at the provincial and district levels. This will include
improving communications with provincial governors and Provincial Peace
Councils (PPCs), who are generally unaware of NSP APRP programming.
NSP Regional Communications Officers will also engage with the public,
promoting the APRP. Once PPCs are made aware of which projects are
APRP-funded, they will also publicize this information. Third, the NSP sec-
tion of the draft MRRD annual implementation plan for the APRP will be
revised to reflect these changes.593
   According to State, since MRRD has now agreed to address U.S. con-
cerns, State does not recommend attempting to recover the funds donated
to APRP. USAID advised State there is no way to recover funds donated to
the Afghanistan Reconstruction Trust Fund (ARTF) (of which the APRP
donation forms a part) and that the grant documentation signed by USAID
makes it clear that the World Bank has no obligation to reimburse or com-
pensate any donor.594
   As of September, 2,387 new reintegrees joined APRP, increasing the
total to 8,890 reintegrees, as shown in Figure 3.31.595 According to State




 150                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                                  GOVERNANCE




FIGURE 3.31



REINTEGREES BY REGIONAL COMMAND, CUMULATIVE

10,000



 8,000
                                                                                                                                  RC-NORTH



 6,000
                                                                                                                                         RC-CAPITAL
                                                                                                      RC-WEST
                                                                                                                                      RC-EAST
 4,000
                                                                                                                       RC-SOUTH


 2,000                                                                                            RC-SOUTHWEST




      0
           Jun      Sep      Jan      Mar     June      Sep     Dec     Mar      Sep
          2012     2012     2013     2013     2013     2013    2013    2014     2014


Note: DOD provided updated numbers as of September 2014.
Source: State, response to SIGAR data call, 10/4/2013, 7/1/2013, 4/2/2013, 1/2/2013, 10/2/2012, 7/5/2012, 3/30/2012; DOD, response to SIGAR data call, 6/30/2014, 3/31/2014,
12/31/2013, and 9/29/2014.


and the FRIC, the APRP has a robust vetting process to confirm that indi-
viduals who want to join the program are actually insurgents. Afghan civil
government and ANSF officials at the provincial and national levels are
responsible for processing reintegrees. The international role is limited to
being able to access the Reintegration Tracking and Monitoring Database.596
   According to State, U.S. Forces Afghanistan (USFOR-A) declined to
approve the extension of the Afghanistan Reintegration Program (ARP)-
funded training of JS personnel as requested by both FRIC and U.S.
Embassy Kabul. The elimination of the contracting officer’s representa-
tive (COR) within the FRIC means it is no longer possible for projects to
be funded for reintegration under the congressionally mandated ARP. The
FRIC and U.S. Embassy Kabul both requested that USFOR-A assume the
role of COR, but the request was declined. According to State, no additional
ARP projects may be implemented and the funds authorized by Congress to
support reintegration efforts in Afghanistan will remain unallocated.597


RULE OF LAW AND ANTICORRUPTION
On October 5, the attorney general’s office (AGO) reversed an August 21
expulsion order that forced New York Times reporter Matthew Rosenberg




REPORT TO THE UNITED STATES CONGRESS                  I    OCTOBER 30, 2014                           151
GOVERNANCE




to leave Afghanistan. The reporter had written an article on talks among
powerful Afghans of forming an interim governing committee if the two
presidential candidates could not agree on forming a national-unity gov-
ernment. The AGO had described Rosenberg as a spy and said he had
endangered national security. The AGO did not specify which laws were
violated or provide details of the allegations. Both presidential candidates
had pledged to reverse the expulsion order.598
   One of the last major acts of Hamid Karzai as president of Afghanistan
was ordering the execution of five men convicted in a high-profile rape
case. The five men were among seven convicted of raping and robbing four
women who were stopped on August 23 by assailants in police uniforms
as they returned from a wedding party just outside of Kabul. The convic-
tions were based on confessions, which all five men testified were obtained
through torture by Afghan police. The United Nations High Commissioner
for Human Rights and Human Rights Watch both expressed concern with
the way the case was handled.599 The five men, along with a kidnapper, were
executed on October 8.600
   The Justice Sector Support Program (JSSP) reported that the Criminal
Law Reform Working Group (CLRWG), a Ministry of Justice (MOJ) techni-
cal advisory group, adopted draft penal-code provisions on crimes against
the state and authorized the death penalty for disclosure of state secrets
to an enemy during a state of war. The provision prohibits criticism dur-
ing a state of war that “destabilizes” the army or police. The CLRWG also
approved a defense that will be available to an accused if he or she acted
with “good will” for the purpose of reforming illegal activities.601
   According to JSSP, Afghanistan is currently in a state of war with the
Taliban per the draft penal code’s definition. The MOJ and the CLRWG
chairman proposed provisions that would imprison contractors who fail to
deliver on their commitments during a state of war. JSSP and UN Assistance
Mission in Afghanistan (UNAMA) representatives objected; however, the
CLRWG adopted the provisions which state “if a person, during a state of
war, for the purpose of harming the government, interrupts the performance
of all or part of his obligations to the state concerning the import or delivery
of the requirements of armed forces or food commodities or other commodi-
ties used for protection of the population,” the person shall be sentenced to
imprisonment of 5 to 16 years. If the action weakens the nation’s “defensive
power” or operations of the armed forces, the sentence will be 16 to 20
years. According to JSSP, if these provisions are ultimately enacted into law,
contractors will hesitate or decline to engage with the Afghan government
and military due to possible criminal liability for breach of contract.602

Project Summary
The United States has provided assistance to the formal and informal jus-
tice sectors through several mechanisms. These include the USAID Rule




 152                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                                     GOVERNANCE




TABLE 3.22


RULE OF LAW AND ANTICORRUPTION PROGRAMS
                                                                                                                                                  Cuulative Disbursements as of
 Project Title                                         Agency                Start Date          End Date        Total Estimated Cost ($)                9/30/2013 ($)
 Justice System Support Program II (JSSP II)           State               5/31/2010         12/31/2014                $301,971,225                          $169,947,752
 Corrections System Support Program (CSSP)             State                 5/1/2010        12/31/2014                 198,586,208                           196,544,324
 Rule of Law Stabilization - Formal Component          USAID               7/16/2012           7/14/2014                 22,581,128                            19,068,556
 Justice Training Transition Program (JTTP)            State                 1/2/2013           7/1/2015                 20,000,000                            20,000,000
 Rule of Law Stabilization - Informal Component        USAID               7/16/2014           3/13/2014                 15,651,679                            15,080,799
Source: USAID, response to SIGAR data call, 9/30/2014. SIGAR analysis of State responses to data call, 5/27/14, 6/3/14, 6/5/14, 7/16/2014, and 10/20/2014.




of Law Stabilization Formal and Informal Components (RLS-F and RLS‑I),
the State Department JSSP, and the State Department Justice Training
Transition Program (JTTP). These and other rule-of-law and anticorruption
programs are shown in Table 3.22.
    The RLS‐F program, designed to increase public confidence in
Afghanistan’s justice sector and support the improved performance and
accountability of governance, concluded during the quarter. According to
the program’s final report, RLS-F successfully partnered with the Supreme
Court, the MOJ, and the Ministry of Higher Education to achieve sustain-
able reforms in the formal justice sector in Afghanistan.603
    RLS-F noted, however, that there is a lack of willingness among Afghan
counterpart institutions to support and adopt reforms. According to RLS-F,
leadership at Afghan counterpart institutions continues to demonstrate a
lack of commitment to justice-sector reforms by delaying approval of tools
and technologies recommended by RLS-F. This, RLS-F argues, indicates
reluctance by Afghan government counterparts to embrace new processes
and procedures that increase the efficiency, transparency, accountability, and
fairness in the justice sector. In addition, counterpart institutions have failed
in some instances to demonstrate a willingness to assume responsibility for
training initiatives without technical and financial support from donors.604
    RLS-F employed a cost-sharing process to encourage counterpart invest-
ment in the program. RLS-F noted that in the past, Afghan counterparts
lacked the ability and/or willingness to assume meaningful responsibility
(financial or otherwise) for implementing USAID-supported programs. To
address this challenge, RLS-Formal shifted some of the burden of program
support to the counterparts. Cost-sharing policies were put into place with
the Supreme Court, the Afghan Women Judges Association, and the univer-
sities which operate under the Ministry of Higher Education. These policies
specified the type of support required from counterparts as a condition to
receiving specified assistance from RLS-F. For example, RLS-F provided
an honorarium to instructors at the Judicial Stage program, the mandatory
induction training program for judges. RLS-F required the Supreme Court to




REPORT TO THE UNITED STATES CONGRESS                    I   OCTOBER 30, 2014                               153
                                            GOVERNANCE




                                            pay all of the salaries for the Judicial Stage staff. According to RLS-F, in the
                                            past donors provided salary supplements to the Judicial Stage staff, includ-
                                            ing the director, as well as instructor honorariums.605
                                               USAID recently concluded a $1 million grant with Integrity Watch
                                            Afghanistan (IAW) in which volunteer community monitors oversaw
                                            infrastructure projects.606 According to IAW, 158 projects in the prov-
                                            inces of Badakhshan, Balkh, Herat, Nangarhar, Parwan, and Panjshir
                                            were completed under the supervision of community-based monitors and
                                            438 community representatives received trainings in community-based
                                            monitoring procedures. In some cases, donors failed to provide IAW with
                                            project documents, thereby undercutting IAW-sponsored community over-
                                            sight initiatives.607
                                               USAID’s Afghan Civil Engagement Program (ACEP) recently provided
                                            several small sub‐grants to Afghan civil society organizations to monitor
                                            Afghan government activities, conduct research, and report on government
                                            reform commitments.608
                                               USAID is currently designing a stand-alone anticorruption program
                                            for Afghanistan. According to USAID, the program will strive to increase
                                            transparency and accountability within Afghan government institutions,
                                            while also increasing civil society and private sector capabilities to monitor,
                                            research, and advocate for anticorruption‐related matters.609
                                               Last quarter, USAID issued a performance evaluation of the third and final
                                            phase of RLS-I that ran from July 2012 to March 2014. The review focused
SIGAR AUDIT                                 on three RLS-I objectives: to strengthen and improve traditional dispute-
SIGAR has an ongoing audit of U.S.          resolution mechanisms, strengthen linkages between formal and informal
government efforts to assist and            justice sectors, and facilitate cooperation to address longstanding, intrac-
improve the rule of law in Afghanistan.     table disputes.610 The evaluation found that few cases were referred from the
SIGAR plans to (1) identify U.S. govern-    informal justice sector to the formal justice sector, while case referrals from
ment programs or initiatives to develop     the formal to informal sector were common throughout target provinces.
rule of law in Afghanistan; (2) assess         Traditional decision makers had a generally low opinion of formal justice
the progress that these programs or         institutions, while formal-justice actors had respect for informal institu-
initiatives have made; (3) identify chal-   tions. Respondents including traditional dispute-resolution practitioners
lenges, if any, that the U.S. government    and formal justice-sector actors generally preferred the informal over
has encountered in achieving its rule of    the formal justice system.611 The evaluation concluded that the relation-
law objectives and the extent to which      ship between the formal and informal systems is largely one-way, with the
it has addressed these challenges.          formal system referring cases to the informal system, but the latter not
                                            reciprocating.612 According to USAID, this finding is consistent with com-
                                            mon knowledge that the formal justice sector does not have the geographic
                                            reach necessary for adequate access to justice for all citizens.613
                                               The State Department’s JSSP objectives include developing a case-
                                            management system (CMS) to track cases throughout Afghanistan’s
                                            justice system and building the capacity and administrative skills of min-
                                            istry officials.614




                                             154                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                  GOVERNANCE




   JSSP provided technical support to the AGO, MOJ, Ministry of Women’s
Affairs (MOWA), and the Supreme Court. Overall, JSSP reports increas-
ing capacity in human resources, budgeting, and procurement but notes in
several instances the continuing need for JSSP assistance. For example,
JSSP advisors noted that the AGO’s Elimination of Violence Against Women
(EVAW) Unit was not using computers donated two years ago because they
were nonfunctional. JSSP advisors refurbished the computers and installed
updated software. According to JSSP, the EVAW Unit is now using the com-
puters with JSSP continuing to provide support.615 JSSP also helped the
MOJ Human Resources Directorate prepare proposals for funding through
the World Bank’s Capacity Building for Results (CBR) program. CBR aims
to provide training capacity and transition away from external donor train-
ing programs, such as JSSP.616
   The State Department’s JTTP provides regional training to justice-sector
officials, including police, prosecutors, judges, and defense attorneys, on a
wide range of criminal justice topics, including anticorruption. JTTP also
provides mentoring on specific cases and legal issues to justice-sector offi-
cials, including prosecutors and judges. In the last quarter, JTTP delivered
50 training courses for 1,091 participants in 19 provinces.617

The Supreme Court and the Formal Justice Sector
On September 22, then-President-Elect Ghani pledged to appoint a woman
to the Supreme Court.618
   During his inauguration speech, Ghani made reference to corruption
in the judicial branch and requested the Supreme Court to review all its
employees for corruption. The Supreme Court issued a statement rejecting
Ghani’s claims and argued that he is misinformed regarding corruption in
the judiciary.619 The newly appointed special representative to the president
in the national-unity government, Ahmad Zia Massoud, reiterated Ghani’s
concerns and called for “substantial reforms in all aspects, especially in the
judiciary and legal organs.”620

Afghan Correctional System
According to State, the inmate population of Afghanistan’s prisons managed
by the General Directorate of Prisons and Detention Centers (GDPDC) has
continued to increase at a rate of 16.4% annually over the past five years. As
of August 20, the GDPDC incarcerated 26,816 individuals.621 As of July 20,
the Ministry of Justice’s Juvenile Rehabilitation Directorate (JRD) incarcer-
ated 909 juveniles.622 These incarceration totals do not include detainees
held by any other Afghan governmental organization, as State’s Bureau of
International Narcotics and Law Enforcement Affairs (INL) does not have
access to data for other organizations.623
   Overcrowding is a persistent, substantial, and widespread problem
within GDPDC facilities, although reduced by new prison beds added




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2014             155
                                          GOVERNANCE




                                          through State-funded prison construction and by significant reductions in
                                          prison population due to presidential amnesty decrees. As of August 20,
                                          2014, the total male provincial-prison population was at 266% of capacity,
                                          as defined by International Committee of the Red Cross’s (ICRC) minimum
                                          3.4 square meters per inmate. The total female provincial-prison population
                                          was at 121% of the ICRC-recommended capacity. Information on the capac-
                                          ity of GDPDC-operated district detention centers and the JRD’s juvenile
                                          rehabilitation centers is not available. However, anecdotal reporting by INL
                                          advisors visiting facilities indicates that overcrowding is a substantial prob-
                                          lem in many provinces.624
                                             According to State, INL has significantly scaled down plans for new
                                          prison construction in order to focus on the Afghan government’s ability to
SIGAR INSPECTION                          sustain the infrastructure investments INL has already made. However, INL
SIGAR issued an inspection report of      is committed to completing major renovations at Pol-i-Charkhi prison and
the Pol-i-Charkhi prison renovations      to constructing a waste-water treatment system there. INL will also con-
funded by INL. SIGAR found that al-       tinue to support the Afghan government in the near term with small-scale
though INL paid approximately 92% of      infrastructure projects where critically needed to address major issues
the contract’s value to the contractor,   such as overcrowding.625
only about 50% of the required work          The Criminal Procedure Code (CPC) passed in February 2014626 gives
was completed. For more information,      convicts the option to request alternatives to incarceration from the MOJ.
see Section 2, page 36.                   According to JSSP, the MOJ anticipates a large number of requests, but is
                                          concerned that no mechanism is in place to supervise performance of com-
                                          munity-service organizations involved in alternatives to incarceration. The
                                          MOJ intends to deny requests for alternatives to incarceration until regula-
                                          tion is enacted to supervise these community-service organizations. JSSP
                                          and the MOJ will consult with other government institutions to explore the
                                          possibility of convening a working group to draft regulation as quickly as
                                          possible to protect convicts’ rights and relieve prison overcrowding.627
                                             There were reports of prisoners in Ghazni, Herat, and Jawzjan Provinces
                                          participating in hunger strikes. The prisoners in Ghazni were protesting
                                          corruption in judicial offices and the slow progress in their cases, while the
                                          prisoners in Jawzjan protested their continued incarceration following a
                                          presidential order releasing 90 out of 800 prisoners at the facility. In Herat,
                                          prisoners were reportedly protesting against being excluded from presiden-
                                          tial decrees that reduced sentences.628

                                          Anticorruption
                                          Afghan anticorruption efforts showed no significant progress for the major-
                                          ity of the quarter until the inauguration of President Ghani. On October 1,
                                          President Ghani issued a decree ordering the Supreme Court to pursue the
                                          Kabul Bank case and the AGO to assist the courts and prosecute all those
                                          criminal associates and individuals who were involved in the Kabul Bank
                                          crisis. The AGO was ordered to begin indictments within 15 days of the
                                          order.629 It was unclear what effect the Ghani decree would have, as both




                                           156                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                  GOVERNANCE




the Supreme Court and AGO are independent in their performance per
Articles 116 and 134 of the Afghan constitution.630 For more information on
the Kabul Bank case, please see page 172 in this report.
   According to the Department of Justice (DOJ), by all accounts the
Afghan central government is riddled with problems of patronage, nepo-
tism, bribery, embezzlement and misappropriation or other diversions
of public and private property, influence peddling, abuse of office, illicit
enrichment, laundering of criminal proceeds, concealment of crimes consti-
tuting corruption, and obstruction of justice. There is virtually no part of the
central government, or the governments in the districts and provinces, that
is not affected and weakened by public corruption.631
   To cite one example, the former mayor of Khowst was arrested eight
months after he was sentenced to seven years in jail for corruption that cost
the municipality approximately $226,165. The mayor was reportedly able
to remain free despite the conviction due to his personal connections with
government authorities.632

Afghan Attorney General’s Office
According to State, there were no significant changes in the technical
capacity or effectiveness of the AGO. The AGO declined offers from DOJ
to train AGO prosecutors in the Anticorruption Unit (ACU) in novel inves-
tigative methods.633 According to DOJ, the primary challenge to Afghan
government anticorruption efforts is the unwillingness of the AGO to pur-
sue complex corruption cases.634
   At a meeting to discuss reforms of the AGO, President Ghani was
quoted saying that Afghanistan “should have an AGO the people trust in”
and said that reforming the AGO is a matter of Afghanistan’s survival.635
The AGO also lost its power to monitor government entities and the pri-
vate sector following a cabinet decision in mid-October that such powers
conflicted with the law.636
   According to State, ACU of the AGO is able to prosecute lower-level
corruption cases, but faces obstacles prosecuting higher-level corruption.
The ACU has been unreceptive to State and DOJ engagement, and suffers
from low morale. The ACU has little technical capacity and has demon-
strated little interest in developing the techniques to effectively pursue more
sophisticated corruption cases. However, it is capable of prosecuting simple
cases of graft. The U.S. Embassy Kabul’s Office of the Justice Attaché has
refocused their assistance on the Internal Control and Monitoring Unit and
Financial Dispute Resolution Committee where there is greater receptivity.637
   The Major Crimes Task Force (MCTF) is the investigatory arm for the
AGO internal-control and monitoring unit.638 According to State, the MCTF
continues to be an increasingly capable investigatory force, but is stymied
by the AGO’s refusal to pursue corruption cases. Following the presidential
elections, State plans to assess whether the new government has sufficient




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2014              157
GOVERNANCE




political will for an effective MCTF. State will examine Afghanistan’s anti-
corruption initiatives to determine whether Afghanistan enacts financial
regulation legislation; whether it brings corruption charges against higher-
status/rank defendants; whether MCTF’s resource needs have changed;
and how the MOI, AGO, and other Afghan agencies incorporate, or ignore,
MCTF’s role in their anticorruption efforts.639
   According to State, three programs have provided assistance to the
AGO: the National Justice Sector Strategy (NJSS), Supporting Access to
Justice in Afghanistan (SAJA), and JSSP. NJSS, which ran from January
2011 to September 2014, included a specialized component to establish six
provincial EVAW units within the AGO for training, mentoring, and public
information activities. INL spent approximately $2.7 million on this initia-
tive.640 SAJA, which is expected to run from September 2014 to March 2017,
expands support to 11 newly established EVAW units, bringing the total
number of units supported to 19. SAJA will integrate the legal trainings and
related standard operating procedures into the AGO structure by the end
of the program. INL plans to spend approximately $6 million on this com-
ponent over the program’s life. JSSP aims to improve the transparency and
functionality of the AGO. JSSP assists the AGO on their internal strategic
planning processes, budgeting processes, procurement processes, and eth-
ics though mentoring, training, and material support.641

Independent Joint Anti-Corruption Monitoring and Evaluation
Committee (MEC)
According to State, the Independent Joint Anti-Corruption Monitoring and
Evaluation Committee (MEC) continues to demonstrate competent admin-
istrative and technical capacity. State notes, however, that the MEC lacks
the authority to do more than illuminate poor or corrupt practices.642
   During the quarter, the MEC issued reports on Da Afghanistan Breshna
Sherkat (DABS) and Kabul Bank. These two reports are covered in the
Economic and Social Development Section, pages 167 and 173 respectively.

High Office of Oversight and Anticorruption
State and USAID have reported previously that the High Office of Oversight
and Anticorruption (HOO) is dysfunctional, ineffective, and politicized.643
Neither State nor DOJ engaged with the HOO during this quarter.644

Security Services
According to DOD, the MOD and MOI both lack the will to pursue transpar-
ency and oversight with the result that accountability is nonexistent within
both institutions.645
   The Combined Joint Interagency Task Force-Afghanistan (CJIATF-A),
the lead ISAF element for counter- and anticorruption efforts, is sched-
uled to terminate on October 31, 2014. Portions of CJIATF-A may transfer




 158                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                  GOVERNANCE




to U.S. Embassy Kabul or be transferred out of Afghanistan in order to
remain under the maximum number of U.S. military personnel allowed in
Afghanistan.646

Ministry of Defense
According to DOD, the MOD has made little progress in the last quarter
with respect to effective transparency and accountability policies and pro-
cesses. Whilst transparency, accountability, and oversight processes exist,
they are not enforced due to the substantial level of corruption within the
senior leadership of the MOD.647
   The MOD Inspector General (IG) is relatively well resourced, with appro-
priately trained personnel. However, the MOD IG is primarily focused upon
protecting members of his political network and obstructs investigations
into allegations of criminal behavior by its senior members.648
   The General Staff (GS) IG organization is appropriately staffed, and
some improvements to the structure and training of the GS IG are being
planned in order to improve future effectiveness. The GS IG is considered
to be relatively effective at discovering and reporting corruption issues, but
MOD leadership obstructs any meaningful attempt by the GS IG to combat
corruption. According to DOD, GS IG has conducted many special cor-
ruption investigations in various Kabul-based units and follows an annual
inspection plan for inspections of the Afghan National Army (ANA) Corps.
But when the investigations discover criminal evidence and are turned over
to MOD Legal for prosecution as a criminal case, MOD leadership obstructs
the prosecution.649
   Although each of the six ANA corps has members assigned to the
Transparency and Accountability Committees (TACs), all TAC members
are members of corps staff (chaired by the deputy corps commander), and
never report any information critical of the corps commander. Because of
this lack of independence of the TACs, the GS IG assesses the concept of
the TACs to be currently ineffective.650

Ministry of Interior
According to DOD, MOI anticorruption initiatives are insufficient to
address corruption within the MOI. The minister of interior has indicated
his support for anticorruption work, but it is generally thought that limited
progress will be made as long as the current MOI IG remains in place. The
crucial stumbling block remains the lack of enforcement and proportional
punishment issued to violators, both large and small, a lack of moral will in
the senior leadership, and a governmental system rife with cronyism and
patronage alliances developed over many years.651




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2014            159
GOVERNANCE




HUMAN RIGHTS
Refugees and Internal Displacement
According to State, there have been no large increases or decreases in
refugee movements and no new developments affecting Afghan refugees
in Pakistan or Iran during this quarter. The UN High Commission for
Refugees (UNHCR) recorded 2,728 Afghan refugees returning in July and
August compared to 6,881 returning in the previous quarter. In the first eight
months of 2014, returns totaled 11,949 individuals, which is 61% lower than
the 30,666 returns during the same period in 2013.652
   As of August 31, UNHCR recorded a total of 721,771 registered conflict-
affected Internally Displaced Persons (IDPs), compared to 672,736 as of
June 12. According to State, the actual number of internally displaced
could be much higher and is difficult to verify. UNHCR reported the top 10
provinces of destination for IDPs were Faryab, Helmand, Kandahar, Farah,
Nangarhar, Kunar, Parwan, Kapisa, Wardak, and Badghis. The provinces of
origin were the same as those of destination. Most of displaced left insecure
rural areas and small towns to seek the relative safety and government ser-
vices in larger towns and cities of the same province.653
   In February, the Afghan government launched a national policy on
internal displacement. It set forth the roles and responsibilities of vari-
ous Afghan government ministries and agencies and their development
and humanitarian partners. According to State, implementing this policy
will require developing substantial capacity that does not currently exist
within the Afghan government, along with changes in land-tenure laws
and regulations.654
   According to State, the Ministry of Refugees and Repatriation (MORR)
will be seriously challenged to show the necessary leadership and manage-
ment qualities required to implement the new policy as the lead ministry.
MORR has been a weak ministry since its inception and has never demon-
strated the level of leadership required for effective and consistent action
on refugee returnee issues even though it was created to serve as lead
coordinator on refugee issues for cabinet-level agencies. The effectiveness
of provincial-level MORR authorities has varied over the years, but some
may be stronger performers as the IDP strategy moves to implementation at
local levels.655
   The Afghanistan National Disaster Management Authority’s current abil-
ity to implement new IDP policy and respond to emergencies is mixed,
with reports of improving performance in a number of locations, accord-
ing to State. Similarly, the capacity of local and municipal authorities to
implement the new IDP policy and respond to emergencies varies greatly.
International organizations, bilateral donors, and NGOs worked hard to
build the capacity of local government authorities. There are reports that
subprovincial local governments in Nangarhar and Sar-e Pul Provinces




 160                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                  GOVERNANCE




are becoming more proactive in addressing local needs, but even with
increased skills and training, the provincial branches of several key minis-
tries often lack cash and have problems paying salaries.656

Afghanistan Independent Human Rights Commission
According to State, the Afghanistan Independent Human Rights Commission
(AIHRC) continues to make significant progress in increasing awareness
about human-rights issues, documenting the current human-rights situation,
speaking out about abuses, and monitoring the election process.657
   This quarter, the AIHRC issued a report on causes and negative conse-
quences of bacha bazi , a practice in which young boys are used as sex
slaves. According to AIHRC, bacha bazi is not clearly defined in Afghan
law; however, the practice violates international conventions, is a form of
human trafficking, and therefore is a criminal and human-rights violation.
The AIHRC attributes the spread of bacha bazi to the absence of rule of law,
corruption, ambiguity and gaps in the law, limited access to justice, poverty,
insecurity, and the existence of armed groups. The AIHRC recommended
that the Afghan government modify the penal code to clearly declare bacha
bazi illegal.658 According to State, contacts at the AIHRC have indicated that
public reaction to the report has been largely positive and that religious
leaders have begun to paint the practice as anti-Islamic.659




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2014            161
ECONOMIC AND SOCIAL DEVELOPMENT




ECONOMIC CONTENTS

Key Events	                                         163
Economic Profile	                                   164
Banking and Finance 	                               169
U.S. Economic-Support Strategy	                     173
Development of Natural Resources	                   174
Agriculture 	                                       181
Essential Services and Development	                 184
Private-Sector Development	                         188
Transportation	192
Education	193
Health	196




 162            SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




  ECONOMIC AND SOCIAL DEVELOPMENT
  As of September 30, 2014, the U.S. government has provided more than
  $30.6 billion to support governance and economic and social development in
  Afghanistan. Most of the appropriated funds flowed into four major pro-
  grams and accounts, as shown in Table 3.23. Of the $23.2 billion
  appropriated for these funds, approximately $20.2 billion had been obligated
  and $15.4 billion disbursed. These development funds all decreased in Fiscal
  Year (FY) 2014. The largest account—the Economic Support Fund (ESF)—
  went from a high of about $3.35 billion in FY 2010 to $852 million in FY 2014.
  TABLE 3.23

   CUMULATIVE APPROPRIATIONS FOR AFGHANISTAN DEVELOPMENT, AS OF SEPTEMBER 30,
   2014 ($ BILLIONS)
   Fund                             Managing Agency                                  Appropriated
   ESF                              USAID                                               $17.7
   CERP                             DOD                                                    3.7
   TFBSO                            DOD                                                    0.8
   AIF                              STATE/DOD                                              1.0
   Total                                                                               $23.2
  Note: ESF = Economic Support Fund; CERP = Commander’s Emergency Response Program; TFBSO = Task Force for Business
  and Stability Operations; AIF = Afghanistan Infrastructure Fund.

  Source: See Appendix B.




  KEY EVENTS
  Afghan economic growth continued to slow, largely as a result of political
  uncertainty, persistent insurgency, and the drawdown of U.S. and Coalition
  forces.660 This quarter saw several developments that could have a profound
  impact on the Afghan economy:
   •	 Afghanistan’s domestic revenues in fiscal year (FY) 1393
      (December 21, 2013–December 20, 2014) were 22% lower than
      Ministry of Finance (MOF) budget targets, and 3.8% lower from the
      same period in FY 1392. Expenditures far outpaced revenues; donor
      grants narrowed the fiscal gap.661
   •	 The MOF is in discussion with donors for additional monies to
      cover the budget shortfall for remainder of FY 1393, which ends on




  REPORT TO THE UNITED STATES CONGRESS                   I   OCTOBER 30, 2014                              163
                                                          ECONOMIC AND SOCIAL DEVELOPMENT




                                                             December 20. Without this bailout, the government said it would have
                                                             to defer bill payments, including civil servant salaries.662
                                                          •	 Newly inaugurated President Ghani directed Afghan government
                                                             officials to immediately reopen the Kabul Bank case, recover stolen
                                                             funds, hold accountable those involved in the theft, and move ahead
                                                             with privatizing the successor New Kabul Bank.663
                                                          •	 The Independent Joint Anti-Corruption Monitoring and Evaluation
                                                             Committee also released its second report on the Kabul Bank crisis
                                                             highlighting insufficient progress in resolving the Kabul Bank case,
                                                             naming those responsible along with their liabilities, as well as updating
                                                             cash and asset recoveries, criminal proceedings, and government
                                                             reform efforts.664
                                                          •	 Then-President Karzai signed/enacted the long-delayed new minerals
                                                             law.665 While concerns remain about certain provisions within the
                                                             legislation, the law is meant to encourage investors and align Afghan
                                                             regulations with international best practices.666


                                                          ECONOMIC PROFILE
                                                          Afghanistan’s real GDP growth, excluding opium, has slowed significantly
                                                          over the last year from an estimated 3–4% for 2013 to a World Bank-projected
                                                          1.5% in 2014 due to increasing uncertainty about the volatile political and
                                                          security environment. This is expected to continue through at least the first
                                                          half of 2015. If this uncertainty, fueled by insecurity, instability, economic
                                                          crime, and systemic corruption continues, it will further negatively affect pri-
                                                          vate investment and dampen growth.667 By contrast, Afghanistan’s economy
                                                          grew by an annual average of 9.4% from 2003 to 2012.668
                                                              Decreasing nonfood consumer prices led to lower inflation over the
                                                          first six months of 2014, mostly due to declining real estate prices. The
                                                          World Bank calculated inflation at 5.6% in June 2014, compared to 7.3% in
                                                          December 2013.669
                                                              The IMF found that while Afghanistan’s macroeconomic and fiscal poli-
                                                          cies (financed by donor grants) are appropriately balanced, the government
                                                          must do more to increase domestic revenues and improve budget manage-
                                                          ment. To avoid high rates of inflation, Afghanistan’s monetary policy should
                                                          maintain its international reserves, continue to limit money-supply growth,
   “Afghanistan’s biggest                                 and preserve a flexible exchange rate. The IMF said this strategy depends
                                                          on continued donor assistance pledged at the 2012 Chicago and Tokyo con-
   economic challenge is
                                                          ferences, as well as on Afghanistan’s fulfilling its commitments, which “will
finding sustainable sources                               be critical towards sustaining donors’ confidence.”670
        of growth.”
                                                          Fiscal Sustainability
                                                          Afghanistan has one of the lowest rates of domestic-revenue collection in
Source: World Bank, “Afghanistan, Country at a Glance,”
accessed 9/9/2014.                                        the world, averaging 9% of GDP from 2006–2013, according to the IMF.671




                                                           164                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




       The Washington Post and other media outlets reported in                                            SIGAR asked State for a U.S. government point of contact with
       September that the MOF asked international donors for an emergency                             access to the Afghanistan Financial Management Information System
       infusion of $537 million to cover the budget shortfall for remainder of                        (AFMIS), the country’s government-wide accounting system, as well
       FY 1393. Without this bailout, the government said it would have to                            as a description of any efforts undertaken by the United States or the
       defer bill payments, including civil servants’ salaries.                                       international community to validate AFMIS data. State responded it
          SIGAR asked State Department officials in writing about the factors                         does not currently have access to AFMIS. DOD relies upon AFMIS for
       leading up to the MOF’s bailout request. In particular, the agency                             tracking Ministry of Interior and Ministry of Defense spending and
       asked when the State Department became aware of Afghanistan’s                                  has access to certain AFMIS data, but acknowledges that the data is
       fiscal predicament, what the intended U.S. response was, and how the                           entered by Afghan ministry staff, making its reliability dependent on
       United States planned to ensure that such requests were not recurrent.                         those same individuals. DOD is not aware of any periodic data-validity
          State said that it had been aware of this year’s budget shortfall                           checks. See pages 139 for more detail.
       for many months, but officials note that the MOF has not provided a                                SIGAR believes U.S. government agencies should press the MOF
       sufficiently detailed, formal request for help. Instead, State officials                       for complete access to AFMIS and help the Afghan government
       said the scope, timing, and ramifications of the current shortfall were                        ensure the data is accurate and verifiable. While the AFMIS data is
       under discussion with the Afghan government. When State receives                               far from perfect, without it, SIGAR believes the United States lacks a
       a formal request along with detailed documentation justifying an                               holistic view of what the Afghan government reports to be spending
       emergency infusion of funds, it will determine its response and                                its money on and at what rate, cannot confirm whether and to what
       coordinate with other donors. State told SIGAR that the $537 million                           degree budgetary shortfalls exist, and has insufficient basis to
       figure reported in the press is not settled, but any donor funds that are                      inform the U.S. response.
       provided will draw on “pre-existing, previously notified resources” and                            SIGAR questions the Afghan government’s management of billions
       will not require additional appropriations from Congress.                                      of dollars in U.S. and international donor assistance. Afghanistan’s
          State attributed Afghanistan’s fiscal crisis to economic inertia,                           budgetary shortfalls, excluding donor grants, have been documented
       stemming from the drawn-out political transition, and Afghanistan’s                            by SIGAR, the World Bank, IMF, and Afghanistan’s Ministry of Finance,
       unrealistic budget. While expressing a willingness to work with                                among others, long before the protracted presidential elections and
       the new government to improve revenue collection measures and                                  its associated economic impacts. Afghanistan has suffered from a
       budget formulation, State said the new government bears ultimate                               lack of political will to address corruption, which permeates many
       responsibility for fixing these problems. Officials said Afghanistan                           Afghan government institutions, and from weak enforcement of revenue
       has been warned that the United States will not respond favorably to                           measures. SIGAR agrees with State that a new Afghan administration
       repeated requests for emergency funds.                                                         brings fresh opportunities to tackle these issues.


  Source: The Washington Post, “Afghan Official Says the Government Has Nearly Run Out of Money, Needs U.S. Bailout,” 9/16/2014; Reuters, “Cash-Poor Afghanistan Will Delay Paying Civil
  Servants: Finance Ministry Official,” 9/27/2014;SIGAR-14-101-SP, 9/26/2014; State, response to SIGAR inquiry letter SIGAR-14-101-SP, 10/10/2014; World Bank, Afghanistan: Country Snapshot,
  3/2014; IMF, 2014 Article IV Consultation–Staff Report; Press Release; And Statement By The Executive Director For The Islamic Republic Of Afghanistan, 5/2014; MOF, Monthly Fiscal Bulletin, Month
  7, 1393, 9/6/2014; MOF, Annual Fiscal Report, 1391 (9 Months), accessed 10/11/2014; State phone call discussion with SIGAR, 10/15/2014; State, response to SIGAR vetting, 10/16/2014;
  DOD, CSTC-A, response to SIGAR data call, 9/29/2014; SIGAR analysis.


  Revenue collection continues to decline against budget projections. In the
  first seven months of FY 1393, total domestic revenues—tax and non-tax
  revenues, and customs duties—missed MOF targets by $274 million (-22%)
  so far, and decreased by approximately $39.46 million from the same period
  in FY 1392 (-3.8%).672
      The World Bank estimated a budgetary shortfall of around $500 million
  in FY 1393 (December 21, 2013–December 20, 2014), and reported that
  Afghanistan is headed for a fiscal crisis. Government cash balances are
  low and it is behind in operations and maintenance as well as discretionary
  development spending.673 Afghanistan is suffering from acute budget-
  ary shortfalls in FY 1393, threatening to affect payments of civil servant




  REPORT TO THE UNITED STATES CONGRESS                         I   OCTOBER 30, 2014                                   165
ECONOMIC AND SOCIAL DEVELOPMENT




salaries, pensions, and operating and development spending. However,
should revised government revenue targets not be reached and donor
grants not paid, the World Bank warns that the fiscal gap will grow.674
   Afghan officials have largely attributed this gap to donor failure to
release on-budget development aid,675 and the protracted presidential elec-
tion that depressed consumer spending and led to an overall decline in
imports—major sources of government tax and customs revenue.676 State
said continuing drawdown of international forces, whose presence tra-
ditionally helped bolster imports, is compounding Afghanistan’s revenue
shortfalls.677 The fiscal gap—currently filled by donors—is large and grow-
ing as depicted in Figure 3.32.678
FIGURE 3.32


AFGHANISTAN'S DOMESTIC REVENUES COMPARED TO OPERATING AND DEVELOPMENT
BUDGET EXPENDITURES ($ MILLIONS)
$5,000




$4,000
                                                                      (9-month FY)



$3,000                                                                                                         (7 months)




$2,000




$1,000




      $0
             Fiscal Year         Fiscal Year        Fiscal Year         Fiscal Year        Fiscal Year         Fiscal Year
                1388                1389               1390                1391               1392                1393
               Domestic Revenues                        Operating Budget                      Development Budget

Note: Until recently, Afghan fiscal years ran approximately March 21 to March 20 of consecutive Gregorian calendar years. FY
1388 corresponds to March 21, 2009, to March 20, 2010, and so on. Nine-month data for fiscal year 1391 reflect a change in
the timing of the Afghan fiscal year. Afghan fiscal years now run December 21 through December 20. FY 1393 represents the first
seven months only.
Source: MOF, “Annual Fiscal Report 1391,” accessed 6/20/2013; MOF, "1393 National Budget," accessed 4/14/2014; MOF,
“FY 1392 Monthly Fiscal Bulletin, Month 12,” 2/14/2014, accessed 4/14/2014; MOF, “FY 1393 Monthly Fiscal Bulletin, Month
7,” 9/6/2014, accessed 10/18/2014; Da Afghanistan Bank, "Daily Exchange Rates of Selected Currencies to Afghani,"
2/14/2014, accessed 4/14/2014; Da Afghanistan Bank, "Daily Exchange Rates of Selected Currencies to Afghani,"
8/17/2014, accessed 10/18/2014.




   166                            SPECIAL INSPECTOR GENERAL                   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




     Afghan government expenditures are expected to continue rising—to
  30.5% of GDP in 2016 versus 27.3% in 2014, according to World Bank pro-
  jections—largely due to spending on security, service delivery, building
  essential infrastructure, and operations and maintenance.679 The IMF esti-
  mated Afghanistan’s financing gap, comprising on- and off-budget needs,
  at $7.7 billion (33% of GDP) on average, annually through 2018.680 This will
  limit Afghanistan’s ability to pay for discretionary services without signifi-
  cant donor support and improved revenue mobilization.681
     Improving revenue collection requires political will. The Independent
  Joint Anti-Corruption Monitoring and Evaluation Committee (MEC) stated
  that “Afghanistan loses a substantial amount of revenue due to corruption
  and smuggling at its borders.”682 The World Bank said improved revenue
  mobilization must include reducing leakages, strengthening tax and cus-
  toms enforcement, and implementing a value-added tax with a 10% rate.683
  (See the July 2014 SIGAR Quarterly Report to the United States Congress
  essay on fiscal sustainability for a discussion of VAT opportunities and chal-
  lenges for Afghanistan.)                                                             Current Account: A component in a
     This quarter, the MEC also reported that Da Afghanistan Breshna                   country’s trade accounting. “The balance
  Sherkat (DABS)—Afghanistan’s national electric utility—is writing off                of payments consists of two subaccounts.
  approximately $33 million in unpaid bills accrued from October 2009 to               One subaccount is the current account.
  March 2012, including from several government ministries. In that period,            The current account consists largely
  DABS collected only $4.3 million.684 DABS reportedly collected only half             of the trade balance, which records
  of its electricity bills in Helmand, while the Taliban collect revenue from          U.S. [or another country’s] imports
  electrical infrastructure it has taken over in several provinces.685 For more        and exports of goods and services. The
  information about power infrastructure programs that will be turned over             second subaccount is the capital and
  to DABS to sustain, see page 185.                                                    financial account (hereafter called the
                                                                                       capital account), which records U.S. [or
                                                                                       other country’s] net sales or purchases
  Trade                                                                                of assets—stocks, bonds, loans, foreign
  Afghanistan’s largest trading partner is Pakistan, followed by the United            direct investment, and reserves—with
  States, the European Union, and regional neighbors.686 Trade-related taxes           other countries during the same time
  represented 45% of Afghanistan’s total tax revenues from 2006 to 2013.687            period. Countries like the United States
  Although Afghanistan routinely sustains a large trade deficit, donor aid             that run capital account surpluses and
  helps the country maintain a current account balance of 4.1% of GDP.688              current account deficits receive net foreign
  Afghanistan has no access to international capital markets and relies on this        capital inflows. In contrast, countries
  aid. Without it, the IMF estimates Afghanistan would have a current account          that run capital account deficits and
  deficit equivalent to 41% of its GDP.689                                             current account surpluses experience net
     The World Bank estimates Afghanistan’s foreign-exchange reserves at               foreign capital outflows.” (SIGAR note: In
  $7.3 billion by the end of 2014 (enough to cover eight months of imports).690        Afghanistan’s case, capital-account inflows
                                                                                       also include foreign assistance.)
  Reserves also help maintain exchange-rate stability and protect the econ-
  omy against external shocks.691 The currency exchange rate affects the
  trade balance and the current account. Afghanistan maintains a flexible and
  floating exchange-rate policy that has led to a relatively stable fiscal policy,   Source: President’s Council of Economic Advisers, Economic
                                                                                     Report of the President (2006), Chapter 6: “The U.S. Capital
  but the afghani (AFN) is depreciating against the dollar. In early January         Account Surplus,” p. 125.




  REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2014              167
ECONOMIC AND SOCIAL DEVELOPMENT




2012, a U.S. dollar cost about 49 AFN; on September 30, 2014, it cost about
57 AFN, according to the Afghan central bank.692

Exports
During 2011–2014, Afghanistan exported $3.1–3.3 billion worth of goods and
services annually, not including narcotics, according to IMF estimates.693
The World Bank said Afghanistan’s exports are concentrated,694 with a small
number of products or trade partners,695 making them highly dependent on
a few commodities for their earnings, and consequently more vulnerable to
unstable prices and trade shocks.696
    The IMF export estimates include only $500 million annually of domestic
merchandise exports. Much of the rest, Treasury said, are re-exports that
earn far less foreign-exchange revenue, while many of the service-related
exports—freight, transportation, construction, license fees—stem from the
foreign military/donor presence and may decline in the future. Afghans liv-
ing abroad also remit money, but there is little quantitative data on its value
or its contribution to Afghanistan’s export capacity.697
    According to Treasury, the biggest obstacles to Afghan exports are:698
 •	 Lack of security—both because of ongoing conflict and law-
    enforcement failures—is an obstacle to routine domestic commerce,
    large-scale mining, and gas/oil extraction.
 •	 Transport—as a landlocked country, Afghan exports require
    cooperation from, and adequate infrastructure in, neighboring
    countries. Iran’s sea coast and superior infrastructure make it an
    attractive trade route, but it is under severe U.S. sanctions.
 •	 Human capital—years of conflict have resulted in an interrupted
    education system, poorly educated workforce, and limited domestic
    technological capabilities that will take years to overcome.

Imports
IMF balance-of-payments indicators show that over $8 billion worth of
imports are paid for by official donor grants. If the IMF calculations are
accurate, Treasury estimated that Afghanistan’s real import capacity, with-
out a significant foreign presence driving demand, is less than $2 billion
annually, excluding narcotics revenues. Treasury noted that without high
levels of external assistance, import levels must decline, but it is difficult
to predict by how much without knowing the amount of imports needed
to meet the changing demands of the foreign presence, what Afghanistan’s
import needs will be once that foreign-driven demand declines, and the
required level of external assistance needed to sustain healthy economic
activity and growth. Reduced imports do not necessarily affect the econ-
omy adversely.699
   Narcotics revenues do pay for some imports of legitimate goods such as
cars, building materials, and food, but they largely bypass the formal sector.




 168                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




  Treasury said narcotics proceeds probably do not have an important influ-
  ence on Afghanistan’s foreign-exchange reserves, but are more likely to
  finance capital flight, money laundering, and lifestyles of individuals in the
  narcotics industry.700

  Afghanistan Trade and Revenue Project
                                                                   Total Estimated   Cumulative Disbursement,
   Project Title                  Start Date      End Date             Cost ($)         as of 9/30/2014
   Afghanistan Trade and
                                  11/7/2013       11/6/2017         $77,754,267           $11,141,671
   Revenue
  Source: USAID, response to SIGAR data call, 10/9/2014.



  The Afghanistan Trade and Revenue (ATAR) Project is USAID’s trade-facili-
  tation program designed to (1) support Afghanistan’s accession to the World
  Trade Organization (WTO), (2) facilitate bilateral and multilateral regional
  trade agreements, and (3) improve and streamline the government’s ability
  to generate revenue.701 ATAR is supporting Afghanistan’s WTO accession
  in 2014, and while Afghanistan is positioned to accede, USAID said the
  government must resolve laws that are inconsistent with WTO standards
  and improve ministerial capacity. ATAR is helping the government draft
  WTO-related legislation and is assisting with market-access negotiations
  in the WTO-accession process. ATAR is also working with Afghan customs
  officials to modernize and streamline customs processes.702


  BANKING AND FINANCE
  The World Bank and IMF have both reported that Afghanistan’s banking
  and financial sector has not recovered from the 2010 Kabul Bank crisis. The                                     “The critical issues are
  sector suffers from inadequate regulation and oversight, undercapitaliza-                                       not a simple matter of
  tion, and a loss of consumer confidence.703 Additionally, few Afghan banks
                                                                                                                 choosing good policies,
  operate in accordance with international standards. Audits of major banks
  in Afghanistan conducted in the wake of the Kabul Bank scandal have                                           but of the political will and
  revealed “systemic fragility and vulnerability in all areas of banking gover-                                 capacity to follow through
  nance and operations.”704                                                                                        on implementation.”
     The IMF said Afghanistan’s banking-sector vulnerabilities—limited
  legal infrastructure and institutional capacity, and inadequate corporate
  governance—constrain financial-sector development. While the central                                          Source: U.S. Department of Treasury, response to SIGAR data
                                                                                                                call, 10/1/2014.
  bank has taken corrective measures toward strengthening Afghanistan’s
  12 banks, seven considered to hold weak assets make up 51% of the
  banking sector. If Afghanistan’s banking sector is to contribute to the
  country’s economic development, it will require developing financial
  infrastructure (financial products, investment vehicles, risk-management
  tools, etc.), while improving and enforcing banking supervision.705 The
  U.S. Department of Treasury warned that should Afghanistan fail to




  REPORT TO THE UNITED STATES CONGRESS                     I   OCTOBER 30, 2014                       169
                                                             ECONOMIC AND SOCIAL DEVELOPMENT




                                                             aggressively enforce anti-money laundering/antiterrorist financing laws,
                                                             its banking system will become isolated from the rest of the world and be
                                                             unable to provide key financial services.706
                                                                 Treasury provided no direct assistance to the Afghan banking system this
                                                             quarter, but said it could reconsider if certain conditions were fulfilled.707
                                                             Past conditions, which Afghanistan has rebuffed since 2011, include:708
                                                              •	 Afghanistan staying on track to meet its obligations under the IMF
                                                                 Extended Credit Facility program
  Hawala: money transmitters that arrange                     •	 Kabul Bank shareholders not being involved in the banking sector,
  for the transfer and receipt of funds or                       formally or informally
  equivalent value, and settle their accounts
                                                              •	 clear communication from the president that Treasury advisors would
  through trade and cash over a long period
                                                                 be welcome
  of time.
                                                              •	 clear roles, objectives, progress benchmarks and obligations, in writing,
  Money or Value Transfer Services:                              for Treasury’s technical advisors
  financial services that accept cash, checks,                •	 cessation of public statements by Afghan officials that the United States
  other monetary instruments or stores of                        was responsible for the Kabul Bank crisis
  value. Payments are made by a means                         •	 an Afghan financial-sector plan that Treasury could support
  of communication, message, transfer, or
  through a participating clearing network.                     Many Afghans distrust banks, preferring to borrow and save with family
  It can involve multiple intermediaries with                and friends, and to transfer money through informal, trust- or honor-
  a final payment to a third party and may                   based hawala networks which provide Money or Value Transfer Services
  include any new payment methods.                           (MVTS).709 Commercial loans plummeted in the wake of the Kabul Bank
                                                             crisis, according to the World Bank, and the banking sector’s loan-to-deposit
                                                             ratio dropped from 56.8% in 2010 to 22.6% in 2013.710 Some 50–90% of all
Source: FATF, The Role of Hawala and Other Similar Service   financial transactions in Afghanistan use MVTS, as do drug traffickers seek-
Providers in Money Laundering and Terrorist Financing,
10/2013, pp. 9, 12.                                          ing to launder their illicit proceeds outside the formal banking sector.711

                                                             Money Laundering
                                                             The State Department lists Afghanistan as a major money-laundering
                                                             country whose financial institutions either engage in, or are vulnerable to,
                                                             transactions involving significant criminal proceeds. Narcotics, corrup-
                                                             tion, and contract fraud are major sources of the country’s illegal revenues
                                                             and laundered funds. Afghanistan has weak or nonexistent supervisory
                                                             and enforcement regimes, and little political will to combat corruption,
                                                             both of which “continue to pose serious threats to the security and devel-
                                                             opment of Afghanistan.”712
                                                                Money laundering and terrorist financing are largely perpetuated by
Afghanistan was ranked as the second most
                                                             hawalas, which Afghans rely upon because of official corruption and weak-
vulnerable country (out of 162) at risk for
money laundering and terrorist financing,
                                                             ness in the banking sector. Unlicensed and unregulated hawala brokers in
closely following Iran, according to a 2014                  drug-producing areas like Helmand are responsible for much of the money
Basel Institute on Governance study.                         laundering through Afghanistan’s financial system. But Afghan business
                                                             consortiums that own hawalas and banks are also complicit.713
Source: The Basel Institute on Governance, The Basel AML
Index 2014, 8/13/2014.




                                                              170                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




  Financial Action Task Force
  Last quarter, Afghanistan narrowly avoided a Financial Action Task Force
  (FATF) blacklist designation after its parliament passed Money Laundering/         Financial Action Task Force (FATF): an
  Combating the Financing of Terrorism (AML/CFT) legislation just days               intergovernmental policy-making body that
  before the FATF plenary session of June 2014. Although FATF was not able           sets standards and promotes effective
  to thoroughly review the legislation before the plenary, Afghanistan was           implementation of legal, regulatory, and
  moved off FATF’s “dark-gray” list of jurisdictions not making sufficient           operational measures for combating
  progress, and was promoted to the “gray” list of Improving Global AML/CFT          money laundering, terrorist financing, and
  Compliance: On-Going Process.714                                                   other related threats to the integrity of
      The State Department has neither seen nor evaluated copies of                  the international financial system. Its 36
  Afghanistan’s newly enacted AML/CFT laws.715 Treasury said they con-               members include the United States, United
  ducted an informal analysis of the AML/CFT laws and CFT regulations,               Kingdom, Switzerland, and the European
                                                                                     Union; observers include the UN and the
  and had concerns that the money-laundering offense, as written, does not
                                                                                     Asian Development Bank.
  cover foreign-predicate crimes—crimes committed outside Afghanistan’s
  jurisdiction. Additionally, they found deficiencies in the terrorist-financing     Correspondent accounts: accounts
  regulations regarding the establishment of an asset-freezing regime to             maintained by foreign financial institutions
  implement United Nations (UN) Security Council Resolutions 1267 and                at U.S. banks in order to gain access to the
  1988, which obligate UN member states to freeze assets of UN-designated            U.S. financial system and take advantage
  individuals and entities for being associated with al-Qaeda and the                of services and products that may not
  Taliban.716                                                                        be available in the foreign financial
      FATF will evaluate compliance standards and implementation of                  institution’s jurisdiction.
  Afghanistan’s AML/CFT laws during its next plenary in October 2014.717 In
  the meantime, FATF is helping Afghanistan establish a legal framework for
  its AML/CFT system and achieve technical compliance. Afghanistan, as a           Source: Financial Action Task Force website, “Who We
  member of FATF, will be subject to rigorous reviews of its AML/CFT sys-          Are,” accessed 4/2/2014; Federal Financial Institutions
                                                                                   Examination Council Bank Secrecy Act/Anti-Money Laundering
  tems to determine effectiveness.718 Improved oversight of MVTS is a part of      InfoBase, “Correspondent Accounts (Foreign)—Overview,”
                                                                                   accessed 10/1/2013.
  these reviews, according to Treasury, and includes increasing the number of
  AML/CFT inspections as well as a requirement for Afghanistan to bring its
  unlicensed entities into the formal financial system.719
      A majority of Afghan banks have been affected either by closure or
  restriction of one or more of their correspondent accounts. They are at risk
  of future closures due to deficiencies in Afghanistan’s AML/CFT regime
  and in bank-compliance processes.720 Treasury said international banks
  have moved to reduce their compliance risks in response to a less forgiving
  regulatory environment. However, Treasury expects that some key corre-
  spondent accounts will be maintained.721
      The loss of correspondent accounts could potentially damage the profit-
  ability of Afghan banks for which international trade and transaction fees
  are an important revenue source; also, some banks have become more
  selective in accepting new customers in the tighter regulatory environment.
  Treasury said any increased difficulty for Afghan customers in gaining
  access to banks with correspondent relationships could disrupt normal
  trade and financing. Treasury also said the economic consequences of lost
  correspondent accounts, although difficult to predict, could be severe.722




  REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2014            171
                                                              ECONOMIC AND SOCIAL DEVELOPMENT




                                                              Ghani Reopens the Kabul Bank Case
                                                              In one his first official actions upon being sworn into office, President
                                                              Ashraf Ghani called for reopening the Kabul Bank case and issued a
                                                              10-point decree on October 1, ordering:723
                                                                1.	 the Supreme Court to pursue the case pending before the appellate
                                                                     court, review the charges—including money laundering—and render
                                                                     a decision within 45 days
                                                                2.	 the Attorney General’s Office (AGO) and other relevant institutions
                                                                     to assist the court with finding all case documents and evidence
                                                                3.	 the AGO to prosecute all those accused and involved in the theft
                                                                     with indictments lodged within 15 days of the decree
                                                                4.	 the AGO to oversee and enforce the primary court’s judgment and
                                                                     detain all suspects within three days of the order until the case is
                                                                     finalized by all three courts (Supreme, Primary, and Appellate courts)
                                                                5.	 the Kabul Bank Receivership to set a specific timetable for
                                                                     completing repayment of the bank’s assets within 10 days
                                                                6.	 the Kabul Bank Receivership to summon all bank debtors who have
                                                                     not cleared their debts within five days and the AGO, Ministry of
                                                                     Interior, and other relevant institutions to cooperate in this effort
                                                                7.	 the AGO, Ministries of Finance and Foreign Affairs, and central bank
                                                                     to send international mutual legal requests within 10 days to freeze
                                                                     and recover Kabul Bank assets that were stolen and transferred
                                                                     abroad
                                                                8.	 the Ministry of Finance to prepare documents for Kabul Bank
                                                                     privatization within 10 days
                                                                9.	 relevant ministries to report their progress to the president at the
                                                                     end of every week
                                                                10.	 the Office of Administrative Affairs and Secretariat of the High
                                                                     Council of Ministers to monitor implementation of the decree

                                                                 The AGO finally resubmitted the case to the appellate court on
Before its near-collapse in 2010, the Kabul
Bank had been Afghanistan’s largest private                   October 11. While seven offenders charged in the original indictment
bank, distributing most civil salaries on be-                 have reportedly been re-arrested, some of those indicted are no longer in
half of the Afghan government. Over 92% of                    Afghanistan.724 Until President Ghani’s decree, the AGO had not filed any
$935 million that was known at that time to                   new charges, launched any new prosecutions, or indicted any additional
have been stolen from the bank went to 19                     beneficiaries since the Special Tribunal of the Kabul Provincial Court found
individuals and companies associated with                     21 individuals guilty of a variety of charges on March 5, 2013, ignoring over-
the bank. Afghanistan’s central bank, DAB,                    whelming evidence, court orders and U.S. Department of Justice (DOJ)
covered these losses, equivalent to 5–6% of                   requests to do so.725 DOJ said that while the presidential decree provides a
Afghanistan’s GDP at that time.                               basis for hope, it remains to be seen how aggressive Afghan law enforce-
Source: Independent Joint Anti-Corruption Monitoring and      ment will be in complying.726
Evaluation Committee, Report of the Public Inquiry Into the
Kabul Bank Crisis, 11/15/2012, pp. 2, 9.




                                                               172                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




  Independent Joint Anti-Corruption Monitoring and Evaluation
  Committee Follow-Up Report
  On October 2, 2014, the Independent Joint Anti-Corruption Monitoring and
  Evaluation Committee (MEC) released its second report on the Kabul Bank
  crisis. The report highlighted insufficient progress in resolving the case
  over the last four years, named those responsible along with their liabilities,
  and updated cash and asset recoveries, along with criminal proceedings,
  and government reform efforts. As of 2013, Kabul Bank’s total debt was
  $982.6 million, including new debt identified since 2010. Only $175.2 million
  had been recovered as of April 2014—less than 18% of total amounts owed;
  $97.4 million was forgiven or deemed not owed.727
      Afghanistan has committed to enforcement of asset recovery and
  accountability for those responsible for the Kabul Bank crisis under the
  Tokyo Mutual Accountability Framework (TMAF) and to the IMF.728 Yet
  the MEC report said recovery of embezzled money has been slow, while
  rendered decisions have been hampered by external influences, largely
  ignored, and unimplemented. The MEC found problems with the Special
  Tribunal’s convictions of those indicted, a court of appeals that unnecessar-
  ily delayed proceedings, and insignificant progress in Afghan financial and
  banking regulations and oversight.729 The last joint Afghan-international-
  donor TMAF report from January 2014 contained only vaguely worded
  language about how the Afghan government is implementing relevant
  recommendations and how it will continue making progress on resolving
  Kabul Bank issues, including asset recovery and the appeals case.730


  U.S. ECONOMIC-SUPPORT STRATEGY
  The U.S.-Afghanistan Strategic Partnership Agreement and the Civil-Military
  Strategic Framework are the most recent guiding documents for U.S. assis-
  tance in Afghanistan. Additionally, the annual Mission Resource Request
  and operational plans provide a basic framework and prioritization for U.S.
  assistance efforts. U.S. Embassy Kabul is developing an integrated country
  strategy which will help to guide foreign-assistance priorities. USAID and
  other assistance implementers may also choose to develop their own strate-
  gies, according to State.731 U.S. economic strategies are coordinated at an
  interagency level through the National Security Council.732
     Most assistance from the Economic Support Fund (ESF) goes toward
  USAID’s development programs. USAID said that none of its programs have
  been interrupted due to Afghan government revenue shortages.733 Figure
  3.33 on the following page shows USAID assistance by sector.
     USAID provides approximately 30% of total annual donors’ contributions
  to the World Bank-administered Afghanistan Reconstruction Trust Fund
  (ARTF). Up to half of these funds are “preferenced” by donors for specific
  development activities, while the rest is used at the World Bank’s discretion.734




  REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2014               173
ECONOMIC AND SOCIAL DEVELOPMENT




FIGURE 3.33


USAID DEVELOPMENT ASSISTANCE, AS OF SEPTEMBER 30, 2014 ($ MILLIONS)


      Infrastructure                                                                                           3,712
  Program Support                                                            2,353
        Agriculture                                              1,790
        Democracy                                              1,706
       Stabilization                                 1,326
  Economic Growth                             948
             Health                     737
         Education                    609
      Construction         95
                       0        500         1000     1500        2000         2500        3000        3500        4000


Note: Numbers rounded. Program Support projects include staffing, salaries, performance metrics, results tracking, technical
assistance to ministries, and funding to the ARTF. Agriculture Programs include Alternative Development.
Source: USAID, response to SIGAR data call, 10/9/2014.




   USAID is targeting its economic and agricultural programming in four
regional economic zones centered on major municipalities, markets, and
trade routes. Stabilization and subnational governance programs will focus
on areas in and around the zones to protect against destabilizing forces.
These zones already contain most economic activity in Afghanistan. They
have: a skilled workforce; access to transportation, energy, and water infra-
structure; connections to domestic and international markets; agricultural
and mineral resources; and entrepreneurs and financing to expand small
and medium enterprises. USAID programs will leverage the potential and
comparative advantages of each zone. Water management, education,
health, and governance activities will remain national in scope.735


DEVELOPMENT OF NATURAL RESOURCES
The United States, the Afghan government, and the international donor
community believe development of Afghanistan’s natural resources can
underpin future economic growth in the face of declining external aid.
Although mining has contributed less than 2% to the country’s GDP to date,
the Afghan government expects to eventually receive significant revenues
from large-scale investments in the Aynak (copper) and Hajigak (iron-ore)
mines, and from oil and gas fields in the Afghan-Tajik basin.736
   The World Bank estimates annual extractive-sector revenues could reach
between $700 million and $1.5 billion by 2022–2024.737 However, SIGAR
has long cautioned that the Afghan government may not be able to earn
substantial revenues from Afghanistan’s natural resources any time soon
because of the considerable infrastructure investment required to develop
them, especially given the difficult security environment.




   174                                SPECIAL INSPECTOR GENERAL                I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




      The United States Institute for Peace warned last year that revenue
  projections from mineral extraction are often difficult to make with any
  accuracy, given commodity-price fluctuations and uncertainty whether
  identified resources can be fully extracted.738 Treasury said the potential
  market value of Afghanistan’s minerals, while significant, is far less than
  the hundreds of billions of dollars reported in the press. The net value of
  minerals-related taxes and royalties to the government will likely be a small
  fraction of that, spread over decades.739
      Meanwhile, the majority of mines operating in Afghanistan—1,400 by
  some estimates—are unlicensed and illegal.740 The UN reported this year that
  Taliban income derived from narcotics and illegal mining allow it to resist
  a lasting peace settlement with the Afghan government, while denying the
  government much-needed revenue. In Helmand Province alone, for instance,
  the Taliban were expected to earn $10 million annually from operating 25–30
  illegal marble-mining sites. In contrast, Afghanistan’s entire official marble
  industry generates only $15 million in annual government revenue.741

  New Minerals Law
  On August 9, 2014, then-president Hamid Karzai approved the new miner-
  als law passed by parliament last quarter.742 The law is meant to better
  protect Afghan resources, encourage investors, and align regulations with
  international best practices.743 DOD’s Task Force for Business and Stability
  Operations (TFBSO) has not yet seen a copy of the enacted legislation,
  but highlighted two concerns based on previously viewed drafts that could
  remain an impediment to investment. First, the law restricts the right to
  transfer licenses from one company to another—a standard practice in the
  mining community.744 According to State, the Council of Ministers report-
  edly approved an amendment repealing the prohibition on transfers of
  licenses on September 15.745 Second, investors with exploration licenses
  who find economically viable deposits still have no guarantee they will be
  granted exploitation licenses for those same deposits.746
     Other U.S. government concerns include the inability to move funds
  in and out of Afghanistan through a functioning banking system,747 and
  requirements to preference Afghan versus foreign labor and to prioritize
  purchase of Afghan goods. Neither of the last two requirements is WTO-
  compliant, and both could deter private investment.748 Moreover, the World
  Bank assessed large gaps in the quality and availability of local Afghan
  goods and services needed for the extractives sector.749

  Pending Contracts
  Several TFBSO-assisted contracts remained unsigned this quarter.
  These were negotiated by the Ministry of Mines and Petroleum (MOMP)
  under the previous minerals law, including Shaida (copper, awarded in
  November 2012); Badakhshan (gold, November 2012); Balkhab (copper,




  REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2014            175
                                                                  ECONOMIC AND SOCIAL DEVELOPMENT




                                                                  November 2012); and Zarkashan (gold, December 2012). They are awaiting
                                                                  cabinet approval once a new government is confirmed, but will likely have
                                                                  to be reviewed again by the ministry for compliance with the new minerals
                                                                  law.750 Contract negotiations for Jabul Seraj (cement, February 2014) are
                                                                  also ongoing. Revisions to its terms are being incorporated before a final
                                                                  contract will be forwarded for inter-ministerial commission (IMC) and then
                                                                  to the cabinet for final approval.751
                                                                     Additionally, two TFBSO-assisted hydrocarbon contracts await final-
  Exploration and production-sharing                              ization: Afghan-Tajik Phase II (oil and gas) and the Totimaidan block (oil
  contracts (EPSC): governing documents                           and gas, September 2014) in the Amu Darya Basin. The two Afghan-Tajik
  between a government and resource                               Phase II exploration and production-sharing contracts (EPSCs) have been
  company for the exploration, development                        initialed and are pending cabinet approval; the Totimaidan EPSC markups
  and production of hydrocarbons in                               will need to be completed and approved by the IMC before the contract
  selected areas of interest.                                     goes to the cabinet for approval.752
                                                                     There is also no reported change in contract negotiations for Hajigak
                                                                  (iron-ore, November 2011) concessions this quarter.753 News reports indi-
Source: MOMP, “Request for Expressions of Interest for Pre-
                                                                  cated that Afghan Iron and Steel Consortium (AFISCO), a seven-member
Qualification for Participating in the First Afghan Hydrocarbon
Bidding Round, 2009.”
                                                                  consortium led by state-owned Steel Authority of India Ltd., which won
                                                                  three of the four blocks tendered, is considering cutting its initial invest-
                                                                  ment from $11 billion to $1.5 billion, and that they were waiting for approval
                                                                  of the new mining law.754

                                                                  Impediments to Investment
                                                                  The MOMP expects the new mining law to ameliorate investor concerns
                                                                  and open the door to new business opportunities.755 Whether or not the
                                                                  law is on par with those in other countries, it’s not the only impediment to
                                                                  investment in Afghanistan’s extractive industries.756 According to the World
                                                                  Bank, security overshadows all other constraints to investment.757 There is
                                                                  also a lack of available capital in the mining industry.758 Commodity prices,
                                                                  including for copper, gold, natural gas, and other fuels, are expected to be
                                                                  flat or declining over the next 12 months, giving investors less incentive to
                                                                  invest in riskier countries.759
                                                                      There are also government oversight-related issues. The Revenue Watch
                                                                  Institute gave Afghanistan a failing grade in 2013 for its minimal oversight of
                                                                  the mining-licensing process and of state-owned mining companies. It said
                                                                  lawmakers do not receive regular reports on licensing decisions, which can-
                                                                  not be appealed, and are denied access to certain major mining contracts
                                                                  deemed confidential. Additionally, Afghanistan’s Audit and Control Office
                                                                  does not specifically review resource revenues, and the reports it does pre-
                                                                  pare are not published.760
                                                                      Integrity Watch Afghanistan compared Afghanistan’s governance of
                                                                  its mining industry to best practices in six countries to help highlight
                                                                  Afghanistan’s opportunities and challenges. It found that corruption
                                                                  is a major investor concern in Afghanistan, and that mining-sector




                                                                   176                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




  transparency—in licensing process, tax and royalty data, distribution of
  funds, and public access to information—along with good governance were
  essential to sustainable development that benefits the public.761
     Currently there is no excavation work under way at the Mes Aynak cop-
  per mine in Logar Province other than continuing archeological mitigation
  of damage to cultural relics in the area. However, this quarter, the MOMP
  reported the site was closed due to the ongoing presidential elections and
  because the government archeologists went on strike after not being paid
  for six months. In the meantime, the MOMP, assisted by TFBSO-provided
  subject-matter experts, is reviewing a draft feasibility study that could affect
  the future of the project. Landmine clearing at the site continued despite
  eight mine-clearing team members being executed and another three
  wounded in June by what the UN called “anti-government elements.”762
     Factors potentially contributing to the delay in copper production include
  challenging contract terms, volatility in the minerals market, the discovery
  of antiquities on-site, and contractor delays.763 The Afghan government
  awarded the contract for extraction rights at Mes Aynak in 2008, but its
  hoped-for royalties have not yet been realized.764 Afghanistan’s FY 1393
  national budget does not anticipate any revenue from Mes Aynak after the
  previous year’s budget projected $50 million that never materialized.765

  Assistance to the Ministry of Mines and Petroleum,
  Afghanistan Petroleum Authority, and the Afghanistan
  Geological Survey
  The United States continued to provide technical assistance this quarter
  to the MOMP, the ministry’s Afghanistan Petroleum Authority (APA), and
  the Afghan Geological Survey (AGS), largely through TFBSO and the U.S.
  Geological Survey. These organizations are supporting mineral and hydro-
  carbon tenders as well as oil-and-gas data management.766
     The U.S. Geological Survey no longer has programs in Afghanistan, but is
  transferring to the AGS work completed during earlier on-the-job training,
  including data compilation and data packages on mining areas of interest
  using mapping and illustrative software, geophysics, and hyperspectral
  imaging training.767
     TFBSO also continued its subject-matter-expert support to the APA—
  technical (oil and gas engineering), legal (contract implementation), and
  financial (accounting and analysis) services; training (training schedules
  and lists, course identification) and donor coordination; and strategic
  (identifying strengths, weaknesses, and opportunities, and overseeing
  the hydrocarbon tender process). While APA has taken the lead in most
  areas, TFBSO is concerned that the number of APA personnel might not
  be sufficient to properly oversee the number of EPSCs in the pipeline.
  Moreover, APA personnel will be tested when they face operational rather
  than theoretical processes (gas production and processing, long-term sales




  REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2014              177
                                           ECONOMIC AND SOCIAL DEVELOPMENT




                                           agreements, multiple buyers, multi-field hydrocarbon production, etc.)
                                           Monitoring and oversight will be crucial as APA contracts are signed.768
                                              TFBSO assisted the MOMP with four mineral tenders (pending cabi-
                                           net approval, discussed above), two cement tenders (one under contract
                                           negotiations and one cancelled), and five oil and gas tenders (one proof
                                           of concept completed, two ongoing contracts, one under negotiation, and
                                           one awaiting cabinet approval).769 TFBSO tender support and AGS training
                                           assistance ended on September 30, 2014, but TFBSO will help with a third
                                           round of negotiations scheduled in November.770 TFBSO obligated $17.2 mil-
                                           lion in FY 2014 for mining-sector development, as of September 30, 2014.771
                                           TFBSO’s authority is scheduled to expire at the end of 2014.772
                                              USAID, through its Mining Investment and Development for Afghan
                                           Sustainability (MIDAS), aims to help the MOMP and AGS become a mod-
                                           ern and independent mineral exploration entity, and train staff to be able
                                           to deliver tender-ready mineral projects to the ministry. MIDAS legal advi-
                                           sors also helped the MOMP write a regulation on health and safety in the
                                           mining sector.773

                                           Mining Investment and Development for Afghan Sustainability
                                                                                                      Total Estimated   Cumulative Disbursement,
                                            Project Title               Start Date        End Date        Cost ($)         as of 9/30/2014
                                            Mining Investment and
                                            Development for Afghan      3/31/2013         3/31/2017    $41,670,943           $10,429,850
                                            Sustainability
                                           Source: USAID, response to SIGAR data call, 10/9/2014.



                                           MIDAS has on- and off-budget components. The $41.6 million off-budget
                                           Phase I is focusing on legal and regulatory reform, technical assistance to
SIGAR AUDIT                                the MOMP, small- and medium-size enterprise development, and assistance
An ongoing SIGAR audit focuses on          in geo-science field investigation. It will provide other support as needed.
the extent to which TFBSO and USAID        The $45 million on-budget Phase II has not yet begun, but is designed to
programs met their goals to develop        strengthen the MOMP so it can procure, implement, and monitor comple-
Afghanistan’s extractives industry and     tion of mining tender packages.774 MIDAS is shifting $10 million of Phase II
the challenges, if any, to creating a      funding from on to off-budget status for core-sampling drilling services.775
stable and lasting source of extractives      MIDAS advisors reviewed four MOMP mineral package reports, includ-
revenue for Afghanistan.                   ing one for the Mes Aynak copper mine. The reports revealed “serious
                                           flaws” and noncompliance with industry standards for public-project
                                           reporting, according to USAID. Extensive exploration is needed to verify
                                           the accuracy of these reports. MIDAS also assessed six Afghan-owned firms
                                           who participated in its Afghan Mining Enterprise Initiative, which is meant
                                           to help firms improve its services and win contracts supporting interna-
                                           tional mining companies.776 As of September 30, 2014, USAID had obligated
                                           $16 million and disbursed approximately $10.4 million to begin off-budget
                                           implementation.777




                                             178                           SPECIAL INSPECTOR GENERAL       I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




  Hydrocarbons
  Afghanistan’s efforts to develop its oil and gas reserves focus on the Amu
  Darya Basin and Afghan-Tajik Basin, both in northern Afghanistan.778
  Afghanistan has only small-scale topping plants—early-stage refineries
  that can process only limited petroleum components of crude oil—and
  remains heavily dependent on imports for fuels.779 The country imports
  10,000 tons of oil products a day from Turkmenistan, Uzbekistan, Russia,
  Pakistan, and Iran.780
      Despite 75 billion cubic meters of known natural gas reserves and an
  estimated 444 billion cubic meters in estimated recoverable reserves,
  Afghanistan’s gas sector is “mired with infrastructure and regulatory
  deficits,” according to the ADB. The ADB said capital investments from
  public- and private-sector funding are needed to help Afghanistan overcome
  its challenges and realize its resource potential. Currently, Afghan Gas
  Enterprise, the national gas utility, produces approximately 380,000 cubic
  meters per day from four gas fields it owns and operates, nearly all of which
  is supplied to the Northern Fertilizer and Power Plant.781

  Amu Darya Basin
  The three blocks of the Amu Darya Basin awarded to the China National
  Petroleum Corporation Watan Energy Afghanistan (CNPCI-W) in 2011 are
  estimated to contain 87 million barrels of crude oil.782 Production was a
  modest 2,000 barrels per day for August and September 2014. CNPCI-W is
  in the process of concluding its fifth crude-sales tender for an estimated
  1.8 million barrels over a 15-month period (December 2014, through
  March 2016), with option years available thereafter.783
     So far, the government has received $3.67 million in royalties from
  this award. A $615,000 royalty payment is due the Afghan government on
  October 31, 2014. The government expects about $60,000 per day from the
  basin at full production.784

  Totimaidan
  This quarter, Afghanistan’s interministerial commission approved the
  MOMP’s preferred bidder for the exploration, development, and production
  in the Totimaidan block, comprising 7,131 square kilometers in the Amu
  Darya Basin. Contract negotiations are ongoing and will require cabinet
  approval. The contract area contains 28 billion cubic meters of reserves in
  two known gas fields and more than 50 proven and prospective subsurface
  geological structures.785 TFBSO provided tender-preparation assistance to
  the MOMP, as well as technical, legal, commercial, and transparency advi-
  sory services.786




  REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2014           179
ECONOMIC AND SOCIAL DEVELOPMENT




Workers weld a compressor pipe that is part of the Sheberghan pipeline-rehabilitation
project. (TFBSO photo)


Sheberghan Program
Sheberghan holds the potential for cheap natural gas and could be competi-
tive with imported power from Uzbekistan, according to the World Bank.787
Both USAID and TFBSO have active programs in the area.788
   USAID is supporting the Sheberghan project to help Afghanistan
identify and manage gas resources to be used for power generation
through two mechanisms: the $90 million, on-budget Sheberghan Gas
Development Project (SGDP), and the $35 million, off-budget Sheberghan
Gas Generation Activity (SGGA).789 USAID will pay $30 million on-budget
through SGDP to rehabilitate two wells and drill one well in the Juma and
Bashikurd field in the Amu Darya Basin. An additional $7 million will come
from Afghanistan’s national budget.790 If the wells have sufficient capacity
to run a 200 MW gas-fired power plant, USAID will fund a gas-gathering
system and gas-processing plant to fuel it with its remaining $60 million,
provided on-budget through SGDP.791

Pipeline Rehabilitation Project
TFBSO is helping the MOMP and Afghan Gas Enterprise rehabilitate the
existing 89.1 km (55.4-mile) Sheberghan–Mazar-e-Sharif pipeline to improve
its capacity and the quality of gas flowing through it. The goal is to provide
domestic energy security and an opportunity for commercial sales. The
pipeline currently transports 380 million cubic meters of natural gas per day




  180                   SPECIAL INSPECTOR GENERAL    I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




  and is expected to increase to 680–960 million cubic meters per day upon
  demand after project completion.792
  The project comprises four components:793
  •	 Construction of a compressor station and dehydration plant: This
     quarter, Afghan Gas began operating one compressor, leading to 125%
     increase in gas availability with additional supply accessible upon
     demand.
  •	 Construction of an amine plant and an associated pipeline to the
     compressor station: The amine plant is 90% and the pipeline is 95%
     complete.
  •	 Replacement of deteriorated portions of existing Sheberghan–Mazar-e-
     Sharif pipeline: 14 of 15 affected kilometers have been replaced.
  •	 Progress toward construction of a new, parallel Sheberghan–Mazar-e-
     Sharif pipeline: The work is 95% complete and training programs are
     under way.

     In the Task Force’s final 60 days in Afghanistan, TFBSO-provided subject
  matter experts will support Afghan Gas in precommissioning, commission-
  ing, and training. The MOMP intends to hire professional service providers
  who will be responsible for plant operations and training upon demand.794


  AGRICULTURE
  Agriculture continues to be the main source of employment and subsis-
  tence for the Afghan population. Only 12% of the land is arable and even
  less is cultivated, yet the sector accounts for 31% of GDP and, according
  to the latest World Bank report, provides employment to about 59% of the
  labor force.795 Given its importance, agriculture could be a catalyst for GDP
  growth, improved food security, and more stable employment.796
      Between FY 2002 and FY 2012, USAID provided approximately $2.46 bil-
  lion for agricultural and alternative-development funding to improve
  production, increase access to markets, and provide alternatives to poppy
  cultivation.797 Of that, USAID has obligated and disbursed $54 million in
  direct assistance to build capacity at the Ministry of Agriculture, Irrigation,
  and Livestock (MAIL).798
      USAID has shifted its agricultural development strategy from stabiliza-
  tion activities like subsidized inputs and employment to longer-term, more
  sustainable efforts.799 USAID is currently providing on- and off-budget assis-
  tance to the agriculture sector through several programs. USAID’s three
  highest-priority programs, worth nearly $350 million total, are:
   •	 Agricultural Development Fund (ADF) and Agricultural Credit
      Enhancement (ACE)
   •	 Incentives Driving Economic Alternatives-North, East, and West
      (IDEA-NEW)




  REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2014             181
ECONOMIC AND SOCIAL DEVELOPMENT




•	 Commercial Horticulture and Agricultural Marketing Program
   (CHAMP)

Agricultural Development Fund (ADF) and
Agricultural Credit Enhancement (ACE)
                                                                Total Estimated   Cumulative Disbursement,
 Project Title                  Start Date           End Date       Cost ($)         as of 9/30/2014
 Agricultural Credit
                                7/15/2010         1/15/2015     $75,175,296             $69,107,024
 Enhancement
 Agricultural Development
                                7/18/2010       12/31/2014       74,407,662              54,000,000
 Fund
Source: USAID, response to SIGAR data call, 10/9/2014.



The Agricultural Development Fund (ADF) and Agricultural Credit
Enhancement (ACE) has two complementary activities that aim to support
MAIL’s efforts to provide credit and build ADF staff capacity to manage
a credit program. ADF was established to provide loans across the agri-
cultural value chain through banks, farm stores, leasing companies, and
food processors. Much of this credit is then extended to farmers. ACE is a
technical-assistance component that manages all ADF lending activities and
helps build MAIL capacity.800
   As of September 30, 2014, ADF has provided direct loans to 24,718 farmer
households through farmer associations and networks. ADF’s loan portfolio
was $101.2 million in loans approved, of which $55.8 million has been dis-
bursed, with $30.8 million repaid. USAID said 3.6% of ADF loans are late in
repayment, well within standard acceptable rate in developed countries.801
   USAID said it and MAIL are committed to the sustainability of ADF as
USAID’s participation winds down in the coming months. Other donors
will be approached to capitalize the fund, with the Danish Development
Agency committing $28.5 million so far. MAIL has also demonstrated its
commitment to ADF’s sustainability by supporting the autonomy of the
program’s board of directors.802

Incentives Driving Economic Alternatives-North, East, and West
                                                                Total Estimated   Cumulative Disbursement,
 Project Title                    Start Date        End Date        Cost ($)         as of 9/30/2014
 Incentives Driving
 Economic Alternatives-            3/2/2009       2/28/2015      $159,878,589          $145,643,923
 North, East, and West
Source: USAID, response to SIGAR data call, 10/9/2014.



Incentives Driving Economic Alternatives-North, East, and West (IDEA-
NEW) is a cooperative-agreement project that provides agricultural
assistance to farmers and agribusinesses in eastern, northern and western




  182                           SPECIAL INSPECTOR GENERAL            I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




  provinces. IDEA-NEW promotes high-value, legal agricultural production
  that can serve as an alternative to poppy cultivation by increasing commer-
  cial opportunities, extending access to financial services, and promoting
  value-chain development for key regional industries and trade corridors. It
  also facilitates connections between producers, traders, and buyers through
  market-information activities and sales promotion.803
     This quarter saw pesticide training for nine agricultural input suppliers
  (primarily seeds, fertilizers, agrochemicals), signed grant agreements with
  11 input suppliers and four food processors, and a business-to-business
  meeting for four local food processing companies.804

  Commercial Horticulture and Agricultural Marketing Program
                                                                   Total Estimated   Cumulative Disbursement,
   Project Title                  Start Date      End Date             Cost ($)         as of 9/30/2014
   Commercial Horticulture
   and Agricultural Marketing     2/1/2010        12/30/2014        $40,320,139           $38,573,341
   Program
  Source: USAID, response to SIGAR data call, 10/9/2014.



  The Commercial Horticulture and Agricultural Marketing Program
  (CHAMP) aims to displace poppy cultivation by helping farmers plant and
  operate profitable orchards and vineyards, and by enhancing crop quality
  and promoting export and trade corridors. The program also works with
  traders to improve harvesting, packing, cool storage, and shipping methods.
  Under the program’s Cooperative Agreement, extended until December
  2014, CHAMP has shifted to a value-chain approach that emphasizes
  post-harvest handling and market activities. CHAMP carries out activities
  throughout five main-value chains (grapes, almonds, pomegranates, apri-
  cots, and apples) and one sub-value chain (melons).805
     This quarter, CHAMP trained more than 1,300 farmers in pre-harvest
  techniques such as pest management, pruning, fruit thinning, and water
  management, as well as maintenance of newly planted citrus orchards.
  Additionally, Afghan farmers from four provinces exported more than
  $2.5 million worth of apricots to India and Pakistan. However, the CHAMP
  Kabul office was closed due to security threats that forced staff to work out
  of their homes or a hotel guest house. The deteriorating security situation is
  also hampering work in several provinces with staff and beneficiaries being
  threatened and intimidated. USAID’s CHAMP implementing partner also
  reported procurement delays caused by USAID’s vetting processes.806




  REPORT TO THE UNITED STATES CONGRESS                     I   OCTOBER 30, 2014                       183
ECONOMIC AND SOCIAL DEVELOPMENT




Other Active USAID Agriculture Programs
                                                                Total Estimated   Cumulative Disbursement,
 Project Title                     Start Date        End Date       Cost ($)         as of 9/30/2014
 Famine Early Warning
 System Network                  12/29/2011 12/28/2016           $78,011,630            $2,420,553
 (FEWSNET) Phase III
 Strengthening Afghanistan
 Agricultural Faculties           3/25/2011 12/31/2016             7,824,209              5,817,395
 (SAAF)
 Afghan Agricultural
 Research and Extension           7/17/2012       7/16/2017       23,638,611              6,126,144
 Development (AGRED)
 Improving Livelihoods
 and Governance Through           4/10/2010 12/31/2014            14,000,000            12,218,825
 Natural Resource
 Management
 IWMP-Irrigation and
 Watershed Management            12/21/2012 12/20/2017           129,963,114            13,475,767
 Program
 Regional Agriculture
 Development Program              10/7/2013       10/6/2018      125,075,172            11,366,923
 (RADP)-South
 Regional Agriculture
 Development Program              5/21/2014       5/20/2019       78,429,714               889,531
 (RADP)-North
 Regional Agriculture
 Development Program              8/10/2014         8/9/2019      69,973,376                      0
 (RADP)-West*
 Capacity Building and
 Change Management                7/10/2014         7/9/2017      19,999,989               886,923
 Program II (CBCMP)*
Note: *Awarded this quarter.

Source: USAID, response to SIGAR data call, 10/9/2014.




ESSENTIAL SERVICES AND DEVELOPMENT
Since 2002, the United States has provided reconstruction funds to increase
electricity, build roads and bridges, and improve health and education in
Afghanistan. This section addresses key developments in U.S. efforts to
improve the government’s ability to deliver essential services such as elec-
tricity, transportation, health, and education.

Energy
Afghanistan imports approximately 73% of its total power supply. Electricity
imports are expected to rise in the near term, according to a recent World
Bank report, which also noted that limited access to electricity is one of
Afghanistan’s biggest constraints to private-sector development.807 The
country has one of the lowest rates of electrification in the world, with only




   184                          SPECIAL INSPECTOR GENERAL            I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




  25% of Afghans connected to the power grid. Of those who are connected,
  an estimated 75% live in urban areas,808 but urban dwellers comprise less
  than 25% of the Afghan population.809
     Because electricity is critical to Afghanistan’s development, the United
  States, in collaboration with the Afghan government and the international
  community, has made developing an integrated energy sector one of its top
  reconstruction priorities.810
     From 2002 through 2012, USAID alone obligated more than $2 billion to
  build generators, substations, and transmission lines, and provide techni-
  cal assistance to the sector. It plans to spend at least $814 million more
  over the next few years using FY 2010–2013 funds.811 In addition, DOD has
  provided approximately $292 million for electricity projects through the
  Commander’s Emergency Response Program (CERP) and roughly $1.1 bil-
  lion through the Afghanistan Infrastructure Fund (AIF), which is jointly
  managed by DOD and State.812                                                      NEPS: imports electricity from the Central
     Afghanistan currently has nine separate power systems. The primary             Asian Republics to provide power to Kabul
  two are the Northeast Power System (NEPS) and the Southeast Power                 and the communities north of Kabul.
  System (SEPS). USAID has three projects to connect and increase the
  electricity supply in both systems—Sheberghan; the Kandahar-Helmand               SEPS: draws most of its power from the
  Power Project, which includes Kajaki Dam hydropower; and the Power                Kajaki Dam and from diesel generators
  Transmission Expansion and Connectivity Program.                                  in Kandahar City to provide power in the
                                                                                    Helmand and Kandahar areas.
  Kandahar-Helmand Power Project
  The Kandahar-Helmand Power Project (KHPP) is intended to increase
  power supply and reliability in Kandahar and Helmand provinces. It was          Source: DOD, Report on Progress Toward Security and Stability
                                                                                  in Afghanistan, 11/2013, accessed 12/29/2013.
  designed to support interim diesel power for critical needs, increase long-
  term sustainable hydropower from Kajaki Dam, and reduce losses while
  strengthening the SEPS transmission and distribution system.813 USAID
  has transferred responsibility for installing a third turbine at Kajaki to Da
  Afghanistan Breshna Sherkat (DABS), Afghanistan’s national utility. USAID
  also turned over the remaining components, two substations and two diesel
  generation plants, to DABS.814 DOD is using the AIF to fund fuel for the U.S.
  Army Corps of Engineers-installed diesel generators in Kandahar City.815

  Power Transmission Expansion and Connectivity Program
  The U.S.-funded Power Transmission Expansion and Connectivity (PTEC)
  program was designed to strengthen and expand the power-generation,
  transmission, and distribution systems. This program directly supports the
  National Energy Supply Program of the Afghanistan National Development
  Strategy, which calls for improving the collection rate against energy
  billings and increasing the supply of power.816 Toward that end, PTEC’s
  commercialization and capacity-building components aim to reduce techni-
  cal and commercial losses.817 DABS is responsible for procuring all PTEC
  contracts with significant support from USAID. Construction has not yet




  REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2014           185
ECONOMIC AND SOCIAL DEVELOPMENT




started on PTEC projects and USAID has no plans to increase on-budget
funding at this time.818
   On August 31, 2014, DABS officials signed a four-year, $27.5 million,
USAID-funded Kandahar Management Support contract with Dubai-based
Power Generation Solutions. The project aims to help DABS increase
revenues and finance power production in Kandahar by installing tamper-
proof digital meters in homes and businesses. Funding will also establish
customer-service centers in Kandahar and try to improve overall electricity
distribution infrastructure.819
   In addition to strengthening and expanding NEPS, a key component
of PTEC is funding 304 miles of the 329-mile transmission line between
Kabul and Kandahar to connect NEPS with SEPS.820 Power-system inter-
connection can improve overall system stability and allow more economic
dispatch of generating units, reducing costs compared to running a set of
unconnected systems.
   This quarter, USAID awarded two contracts for the construction of a
220 kVa transmission line from Arghandi to Ghazni ($56.7 million) and two
substations ($48.1 million). This is the first segment of the PTEC trans-
mission line that will connect Kabul to Kandahar. Additionally, two PTEC
procurement contracts to acquire substation components were finalized
this quarter, but have not yet been signed.821
   Connecting NEPS to SEPS is a multi-donor effort funded through the
ADB-administered Afghanistan Infrastructure Trust Fund (AITF), which
funds projects on-budget through DABS or other Afghan government minis-
tries.822 As of September 30, 2014, USAID has obligated $285 million to AITF
and disbursed $105 million.823
   The NEPS-SEPS connector will include eight substations located at
major population centers along the way. This connection, together with the
rehabilitation of the Kajaki Hydropower Plant, was identified in 2010 as the
only viable, long-term solution to displace costly and unsustainable diesel-
power generation in Kandahar. Completion of the NEPS-SEPS connector is
expected in the 2017–2018 timeframe.824

DOD-Funded Programs
This quarter, DOD continued implementing several priority energy-sector
projects to complete its portion of the NEPS and SEPS using FY 2012–FY
2014 AIF money.825 Congress cut the President’s FY 2014 AIF budget request
from $279 million to $199 million and restricted its use for projects already
begun before the legislation’s enactment on January 17, 2014.826
   AIF projects are supposed to contribute to counterinsurgency strategy
and development, although DOD has located no studies that explore the
relationship between electrical power and reduced violence in Afghanistan.
DOD said because AIF-funded projects are still under construction and not




 186                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




  yet operational, their long-term counterinsurgency and economic develop-
  ment benefits cannot be assessed at this time.827
     Some ongoing energy-sector projects using FY 2011 through FY 2014 AIF
  money include:828
  •	 Kandahar Power Bridging Solution-Fuel
  •	 SEPS Completion, Phase I
  •	 SEPS, Phase II Kandahar–Durai Junction transmission lines
  •	 NEPS Arghandi to Gardez, Phase I
  •	 NEPS Arghandi to Gardez, Phase II
  •	 NEPS Charikar to Panjshir Phase I
  •	 NEPS Charikar to Panjshir Phase II

  Kandahar Power Bridging Solution
  This project is providing fuel for the diesel generators in Kandahar City
  until affordable, sustainable power becomes available through the joint
                                                                                  SIGAR SPECIAL PROJECT
  DOD-USAID effort to expand and connect NEPS and SEPS systems.829                In a letter to DOD, State, and USAID
     DOD allocated $20 million in FY 2014 funds to provide fuel through           officials this quarter, SIGAR expressed
  September 2015 at a declining subsidy each month.830 DABS officials told        concern about their responses to
  SIGAR that if DOD had stopped providing fuel at the end of 2014 as previ-       SIGAR’s inquiry about the Kandahar
  ously planned, DABS might not have the money to keep the generators             Bridging Solution and the U.S.
  fueled. The officials also cautioned that it appears unlikely that DABS will    government’s plans to provide electric
  have sufficient alternative energy sources to offset lost diesel power. Since   power to Kandahar after December
  Kajaki Dam’s third turbine and the NEPS–SEPS Connector projects will            2014. SIGAR has little confidence
  take time to complete, it is possible that thousands of Kandahar homes and      that sufficient electricity and basic
  businesses will not have access to electricity in early 2015.831                services will be provided to the people
     The generators at Shorandam Industrial Park and Bagh-e-Pol have a            of Kandahar or that the United States
  combined average output of 8–13 MW, and were transferred to DABS in             has a realistic plan to help the Afghan
  December 2013, along with six months of spare parts and consumables.            government develop a sustainable
  DOD technical assistance to DABS will continue throughout 2014.832 This         source of electricity between the end
  quarter, the U.S. Army awarded a $3.5 million contract to IAP Worldwide         of the Kandahar Bridging Solution and
  Services to provide DABS with power-plant consumables—labor, tools,             the point at which a stable source of
  materials, and transportation.833                                               power generation is projected to come
                                                                                  online. For more information, see
  SEPS Completion Phase I and SEPS Phase II                                       Section 2, page 40.
  Two contracts totaling $75 million were awarded to Afghan firms in
  September 2014 to complete SEPS in Helmand Province, including con-
  struction of substations and rehabilitation of transmission lines between
  Sangin and Lashkar Gah. The estimated completion date is September 2015.
  The original $130 million contract awarded to Perini to build substations
  and transmission lines from Kajaki Dam to Lashkar Gah was terminated
  for convenience in May 2014 due to increased security costs as a result of
  reduced ISAF support in the region.834




  REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2014            187
ECONOMIC AND SOCIAL DEVELOPMENT




Kandahar to Durai Junction Transmission Lines
Part of the effort to expand SEPS (Phase II), this project continues earlier
efforts to install or repair transmission lines from Kandahar City to Durai
Junction and to construct or repair substations at Maiwand and Pashmul.
The cost for this project, awarded initially in 2012, terminated, and re-
awarded in August 2014, remains $40 million in FY 2012 AIF funds. DOD
estimates it will be completed in September 2015.835 Completion of this
project is essential to distribute power generated by the third turbine still
awaiting installation at Kajaki Dam, according to DOD.836

NEPS, Phases I and II
NEPS Phase I will construct transmission lines and substations between
Arghandi and Pul-e Alam. Awarded initially in 2012 to the same contractor
first hired to build the Kandahar–Durai Junction transmission lines, it was
terminated for qualification issues, and re-awarded in August 2014. The
cost of Phase I is $93.7 million in FY 2011 AIF funds. DOD estimates it will
be completed in January 2016. The $69.2 million Phase II is constructing
transmission lines and substations between Pul-e Alam and Gardez, and is
estimated to be completed in January 2016.837

Charikar to Panjshir, Phases I and II
This project will install 52 miles of transmission lines from Charikar to
Bazirak and from Charikar to Mahmood Raqi. It will also build three power
substations to expand NEPS. DOD has allocated $38 million in FY 2012
funds for Phase I and $33 million in FY 2013 funds for Phase II of the project,
for a total estimated cost of $71 million. Annual estimated operations-and-
maintenance (O&M) costs for the transmission lines and substations are
$580,000.838 DABS is supposed to assume responsibility for O&M. Increased
revenue from an expanded customer base and improved collection capabili-
ties will help DABS provide long-term sustainment, according to DOD.839
However, SIGAR has raised questions about DABS’s capacity and has said
Afghanistan lacks the resources necessary to pay for O&M.840


PRIVATE-SECTOR DEVELOPMENT
The World Bank surveyed owners and top managers in 356 firms asking
them about the biggest obstacles to their businesses in Afghanistan in 2014.
Political instability was the greatest obstacle, while customs and trade regu-
lation was listed tenth, as seen in Figure 3.34.
   Despite the uncertainty surrounding Afghanistan’s security and political
transitions in 2014, private-sector investment has not ceased and according
to USAID, the government has the political will to continue promoting pri-
vate-sector development.841 From FY 2002 to FY 2013, USAID appropriated
$1.2 billion for economic growth in Afghanistan.842




 188                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




  FIGURE 3.34


  Top 10 Factors Cited as Main Business-Environment Constraint, 2014


                      Political Instability
                         Access to Land
                              Corruption
                      Access to Finance
                               Electricity
                                Tax Rates
                   Crime, Theft, Disorder
                          Transportation
    Inadequately Educated Workforce
      Customs and Trade Regulations
                                          0%           5%            10%              15%         20%           25%

  Source: World Bank, "Enterprise Surveys, Afghanistan 2014," survey of 354 businesses, accessed 8/29/2014.



  Assistance in Building Afghanistan by Developing Enterprises
                                                                    Total Estimated     Cumulative Disbursement,
   Project Title               Start Date        End Date               Cost ($)           as of 9/30/2014
   Assistance in Building
   Afghanistan by         10/16/2012             10/16/2016          $104,997,656             $25,214,106
   Developing Enterprises
  Source: USAID, response to SIGAR data call, 10/9/2014.



  USAID said its ABADE program aims to help productive, Afghan-
  registered, small-to-medium enterprises add jobs, increase investment,
  and improve sales of domestic products and services through public-
  private alliances (PPAs). ABADE has three components: implementing
  approved public-private alliances; identifying, selecting, and supporting
  the alliances; and working with the Afghan government to improve the
  environment for business.843
      This quarter, USAID said ABADE is making efforts to engage women-
  owned and smaller enterprises, finalized action plans with the Ministry of
  Commerce and Industry in the carpet and agribusiness sectors, while plans
  for women’s small and medium enterprises, marble and gemstones are in
  process. ABADE also helps the Afghanistan Investment Support Agency in
  its outreach efforts and is making a video promoting Afghan trade.844
      In FY 2014, USAID reported one PPA successfully completed, 80 PPAs
  signed with Afghan SMEs, three PPAs approved and pending signature, and
  32 PPAs awaiting final USAID approval.845




  REPORT TO THE UNITED STATES CONGRESS                      I   OCTOBER 30, 2014                              189
ECONOMIC AND SOCIAL DEVELOPMENT




Financial Access for Investing in the
Development of Afghanistan
                                                           Total Estimated   Cumulative Disbursement,
 Project Title                  Start Date      End Date       Cost ($)         as of 9/30/2014
 Financial Access
 for Investing in the
                                2/7/2011        2/6/2016    $108,077,476          $84,130,328
 Development of
 Afghanistan
Source: USAID, response to SIGAR data call, 10/9/2014.


USAID’s Financial Access for Investing in the Development of Afghanistan
(FAIDA) aims to build a financial sector that can generate and sustain qual-
ity employment mostly in the agricultural sector that satisfies the needs
of micro, small, and medium enterprises in Afghanistan’s south and east.
FAIDA helps Afghan partners build capacity to deliver finance, develop a
legal framework and market infrastructure, provides technical assistance
to mobile network operators for mobile money services, and assists Afghan
women entrepreneurs with business-development training so they can
gain access to financing and opportunities for economic and professional
growth. Several events were canceled this quarter due to the elections and
associated security concerns.846
    A 2014 USAID Office of the Inspector General (OIG) audit of FAIDA
found that while FAIDA made some achievements, they have not neces-
sarily resulted in the intended outcome of a more sustainable, diverse, and
inclusive financial sector. By September 2013, job targets were not met,
only 4% of loans were made by banks belonging to the Afghanistan Banks
Association (the rest were made by donor-funded financial institutions,
which is not sustainable); 30% of loans by volume went to female-owned
businesses, but only 7.2% of loans by amount, showing little improvement
than what existed before programming began; and of the more than 2,000
loans provided, only three went to businesses in the south. The audit also
said FAIDA did not significantly enhance the capacity and reach of mobile
money after 19 months of programming.847
    USAID said the OIG audit found no significant on-going deficiencies, so
no significant changes were made to its core activities. USAID said it did
evaluate its mobile-money activities, developed a new strategy, and shifted
its activities accordingly.848

Kabul Business Accelerator–American University of
Afghanistan Grant
TFBSO’s business-accelerator project at the American University of
Afghanistan—also known as the Business Innovation Hub—provides
fee-based professional business management-consulting services to help
Kabul-based businesses articulate, develop, and reach their goals. The hub
is currently working with five to eight businesses; it aims for 15 long-term,




  190                           SPECIAL INSPECTOR GENERAL       I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




  continuing clients and 10 short-term ones by the end of 2014. TFBSO does
  not oversee this program and financial arrangements between the university
  and its clients are not reported to the Task Force. Additionally, since the pro-
  gram is relatively new, results are not yet available.849
     As of September 29, 2014, TFBSO obligated $4,147,957 and disbursed
  $1,348,255 in FY 2013 and FY 2014 funds.850 TFBSO will end its work with
  the hub in November and the grant will expire December 31, 2014.851 Client
  and donor funds are to sustain the program for the next three years, with
  client fees funding operations thereafter.852

  American University of Afghanistan Grant–New
  TFBSO also obligated a $1,111,629 grant with FY 2014 funds to open a
  Business Innovation Hub branch office in Herat to serve small-to-medium-
  sized enterprises in that area. No funds have yet been disbursed and no
  businesses have yet been assisted, as of September 29, 2014. The program
  is currently hiring and training staff with the intent of assisting seven Herat
  businesses by the end of 2014.853

  Business Accelerator and Investment Small- to Medium-
  Sized Enterprise Services
  In FY 2012, TFBSO shifted its Herat business-incubator program to a busi-
  ness accelerator, working with small-to-medium-sized enterprises that
  could better benefit from its business-advisory services, which comprised:854
  •	 helping articulate a vision for expansion and increased profitability
  •	 improving business processes to reach those goals—accounting,
     marketing, inventory management, sales strategy, etc.
  •	 networking former business accelerator clients with current ones for
     collaborative opportunities

  TFBSO business investment services included:855
  •	 identifying commercial opportunities with significant economic
     potential
  •	 pairing responsible investors with legitimate Afghan firms
  •	 introducing responsible investors to viable Afghan economic sectors
  •	 due diligence reviews on Afghan companies
  •	 market research

     TFBSO shut down the Herat business accelerator in July 2014, but its
  local consultants will remain until December to close relationships with
  clients. From FY 2011 through FY 2014, TFBSO obligated $42.9 million and
  disbursed $33.9 million. In that time, TFBSO reported 36 business-accelera-
  tor and 35 investment-service clients.856




  REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2014              191
                                                       ECONOMIC AND SOCIAL DEVELOPMENT




                                                       TRANSPORTATION
This quarter, the U.S. Department of                   Afghanistan’s lack of transportation infrastructure hinders internal
Transportation office in Afghanistan closed.           commerce, foreign trade, and economic growth. The World Bank said
Source: DOT, response to SIGAR data call, 9/30/2014.   restoring the transportation sector is imperative for economic develop-
                                                       ment.857 Afghanistan’s infrastructure shortcomings particularly constrain
                                                       the service and agriculture sectors, currently the leading contributors to
                                                       GDP.858 They also hold back the mining industry, whose future revenues
                                                       the Afghan government and international donor community are counting
                                                       on to offset declining aid.859 This quarter, the United States continued its
                                                       efforts to assist Afghanistan in developing ministry capacity, and sustain-
                                                       ing operations and maintenance.860

                                                       Roads
                                                       While the United States has provided $2.1 billion cumulatively for road con-
                                                       struction and O&M, and currently spends about $5 million annually for O&M
                                                       efforts, the World Bank said 85% of Afghan roads are in poor shape and a
                                                       majority cannot be used by motor vehicles.861 Afghanistan does not currently
                                                       have sufficient funding and technical capacity to maintain its roads and
                                                       highways, according to USAID.862 Moreover, the lack of a functioning roads
                                                       authority has significantly affected road infrastructure across Afghanistan.863

                                                       Road Sector Sustainability
                                                                                                                       Total Estimated   Cumulative Disbursement,
                                                        Project Title             Start Date         End Date              Cost ($)         as of 9/30/2014
                                                        Road Sector
                                                                                  8/1/2014           8/1/2019            $111,000,000                   $0
                                                        Sustainability
                                                       Source: USAID, response to SIGAR data call, 7/14/2014 and 10/9/2014.



                                                       USAID’s Road Sector Sustainability project has four main activities:864
                                                       •	 Activity 1: Emergency O&M ($5 million).
                                                       •	 Activity 2: Technical assistance to the Ministry of Public Works for
                                                          creation of a road authority and road fund ($25 million phase I;
                                                          $10 million phase II). A three-year contract began August 3, 2014.
                                                       •	 Activity 3: Capacity building for the Ministry of Public Works
                                                          ($38 million). The statement of work is being developed based on
                                                          a needs assessment that is under way. A contract is expected to be
                                                          awarded in mid-2015.
                                                       •	 Activity 4: Road O&M ($33 million). USAID funding, proposed for
                                                          January 2015, will go through the AITF once the ADB develops an
                                                          operations-and-maintenance incentive window.




                                                         192                          SPECIAL INSPECTOR GENERAL               I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




  Gardez–Khowst Highway Rehabilitation Phase IV
                                                                   Total Estimated      Cumulative Disbursement,
   Project Title              Start Date         End Date              Cost ($)            as of 9/30/2014
   Gardez–Khowst Road         6/26/2014          12/25/2015           $32,763,736               $3,801,597
  Source: USAID, response to SIGAR data call, 10/9/2014.


  This quarter, asphalting began on remaining 15.5 miles of the 63-mile
  Gardez–Khowst highway.865 Phase IV rehabilitation of the highway also
  includes construction of two major bridges and several retaining walls, cul-
  verts, and drainage systems. This all-weather, asphalt-paved highway gives
  Khowst and Paktiya provinces access to major trading routes to Pakistan,
  to Kabul, and to the Ring Road connecting Kabul, Kandahar, and Herat.866


  EDUCATION
  The United States aims to improve Afghan access to quality education by
  promoting capacity building, responding to urgent needs for learning mate-
  rials, schools, and teacher development, and increasing opportunities in                                              SIGAR SPECIAL PROJECT
  adult literacy, employment skills, and youth development.867                                                          This quarter SIGAR sent a letter to
     The reliability of Afghanistan’s Education Management Information                                                  USAID requesting more information
  System (EMIS)—the only database at the Ministry of Education (MOE)                                                    about an Afghan school, funded by
  tracking education metrics—cannot be confirmed.868 EMIS data is not avail-                                            a USAID-supported program, that
  able on time, and indicators such as net enrollment ratios, repetition rate,                                          recently collapsed, reportedly injuring
  and dropout rate are unavailable. Insecurity limits visits to schools.869 In the                                      up to 32 students and one teacher.
  most recent EMIS Statistical Analytical Report from FY 1390 (2011/2012),                                              For more information, see Section 2,
  the MOE admitted that only 1,000 schools (7% of all general education                                                 page 41.
  schools) were visited for data verification.870 Additionally, schools may be
  tempted to inflate their attendance figures because access to funding (such
  as EQUIP II School Grants) can be linked to enrollment levels.871
     However, USAID said EMIS is becoming stronger through its EQUIP II
  program assistance. The MOE is recruiting technical assistants for the plan-
  ning department, purchasing equipment, and hiring consultants to expand
  EMIS at the provincial and district levels.872                                                                      Enrolled: total number of new students
                                                                                                                      enrolled in an academic year


      According to the most recent data available from the MOE’s EMIS, Afghanistan had a total of
                                                                                                                      Present: total number of students
      13,875 general education (government) schools in 1392, with 7.96 million students enrolled.
                                                                                                                      attending in an academic year
         The latest complete data year on student attendance for all provinces is 1391. Data
      generated from EMIS shows approximately 7.61 million students were enrolled in general
                                                                                                                      Absent: number of students who have
      education schools. Of the enrolled students, 6.25 million were categorized as present, while
                                                                                                                      temporarily dropped out, but are still
      1.36 million students were considered absent.
                                                                                                                      included in enrollment figures.


  Source: MOE, Education Management Information System (EMIS) Generated Report, Summary of Schools and Student By
  Ownership and Program Year (1392), accessed 10/17/2014; MOE, Education Management Information System (EMIS)
  Generated Report, Summary of Students Attendance Year 1391, accessed 10/17/2014.                                  Source: USAID, response to SIGAR vetting, 7/9/2014.




  REPORT TO THE UNITED STATES CONGRESS                     I   OCTOBER 30, 2014                             193
ECONOMIC AND SOCIAL DEVELOPMENT




USAID’s priority education programs funded through the ESF this
quarter include:873
•	 Basic Education, Literacy, and Technical-Vocational Education and
   Training
•	 Afghanistan University Support and Workforce Development Program
•	 American University of Afghanistan

Basic Education, Literacy, and Technical-Vocational
Education and Training
                                                                  Total Estimated       Cumulative Disbursement,
 Project Title              Start Date         End Date               Cost ($)             as of 9/30/2014
 Basic Education,
 Literacy, and
                              11/16/2011        12/31/2014          $26,996,813                $23,016,555
 Technical-Vocational
 Education Textbooks
 Teacher Training                3/4/2012        11/6/2014           62,000,000                  62,000,000
 BELT-Community
                              10/29/2013        10/28/2017           56,000,000                          0
 Based Education
Source: USAID, response to SIGAR data call, 10/9/2014; USAID, response to SIGAR vetting, 4/14/2014.


BELT aims to improve access to basic education in communities that are
typically beyond the government’s reach. BELT has four components:
capacity building for the MOE, teacher training, procurement of textbooks
for grades 1–6, and community-based education.874 BELT Community-Based
Education (CBE) provides accelerated and remedial education, allowing
students to attend schools in remote locations.875
    On September 14, 2014, USAID extended the BELT program until 2020.
With an infusion of $327 million, the new total estimated cost of the pro-
gram is $500 million. New subprojects include the $150 million Early Grade
Reading and Access activity, which aims to provide evidence-based read-
ing instruction for students in grades one and two. It will do so by offering
proven reading material; training and coaching teachers on that material;
mobilizing community support; upgrading MOE’s reading-achievement
assessments; and working with MOE to implement best-practices guide-
lines across the school system.876 No data on student reading and math
proficiency or teacher proficiency currently exists, but USAID is consider-
ing support to a program that would assess reading skills and gaps among
Afghan children.877
    Also this quarter, USAID approved $54 million in incremental funding
to improve teacher education and subsequently, the quality of education
in Afghanistan under the World Bank-managed ARTF’s Education Quality
Improvement Project (EQUIP). USAID did so because it deems teacher qual-
ity to be low and said EQUIP lacks the necessary resources to reach many of
those in rural areas. USAID reported 43,384 teachers were trained with U.S.
government assistance, representing 40% of USAID’s contribution to EQUIP.878




  194                           SPECIAL INSPECTOR GENERAL                I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




     The 2012 Education Joint Sector Review found only a small portion
  of teacher-training college graduates actually teach. Many do not want to
  teach in rural areas, where qualified teachers are most needed.879 USAID
  attributes this largely to security, preference for urban areas, lack of MOE
  funds for more teaching positions, and low teacher salaries.880
     Additionally, approximately 34 million textbooks for grades 1–6 were
  printed with USAID funding. They are currently being distributed nation-
  wide and will be audited next quarter.881 Field-visit reports in 2012 indicated
  textbooks were sometimes stocked in district offices and not distributed to
  schools due to lack of funds.882
     USAID continues to work closely with the MOE to implement CBE. In
  this reporting period, USAID issued a $54 million CBE grant to the United
  Nations International Children’s Emergency Fund (UNICEF) to help
  decrease the number of out-of-school students, particularly females, in
  Afghanistan’s southern region.883 In August 2014, the MOE provided guidance
  for nongovernmental organizations (NGOs) to implement CBE, submit-
  ted the first-year CBE work plan for USAID comments, and participated in
  recruitment of CBE consultants. However, USAID also faces ongoing chal-
  lenges with the MOE’s ability to implement on-budget activities in a timely
  fashion. The MOE has not submitted any of the required quarterly reports in
  2014, nor the monitoring and evaluation reports this quarter.884

  Afghanistan University Support and
  Workforce Development Program
                                                                   Total Estimated   Cumulative Disbursement,
   Project Title              Start Date         End Date              Cost ($)         as of 9/30/2014
   Afghanistan University
   Support and Workforce 1/1/2014                12/31/2018         $91,927,769            $5,932,779
   Development
  Source: USAID, response to SIGAR data call, 10/9/2014.


  The Afghanistan University Support and Workforce Development program
  (USWDP) aims to improve the management capacity of the Ministry of
  Higher Education (MOHE) and 10 public universities by training officials,
  students, funding scholarships, and facilitating partnerships between U.S.
  and Afghan universities.885
     Still in its early stages, the program focused this quarter on its own
  recruiting, formation, and development of action plans. The presidential-
  runoff election and related security concerns slowed program and technical
  implementation. Also delaying implementation is a MOF demand for a
  USAID implementation letter before it allows the MOHE or any universities
  to participate, the program’s inability to receive operating funds through
  international wire transfers due to the banking crisis caused by the long-
  awaited AML/CFT laws, and the lengthy U.S. government approval/vetting
  process for operational services and security upgrades.886 USWDP officially




  REPORT TO THE UNITED STATES CONGRESS                     I   OCTOBER 30, 2014                      195
                                        ECONOMIC AND SOCIAL DEVELOPMENT




                                        launched August 13, 2014, with a signed memorandum of understanding
                                        between the MOHE and USAID’s implementing partner.887

                                        American University of Afghanistan
                                                                                                        Total Estimated     Cumulative Disbursement,
                                         Project Title              Start Date         End Date             Cost ($)           as of 9/30/2014
                                         American University
                                         of Afghanistan
                                                                    8/1/2013           7/31/2018         $40,000,000               $8,445,629
                                         Professional
                                         Development Institute
                                        Source: USAID, response to SIGAR data call, 10/9/2014.

                                        USAID’s second, five-year cooperative agreement continues support for
                                        the American University of Afghanistan’s English-language undergraduate
                                        and continuing-education programs. The agreement aims to strengthen
                                        academic- and professional-development programs, expand programs for
                                        women, and increase financial self-sufficiency.888 No new information was
                                        provided this quarter.
U.S. Ambassador Cunningham attends an
AUAF event. (State Department photo)
                                        Other Active USAID Education Programs
                                                                                                          Total Estimated   Cumulative Disbursements
                                         Project Title                  Start Date        End Date            Cost ($)         as of 9/30/2014
                                         Global Partnership for
                                                                         10/11/2012         3/31/2015      $2,500,000               $842,105
                                         Education
                                         Afghanistan Reads                  6/1/2013        5/31/2014         380,000                 380,000
                                         Afghanistan Technical
                                                                          6/15/2013         6/14/2015       1,000,000                 475,000
                                         Vocational Institute
                                         Strengthening Education
                                                                          5/19/2014         5/18/2019     29,835,920                  446,578
                                         in Afghanistan (SEA II)
                                         Afghan Tuition Scholarship
                                                                          8/21/2011         7/31/2017       7,384,665               6,072,164
                                         Program
                                        Source: USAID, response to SIGAR data call, 10/9/2014.




                                        HEALTH
                                        Afghanistan has experienced improvements in its health indicators since
                                        2002, though it remains below average for low-income countries and has
                                        one of the world’s highest levels of child malnutrition, according to the
                                        World Bank.889 U.S. assistance to the Ministry of Public Health (MOPH)
                                        includes capacity-building, training, and quality-assurance activities at cen-
                                        tral and subnational levels, particularly in provinces to the south and east,
                                        where services are largely lacking.890

                                        USAID Funding
                                        From FY 2002 through FY 2013, U.S. on- and off-budget assistance to
                                        Afghanistan’s health sector totaled $1.2 billion.891 From FY 2014 through




                                          196                           SPECIAL INSPECTOR GENERAL            I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




  FY 2018, USAID assistance will total $477 million.892 On-budget assistance
  to the MOPH includes salary payments to workers in U.S.-funded facilities,
  supplies and equipment, in-service training, minor renovations of facilities,
  and monitoring and supervision. Off-budget assistance includes activities to
  strengthen health systems, engage the private sector, and procure pharma-
  ceuticals and contraceptives.893

  USAID Oversight
  USAID funds a team within the MOPH’s Grants and Contracts Management
  Unit (GCMU), which is responsible for monitoring USAID-funded facilities
  through regular site visits and monthly reports from implementing NGOs.                                       SIGAR INVESTIGATION
  Both NGOs and GCMU staff conduct routine monitoring of health facilities                                      In an ongoing investigation of the
  and document the number of patients who have received key services, and                                       MOPH’s Grants and Contracts
  the type and quality of health services provided.894                                                          Management Unit, which provides
     USAID also relies on the MOPH’s Health Management Information                                              oversight and guidance to NGOs that
  System (HMIS) for Afghan health data. The USAID Leadership,                                                   operate health facilities, SIGAR is
  Management, and Governance (LMG) project is assisting the MOPH to                                             reviewing NGO invoices, funding for
  improve data quality and reporting. LMG supported the development of                                          closed health facilities, solicitation of
  data quality assessment (DQA) tools, which compare monthly reported data                                      bribes, and falsified timesheets.
  with registers of the health facilities of the same month, measure health
  workers’ knowledge of HMIS definitions, and evaluate data utilization. The
  DQA was conducted in 416 randomly selected health facilities from July to
  December 2013, and its results were shared with NGOs. The DQA assess-
  ment will be conducted on a routine basis.895 For more information about
  the LMG program, see page 199.

  USAID Health Programs
  U.S. assistance to the MOPH includes capacity-building, training, and
  quality-assurance activities at central and subnational levels, particularly
  in provinces to the south and east, where services are largely lacking.896
  USAID’s highest-priority programs in the health sector this quarter include:
   •	 Partnership Contracts for Health (PCH) Services
   •	 Health Policy Project (HPP)
   •	 Leadership, Management, Governance Project (LMG)

  Partnership Contracts for Health Services
                                                                   Total Estimated   Cumulative Disbursement,
   Project Title              Start Date         End Date              Cost ($)         as of 9/30/2014
   Partnership Contracts
                              7/20/2008          1/31/2015          $236,455,840         $182,975,290
   for Health Services
  Source: USAID, response to SIGAR data call, 10/9/2014.



  The host-country contract PCH program supports the MOPH’s efforts to
  provide the Basic Package of Health Services (BPHS) in 13 provinces and




  REPORT TO THE UNITED STATES CONGRESS                     I   OCTOBER 30, 2014                      197
                                                         ECONOMIC AND SOCIAL DEVELOPMENT




                                                         the Essential Package of Hospital Services (EPHS) in five provinces. PCH
                                                         supports health care at over 6,000 health posts and more than 540 facili-
                                                         ties, including hospitals and health centers. It also supports tertiary health
                                                         care services at five provincial hospitals. In addition, PCH supports the
                                                         Community Midwifery Education program, which aims to reduce maternal
                                                         and child mortality.897
USAID reported six PCH health facilities were               PCH is implemented by the off-budget GCMU of the MOPH. The GCMU
closed this quarter, while others could not be           submits requests for advance funds and for permission to liquidate those
overseen, creating an obstacle for health-               funds. USAID monitors this process and has set up a dedicated, non-com-
service delivery. An explosion at the PCH                mingled account at the central bank, to which it has access. PCH is also
Kandahar facility injured six employees.                 audited by independent auditors.898 This quarter, USAID recertified GCMU
Source: USAID, response to SIGAR data call, 9/29/2014.   after assessing it for agreement administration and compliance, solicitation,
                                                         trainings, budgeting, accounting, reporting, and monitoring.899

                                                         Health Policy Project
                                                                                                                    Total Estimated   Cumulative Disbursement,
                                                          Project Title              Start Date         End Date        Cost ($)         as of 9/30/2014
                                                          Health Policy Project      9/25/2011          1/31/2015    $28,000,000           $17,005,709
                                                         Source: USAID, response to SIGAR data call, 10/9/2014.


                                                         The Health Policy Project (HPP) builds the MOPH’s capacity through
                                                         design, negotiation, and management of hospital public-private partner-
                                                         ships. The project also aims to strengthen financing and management of
                                                         health resources, support gender equality in health-sector activities, and
                                                         build the capacity of local private organizations to partner with the Afghan
                                                         government in changing behaviors for the benefit of individuals or society.900
                                                            Election-related insecurity and travel bans delayed several technical
                                                         activities this quarter, including training, and the search for a qualified con-
                                                         sultant to assist the public-private partnerships unit. These are compounded
                                                         by a lack of designated work space and inconsistent dues payments by
                                                         member hospitals.901
                                                            Despite these challenges, this quarter HPP helped facilitate the first
                                                         HMIS report covering 20 private hospitals; helped amend private health-
                                                         center regulations; facilitated investor site visits; conducted trainings; and
                                                         sold more than 2.5 million socially marketed products, generating more
                                                         than 5.6 million AFN that were reinvested in the program. HPP is scheduled
                                                         to close in October 2014. In its remaining time, HPP planned to continue its
                                                         gender-based violence trainings, collecting metrics for any follow-up pro-
                                                         gram, and advocating future MOPH-led trainings funded by grants.902




                                                           198                           SPECIAL INSPECTOR GENERAL       I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




  Leadership, Management, and Governance Project
                                                                    Total Estimated     Cumulative Disbursement,
   Project Title              Start Date         End Date               Cost ($)           as of 9/30/2014
   Leadership,
   Management, and
                              9/1/2012           2/28/2015           $40,399,490              $24,963,134
   Governance/Field
   Support
  Source: USAID, response to SIGAR data call, 10/13/2014.




  The LMG project works with the MOPH and the MOE at the central and
  provisional levels to build governance capacity, improve accountability, and
  help manage on-budget assistance within Afghanistan’s health and educa-
  tion systems.903
     This quarter, USAID said LMG established human-resource recruit-
  ment committees and continued to train health-care staff. Nine additional
  provinces are practicing LMG good-governance tools that are expected to
  improve decision making, accountability, transparency and a rational use of
  resources. LMG is supporting the HMIS department of the MOPH in improv-
  ing data quality and reliability. It helped MOPH with analysis and provided
  feedback, while teaching MOPH units how to use HMIS data to make better
  decisions. LMG also facilitated field visits for HMIS consultants to support
  provincial health officials and NGO staff.904
     USAID also noted several challenges from working with the MOPH
  this quarter, including slow decision making and concerns about program
  sustainability during the transition to on-budget programming, less account-
  ability in the past six months during the political deadlock, and lack of
  workspace for embedded consultants within the MOPH.905

  Other Active USAID Health Programs
                                                                      Total Estimated   Cumulative Disbursements,
   Project Title                  Start Date        End Date              Cost ($)         as of 9/30/2014
   Strengthening
                                  8/28/2011         8/27/2015        $24,499,936              $16,034,374
   Pharmaceutical System
   Polio-Eradication Activities   9/30/1996         9/30/2022          10,830,615               9,214,835
   Tuberculosis = Field
                                  9/29/2010         9/28/2015           5,600,000               4,600,000
   Support
   University Research =
                                  9/30/2009         9/29/2014          13,950,000              13,327,925
   Field Support
  Source: USAID, response to SIGAR data call, 10/9/2014.




  REPORT TO THE UNITED STATES CONGRESS                      I   OCTOBER 30, 2014                         199
4   OTHER AGENCY
    OVERSIGHT




        201
                                              OTHER AGENCY OVERSIGHT




                                              CONTENTS
                                              OTHER AGENCY OVERSIGHT CONTENTS

                                              Completed Oversight Activities	                             204
                                              Ongoing Oversight Activities	                               209




Photo on previous page
An EC-130H Compass Call aircraft awaits a mission at Bagram Airfield, Afghanistan.
The plane is configured for information-warfare duty. (U.S. Air Force photo)




                                                202                   SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
               OTHER AGENCY OVERSIGHT




OTHER AGENCY OVERSIGHT
SIGAR’s enabling legislation requires it to keep the Secretary of State
and the Secretary of Defense fully informed about problems relating to
the administration of reconstruction programs, and to submit a report to
Congress on SIGAR’s oversight work and on the status of the U.S. recon-
struction effort no later than 30 days after the end of each fiscal quarter.
Each quarter, SIGAR requests updates from other agencies on completed
and ongoing oversight activities. This section contains these updates.
    The descriptions appear as submitted, with minor changes to maintain
consistency with other sections of this report: acronyms and abbreviations
in place of full names; standardized capitalization, hyphenation, punc-
tuation, and preferred spellings; and third-person instead of first-person
construction.
    These agencies perform oversight activities in Afghanistan and provide
results to SIGAR:
 •	 Department of Defense Office of Inspector General (DOD OIG)
 •	 Department of State Office of Inspector General (State OIG)
 •	 Government Accountability Office (GAO)
 •	 U.S. Army Audit Agency (USAAA)
 •	 U.S. Agency for International Development Office of Inspector General
    (USAID OIG)




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2014           203
                                                                OTHER AGENCY OVERSIGHT




                                                                COMPLETED OVERSIGHT ACTIVITIES
                                                                Table 4.1 lists the six oversight projects related to reconstruction that par-
                                                                ticipating agencies reported as completed this quarter.

TABLE 4.1	


RECENTLY COMPLETED OVERSIGHT ACTIVITIES OF OTHER U.S. AGENCIES, AS OF SEPTEMBER 30, 2014
 Agency          Report Number          Date Issued      Project Title
 DOD OIG         DODIG-2014-118           9/19/2014      Improvements Needed in Contract Award of Mi-17 Cockpit Modification Task Order
 DOD OIG         DODIG-2014-102           8/29/2014      Government of the Islamic Republic of Afghanistan Needs to Provide Better Accountability and Transparency Over Direct Contributions
 DOD OIG         DODIG-2014-096           7/28/2014      Improvements Needed in Contract Administration of Mi-17 Cockpit Modification Task Order
 GAO             GAO-14-635               7/21/2014      State Department: Implementation of Grants Policies Needs Better Oversight
 GAO             GAO-14-661R               7/8/2014      Afghanistan: Kabul Embassy Construction Costs Have Increased and Schedules Have
 Been                                                    Afghanistan: Changes to Updated U.S. Civil-Military Strategic Framework Reflect Evolving U.S. Role
                 GAO-14-438R               4/1/2014
 Extended
                                                         Follow-Up on a Department of Defense Audit of Commander’s Emergency Response Program Funds Provided to
 USAID OIG       F-306-14-003-S           9/7/2014
                                                         USAID/Afghanistan
Source: DOD OIG, response to SIGAR data call, 9/18/2014; State OIG, response to SIGAR data call, 9/18/2014; GAO, response to SIGAR data call, 9/17/2014; USAAA, response to SIGAR data
call 9/18/2014; USAID OIG, response to SIGAR data call, 9/19/2014.




                                                                U.S. Department of Defense Office of Inspector General
                                                                During this quarter, DOD OIG issued three reports related to Afghanistan
                                                                reconstruction.

                                                                Improvements Needed in Contract Award of Mi-17
                                                                Cockpit Modification Task Order
                                                                (Report No. DODIG-2014-118, Issued September 19, 2014)
                                                                The full audit report is for official use only.
                                                                   DOD OIG found that officials from Army Contracting Command (ACC)-
                                                                Redstone and Non-Standard Rotary Wing Aircraft (NSRWA) Program
                                                                Management Office (PMO) did not properly award the Mi-17 cockpit modi-
                                                                fications. NSRWA PMO officials did not perform adequate market research
                                                                and directed the modification requirement to a contractor who had no Mi-17
                                                                experience. These officials decided to use a single award indefinite-delivery,
                                                                indefinite-quantity contract instead of competing the requirement. In addi-
                                                                tion, NSRWA PMO officials accepted the contractor’s proposal despite its
                                                                significant weaknesses. As a result, cost and schedule risks were increased;
                                                                $6.2 million was obligated over the originally proposed cost for the modifi-
                                                                cations, and aircraft delivery was delayed up to 12 months.
                                                                   In total, DOD IG identified $367,359 in questionable costs. First, the
                                                                contractor received payments for Mi-17 manuals not accepted or delivered
                                                                to the Government. ACC-Redstone contracting officers did not establish
                                                                adequate procedures to monitor performance or modify the contract to
                                                                include the manuals as a deliverable item. As result, the Army paid $216,345




                                                                   204                             SPECIAL INSPECTOR GENERAL                    I   AFGHANISTAN RECONSTRUCTION
                OTHER AGENCY OVERSIGHT




in questionable costs. Second, an NSRWA PMO official made an unauthor-
ized commitment for repair work outside the scope of the Mi-17 cockpit
modifications under the task order. The contractor incurred $151,014 in
questionable costs for repair work.

Government of the Islamic Republic of Afghanistan
Needs to Provide Better Accountability and Transparency
Over Direct Contributions
(Report No. DODIG-2014-102, Issued August 29, 2014)
The DOD OIG found that the Government of the Islamic Republic of
Afghanistan (GIROA) lacked the basic controls to provide reasonable
assurance that it appropriately spent $3.3 billion of Afghanistan Security
Forces Fund direct contributions. As a result, Combined Security Transition
Command-Afghanistan could not verify that the GIROA used Afghanistan
Security Forces Fund direct contributions properly or for their intended
purposes.

Improvements Needed in Contract Administration of
Mi-17 Cockpit Modification Task Order
(Report No. DODIG-2014-096, Issued July 28, 2014)
DOD OIG found that Army Contracting Command (ACC)-Redstone con-
tracting officers did not properly administer Task Order 0102. A contracting
officer created a prohibited cost-plus-a-percentage-of-cost type contract
under the task order by incorrectly issuing a modification to increase fund-
ing for incomplete efforts that included additional fees. As a result, the
contracting officer did not provide the contractor with an incentive to con-
trol costs, and the contractor received excess fees exceeding $150,000 to
perform the original contracted tasks. These fees should be recouped.
   The contracting officers awarded the task order and subsequent modifi-
cations without adequately evaluating and determining the reasonableness
of offered prices. Contracting officers did not perform adequate cost or
price analysis, relied on unsupported statements by project-management-
office technical personnel to determine whether prices were fair and
reasonable, and neglected to perform their duties in accordance with
federal regulations by not evaluating price reasonableness of contractor
proposals. As a result, the Army had limited assurance that it received fair
and reasonable prices for Mi-17 helicopter cockpit modification services
valued at $15.2 million.
   In addition, DOD OIG found that the contracting officer provided con-
sent for a sole-source subcontract without verifying that a noncompetitive
award was appropriate. The contracting officer did not evaluate the con-
tractor’s request for consent to subcontract or obtain supporting data. As
a result, the Army did not obtain the benefits of competition on subcon-
tracted services.




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2014           205
OTHER AGENCY OVERSIGHT




U.S. Department of State Office of Inspector General-Middle
East Regional Operations
During this quarter, State OIG issued no reports related to Afghanistan
reconstruction.

Government Accountability Office
During this quarter, GAO issued two reports related to Afghanistan
reconstruction.

State Department: Implementation of Grants Policies
Needs Better Oversight
(Report No. GAO-14-635, Issued July 21, 2014)
The Department of State (State) has established policies and guidance that
provide a supportive environment for managing grants and cooperative
agreements (grants). In addition, State provides its grants officials manda-
tory training on these policies and guidance, and routinely identifies and
shares best practices. State’s policies are based on federal regulations,
reflect internal-control standards, and cover topics such as risk assessment
and monitoring procedures. State’s policies also delineate specific internal-
control activities that grants officials are required to both implement and
document in the grant files as a way of promoting accountability.
   GAO found that inconsistent implementation of policies and guidance
weakens State’s assurance that grant funds are used as intended.
•	 Inadequate risk analysis. In most of the files GAO reviewed, grants
    officials did not fully identify, assess, and mitigate risks, as required. For
    example, officials conducted a risk-identification process for 45 of the
    61 grants that GAO reviewed. While grants officials identified risk in 28
    of those 45 grants, they mitigated risks in only 11.
•	 Poor documentation. Grants officials generally did not adhere to
    State policies and procedures relating to documenting internal-control
    activities. For example, 32 of the 61 files reviewed did not contain the
    required monitoring plan. Considerable turnover among grants officials
    makes documenting internal-control activities particularly important.
    State’s periodic management reviews of selected bureaus’ and overseas
    missions’ grant operations have also found that key documentation
    was frequently missing or incomplete, and made recommendations to
    address the problem. However, State has not consistently followed up
    to ensure the implementation of these recommendations, as internal-
    control standards require.

   State does not have processes for ensuring compliance with risk analy-
sis and documentation requirements. Without the proper implementation
of its internal-control policies for grants management, State cannot be




  206                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                OTHER AGENCY OVERSIGHT




certain that its oversight is adequate or that it is using its limited oversight
resources effectively.

Afghanistan: Kabul Embassy Construction Costs Have
Increased and Schedules Have Been Extended
(Report No. GAO-14-661R, Issued July 8, 2014)
In 2009 and 2010, the Department of State awarded two contracts totaling
$625.4 million to meet growing facility requirements at the U.S. Embassy
in Kabul, Afghanistan. In 2009, State awarded a $209.4 million contract
to Contractor 1 for the design and construction of temporary offices and
housing as well as permanent structures to include an office annex A, apart-
ment building 1, a cafeteria and recreation center, perimeter security and
compound access facilities, a warehouse addition, and a utility building. In
2010, State awarded a $416 million contract to Contractor 2 for the design
and construction of office annex B, apartment buildings 2 and 3, expansion
of existing apartment building 4, compound access and perimeter security
facilities, and parking facilities.
   State’s plans called for sequencing construction under the two contracts.
In September 2011, State partially terminated the permanent facilities
requirements in the Contractor 1 contract for the convenience of the U.S.
government due to concerns, in part, about performance and schedule
delays. Contractor 1 completed the temporary offices and housing units. In
September 2011, State transferred contract requirements for the permanent
facilities not begun by Contractor 1 to Contractor 2’s contract and extended
the completion date from January 2016 to July 2016.
   Since the two contracts were awarded in 2009 and 2010, construction
requirements have changed, costs have increased, and schedules have been
extended. The new office annexes under construction will contain 1,237
desks, a nearly 60% increase over the 778 desks originally planned. State
is also building space for 661 beds, about 50 more than originally planned.
Contract costs for construction have increased by nearly 24%, from $625.4
million to $773.9 million as of May 2014. The overall project schedule has
also been extended. State had originally planned to complete all construc-
tion on the compound by the end of summer 2014; the contractual delivery
date for all permanent facilities is currently July 2016.
   Factors affecting the project include (1) increases in numbers and
changes in composition of Embassy staffing requirements; (2) risks intro-
duced by State during planning, such as tightly sequencing the work of two
contractors on one construction site; (3) constructing new facilities on an
occupied compound in a conflict environment; (4) contractor performance
delays and transfer of construction requirements from one contract to
another; (5) and delays and changes to shipping routes of building materials
due to difficulties with shipments transiting through Pakistan.




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2014                207
OTHER AGENCY OVERSIGHT




   It is difficult to determine whether current projects and existing facili-
ties will meet future Embassy needs. As the U.S. military draws down its
presence in Afghanistan, State will have to decide whether to engage sup-
port contractors to replace life-support services currently provided by the
military, such as food, water, fuel, and medical services. Such changes may
affect embassy staffing. Future composition of U.S. agencies, staffing levels,
and embassy facility needs continue to be subject to change. Once current
contracts are completed, the Kabul Embassy’s permanent facilities—both
older and newly constructed buildings—are to contain 1,487 desks and 819
beds. Projected Embassy staffing for 2015 is approximately 600 U.S. direct
hires and 1,100 locally employed staff. State is working to identify its and
other agencies’ desk positions (both U.S. direct hires and locally employed
staff) that will occupy the new office space. State is also conducting a mas-
ter planning study to address on-compound facility needs unmet by current
construction.

U.S. Army Audit Agency
The USAAA completed no audits related to Afghanistan reconstruction this
quarter.

U.S. Agency for International Development
Office of Inspector General
This quarter, USAID OIG issued one audit related to reconstruction
activities.

Follow-up on a DOD Audit of Commander’s Emergency
Response Program Funds Provided to USAID/Afghanistan
(Report No. F-306-14-003-S, Issued September 7, 2014)
In 2009, the U.S. Department of Defense (DOD) entered into Economy Act
orders with USAID/Afghanistan to implement three construction projects.
The projects were to construct two permanent two-way traffic bridges
at Regak and Oshay in northern Uruzgan Province ($15.5 million); repair
nine destroyed or damaged bridges in Ghazni and Zabul Provinces ($12.5
million); and perform rough grading, maintenance, and minor upgrades to
the Bamyan to Doshi Road ($12.1 million). The Economy Act orders were
funded with $40.1 million in Commander’s Emergency Response Program
(CERP) funds. USAID/Afghanistan implemented these projects through an
indefinite quantity contract and specific task orders with the Louis Berger
Group Inc./Black and Veatch Joint Venture (LBG/B&V). In 2012, DOD OIG
issued an audit, DOD Needs to Improve Controls Over Economy Act Orders
with U.S. Agency for International Development (Report No. DODIG-2012-
117, August 14, 2012). This is a follow-up of that audit, and it refers to DOD
OIG’s conclusions as well as our own.




  208                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                  OTHER AGENCY OVERSIGHT




   USAID OIG concluded that the funds provided by DOD to USAID/
Afghanistan were not always used for their intended purposes or in com-
pliance with applicable laws. For instance, although nine bridges were
contracted to be repaired—and USAID received the entire $12.5 million to
do so—only four were finished. USAID reported deobligating $5.7 million of
these funds and refunding $5.58 million to DOD. However, USAID OIG was
unable to reconcile the difference between the amount deobligated and the
amount refunded.
   Moreover, USAID obligated $0.7 million from the Economy Act order
for “emergency or urgent works to be performed,” which was not part of
the Economy Act order. USAID OIG agreed with the DOD OIG finding that
USAID’s use of $0.7 million did not represent a bona fide need. It was outside
the scope of the Economy Act order, and USAID had no authority to enter
into a subobligation for this purpose. For the Bamyan to Doshi road, instead
of using the full $12.1 million that was provided to USAID by DOD for road
maintenance, USAID unilaterally decided to use $8.9 million of these funds
for community-development projects, a purpose that was outside the scope
of the Economy Act order. In both of these instances, USAID violated the
Bona Fide Needs Rule, the Economy Act, and the Recording Statute.
   Moreover, USAID’s violation of these statutes implies that USAID may
have violated the Antideficiency Act.


ONGOING OVERSIGHT ACTIVITIES
As of September 30, 2014, the participating agencies reported 21 ongo-
ing oversight activities related to reconstruction in Afghanistan. The
activities reported are listed in Table 4.2 and described in the following
sections by agency.

TABLE 4.2


ONGOING OVERSIGHT ACTIVITIES OF OTHER U.S. AGENCIES, AS OF SEPTEMBER 30, 2014
 Agency     Project Number          Date Initiated Project Title
 DOD OIG    D2014-D000JB-0219.000      9/4/2014 Audit of Government of Islamic Republic of Afghanistan's Internal Control for Asset Accountability
 DOD OIG    D2014-D000JB-0213.000     8/14/2014 Audit of the Government of Islamic Republic of Afghanistan’s Controls Over Contracting
                                                    Assessment of the Sufficiency of the Afghan National Security Force's Policies, Processes, and Procedures
 DOD OIG    D2014-D00SPO-0129.001      7/2/2014
                                                    for the Management and Accountability of Ammunition, Explosives, and Fuel
 DOD OIG    D2014-D000RE-0141.000      4/7/2014 Summary Report on Military Construction Projects in Afghanistan and Iraq
                                                    Assessment of U.S. and Coalition Efforts to Develop the Logistics and Maintenance Sustainment of the
 DOD OIG    D2014-D00SPO-0129.000      3/6/2014
                                                    Afghan National Police
                                                Assessment of U.S. Government Efforts to Transition Security Cooperation and Assistance Activities
 DOD OIG    D2013-D00SPO-0181.000     6/13/2013 Supporting the Government of the Islamic Republic of Afghanistan from Department of Defense Authority
                                                to Department of State Authority
                                                    Audit of Department of State Selection, Positioning, Training, and Oversight Responsibilities of Grants
 DOS OIG    14AUD034                  2/11/2014
                                                    Officer Representatives
                                                                                                                                           Continued on next page




REPORT TO THE UNITED STATES CONGRESS      I   OCTOBER 30, 2014                             209
                                                               OTHER AGENCY OVERSIGHT




TABLE 4.2 (CONTINUED)


ONGOING OVERSIGHT ACTIVITIES OF OTHER U.S. AGENCIES, AS OF SEPTEMBER 30, 2014
 Agency         Project Number                    Date Initiated Project Title
                                                                    Audit of the Bureau of Diplomatic Security Worldwide Protective Services Contract Task Order 10 - Kabul
 DOS OIG        14AUD018                            1/27/2014
                                                                    Embassy Security Force
 DOS OIG        14AUD014                            1/17/2014 Audit of Contract Closeout Process for Contracts in Afghanistan
                                                                    Audit of Bureau of International Narcotics and Law Enforcement Affairs Counternarcotics Assistance to
 DOS OIG        13AUD082                            6/20/2013
                                                                    Afghanistan
 GAO            321034                              7/23/2014 Construction Efforts at the U.S. Embassy in Kabul Part II
 GAO            351952                              7/16/2014 Efforts to Protect Sites, Bases, and Convoys in Afghanistan and Any Effects on Mission
 GAO            321031                                7/9/2014 Securing Diplomatic Residences and Other Soft Targets Overseas
 GAO            121228                              6/25/2014 Justification of Pass Through Contracts
 GAO            351917                              4/11/2014 Systems Used to Track Contractors in Contingency Operations
 GAO            100012                              3/10/2014 U.S Contractor Preference in Military Construction Programs
 GAO            100003                              2/13/2014 Mitigating Threats to Locally Employed Staff
 GAO            320985                              6/26/2013 Use of Foreign Labor Contractors Abroad
 GAO            351805                                3/1/2013 DOD Container Management
 USAID OIG      FF101014                            8/26/2014 Audit of USAID/Afghanistan's Strategy for Monitoring and Evaluating Its Programs Throughout Afghanistan
 USAID OIG      FF100414                            3/10/2014 Review of USAID/Afghanistan’s Financial Management Controls for Government to Government Assistance
Source: DOD OIG, response to SIGAR data call, 9/18/2014; State OIG, response to SIGAR data call, 9/18/2014; GAO, response to SIGAR data call, 9/17/2014; USAAA, response to SIGAR data
call 9/18/2014; USAID OIG, response to SIGAR data call, 9/19/2014.




                                                               U.S. Department of Defense Office of Inspector General
                                                               The Department of Defense continues to face many challenges in executing
                                                               its Overseas Contingency Operations (OCO). The Department of Defense
                                                               Office of Inspector General (DOD OIG) has identified priorities based on
                                                               those challenges and high risks. For FY 2015, DOD OIG oversight focuses
                                                               on the areas of monitoring and oversight of acquisition and contracting pro-
                                                               cesses that support training, equipping, and sustaining Afghanistan Security
                                                               Forces (ASF). The DOD OIG will also continue to review and assess the
                                                               Department’s efforts to train and equip Afghan National Security Forces.
                                                                   The DOD OIG-led Southwest Asia Joint Planning Group assists in
                                                               the coordination and deconfliction of federal and DOD OCO-related
                                                               oversight activities. The DOD OIG, working with the SIGAR as well as
                                                               fellow Inspectors General and Defense oversight-community members,
                                                               have finalized the Fiscal Year 2015 strategic-oversight plan for the over-
                                                               sight community working in Afghanistan and plans to issue the FY 2015
                                                               Comprehensive Oversight Plan for Southwest Asia in October 2014. A key
                                                               theme in the FY 2015 plan development is the force restructuring/draw-
                                                               down of operations in Afghanistan.
                                                                   DOD OIG’s ongoing OEF-related oversight addresses accountability of
                                                               property; improper payments; contract administration and management
                                                               including construction projects; transition planning; logistical distribution




                                                                  210                           SPECIAL INSPECTOR GENERAL                I   AFGHANISTAN RECONSTRUCTION
                 OTHER AGENCY OVERSIGHT




within Afghanistan; retrograde operations; health care; and acquisition plan-
ning and controls over funding for Afghan Security Forces.

Audit of Government of Islamic Republic of Afghanistan’s
Internal Control for Asset Accountability
(Project No. D2014-D000JB-0219.000, Initiated 9/4/2014)
The DOD OIG is conducting this audit in response to a statutory require-
ment. DOD OIG is determining whether the Combined Security Transition
Command-Afghanistan (CSTC-A) and the GIROA Ministries of Defense and
Interior have controls in place to effectively manage asset accountability
for vehicles and buildings. Specifically, DOD OIG will evaluate the adequacy
of the policies and procedures for verifying the existence of the donated
assets, forecasting of maintenance-and-replacement operations require-
ments, and identifying requirements for asset replenishment.

Audit of the Government of Islamic Republic of
Afghanistan’s Controls Over Contracting
(Project No. D2014-D000JB-0213.000, Initiated 8/14/2014).
The DOD OIG is conducting this audit in response to a statutory require-
ment. DOD OIG is determining whether CSTC-A and the GIROA Ministries
of Defense and Interior have established effective controls over contract-
management processes.

Assessment of the Sufficiency of the Afghan National
Security Force’s Policies, Processes, and Procedures for
the Management and Accountability of Ammunition,
Explosives, and Fuel
(Project No. D2014-D00SPO-0129.001, Initiated 7/2/2014).
For this Command requested follow-on review, the DOD OIG is assessing
the sufficiency of Afghan National Security Forces policies and procedures
for the management and accountability of fuel (Class III Bulk) and conven-
tional military ammunition and explosives (Class V). Specifically DOD OIG
will review:
•	 the ISAF Security Assistance Office relationship with the Ministries
   of Defense and Interior regarding regulations and procedures for the
   procurement, receipt, accountability, and consumption of ammunition
   and fuel
•	 ANSF compliance with published accountability procedures and
   internal controls for ammunition, explosives, and fuel at national and
   regional commands
•	 ANSF ammunition, explosives, and fuel-distribution and accountability
   systems for significant gaps and vulnerabilities
•	 ANSF storage facilities for ammunition, explosives, and fuel for security
   gaps and vulnerabilities




REPORT TO THE UNITED STATES CONGRESS    I   OCTOBER 30, 2014          211
OTHER AGENCY OVERSIGHT




Summary Report on Military Construction Projects in
Afghanistan and Iraq
(Project No. D000RE-041.000, Initiated April 7, 2014)
DOD OIG is summarizing systematic problems specific to military con-
struction projects in Afghanistan and Iraq identified in audit reports issued
by the DOD Office of Inspector General, Army Audit Agency, and Air Force
Audit Agency.

Assessment of U.S. and Coalition Efforts to Develop
the Logistics and Maintenance Sustainment of the
Afghan National Police
(Project No. D2014-D00SPO-0129.000, Initiated March 6, 2014)
DOD OIG is assessing the planning and execution of ANP logistics, sup-
ply, and maintenance systems developed and implemented by U.S. and
Coalition forces in Afghanistan. Specifically, DOD OIG plans to evaluate:
•	 whether U.S. and Coalition goals, objectives, plans, guidance, and
   resources are sufficient to effectively develop, manage, and transition
   logistics, supply, and maintenance systems to the ANP in 2014
•	 U.S. and Coalition plans to transition ANP logistics and maintenance
   processes to Afghan lead and to mitigate the impact of delays in supply
   transition
•	 whether U.S. and Coalition plans and resources will effectively support
   ANP logistics, supply, and maintenance-systems sustainment and
   continued development beyond 2014

Assessment of U.S. Government Efforts to Transition
Security Cooperation and Assistance Activities Supporting
the Government of the Islamic Republic of Afghanistan
from Department of Defense Authority to Department of
State Authority
(Project No. 2013-D00SPO-0181.000, Initiated June 13, 2013)
DOD OIG is assessing plans and activities that have been accomplished or
implemented thus far to transfer the security-cooperation and assistance
activities in Afghanistan from DOD to State Department authority, and
to make recommendations to facilitate or improve the transition of these
functions to the State Department in accordance with existing security-
cooperation guidance and security-assistance regulations that may pertain.
Specific objectives are to determine whether:
 •	 U.S. government goals, objectives, plans, and guidance are sufficient,
    issued, and operative for the transition of CSTC-A security-assistance
    activities in Afghanistan from DOD authority to a security-cooperation
    organization under Department of State authority
 •	 ongoing efforts by U.S. forces to provide security assistance to GIROA
    are adversely impacted by the implementation of drawdown plans for




  212                  SPECIAL INSPECTOR GENERAL    I   AFGHANISTAN RECONSTRUCTION
                OTHER AGENCY OVERSIGHT




   U.S. Forces-Afghanistan (USFOR-A) and the transition of International
   Security Assistance Force (ISAF) and ISAF Joint Command (IJC) to a
   command organization under NATO authority

U.S. Department of State Office of Inspector General-Middle
East Regional Operations
State OIG has four ongoing projects this quarter related to Afghanistan
reconstruction. An ongoing project called “Audit of Bureau of Diplomatic
Security Worldwide Protective Services Contract Task Orders 2, 9, and 11
for Movement and Static Security Services in Jerusalem and Afghanistan”
has been cancelled.

Audit of Department of State Selection, Positioning,
Training, and Oversight Responsibilities of Grants Officer
Representatives
(Project No. 14AUD034, Initiated February 11, 2014)
Objective: To determine the extent to which the Department’s grant officer
representatives (GORs) are selected, positioned, and trained to successfully
perform their assigned grants-administration and oversight responsibilities.

Audit of the Bureau of Diplomatic Security Worldwide
Protective Services Contract Task Order 10 - Kabul Embassy
Security Force
(Project No. 14AUD018, Initiated January 27, 2014)
Objective: Determine whether the Department of State’s administration and
oversight of the Worldwide Protective Services (WPS) task order for the
Kabul Embassy Security Force has been effective.

Audit of Contract Closeout Process for Contracts in Afghanistan
(Project No. 14AUD014, Initiated January 17, 2014)
Objective: To determine whether the Department of State was following
prescribed procedures when closing out local and regional contracts in
Afghanistan.

Audit of Bureau of International Narcotics and Law Enforcement
Affairs Counternarcotics Assistance to Afghanistan
(Project No. 13AUD082, Initiated June 20, 2013)
The audit objective is to evaluate the management and oversight of the
Bureau of International Narcotics and Law Enforcement Affairs (INL)
counternarcotics program for Afghanistan, including whether INL has
achieved intended and sustainable outcomes and whether INL has applied
adequate internal controls over the administration of direct assistance for
the Afghanistan counternarcotics program.




REPORT TO THE UNITED STATES CONGRESS    I   OCTOBER 30, 2014          213
OTHER AGENCY OVERSIGHT




Government Accountability Office
GAO has nine ongoing projects this quarter related to Afghanistan
reconstruction.

Construction Efforts at the U.S. Embassy in Kabul Part II
(Project No. 321034, initiated July 23, 2014)
Since 2009 the State Department has awarded two contracts totaling about
$700 million to construct additional housing and office facilities at the U.S.
embassy in Kabul, Afghanistan. State has since terminated the first contract
and expanded the scope, value, and timing of the second. Key questions: (1)
What progress has State made in constructing new U.S. embassy facilities
in Kabul since 2009, and what factors have contributed to any scope, cost,
or schedule changes? (2) To what extent does the present expansion match
projected needs? 

Efforts to Protect Sites, Bases, and Convoys in Afghanistan
and Any Effects on Mission
(Project No. 351952, Initiated July 16, 2014)
In Afghanistan, convoy security for DOD logistics contractors, perim-
eter security at certain DOD bases, and site security for U.S. Agency for
International Development (USAID) Implementing Partners (IPs) was
provided by the Afghan Public Protection Force (APPF), a state-owned
enterprise of the Afghan Government. In February 2014 the Afghan govern-
ment decided that the APPF would be disbanded. Key questions: To what
extent, if any: (1) Is the decision to disband the APPF affecting DOD draw-
down? (2) Are DOD’s efforts to protect personnel and property impacting
its mission in Afghanistan? (3) Are USAID IPs’ efforts to protect personnel
and property impacting their mission in Afghanistan? 

Securing Diplomatic Residences and
Other Soft Targets Overseas
(Project No. 321031, initiated July 9, 2014)
U.S. personnel posted in diplomatic facilities overseas continue to face
threats to their safety and security, including numerous attacks in high-risk
locations in recent years. In particular, residences, recreational facilities,
and schools used by these personnel and their families may be attractive
“soft targets.” Key questions: (1) How does State manage threats and risks
to residences and other soft targets under chief-of-mission authority over-
seas? (2) To what extent do State’s security standards for residences and
other soft targets address the threats and risks faced by such facilities? (3)
To what extent do State’s policies and procedures address security vulner-
abilities, if any, at residences and other soft targets? 

Justification of Pass Through Contracts



  214                   SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                 OTHER AGENCY OVERSIGHT




(Project No. 121228, initiated June 25, 2014)
The Federal Acquisition Regulation requires prime contractors to notify the
government if they intend to subcontract more than 70% of the total cost
of work in their proposals and explain the added value they provide in its
proposed contracting arrangement. Section 802 of the National Defense
Authorization Act for Fiscal Year 2013 directed DOD, State, and U.S. Agency
for International Development to issue policies requiring contracting officers
to consider alternative contracting arrangements when notified of such lev-
els of subcontracting and document the basis for their decision. Question: To
what extent have these agencies implemented required policy changes?

Systems Used to Track Contractors in
Contingency Environments
(Project No. 351917, Initiated April 11, 2014)
In Fiscal Year 2013, Congress mandated DOD, State Department, and U.S.
Agency for International Development to issue guidance about data col-
lection on contract support for future contingencies involving combat
operations outside of the U.S. Key questions: (1) What systems, if any, do
the agencies use to manage contractors and the resources needed to sustain
each system? (2) To what extent are systems interoperable, use compat-
ible data standards, and meet legislative requirements? (3) To what extent
do the systems provide personnel in contingency areas the necessary data
to manage contractors? (4) What steps, if any, are the agencies taking to
ensure that these systems maximize their ability to manage contractors?

U.S. Contractor Preference in Military Construction Programs
(Project No. 100012, Initiated March 10, 2014)
In Fiscal Year 2014, Congress directed GAO to assess the potential benefits
or problems of expanding an existing statutory preference for American
contractors for certain overseas U.S. military-construction projects to
the U.S. Central Command area of responsibility. Key questions: (1) What
benefits or problems did DOD encounter or overcome in establishing a
preference for American contractors in military construction projects in
locations where the department implemented such a preference? (2) What
are the potential benefits of expanding the geographical area to countries in
the U.S. Central Command area of responsibility for American contractor
preference in military constructions programs? (3)What are the poten-
tial problems of expanding the geographical area to countries in the U.S.
Central Command area of responsibility for American contractor prefer-
ence in military constructions programs?

Mitigating Threats to Locally Employed Staff
(Project No. 100003, Initiated February 13, 2014)




REPORT TO THE UNITED STATES CONGRESS      I   OCTOBER 30, 2014         215
OTHER AGENCY OVERSIGHT




U.S. agencies employ more than 44,000 locally employed staff (LES)—
Foreign Service nationals and U.S. citizens—at over 270 posts worldwide.
LES are a key element of the U.S. presence at these posts, often perform-
ing a range of programmatic, security, monitoring, maintenance, and other
duties. However, due to their association with the United States, LES can be
subject to harassment, intimidation, and death threats. Threats to LES are
particularly acute at posts in countries with active terrorist networks and
violent extremist groups, such as Afghanistan, Iraq, Pakistan, and Yemen.
Such threats can potentially hamper U.S. efforts to recruit and retain LES.
GAO was asked to review U.S. Government efforts to monitor, share infor-
mation about, and mitigate threats to LES serving at high-threat posts.
Key questions: (1) What is the nature and extent of the threat that terrorist
networks and other violent extremist groups pose to LES, including the
number of threats and attacks? (2) To what extent have U.S. agencies estab-
lished mechanisms to collect and disseminate information about threats
to LES in an effective and timely manner? (3) What steps, if any, have U.S.
agencies taken to mitigate threats to LES at high-threat posts and what bar-
riers, if any, exist to mitigating such threats? (4) How have these threats and
attacks affected the recruitment and retention of LES at high threat posts?

Use of Foreign Labor Contractors Abroad
(Project No. 320985, Initiated June 26, 2013)
The United States relies on contractors to provide diverse services over-
seas. Despite prohibiting the use of trafficked labor for all U.S. government
contracts, concerns remain about the protections afforded to foreign work-
ers recruited by U.S. contractors because prevailing practices in some host
countries diverge from U.S. standards. Key questions: (1) What are the
practices of U.S. Government contractors in recruiting foreign workers for
work outside the United States? (2) What legal and other authorities do U.S.
agencies identify as providing protection to foreign workers employed by
U.S. Government contractors outside the United States? (3) To what extent
do federal agencies provide oversight and enforcement of such authorities? 

DOD Container Management
(Project No. 351805, Initiated March 1, 2013)
Shipping-container management has been a longstanding challenge for
the Department of Defense (DOD). GAO estimates that DOD will pay over
$1 billion in detention fees from 2003 through 2013 for using commercial
shipping containers beyond the time frame allotted in its contract with com-
mercial shippers during operations in Iraq and Afghanistan. Key Questions:
(1) To what extent has DOD implemented corrective actions to address
container management challenges affecting shipping containers used in the
Afghan theater? (2) To what extent has DOD assessed the effect of its cor-
rective actions on the accumulation of detention fees?  




  216                  SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                 OTHER AGENCY OVERSIGHT




U.S. Army Audit Agency
This quarter the USAAA has no ongoing audits related to Afghanistan
reconstruction.

U.S. Agency for International Development
Office of Inspector General
This quarter USAID OIG has two ongoing audits related to reconstruction
initiatives.

Audit of USAID/Afghanistan’s Strategy for Monitoring
and Evaluating Its Programs Throughout Afghanistan
(Project No. FF101014, Initiated August 26, 2014)
Audit Objective:
•	 Does USAID/Afghanistan’s monitoring and evaluation strategy provide
   effective coverage over USAID’s program activities in Afghanistan?

Review of USAID/Afghanistan’s Financial Management
Controls for Government to Government Assistance
(Project No. FF100414, Initiated March 10, 2014)
Review Objective:
•	 Are financial-management controls associated with USAID/
   Afghanistan’s government-to-government assistance designed and
   operating effectively?




REPORT TO THE UNITED STATES CONGRESS    I   OCTOBER 30, 2014          217
                                     APPENDICES AND ENDNOTES CONTENTS

                                     Appendix A 	                                                  220
                                     Appendix B 	                                                  226
                                     Appendix C	                                                   228
                                     Appendix D	                                                   234
                                     Appendix E	                                                   242
                                     Endnotes	249




                                                                               The Official Seal of SIGAR
                                        The official seal of SIGAR represents the coordination of efforts
   between the United States and Afghanistan to provide accountability and oversight of reconstruction
activities. The phrase along the top side of the seal’s center is in Dari and means “SIGAR.” The phrase
                     along the bottom side of the seal’s center is in Pashto and has the same meaning.




                                        218                  SPECIAL INSPECTOR GENERAL     I   AFGHANISTAN RECONSTRUCTION
APPENDICES
AND ENDNOTES




       219
                                   APPENDICES




                                   APPENDIX A
                                   CROSS-REFERENCE OF REPORT TO
                                   STATUTORY REQUIREMENTS
                                   This appendix cross-references the pages of this report to the quarterly
                                   reporting and related requirements under SIGAR’s enabling legislation,
                                   the National Defense Authorization Act for Fiscal Year 2008, Pub. L. No.
                                   110-181, § 1229 (Table A.1), and to the semiannual reporting requirements
                                   prescribed for inspectors general more generally under the Inspector
                                   General Act of 1978, as amended (5 U.S.C. App. 3) (Table A.2).

TABLE A.1


CROSS-REFERENCE TO SIGAR QUARTERLY REPORTING REQUIREMENTS UNDER PUB. L. NO. 110-181, § 1229
Public Law Section      SIGAR Enabling Language                                                SIGAR Action                       Report Section
Purpose
Section 1229(a)(3)      To provide for an independent and objective means of keeping           Ongoing; quarterly report          Full report
                        the Secretary of State and the Secretary of Defense fully and
                        currently informed about problems and deficiencies relating to the
                        administration of such programs and operations and the necessity
                        for and progress on corrective action.
Supervision
Section 1229(e)(1)      The Inspector General shall report directly                            Report to the Secretary of State   Full report
                        to, and be under the general supervision                               and the Secretary of Defense
                        of, the Secretary of State and the Secretary of Defense
Duties
Section 1229(f)(1)      OVERSIGHT OF AFGHANISTAN RECONSTRUCTION —                              Review appropriated/               Full report
                        It shall be the duty of the Inspector General to conduct, supervise,   available funds
                        and coordinate audits and investigations of the treatment,
                        handling, and expenditure of amounts appropriated or otherwise         Review programs, operations,
                        made available for the reconstruction of Afghanistan, and of the       contracts using appropriated/
                        programs, operations, and contracts carried out utilizing such         available funds
                        funds, including subsections (A) through (G) below.
Section 1229(f)(1)(A)   The oversight and accounting of the obligation and expenditure of      Review obligations and             SIGAR Oversight
                        such funds                                                             expenditures of appropriated/      Funding
                                                                                               available funds
Section 1229(f)(1)(B)   The monitoring and review of reconstruction activities funded by       Review reconstruction activities   SIGAR Oversight
                        such funds                                                             funded by appropriations and
                                                                                               donations
Section 1229(f)(1)(C)   The monitoring and review of contracts funded by such funds            Review contracts using             Note 1
                                                                                               appropriated and available
                                                                                               funds
Section 1229(f)(1)(D)   The monitoring and review of the transfer of such funds and            Review internal and external       Appendix B
                        associated information between and among departments,                  transfers of appropriated/
                        agencies, and entities of the United States, and private and           available funds
                        nongovernmental entities
Section 1229(f)(1)(E)   The maintenance of records on the use of such funds to facilitate      Maintain audit records             SIGAR Oversight
                        future audits and investigations of the use of such fund[s]                                               Appendix C
                                                                                                                                  Appendix D




                                      220                          SPECIAL INSPECTOR GENERAL            I   AFGHANISTAN RECONSTRUCTION
                                                                     APPENDICES




TABLE A.1 (CONTINUED)


CROSS-REFERENCE TO SIGAR QUARTERLY REPORTING REQUIREMENTS UNDER PUB. L. NO. 110-181, § 1229
Public Law Section              SIGAR Enabling Language                                                 SIGAR Action                       Report Section
Section 1229(f)(1)(F)           The monitoring and review of the effectiveness of United States         Monitoring and review              Audits
                                coordination with the Governments of Afghanistan and other donor        as described
                                countries in the implementation of the Afghanistan Compact and
                                the Afghanistan National Development Strategy
Section 1229(f)(1)(G)           The investigation of overpayments such as duplicate payments            Conduct and reporting of           Investigations
                                or duplicate billing and any potential unethical or illegal actions     investigations as described
                                of Federal employees, contractors, or affiliated entities, and the
                                referral of such reports, as necessary, to the Department of Justice
                                to ensure further investigations, prosecutions, recovery of further
                                funds, or other remedies
Section 1229(f)(2)              OTHER DUTIES RELATED TO OVERSIGHT —                                     Establish, maintain, and           Full report
                                The Inspector General shall establish, maintain, and oversee            oversee systems, procedures,
                                such systems, procedures, and controls as the Inspector General         and controls
                                considers appropriate to discharge the duties under paragraph (1)
Section 1229(f)(3)              DUTIES AND RESPONSIBILITIES UNDER INSPECTOR GENERAL ACT                 Duties as specified in Inspector   Full report
                                OF 1978 —                                                               General Act
                                In addition,. . .the Inspector General shall also have the duties and
                                responsibilities of inspectors general under the Inspector General
                                Act of 1978
Section 1229(f)(4)              COORDINATION OF EFFORTS —                                               Coordination with the              Other Agency
                                The Inspector General shall coordinate with, and receive the            inspectors general of              Oversight
                                cooperation of, each of the following: (A) the Inspector General        DoD, DoS, and USAID
                                of the Department of Defense, (B) the Inspector General of the
                                Department of State, and (C) the Inspector General of the United
                                States Agency for International Development
Federal Support and Other Resources
Section 1229(h)(5)(A)           ASSISTANCE FROM FEDERAL AGENCIES —                                      Expect support as                  Full report
                                Upon request of the Inspector General for information or                requested
                                assistance from any department, agency, or other entity of the
                                Federal Government, the head of such entity shall, insofar as is
                                practicable and not in contravention of any existing law, furnish
                                such information or assistance to the Inspector General, or an
                                authorized designee
Section 1229(h)(5)(B)           REPORTING OF REFUSED ASSISTANCE —                                       None reported                      N/A
                                Whenever information or assistance requested by the Inspector
                                General is, in the judgment of the Inspector General, unreasonably
                                refused or not provided, the Inspector General shall report the
                                circumstances to the Secretary of State or the Secretary of
                                Defense, as appropriate, and to the appropriate congressional
                                committees without delay
Reports




REPORT TO THE UNITED STATES CONGRESS              I   OCTOBER 30, 2014                                 221
                                    APPENDICES




TABLE A.1 (CONTINUED)


CROSS-REFERENCE TO SIGAR QUARTERLY REPORTING REQUIREMENTS UNDER PUB. L. NO. 110-181, § 1229
Public Law Section      SIGAR Enabling Language                                                  SIGAR Action                     Report Section
Section 1229(i)(1)      QUARTERLY REPORTS —                                                      Report – 30 days after the       Full report
                        Not later than 30 days after the end of each fiscal-year quarter,        end of each calendar quarter     Appendix B
                        the Inspector General shall submit to the appropriate commit-
                        tees of Congress a report summarizing, for the period of that            Summarize activities of the
                        quarter and, to the extent possible, the period from the end of          Inspector General
                        such quarter to the time of the submission of the report, the
                        activities during such period of the Inspector General and the           Detailed statement of all
                        activities under programs and operations funded with amounts             obligations, expenditures, and
                        appropriated or otherwise made available for the reconstruction of       revenues
                        Afghanistan. Each report shall include, for the period covered by
                        such report, a detailed statement of all obligations, expenditures,
                        and revenues associated with reconstruction and rehabilitation
                        activities in Afghanistan, including the following –
Section 1229(i)(1)(A)   Obligations and expenditures of appropriated/donated funds               Obligations and expenditures     Appendix B
                                                                                                 of appropriated/donated
                                                                                                 funds
Section 1229(i)(1)(B)   A project-by-project and program-by-program accounting of the            Project-by-project and           Funding
                        costs incurred to date for the reconstruction of Afghanistan,            program-by-program account-      Note 1
                        together with the estimate of the Department of Defense,                 ing of costs. List unexpended
                        the Department of State, and the United States Agency for                funds for each project or
                        International Development, as applicable, of the costs to com-           program
                        plete each project and each program
Section 1229(i)(1)(C)   Revenues attributable to or consisting of funds provided by              Revenues, obligations, and       Funding
                        foreign nations or international organizations to programs and           expenditures of donor funds
                        projects funded by any department or agency of the United States
                        Government, and any obligations or expenditures of
                        such revenues
Section 1229(i)(1)(D)   Revenues attributable to or consisting of foreign assets seized or       Revenues, obligations, and       Funding
                        frozen that contribute to programs and projects funded by any            expenditures of funds from
                        U.S. government department or agency, and any obligations or             seized or frozen assets
                        expenditures of such revenues
Section 1229(i)(1)(E)   Operating expenses of agencies or entities receiving amounts             Operating expenses of            Funding
                        appropriated or otherwise made available for the reconstruction          agencies or any organization     Appendix B
                        of Afghanistan                                                           receiving appropriated funds
Section 1229(i)(1)(F)   In the case of any contract, grant, agreement, or other funding          Describe contract details        Note 1
                        mechanism described in paragraph (2)* —
                        (i) The amount of the contract or other funding mechanism;
                        (ii) A brief discussion of the scope of the contract or other funding
                        mechanism;
                        (iii) A discussion of how the department or agency of the United
                        States Government involved in the contract, grant, agreement,
                        or other funding mechanism identified and solicited offers from
                        potential contractors to perform the contract, grant, agreement, or
                        other funding mechanism, together with a list of the potential indi-
                        viduals or entities that were issued solicitations for the offers; and
                        (iv) The justification and approval documents on which was based
                        the determination to use procedures other than procedures that
                        provide for full and open competition




                                       222                          SPECIAL INSPECTOR GENERAL             I   AFGHANISTAN RECONSTRUCTION
                                                                                APPENDICES




TABLE A.1 (CONTINUED)


CROSS-REFERENCE TO SIGAR QUARTERLY REPORTING REQUIREMENTS UNDER PUB. L. NO. 110-181, § 1229
Public Law Section                      SIGAR Enabling Language                                                         SIGAR Action                           Report Section
Section 1229(i)(3)                      PUBLIC AVAILABILITY —                                                           Publish report as directed at          Full report
                                        The Inspector General shall publish on a publicly available                     www.sigar.mil
                                        Internet website each report under paragraph (1) of this subsec-
                                                                                                                        Dari and Pashtu translation
                                        tion in English and other languages that the Inspector General
                                                                                                                        in process
                                        determines are widely used and understood in Afghanistan
Section 1229(i)(4)                      FORM —                                                                          Publish report as directed             Full report
                                        Each report required under this subsection shall be submitted
                                        in unclassified form, but may include a classified annex if the
                                        Inspector General considers it necessary
Section 1229(j)(1)                      Inspector General shall also submit each report required under                  Submit quarterly report                Full report
                                        subsection (i) to the Secretary of State and the Secretary of
                                        Defense.
Note 1: Although this data is normally made available on SIGAR’s website (www.sigar.mil), the data SIGAR has received is in relatively raw form and is currently being
reviewed, analyzed, and organized for all future SIGAR purposes.

* Covered “contracts, grants, agreements, and funding mechanisms” are defined in paragraph (2) of Section 1229(i) of P.L. No. 110-181 as being—

“any major contract, grant, agreement, or other funding mechanism that is entered into by any department or agency of the United States Government that involves the
use of amounts appropriated or otherwise made available for the reconstruction of Afghanistan with any public or private sector entity for any of the following purposes: To
build or rebuild physical infrastructure of Afghanistan, to establish or reestablish a political or societal institution of Afghanistan, and to provide products or services to the
people of Afghanistan.”




REPORT TO THE UNITED STATES CONGRESS                        I   OCTOBER 30, 2014                                   223
                                          APPENDICES




TABLE A.2


CROSS-REFERENCE TO SEMIANNUAL REPORTING REQUIREMENTS UNDER
SECTION 5 OF THE IG ACT OF 1978, AS AMENDED (5 U.S.C. APP. 3) (“IG ACT”)
IG Act Section     IG Act Language                                      SIGAR Action                                         Section
Section 5(a)(1)    Description of significant problems, abuses, and     Extract pertinent information from SWA/JPG           Other Agency Oversight
                   deficiencies                                         member reports
                                                                        List problems, abuses, and deficiencies from         See Letters of Inquiry at
                                                                        SIGAR audit reports, investigations, and             www.sigar.mil
                                                                        inspections
Section 5(a)(2)    Description of recommendations for corrective        Extract pertinent information from SWA/JPG           Other Agency Oversight
                   action…with respect to significant problems,         member l reports
                   abuses, or deficiencies                                                                                   See Letters of Inquiry at
                                                                        List recommendations from SIGAR audit reports        www.sigar.mil
Section 5(a)(3)    Identification of each significant recommenda-       List all instances of incomplete corrective action   In process
                   tion described in previous semiannual reports on     from previous semiannual reports
                   which corrective action has not been completed
Section 5(a)(4)    A summary of matters referred to prosecutive         Extract pertinent information from SWA/JPG           Other Agency Oversight
                   authorities and the prosecutions and convictions     member reports
                   which have resulted
                                                                        List SIGAR Investigations that have been referred
Section 5(a)(5)    A summary of each report made to the [Secretary      Extract pertinent information from SWA/JPG           Other Agency Oversight
                   of Defense] under section 6(b)(2) (instances         member reports
                   where information requested was refused or not
                   provided)                                            List instances in which information was refused
                                                                        SIGAR auditors, investigators, or inspectors
Section 5(a)(6)    A listing, subdivided according to subject mat-      Extract pertinent information from SWA/JPG           Other Agency Oversight
                   ter, of each audit report, inspection report and     member reports
                   evaluation report issued...showing dollar value
                   of questioned costs and recommendations that         List SIGAR reports
                   funds be put to better use
Section 5(a)(7)    A summary of each particularly significant report    Extract pertinent information from SWA/JPG          Other Agency Oversight
                                                                        member reports                                      A full list of significant
                                                                                                                            reports can be found at
                                                                        Provide a synopsis of the significant SIGAR reports www.sigar.mil
Section 5(a)(8)    Statistical tables showing the total number of       Extract pertinent information from SWA/JPG           See reports of SWA/JPG
                   audit reports and the total dollar value of ques-    member reports                                       members
                   tioned costs
                                                                        Develop statistical tables showing dollar value      In process
                                                                        of questioned cost from SIGAR reports
Section 5(a)(9)    Statistical tables showing the total number of       Extract pertinent information from SWA/JPG           See reports of SWA/JPG
                   audit reports, inspection reports, and evaluation    member reports                                       members
                   reports and the dollar value of recommendations
                   that funds be put to better use by management        Develop statistical tables showing dollar value      In process
                                                                        of funds put to better use by management from
                                                                        SIGAR reports
Section 5(a)(10)   A summary of each audit report, inspection report,   Extract pertinent information from SWA/JPG           See reports of SWA/JPG
                   and evaluation report issued before the com-         member reports                                       members
                   mencement of the reporting period for which no
                   management decision has been made by the end         Provide a synopsis of SIGAR audit reports in         None
                   of reporting period, an explanation of the reasons   which recommendations by SIGAR are still open
                   such management decision has not been made,
                   and a statement concerning the desired timetable
                   for achieving a management decision




                                            224                         SPECIAL INSPECTOR GENERAL              I   AFGHANISTAN RECONSTRUCTION
                                                                      APPENDICES




TABLE A.2 (CONTINUED)


CROSS-REFERENCE TO SEMIANNUAL REPORTING REQUIREMENTS UNDER
SECTION 5 OF THE IG ACT OF 1978, AS AMENDED (5 U.S.C. APP. 3) (“IG ACT”)
IG Act Section        IG Act Language                                      SIGAR Action                                        Section
Section 5(a)(11)      A description and explanation of the reasons for     Extract pertinent information from SWA/JPG          See reports of SWA/JPG
                      any significant revised management decision          member reports                                      members

                                                                           Explain SIGAR audit reports in which significant    None
                                                                           revisions have been made to management
                                                                           decisions
Section 5(a)(12)      Information concerning any significant manage-       Extract pertinent information from SWA/JPG          See reports of SWA/JPG
                      ment decision with which the Inspector General is    member reports                                      members
                      in disagreement
                                                                           Explain SIGAR audit reports in which SIGAR          No disputed decisions
                                                                           disagreed with management decision                  during the reporting period
Section 5(a)(13)      Information described under [Section 804(b)] of      Extract pertinent information from SWA/JPG          See reports of SWA/JPG
                      the Federal Financial Management Improvement         member reports                                      members
                      Act of 1996 (instances and reasons when an
                      agency has not met target dates established in a     Provide information where management has not        No disputed
                      remediation plan)                                    met targets from a remediation plan                 decisions during the report-
                                                                                                                               ing period
Section 5(a)(14)(A)   An Appendix containing the results of any peer       SIGAR has posted in full the results of, and        Posted in full at
                      review conducted by another Office of Inspector      reports from, SIGAR’s most recent peer reviews      www.sigar.mil
                      General during the reporting period; or              (completed during July 2010, prior to the current
                                                                           reporting period), on its Web site
Section 5(a)(14)(B)   If no peer review was conducted within that report- 15 July 2010                                         Posted in full at
                      ing period, a statement identifying the date of the                                                      www.sigar.mil
                      last peer review conducted by another Office of
                      Inspector General
Section 5(a)(15)      A list of any outstanding recommendations from       None – all peer review recommendations              Recommendations and
                      any peer review conducted by another Office of       effectively addressed, and remedial measures        related materials posted in
                      Inspector General that have not been fully imple-    implemented, by 30 September 2010                   full at www.sigar.mil
                      ment, including a statement describing the status
                      of the implementation and why implementation is
                      not complete
Section 5(a)(16)      Any peer reviews conducted by SIGAR of another       Not applicable (SIGAR did not conduct, or           SIGAR Oversight
                      IG Office during the reporting period, including a   participate in the conduct, of a peer review of
                      list of any outstanding recommendations made         another Office of Inspector General during the
                      from any previous peer review . . . that remain      reporting period)
                      outstanding or have not been fully implemented




REPORT TO THE UNITED STATES CONGRESS               I   OCTOBER 30, 2014                             225
                                                                APPENDICES



                                                                APPENDIX B
                                                                U.S. FUNDS FOR AFGHANISTAN RECONSTRUCTION ($ MILLIONS)
                                                                Table B.1 lists funds appropriated for Afghanistan reconstruction by program,
                                                                per year, as of September 30, 2014. Table B.2 lists fund appropriated for counter-
                                                                narcotics initiatives since 2002.
TABLE B.2                                                       TABLE B.1


  COUNTERNARCOTICS, CUMULATIVE                                   U.S. FUNDING SOURCES                                           AGENCY              TOTAL    FY 2002
  AMOUNT APPROPRIATED,                                           SECURITY
  SINCE 2002 ($ MILLIONS)
                                                                  Afghanistan Security Forces Fund (ASFF)                       DOD            57,325.44        0.00
 ASFF                                $1,364.61                    Train & Equip (DOD)                                           DOD               440.00        0.00
 DOD CN                                2,704.86                   Foreign Military Financing (FMF)                              State           1,059.14       57.26
 ESF                                   1,415.22                   International Military Education and Training (IMET)          State              14.82        0.18
 INCLE                                 2,050.71                   Drug Interdiction & Counter-Drug Activities (DOD CN)          DOD             2,704.86        0.00
                                                                 Total - Security                                                             61,544.27       57.44
 DEA                                     219.67
                                                                 GOVERNANCE & DEVELOPMENT
 Total                             $7,755.08                      Commander's Emergency Response Program (CERP)                 DOD             3,669.00        0.00
Table B.2 Note: Numbers have been rounded.                        Afghanistan Infrastructure Fund (AIF)                         DOD             1,043.50        0.00
Counternarcotics funds cross-cut both the Security and
Governance & Development spending categories; these
                                                                  Task Force for Business and Stability Operations (TFBSO)      DOD               814.83        0.00
funds are also captured in those categories in Table B.1.         Economic Support Fund (ESF)                                   USAID          17,720.37      117.72
Figures represent cumulative amounts appropriated for
counternarcotics initiatives in Afghanistan since 2002.           Development Assistance (DA)                                   USAID             885.55       18.30
Intitatives include eradication, interdiction, support to         Afghanistan Freedom Support Act (AFSA)                        DOD               550.00        0.00
Afghanistan’s Special Mission Wing, counternarcotics-related
capacity building, and alternative agricultural development       Child Survival & Health (CSH + GHAI)                          USAID             557.85        7.52
efforts. ASFF, ESF, and INCLE figures show the cumulative         Commodity Credit Corp (CCC)                                   USAID              31.65        7.48
amounts appropriated for counternarcotics intiatives from
those funds.                                                      USAID (Other)                                                 USAID              56.09        0.00
                                                                  Non-Proliferation, Antiterrorism, Demining & Related (NADR)   State             649.49       44.00
Table B.2 Source: SIGAR analysis of counternarcotics funding.
State, INL, response to SIGAR data call, 10/17/2014; DOD,         Provincial Reconstruction Team Advisors                       USDA                5.70        0.00
response to SIGAR data call, 10/15/2014; USAID, response
to SIGAR data call, 10/9/2014; DOJ, response to SIGAR data
                                                                  Treasury Technical Assistance                                 Treasury            4.45        0.90
call, 10/17/2014.                                                 International Narcotics Control & Law Enforcement (INCLE)     State           4,441.68       60.00
                                                                  Drug Enforcement Administration (DEA)                         DOJ               219.67        0.58
                                                                 Total - Governance & Development                                             30,649.83      256.50
                                                                 HUMANITARIAN
                                                                  P.L. 480 Title I                                              USDA                 5.00       0.00
                                                                  P.L. 480 Title II                                             USAID              949.89     159.50
Table B.1 Note: Numbers have been rounded. Total fund-
ing decreased this quarter due to a reduction in DOD CN           Disaster Assistance (IDA)                                     USAID              570.15     197.09
funding. DOD reprogrammed $1 billion from FY 2011 ASFF.
DOD reprogrammed $1 billion from FY 2012 ASFF. P.L. 113-6
                                                                  Transition Initiatives (TI)                                   USAID               39.40       8.07
rescinded $1 billion from FY 2012 ASFF. DOD reprogrammed          Migration & Refugee Assistance (MRA)                          State              952.66     135.47
$178 million from FY 2013 ASFF. DOD transferred $101
million from FY 2011 AIF to FY 2011 ESF to fund an infra-         Voluntary Peacekeeping (PKO)                                  State               69.33      23.93
structure project to be implemented by USAID.                     Emergency Refugee & Migration Assistance (ERMA)               State               25.20      25.00
Table B.1 Source: DOD, responses to SIGAR data call,              Food for Progress                                             USDA               109.49       0.00
10/20/2014, 10/16/2014, 10/6/2014, 10/22/2012,                    416(b) Food Aid                                               USDA                95.18      46.46
10/14/2009, and 10/1/2009; State, responses to
SIGAR data call, 10/20/2014, 10/17/2014, 4/15/2014,               Food for Education                                            USDA                50.49       0.00
6/27/2013, 10/5/2012 and 6/27/2012; Treasury,                     Emerson Trust                                                 USDA                22.40       0.00
response to SIGAR data call, 10/9/2014; OMB, responses
to SIGAR data call, 7/14/2014, 7/19/2013 and 1/4/2013;           Total - Humanitarian                                                           2,889.18     595.52
USAID, responses to SIGAR data call, 10/9/2014,
10/15/2010, 1/15/2010, and 10/9/2009; DOJ, responses             CIVILIAN OPERATIONS
to SIGAR data call, 10/17/2014 and 7/7/2009; USDA,                Oversight                                                                        293.95       0.00
response to SIGAR data call, 4/2009; CRS, response to
SIGAR data call, 1/8/2014; DFAS, response to SIGAR                Operations                                                                     8,705.25     155.60
data call, 7/17/2014; P.L. 113-76, 1/17/2014; P.L. 113-
6, 3/26/2013; P.L. 112-74, 12/23/2011; P.L. 112-10,
                                                                 Total - Civilian Operations                                                    8,999.20     155.60
4/15/2011; P.L. 111-212, 10/29/2010; P.L. 111-118,               Total - Funding                                                             104,082.48     1,065.06
12/19/2009; FY 2010 Defense Explanatory Statement.




                                                                  226                        SPECIAL INSPECTOR GENERAL            I     AFGHANISTAN RECONSTRUCTION
                                                       APPENDICES




   FY 2003   FY 2004   FY 2005   FY 2006     FY 2007   FY 2008    FY 2009   FY 2010     FY 2011    FY 2012   FY 2013     FY 2014


      0.00      0.00   995.00 1,908.13 7,406.40 2,750.00          5,606.94 9,166.77 10,619.28      9,200.00 4,946.20    4,726.72
      0.00    150.00   290.00     0.00     0.00     0.00              0.00     0.00      0.00          0.00     0.00        0.00
    191.00    414.08   396.80     0.00     0.00     0.00              0.00     0.00      0.00          0.00     0.00        0.00
      0.39      0.67     0.95     0.98     1.19     1.66              1.40     1.76      1.56          1.18     1.42        1.50
      0.00     71.80   224.54   108.05   290.97   192.81            230.06   392.27    379.83        472.99   255.81       85.73
   191.39    636.55 1,907.28 2,017.17 7,698.57 2,944.47          5,838.40 9,560.80 11,000.67      9,674.16 5,203.44    4,813.95

      0.00    40.00   136.00   215.00   209.00   488.33             550.67 1,000.00      400.00      400.00   200.00       30.00
      0.00     0.00     0.00     0.00     0.00     0.00               0.00     0.00      299.00      400.00   145.50      199.00
      0.00     0.00     0.00     0.00     0.00     0.00              14.44    59.26      239.24      241.82   137.83      122.24
    223.79   906.55 1,291.25   473.39 1,224.75 1,399.51           2,077.49 3,346.00    2,168.51    1,836.76 1,802.65      852.00
     42.54   153.14   169.21   185.08   166.81   149.43               0.40     0.30        0.00        0.35     0.00        0.00
    300.00   150.00   100.00     0.00     0.00     0.00               0.00     0.00        0.00        0.00     0.00        0.00
     49.68    33.40    38.00    41.45   100.77    63.05              58.23    92.30       73.20        0.00     0.25        0.00
      1.33     0.00     0.00     0.00     0.00    10.77               4.22     4.22        3.09        0.55     0.00        0.00
      0.50     5.00     0.00     0.00     0.00    21.96               2.81     4.90        6.26        9.22     3.93        1.52
     34.70    66.90    40.65    35.72    36.72    29.72              59.92    70.74       69.30       65.32    52.60       43.20
      0.00     0.00     0.00     0.00     0.00     0.00               5.70     0.00        0.00        0.00     0.00        0.00
      1.00     0.06     0.95     0.19     0.13     0.75               0.47     0.00        0.00        0.00     0.00        0.00
      0.00   220.00   709.28   232.65   251.74   307.56             493.90   589.00      400.00      358.75   593.80      225.00
      2.87     3.72    16.77    23.66    20.38    40.59              18.80    19.20       18.70       18.70    17.00       18.70
   656.41 1,578.76 2,502.11 1,207.14 2,010.30 2,511.67           3,287.06 5,185.92    3,677.28    3,331.47 2,953.56    1,491.66

      5.00      0.00      0.00      0.00        0.00      0.00       0.00      0.00       0.00        0.00      0.00       0.00
     46.10     49.20     56.60     60.00       60.00    177.00      65.41     58.13     112.55       59.20     46.20       0.00
     85.93     11.39      4.61      0.04        0.03     16.87      27.13     29.73      66.39       56.59     23.73      50.63
     12.07     12.75      1.60      0.00        0.00      0.00       0.75      0.85       1.08        0.63      0.32       1.28
     61.50     63.30     47.10     41.80       53.80     44.25      76.79     80.93      64.65       99.56     76.07     107.44
      9.90     20.00     15.50      0.00        0.00      0.00       0.00      0.00       0.00        0.00      0.00       0.00
      0.00      0.00      0.00      0.00        0.00      0.00       0.20      0.00       0.00        0.00      0.00       0.00
      4.96      9.08     30.10     23.24        9.47     20.55      12.09      0.00       0.00        0.00      0.00       0.00
     14.14     34.58      0.00      0.00        0.00      0.00       0.00      0.00       0.00        0.00      0.00       0.00
      9.27      6.12     10.02     25.08        0.00      0.00       0.00      0.00       0.00        0.00      0.00       0.00
      0.00      0.00      0.00      0.00        0.00     22.40       0.00      0.00       0.00        0.00      0.00       0.00
   248.87    206.41    165.53    150.16      123.30    281.07     182.37    169.64     244.66      215.98    146.32     159.35

      0.00      0.00      0.00      0.00        2.50     14.30       25.20    34.40      37.20        59.00    58.70      62.65
     35.30    212.44    136.29    131.90      207.80    434.96    1,080.63 1,761.70     905.10     1,423.71 1,307.75     912.06
    35.30    212.44    136.29    131.90      210.30    449.26    1,105.83 1,796.10     942.30     1,482.71 1,366.45     974.71
 1,131.97 2,634.17 4,711.20 3,506.37 10,042.47 6,186.46 10,413.66 16,712.46 15,864.91 14,704.32 9,669.76               7,439.68




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2014                 227
APPENDICES




APPENDIX C
SIGAR WRITTEN PRODUCTS
SIGAR AUDITS
Audit Alert Letter
SIGAR issued one audit alert letter this reporting period.

NEW SIGAR AUDIT ALERT LETTER ISSUED AS OF OCTOBER 30, 2014
Report Identifier           Report Title                                                           Date Issued
SIGAR Audit Alert Letter
                            Afghan Air Force C-130 Aircraft Response                               10/2014
14-80a-AL



Completed Performance Audits
SIGAR completed two performance audits during this reporting period.

COMPLETED SIGAR PERFORMANCE AUDITS AS OF OCTOBER 30, 2014
Report Identifier           Report Title                                                          Date Issued
                            Counternarcotics Police of Afghanistan: U.S. Assistance to Provincial
SIGAR Audit 15-12-AR        Units Cannot be Fully Tracked and Formal Capability Assessments of 10/2014
                            These Units Are Needed
                            USAID: More than 80 Percent of All SIGAR Audit and Inspection
SIGAR Audit 15-1-AR                                                                               10/2014
                            Report Recommendations Have Been Implemented


New Performance Audits
SIGAR initiated two performance audits during this reporting period.

NEW SIGAR PERFORMANCE AUDITS AS OF OCTOBER 30, 2014
Audit Identifier           Project Title                                                           Date Initiated
                           DOD Oversight of Infrastructure Projects Transferred to the Afghan
SIGAR 100A                                                                                         8/2014
                           Government
SIGAR 099A                 U.S. Efforts to Develop Afghanistan’s Civil Aviation Capabilities       7/2014

Ongoing Performance Audits
SIGAR had 12 audits in progress during this reporting period.

ONGOING SIGAR PERFORMANCE AUDITS AS OF OCTOBER 30, 2014
Audit Identifier              Project Title                                                        Date Initiated
SIGAR 098A                    DOD’s Afghan Local Police Program                                    7/2014
SIGAR 097A                    U.S. Efforts to Develop Afghanistan’s Extractives Industry           2/2014
                              U.S. Efforts to Assist Afghan Refugees and Internally Displaced
SIGAR 096A                                                                                         2/2014
                              Persons
SIGAR 095A                    U.S. Efforts to Develop Afghanistan’s Rule of Law                    2/2014
                                                                                      Continued on the next page




 228                           SPECIAL INSPECTOR GENERAL               I   AFGHANISTAN RECONSTRUCTION
                                                                       APPENDICES




ONGOING SIGAR PERFORMANCE AUDITS AS OF OCTOBER 30, 2014                                          (CONTINUED)

Audit Identifier           Project Title                                                         Date Initiated
                           Status of SIGAR’s Recommendations to the Department of
SIGAR 092A                                                                                       2/2014
                           Defense
SIGAR 090A                 Audit of ANA National Engineer Brigade’s Engineering Equipment        11/2013
SIGAR 089A                 Audit of U.S. Support for Development of the Afghan Air Force         11/2013
                           U.S. Government Efforts to Assist in Reconstruction and
SIGAR 088A                 Commercialization of Afghanistan’s Information and                    11/2013
                           Communication Technology Sector
SIGAR 087A                 Women’s Initiatives                                                   8/2013
SIGAR 086A                 Education Sector                                                      8/2013
SIGAR 080A                 U.S. Government Reconstruction Transition Plan                        3/2013
SIGAR 079B                 Reliability of Afghan National Security Forces Data                   2/2013


Completed Financial Audits
SIGAR completed six financial audits during this reporting period.

COMPLETED SIGAR FINANCIAL AUDITS AS OF OCTOBER 30, 2014
Report Identifier       Report Title                                                             Date Issued
                        USAID’s Afghanistan Vouchers for Increased Production in
SIGAR Financial Audit
                        Agriculture Program: Audit of Costs Incurred by International Relief &   10/2014
15-7-FA
                        Development Inc.
SIGAR Financial Audit   USAID’s Afghanistan Municipal Strengthening Program: Audit of Costs
                                                                                                 9/2014
14-100-FA               Incurred by International City/County Management Association
SIGAR Financial Audit   Department of State’s Demining Activities in Afghanistan: Audit of
                                                                                                 9/2014
14-95-FA                Incurred Costs by Mine Clearance Planning Agency
SIGAR Financial Audit   USAID’s Afghanistan Social Outreach Program: Audit of Costs Incurred
                                                                                             9/2014
14-94-FA                by AECOM International Development, Inc.
SIGAR Financial Audit   USAID’s Partnership for Advancing Community Based Education in
                                                                                                 8/2014
14-93-FA                Afghanistan: Audit of Costs Incurred by CARE International
                        USAID’s Local Governance and Community Development Project in
SIGAR Financial Audit
                        Northern and Western Regions of Afghanistan: Audit of Costs Incurred     8/2014
14-91-FA
                        by ARD Inc.


New Financial Audit
SIGAR initiated one financial audit during this reporting period.

NEW SIGAR FINANCIAL AUDIT AS OF OCTOBER 30, 2014
Audit Identifier        Project Title                                                            Date Initiated
                        USDA Cooperative Agreement with the American Soybean Association
F-065                   for the Provision of Agricultural Commodities for Afghanistan through    8/2014
                        the Food for Progress Act




REPORT TO THE UNITED STATES CONGRESS                 I   OCTOBER 30, 2014                             229
APPENDICES




Ongoing Financial Audits
SIGAR had 33 financial audits in progress during this reporting period.

ONGOING SIGAR FINANCIAL AUDITS AS OF OCTOBER 30, 2014
Audit Identifier   Project Title                                                          Date Initiated
                   DOD Contract with Raytheon Technical Services Company LLC for
F-064                                                                                     4/2014
                   ANA depot support
                   DOD Contract with DRS Technical Services, Inc. for ANA
F-063              Communications equipment service mentoring, systems                    4/2014
                   engineering, technical assistance, training, and maintenance
                   DOD Contract with Engility Corporation (L-3 MPRI) for support
F-062                                                                                     4/2014
                   services to the MOI and ANP
                   DOD Contract with Dyncorp, International, LLC for mentoring and
F-061                                                                                     4/2014
                   training services in support of the ANSF
                   State contract with PAE Government Services Incorporated for
F-060                                                                                     3/2014
                   technical support to the Justice Sector Support Program (JSSP)
                   State Grants with Global Rights for increasing access to justice for
F-059              family law clients and strengthening the capacity of civil society/    3/2014
                   young lawyers to protect human rights in Afghanistan
                   State Grants with Women for Afghan Women for technical support
F-058                                                                                     3/2014
                   for the promotion and protection of Afghan women’s rights
                   State Grants with Clear Path International (CPI) for technical
F-057              support to the Integrated Victim Assistance and Capacity Building      3/2014
                   Program
                   State Grants with Organization for Mine Clearance and Afghan
F-056              Rehabilitation (OMAR) for mine and unexploded ordnance                 3/2014
                   clearance
                   USAID Task Order with Management Systems International, Inc
F-055              (MSI) for technical support to the Measuring Impact of Stabilization   3/2014
                   Initiative (MISTI)
                   USAID Cooperative Agreement with University of Massachusetts
F-054              for technical support to the Higher Education Project (HEP) in         3/2014
                   Afghanistan
                   USAID Cooperative Agreement with Consortium For Elections
                   and Political Process (CEPPS) for support to subnational
F-053                                                                                     3/2014
                   government institutions in Regional Command-East and Regional
                   Command-South
                   USAID Contract with AECOM International Development Inc. for
F-052                                                                                     3/2014
                   technical support to Stabilization in Key Areas (SIKA)–West
                   USAID Contract with AECOM International Development Inc. for
F-051                                                                                     3/2014
                   technical support to Stabilization in Key Areas (SIKA)–East
                   USAID Contract with Tetra Tech for technical support to the Rule of
F-050                                                                                     3/2014
                   Law Stabilization–Formal Component
                   USAID Contract with International Relief and Development, Inc.
F-049              (IRD) for Engineering, Quality Assurance and Logistical Support        3/2014
                   (EQUALS)
                   USAID Cooperative Agreement with Wildlife Conservation Society
                   (WCS) for technical support to the Improving Livelihoods and
F-048                                                                                     3/2014
                   Governance through Natural Resource Management Project
                   (ILG-NRMP)
                                                                            Continued on the next page




 230                  SPECIAL INSPECTOR GENERAL              I   AFGHANISTAN RECONSTRUCTION
                                                                APPENDICES




ONGOING SIGAR FINANCIAL AUDITS AS OF OCTOBER 30, 2014 (CONTINUED)
Audit Identifier   Project Title                                                         Date Initiated
                   USAID Cooperative Agreement with Democracy International for
F-047                                                                                    3/2014
                   technical support for Electoral Reform and Civic Advocacy (AERCA)
                   USAID Contract with AECOM International Development Inc. for
F-046                                                                                    3/2014
                   technical support to Stabilization in Key Areas (SIKA)–South
                   USAID Cooperative Agreement with Consortium For Elections
F-045              and Political Process (CEPPS) to support increased electoral          3/2014
                   participation in Afghanistan
                   USAID Cooperative Agreement with Internews Network for support to
F-044                                                                                3/2014
                   the Afghan Media Development and Empowerment Project (AMDEP)
                   USAID Contract with Tetra Tech to support Land Reform in
F-043                                                                                    3/2014
                   Afghanistan
                   USAID Cooperative Agreement with International Relief and
F-042              Development, Inc. for technical support to the Afghanistan Civilian   3/2014
                   Assistance Program (ACAP II)
                   USAID Cooperative Agreement with International Relief and
F-041              Development, Inc. for technical support to the Southern Regional      3/2014
                   Agriculture Development Program (SRADP)
                   DOD Contract with A-T Solutions for support to Freedom of
F-040                                                                                    12/2013
                   Maneuver program
                   DOD Contract with Jorge Scientific Corp for support to Legacy East
F-039                                                                                    12/2013
                   program
                   DOD Contract with CACI Technologies, Inc. for technical engineering,
F-038                                                                                   12/2013
                   logistical engineering and fielding efforts
                   State Grant with Sayed Majidi Architecture and Design (SMAD) for
F-036              project management services for architectural and engineering         9/2013
                   design of the new national museum in Kabul
                   State Cooperative Agreement and Grant with CETENA Group for
F-035              support to the Afghan TV Content Production Manager project and       9/2013
                   the Nationwide Adult Literacy project
                   State Task Order with PAE for technical support to the Civilian Police
F-033                                                                                     9/2013
                   Program
                   USAID Task Order with IRG (now part of Engility) for technical
F-032                                                                                    9/2013
                   support to the Afghan Clean Energy Program (ACEP)
                   USAID Cooperative Agreement with PACT to strengthen the
F-027                                                                                    9/2013
                   independent media sector in Afghanistan
                   USAID Task Order with ARD (now part of Tetra Tech) to provide
F-026              technical support to the Sustainable Water Supply and Sanitation      9/2013
                   (SWSS) project




REPORT TO THE UNITED STATES CONGRESS          I   OCTOBER 30, 2014                           231
APPENDICES




SIGAR INSPECTIONS
Completed Inspections
completed one inspection during this reporting period.

COMPLETED SIGAR INSPECTIONS AS OF OCTOBER 30, 2014
Report Identifier       Report Title                                                           Date Issued
SIGAR Inspection        Pol-i-Charkhi Prison: Renovation Project Far from Complete after 5
                                                                                               10/2014
15-11-IP                Years and $18.5 Million




SIGAR SPECIAL PROJECTS
Completed Special Projects
SIGAR completed 21 Special Project products this reporting period.

COMPLETED SIGAR SPECIAL PROJECTS AS OF OCTOBER 30, 2014
Report Identifier       Report Title                                                          Date Issued
Special Project         Direct Assistance: Review of Processes and Controls Used by
                                                                                              10/2014
15-14-SP                CSTC-A, State, and USAID
                        Special Report: Poppy Cultivation in Afghanistan: After a Decade
Special Project
                        of Reconstruction and Over $7 Billion in Counternarcotics Efforts,    10/2014
15-10-SP
                        Poppy Cultivation Levels Are at an All-Time High
Special Project
                        Inquiry Letter: State Department Communication Trucks                 10/2014
15-09-SP
Special Project
                        Inquiry Letter: IRD Whistleblower Protections Response                7/2014
15-08-SP
Special Project
                        Inquiry Letter: Contract Termination Due to Security Changes          10/2014
15-06-SP
Special Project
                        Inquiry Letter: USAID’s Questioned Costs                              10/2014
15-05-SP
Special Project         Inquiry Letter: Status of Four G222 Aircraft at Ramstein Air Force
                                                                                              10/2014
15-04-SP                Base, Germany
Special Project
                        Inquiry Letter: ANA Slaugtherhouse in Pol-i-Charkhi District          10/2014
15-03-SP
Special Project
                        Inquiry Letter: Scrapping of G222 Fleet at Kabul Airport              10/2014
15-02-SP
Special Project SP-78   ANSF Requirement Validation                                           10/2014
Special Project
                        Inquiry Letter: Afghan Budget Bailout                                 9/2014
14-101-SP
Special Project         Inquiry Letter: CSTC-A Role of UNDP Oversight and Financial
                                                                                              9/2014
14-99-SP                Management of LOTFA
Special Project
                        Inquiry Letter: UNDP LOTFA Oversight Response                         9/2014
14-98-SP
Special Project         Inquiry Letter: Recruitment of Third Country Nationals for Afghan
                                                                                               9/2014
14-97-SP                Work
Special Project         Inquiry Letter: Recruitment of Third Country Nationals for Afghan
                                                                                               9/2014
14-96-SP                Work
                                                                                  Continued on the next page




 232                       SPECIAL INSPECTOR GENERAL               I   AFGHANISTAN RECONSTRUCTION
                                                                 APPENDICES




COMPLETED SIGAR SPECIAL PROJECTS AS OF OCTOBER 30, 2014 (CONTINUED)
Report Identifier   Report Title                                                Date Issued
Special Project
                    Inquiry Letter: IRD Whistleblower Protections Response      7/2014
14-92-SP
Special Project
                    Inquiry Letter: Communications Towers Response              9/2014
14-90-SP
Special Project
                    Inquiry Letter: Korak Uzbeki School Collapse in Sar-i-Pul   9/2014
14-89-SP
Special Project
                    Inquiry Letter: DOD Anti/Counter Corruption Efforts         7/2014
14-88-SP
Special Project
                    Inquiry Letter: Kandahar Bridging Solution                  7/2014
14-87-SP
Special Project
                    Inqiury Letter: Fuel Storage Tanks                          7/2014
14-86-SP




REPORT TO THE UNITED STATES CONGRESS           I   OCTOBER 30, 2014                 233
                                                       APPENDICES




                                                       APPENDIX D
                                                       SIGAR INVESTIGATIONS AND HOTLINE
FIGURE D.1                                             SIGAR Investigations
                                                       This quarter, SIGAR opened 36 new investigations and closed 33, bringing
NEW SIGAR INVESTIGATIONS,
                                                       the total number of open investigations to 322. Of the new investigations,
JULY 1–SEPTEMBER 30, 2014
                                                       most involved procurement and contract fraud, as shown in Figure D.1. Of
                                                       the closed investigations, most were closed due to unfounded allegations,
                        Total: 36                      as shown in Figure D.2.

                                                       FIGURE D.2

               Procurement/
               Contract Fraud
                                                       SIGAR INVESTIGATIONS: CLOSED INVESTIGATIONS, JULY 1–SEPTEMBER 30, 2014
               20             Corruption
                              8

                                                          Unfounded Allegations                                                                         13

                                              Theft
                                              4        Lack of Investigative Merit                                                                 12
          Money                  Other/
          Laundering             Miscellaneous
          2                      2
                                                                    Administrative                            4

Source: SIGAR Investigations Directorate, 10/7/2014.

                                                             Criminal Declination                2


                                                                       Conviction          1


                                                                      Exoneration          1

                                                                                     0               3            6                   9       12             15

                                                                                                                      Total: 33

                                                       Source: SIGAR Investigations Directorate, 10/7/2014.




                                                         234                             SPECIAL INSPECTOR GENERAL                I   AFGHANISTAN RECONSTRUCTION
                                                                                APPENDICES




SIGAR Hotline
Of the 139 Hotline complaints received this quarter, most were received elec-                                              FIGURE D.3
tronically, as shown in Figure D.3. In addition to working on new complaints,
                                                                                                                           SOURCE OF SIGAR HOTLINE COMPLAINTS,
the Investigations directorate continued its work this quarter on complaints
                                                                                                                           JULY 1–SEPTEMBER 30, 2014
received prior to April 1, 2014. This quarter, the directorate processed 173
complaints, most of which were closed, as shown in Figure D.4.
                                                                                                                                                  Total: 139
FIGURE D.4

STATUS OF SIGAR HOTLINE COMPLAINTS: JULY 1–SEPTEMBER 30, 2014
                                                                                                                                               Electronic
                                                                                                                                               (email, web, or fax)
                                                                                                                                               132
      Under Review (Open)                              37

Under Investigation (Open)        3
                                                                                                                                                                      Written
       Referred Out (Open)        2                                                                                             Phone                                 (Other)
                                                                                                                                3                                           4
    Closed Administratively                                                                                  128

 Closed after Investigation       3                                                                                        Source: SIGAR Investigations Directorate, 10/2/2014.

                              0                30                  60                90              120             150
                                                                        Total: 173

Source: SIGAR Investigations Directorate, 10/2/2014.
Note: 139 complaints received during quarter; total includes status changes to complaints made in earlier periods.




Suspensions and Debarments From SIGAR Referrals
SIGAR’s referrals for suspension and debarment as of September 30, 2014,
are shown in chronological order in Table D.1.

TABLE D.1


SUSPENSIONS AND DEBARMENTS AS OF SEPTEMBER 30, 2014
 Suspensions                                                    Debarments
 Al-Watan Construction Company                                  Farooqi, Hashmatullah
 Basirat Construction Firm                                      Hamid Lais Construction Company
 Brophy, Kenneth                                                Hamid Lais Group
 Naqibullah, Nadeem                                             Lodin, Rohullah Farooqi
 Rahman, Obaidur                                                Bennett & Fouch Associates, LLC
 Campbell, Neil Patrick                                         Brandon, Gary
 Borcata, Raul A.                                               K5 Global
 Close, Jarred Lee                                              Ahmad, Noor
 Logistical Operations Worldwide                                Noor Ahmad Yousufzai Construction Company
 Robinson, Franz Martin                                         Ayeni, Sheryl Adenike
                                                                                            Continued on the next page




REPORT TO THE UNITED STATES CONGRESS                        I   OCTOBER 30, 2014                                 235
APPENDICES




TABLE D.1 (CONTINUED)


SUSPENSIONS AND DEBARMENTS AS OF SEPTEMBER 30, 2014 (CONTINUED)
 Suspensions                                        Debarments
 Taylor, Zachery Dustin                             Cannon, Justin
 Aaria Group Construction Company                   Constantino, April Anne
 Aaria Group                                        Constantino, Dee
 Aaria Herai General Trading                        Constantino, Ramil Palmes
 Aaria M.E. General Trading LLC                     Crilly, Braam
 Aaria Middle East                                  Drotleff, Christopher
 Aaria Middle East Company LLC                      Fil-Tech Engineering and Construction Company
 Aaria Middle East Company Ltd. – Herat             Handa, Sdiharth
 Aaria Supplies Company LTD                         Jabak, Imad
 Aaria Supply Services and Consultancy              Jamally, Rohullah
 Aftech International                               Khalid, Mohammad
 Aftech International Pvt., Ltd.                    Khan, Daro
 Alam, Ahmed Farzad                                 Mariano, April Anne Perez
 Albahar Logistics                                  McCabe, Elton Maurice
 American Aaria Company LLC                         Mihalczo, John
 American Aaria LLC                                 Qasimi, Mohammed Indress
 Barakzai, Nangialai                                Radhi, Mohammad Khalid
 Formid Supply and Services                         Safi, Fazal Ahmed
 Greenlight General Trading                         Shin Gul Shaheen, a.k.a. “Sheen Gul Shaheen”
 Kabul Hackle Logistics Company                     Espinoza-Loor, Pedro Alfredo
 Sharpway Logistics                                 Campbell, Neil Patrick
 United States California Logistics Company         Navarro, Wesley
 Yousef, Najeebullah                                Hazrati, Arash
 Rahimi, Mohammad Edris                             Midfield International
 Wooten, Philip Steven                              Moore, Robert G.
 Domineck, Lavette Kaye                             Noori, Noor Alam, a.k.a. “Noor Alam"
 Markwith, James                                    Northern Reconstruction Organization
                                                    Shamal Pamir Building and Road Construction
 All Points International Distributors, Inc.
                                                    Company
 Cipolla, James                                     Wade, Desi D.
 Hercules Global Logistics                          Blue Planet Logistics Services
 Schroeder, Robert                                  Mahmodi, Padres
 AISC LLC                                           Mahmodi, Shikab
 American International Security Corporation        Saber, Mohammed
 Brothers, Richard S.                               Watson, Brian Erik
 David A Young Construction & Renovation Inc.       Abbasi, Shahpoor
 Force Direct Solutions LLC                         Amiri, Waheedullah
 Harris, Christopher                                Atal, Waheed
 Hernando County Holdings LLC                       Daud, Abdulilah
 Hide-A-Wreck LLC                                   Dehati, Abdul Majid
                                                                                Continued on the next page




  236                              SPECIAL INSPECTOR GENERAL      I   AFGHANISTAN RECONSTRUCTION
                                                                        APPENDICES




TABLE D.1 (CONTINUED)


SUSPENSIONS AND DEBARMENTS AS OF SEPTEMBER 30, 2014 (CONTINUED)
 Suspensions                                          Debarments
 Panthers LLC                                         Fazli, Qais
 Paper Mill Village, Inc                              Hamdard, Mohammad Yousuf
 Shrould Line LLC                                     Kunari, Haji Pir Mohammad
 Spada, Carol                                         Mushfiq, Muhammad Jaffar
 Taylor, Michael                                      Mutallib, Abdul
 Welventure LLC                                       Nasrat, Sami
 World Wide Trainers LLC                              National General Construction Company
 Young, David                                         Passerly, Ahmaad Saleem
 Espinoza, Mauricio                                   Rabi, Fazal
 Long, Tonya                                          Rahman, Atta
 Brophy, Kenneth Michael                              Rahman, Fazal
 Rivera-Medina, Franklin Delano                       Roshandil, Mohammad Ajmal
 Peace Thru Business                                  Saber, Mohammed
 Pudenz, Adam Jeff Julias                             Safi, Azizur Rahman
 Elham, Yaser, a.k.a. “Najibullah Saadullah”          Safi, Matiullah
 Everest Faizy Logistics Services                     Sahak, Sher Khan
 Faizy Elham Brothers, Ltd.                           Shaheed, Murad
 Faizy, Rohullah                                      Shirzad, Daulet Khan
 Hekmat Shadman General Trading LLC                   Uddin, Mehrab
 Hekmat Shadman, Ltd., d.b.a. “Hikmat Shadman,
                                                      Watson, Brian Erik
 Ltd.”
 Hikmat Shadman Construction and Supply Company Wooten, Philip Steven
 Hikmat Shadman Logistics Services Company,
 d.b.a. “Hikmat Shadman Commerce Construction
                                                      Espinoza, Mauricio
 and Supply Company,” d.b.a. “Hikmat Shadman
 Commerce Construction Services”
 Saif Hikmat Construction Logistic Services and
                                                      Alam, Ahmed Farzad
 Supply Co.
 Shadman, Hikmatullah, a.k.a. “Hikmat Shadman,”
 a.k.a. “Haji Hikmatullah Shadman,” a.k.a.            Greenlight General Trading
 “Hikmatullah Saadulah”
 Travis, James Edward                                 Aaria Middle East Company LLC
 Sherzai, Akbar Ahmed                                 Aaria Middle East Company Ltd. – Herat
 Bertolini, Robert L.                                 Aaria M.E. General Trading LLC
 Kahn, Haroon Shams, a.k.a. “Haroon Shams”            Aaria Middle East
 Shams Constructions Limited                          Barakzai, Nangialai
 Shams General Services and Logistics Unlimited       Formid Supply and Services
 Shams Group International, d.b.a. “Shams Group
                                                      Aaria Supply Services and Consultancy
 International FZE”
 Shams London Academy                                 Kabul Hackle Logistics Company
 Shams Production                                     Yousef, Najeebullah
                                                      Aaria Group
                                                                                   Continued on the next page




REPORT TO THE UNITED STATES CONGRESS              I   OCTOBER 30, 2014                              237
APPENDICES




TABLE D.1 (CONTINUED)


SUSPENSIONS AND DEBARMENTS AS OF SEPTEMBER 30, 2014 (CONTINUED)
 Suspensions                             Debarments
                                         Aaria Group Construction Company
                                         Aaria Supplies Company LTD
                                         Rahimi, Mohammad Edris
                                         All Points International Distributors, Inc.
                                         Hercules Global Logistics
                                         Schroeder, Robert
                                         Helmand Twincle Construction Company
                                         Waziri, Heward Omar
                                         Zadran, Mohammad
                                         Afghan Mercury Construction Company, d.b.a. “Afghan
                                         Mercury Construction & Logistics Company”
                                         Mirzali Naseeb Construcion Company
                                         Montes, Diyana
                                         Naseeb, Mirzali
                                         Robinson, Franz Martin
                                         Smith, Nancy
                                         Sultani, Abdul Anas a.k.a. “Abdul Anas”
                                         Faqiri, Shir
                                         Hosmat, Haji
                                         Jim Black Construction Company
                                         Arya Ariana Aryayee Logistics, d.b.a. “AAA Logistics,”
                                         d.b.a. “Somo Logistics”
                                         Garst, Donald
                                         Mukhtar, Abdul a.k.a. “Abdul Kubar”
                                         Noori Mahgir Construction Company
                                         Noori, Sherin Agha
                                         Long, Tonya
                                         Isranuddin, Burhanuddin
                                         Matun, Navidullah, a.k.a. “Javid Ahmad”
                                         Matun, Wahidullah
                                         Navid Basir Construction Company
                                         Navid Basir JV Gagar Baba Construction Company
                                         NBCC & GBCC JV
                                         Noori, Navid
                                         Asmatullah, Mahmood, a.k.a. "Mahmood"
                                         Khan, Gul
                                         Khan, Solomon Sherdad, a.k.a. "Solomon"
                                         Mursalin, Ikramullah, a.k.a. "Ikramullah"
                                         Musafer, Naseem, a.k.a. "Naseem"
                                         Ali, Esrar
                                                                      Continued on the next page




  238                   SPECIAL INSPECTOR GENERAL       I   AFGHANISTAN RECONSTRUCTION
                                                            APPENDICES




TABLE D.1 (CONTINUED)


SUSPENSIONS AND DEBARMENTS AS OF SEPTEMBER 30, 2014 (CONTINUED)
 Suspensions                               Debarments
                                           Gul, Ghanzi
                                           Luqman Engineering Construction Company, d.b.a.
                                           “Luqman Engineering”
                                           Safiullah, a.k.a. "Mr. Safiullah"
                                           Sarfarez, a.k.a."Mr. Sarfarez"
                                           Wazir, Khan
                                           Akbar, Ali
                                           Crystal Construction Company, d.b.a. “Samitullah
                                           Road Construction Company”
                                           Samitullah (Individual uses only one name)
                                           Ashna, Mohammad Ibrahim, a.k.a. “Ibrahim”
                                           Gurvinder, Singh
                                           Jahan, Shah
                                           Shahim, Zakirullah a.k.a. “Zakrullah Shahim”, a.k.a.
                                           “Zikrullah Shahim”
                                           Alyas, Maiwand Ansunullah a.k.a. “Engineer Maiwand
                                           Alyas”
                                           BMCSC
                                           Maiwand Haqmal Construction and Supply Company
                                           New Riders Construction Company, d.b.a. “Riders
                                           Construction Company,” d.b.a. “New Riders
                                           Construction and Services Company”
                                           Riders Constructions, Services, Logistics and
                                           Transportation Company
                                           Riders Group of Companies
                                           Domineck, Lavette Kaye
                                           Markwith, James
                                           Martinez, Rene
                                           Maroof, Abdul
                                           Qara, Yousef
                                           Royal Palace Construction Company
                                           Bradshaw, Christopher Chase
                                           Zuhra Productions
                                           Zuhra, Niazai
                                           Boulware, Candice a.k.a. “Candice Joy Dawkins"
                                           Dawkins, John
                                           Mesopotamia Group LLC
                                           Nordloh, Geoffrey
                                           Kieffer, Jerry
                                           Johnson, Angela
                                           CNH Development Company, LLC
                                           Johnson, Keith
                                                                        Continued on the next page




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2014                                239
APPENDICES




TABLE D.1 (CONTINUED)


SUSPENSIONS AND DEBARMENTS AS OF SEPTEMBER 30, 2014 (CONTINUED)
 Suspensions                             Debarments
                                         Military Logistic Support, LLC
                                         Eisner, John
                                         Taurus Holdings LLC
                                         Brophy, Kenneth Michael
                                         Abdul Haq Foundation
                                         Adajar, Adonis
                                         Calhoun, Josh W.
                                         Clark Logistic Services Company, d.b.a. "Clark
                                         Construction Company"
                                         Farkas, Janos
                                         Flordeliz, Alex F.
                                         Knight, Michael T., II
                                         Lozado, Gary
                                         Mijares, Armando N., Jr.
                                         Mullakhiel, Wadir Abdullahmatin
                                         Rainbow Construction Company
                                         Sardar, Hassan, a.k.a. “Hassan Sardar Inqilab”
                                         Shah, Mohammad Nadir, a.k.a. "Nader Shah"
                                         Tito, Regor
                                         Brown, Charles Phillip
                                         Sheren, Fasela, a.k.a. “Sheren Fasela”
                                         Anderson, Jesse Montel
                                         Charboneau, Stephanie, a.k.a. “Stephanie Shankel”
                                         Hightower, Jonathan
                                         Khan, Noor Zali, a.k.a. "Wali Kahn Noor"
                                         Saheed, a.k.a. "Mr. Saheed;" a.k.a. "Sahill;" a.k.a.
                                         "Ghazi-Rahman"
                                         Weaver, Christopher
                                         Al Kaheel Oasis Services
                                         Al Kaheel Technical Service
                                         CLC Construction Company
                                         CLC Consulting, L.L.C.
                                         Complete Manpower Solutions
                                         Mohammed, Masiuddin, a.k.a. “Masi Mohammed”
                                         Rhoden, Bradley L., a.k.a. “Brad L. Rhoden”
                                         Rhoden, Lorraine Serena
                                         Royal Super Jet General Trading, L.L.C.
                                         Super Jet Construction Company
                                         Super Jet Fuel Services
                                         Super Jet Group
                                                                    Continued on the next page




  240                   SPECIAL INSPECTOR GENERAL       I   AFGHANISTAN RECONSTRUCTION
                                                                                  APPENDICES




TABLE D.1 (CONTINUED)


SUSPENSIONS AND DEBARMENTS AS OF SEPTEMBER 30, 2014 (CONTINUED)
 Suspensions                                                 Debarments
                                                             Super Jet Tours, L.L.C., d.b.a. “Super Jet Travel and
                                                             Holidays, L.L.C.”
                                                             Super Solutions, L.L.C.
                                                             Abdullah, Bilal
                                                             Farmer, Robert Scott
                                                             Mudiyanselage, Oliver
                                                             Kelly, Albert, III
                                                             Ethridge, James
                                                             Fernridge Strategic Partners
                                                             AISC LLC
                                                             American International Security Corporation
                                                             David A Young Construction & Renovation Inc.
                                                             Force Direct Solutions LLC
                                                             Harris, Christopher
                                                             Hernando County Holdings LLC
                                                             Hide-A-Wreck LLC
                                                             Panthers LLC
                                                             Paper Mill Village, Inc.
                                                             Shrould Line LLC
                                                             Spada, Carol
                                                             Welventure LLC
                                                             World Wide Trainers LLC
                                                             Young, David Andrew
                                                             Woodruff and Company
                                                             Travis, James Edward
                                                             Khalil Rahimi Construction Company
                                                             Momand, Jahanzeb, a.k.a. “Engineer Jahanzeb
                                                             Momand”
Note: Entries appearing in both the suspension and debarment sections are based upon their placement in suspended
status following criminal indictment or determination of non-responsibility by agency Suspension and Debarment Official.
Final debarment was imposed following criminal conviction in U.S. Federal District Court and/or final determination by
agency Suspension and Debarment Official regarding term of debarment.




REPORT TO THE UNITED STATES CONGRESS                     I   OCTOBER 30, 2014                                 241
APPENDICES




APPENDIX E
ABBREVIATIONS AND ACRONYMS
ACRONYM OR
ABBREVIATION   DEFINITION
AAF            Afghan Air Force
ABADE          Assistance in Building Afghanistan by Developing Enterprises
ABP            Afghan Border Police
ACAP           Afghan Civilian Assistance Program
ACC            Army Contracting Command
ACE            Agricultural Credit Enhancement
ACEP           Afghan Civic Engagement Program
ACU            Anticorruption Unit
AD             Alternative Development
ADB            Asian Development Bank
ADF            Agricultural Development Fund
AFISCO         Afghan Iron and Steel Consortium
AFMIS          Afghan Financial Management Information System
AFN            afghanis (currency--Afghan nationals are Afghans)
AGO            Attorney General’s Office
AGS            Afghan Geological Survey
AIF            Afghanistan Infrastructure Fund
AIHRC          Afghanistan Independent Human Rights Commission
AISCS          Afghanistan Infrastructure and Security Cartography System
AITF           Afghanistan Infrastructure Trust Fund
AKF            Aga Khan Foundation
ALBA           Assistance to Legislative Bodies of Afghanistan
ALP            Afghan Local Police
AML/CFT        Anti-Money Laundering and Combating the Financing of Terrorism
ANA            Afghan National Army
ANCOP          Afghan National Civil Order of Police
ANP            Afghan National Police
ANSF           Afghan National Security Forces
ANSTU          Afghanistan National Agricultural Sciences and Technology University
ANUDUS         Afghanistan National Urban Drug Use Study
APA            Afghanistan Petroleum Authority
APPF           Afghan Public Protection Force
APRP           Afghan Peace and Reintegration Plan
ARP            Afghanistan Reintegration Program
ARTF           Afghanistan Reconstruction Trust Fund
ASAP           Accelerated Sustainable Agriculture Program
ASFF           Afghanistan Security Forces Fund
ASOP           Afghanistan Social Outreach Program
AT&L           DOD Acquisition Technology, and Logistics
ATAR           Afghanistan Trade and Revenue Project
AUAF           American University of Afghanistan
AUP            Afghan Uniform Police
AWCC           Al-Watan Construction Company
                                                                        Continued on the next page




 242              SPECIAL INSPECTOR GENERAL            I   AFGHANISTAN RECONSTRUCTION
                                                              APPENDICES




ACRONYM OR
ABBREVIATION      DEFINITION
AWOL              at work without leave
BAF               Bagram Air Field
BELT              Basic Education, Literacy, and Technical-Vocational Education and Training
BPHS              Basic Package of Health Services
BSA               Bilateral Security Agreement
CASEVAC           capability to perform casualty evacuation
CBE               Community Based Education
CBR               Capacity Building for Results
CCC               Community Cultural Centers
CCDB              Consolidated Counterdrug Database
CCI               Community Cohesion Initiative
CDC               Community Development Council
CENTCOM           U.S. Central Command
CERP              Commander’s Emergency Response Program
CHAMP             Commercial Horticulture and Agricultural Marketing Program
CIGIE             Council of the Inspectors General on Integrity and Efficiency
CJIATF-N          Combined Joint Interagency Task Force-Nexus
CJSOTF-A          Combined Joint Special Operations Task Force-Afghanistan
CLRWG             Criminal Law Reform Working Group
CLS               contract logistics support
CM                capability milestone
CMS               case-management system
CNA               Center for Naval Analyses
CNC               Crime and Narcotics Center (U.S.)
CNCE              Counter Narcotics Community Engagement
CNPA              Counternarcotics Police of Afghanistan
COR               contracting officer's representative
CRIP              NSP Community Recovery Intesification and Prioritization
CSSP              Corrections System Support Program
CSTC-A            Combined Security Transition Command-Afghanistan
CTGB              Convoy Transportation Guard Brigade
CUAT              Commanders' Unit Assessment Tool
DAB               Da Afghanistan Bank
DABS              Da Afghanistan Breshna Sherkat
DAI               Development Alternatives Inc.
DCIS              Defense Criminal Investigative Service (U.S.)
DEA               Drug Enforcement Administration (U.S.)
DI                Democracy International
DIA               Defense Intelligence Agency (U.S.)
DLA               Defense Logistics Agency (U.S.)
DOD               Department of Defense (U.S.)
DOD CN            Department of Defense Drug Interdiction and Counter-Drug Activities fund (U.S.)
DOD OIG           Department of Defense Office of Inspector General
DOJ               Department of Justice (U.S.)
DOT               Department of Transportation (U.S.)
DQA               data quality assessment
ECC               Electoral Complaints Commission
ECF               Extended Credit Facility
                                                                             Continued on the next page




REPORT TO THE UNITED STATES CONGRESS         I   OCTOBER 30, 2014                            243
APPENDICES




ACRONYM OR
ABBREVIATION   DEFINITION
ELECT          Enhancing Legal and Electoral Capacity for Tomorrow
EMIS           Ministry of Education's Information Management System (Afghan)
EPHS           Essential Package of Hospital Services
EPSC           exploration and production sharing contract
ERW            Explosive Remnants of War
ESF            Economic Support Fund
EU EAT         European Union Election Assessment Team Afghanistan
EVAW           Elimination of Violence Against Women
FAA            Federal Aviation Administration
FAIDA          Financial Access for Investing in the Development of Afghanistan
FATF           Financial Action Task Force
FBI            Federal Bureau of Investigation (U.S.)
FOB            forward operating base
FRIC           Force Reintegration Cell (ISAF)
FY             fiscal year
GAGAS          Generally Accepted Government Auditing Standards
GAO            Government Accountability Office (U.S.)
GCMU           Grants and Contracts Management Unit (MOPH)
GDP            gross domestic product
GDPDC          General Directorate of Prisons and Detention Centers
GIROA          Government of the Islamic Republic of Afghanistan
GLE            Governor-Led Eradication
GOR            Grant Officer Representative
GPI            Good Performer's Initiative
HMIS           Health Management Information System
HOO            High Office of Oversight for Anti-Corruption (aka "HOOAC") (Afghan)
HPC            High Peace Council
HPP            Health Policy Project
IAW            Integrity Watch Afghanistan
ICCTF          International Contract Corruption Task Force
ICMA           International City/Country Management Association
ICMS           Investigations Case Management System
ICRC           International Committee of the Red Cross
IDEA-NEW       Incentives Driving Economic Alternatives-North, East, and West
IDLG           Independent Directorate of Local Governance
IDLO           International Development Law Organization
IDP            internally displaced person
IEC            Independent Election Commission (Afghan)
IED            improvised explosive device
IJC            International Security Assistance Force Joint Command
IMC            inter-ministerial commission
IMF            International Monetary Fund
INCLE          International Narcotics Control and Law Enforcement (U.S)
INL            Bureau of International Narcotics and Law Enforcement Affairs (U.S.)
IOCC           Interagency Operations Coordination Center
IPA            Independent Public Accountant
IPACS          Initiative to Promote Afghan Civil Society
IRD            International Relief and Development (an NGO)
                                                                         Continued on the next page




 244              SPECIAL INSPECTOR GENERAL             I   AFGHANISTAN RECONSTRUCTION
                                                               APPENDICES




ACRONYM OR
ABBREVIATION      DEFINITION
ISAF              International Security Assistance Force
ISR               intelligence, surveillance, and reconnaissance
JCCC              Joint Command and Control Coordination Center
JCMB              Joint Coordination and Monitoring Board
JRD               Juvenile Rehabilitation Directorate
JSSP              Justice Sector Support Program (State)
JTTP              Justice Training Transition Program (State)
KAF               Kandahar Airfield
KFZ               Kandahar Food Zone
KHPP              Kandahar-Helmand Power Project
KIA               killed in action
LAOA              Legal Aid Organization of Afghanistan
LBG/BV            Louis Berger Group/Black and Veatch
LES               locally employed staff
LGCD              Local Governance and Community Development
LMG               Leadership, Management, Governance Project
LOGCAP            Logistics Civil Augmentation Program
LOTFA             Law and Order Trust Fund for Afghanistan
MACCA             Mine Action Coordination Centre of Afghanistan
MAIL              Ministry of Agriculture, Irrigation, and Livestock (Afghan)
MCN               Ministry of Counternarcotics (Afghan)
MCPA              Mine Clearance Planning Agency
MCTF              Major Crimes Task Force
MEC               Monitoring and Evaluation Committee (Afghan)
MIDAS             Mining Investment and Development for Afghan Sustainability
MISTI             Measuring Impacts of Stabilization Initiatives
MOD               Ministry of Defense (Afghan)
MOE               Minister of Education (Afghan)
MOF               Ministry of Finance (Afghan)
MOI               Ministry of Interior (Afghan)
MOMP              Ministry of Mines and Petroleum (Afghan)
MOPH              Ministry of Public Health (Afghan)
MOPW              Ministry of Public Works (Afghan)
MORE              Ministry of Women's Affairs Organizational Restructuring and Empowerment Project
                  (Afghan)
MOU               Memorandum of Understanding
MRAP              Mine-Resistant Ambush-Protected
MRRD              Ministry of Rural Rehabilitation and Development
MRV               MRAP Recovery Vehicle
MSF               Mobile Strike Force
MSFV              Mobile Strike Force Vehicles
MVTS              Money or Value Transfer Services
NAC-A             NATO Air Command-Afghanistan
NATO              North Atlantic Treaty Organization
NCO               noncommissioned officer
NDAA              National Defense Authorization Act
NDI               National Democratic Institute
NEPS              Northeast Power System
                                                                              Continued on the next page




REPORT TO THE UNITED STATES CONGRESS         I   OCTOBER 30, 2014                             245
APPENDICES




ACRONYM OR
ABBREVIATION   DEFINITION
NGA            National Geospatial-Intelligence Agency (U.S.)
NGO            nongovernmental organization
NIU            National Interdiction Unit
NJSS           National Justice Sector Strategy
NORAD          Nowegian Agency for Development Cooperation
NSOCC-A        NATO Special Operations Component Command-Afghanistan
NSP            National Solidarity Program
NSRWA          Non-Standard Rotary Wing Aircraft
NTM-A          NATO Training Mission-Afghanistan
O&M            operations and maintenance
OCO            overseas contingency operations
OEF            Operation Enduring Freedom
OIG            Office of the Inspector General
OMB            Office of Management and Budget
OPPD           Office of Program and Project Development (USAID)
OSCE           Organization for Security and Co-operation in Europe
PCH            Partnership Contracts for Health Services
PEC            Peaceful Election Campaign
PEF            Poppy Eradication Force
PM/WRA         Bureau of Political-Military Affairs-Office of Weapons Removal and Abatement (U.S.)
PMO            Project Management Office
PPA            Public-Private Alliances
PSC            private security contractor
PTEC           Power Transmission Expansion and Connectivity
RADP           Regional Agriculture Development Program
RASR           Regional Command ANSF Assessment Report
RC             recurrent cost
RCC            Regional Contracting Center
RLS-F          Rule of Law Stabilization-Formal
RLS-I          Rule of Law Stabilization-Informal
RSM            Resolute Support Mission
SAGAL          Strengthening Afghan Governance and Alternative Livelihoods
SAJA           Supporting Access to Justice in Afghanistan
SEPS           Southeast Power System
SGDP           Sheberghan Gas Development Program
SGGA           Sheberghan Gas Generation Activity
SIGAR          Special Inspector General for Afghanistan Reconstruction
SIKA           Stability in Key Areas
SIU            Sensitive Investigative Unit
SMW            Special Mission Wing (Afghan)
SOF            Special Operations Forces
SPECS          Supporting Political Entities and Civil Society Program
State OIG      Department of State Office of the Inspector General
SY             solar year
TAC            Transparency Accountability Committee
TAFA           Trade Accession and Facilitation for Afghanistan
TCN            third-country nationals
TFBSO          Task Force for Business and Stability Operations in Afghanistan
                                                                         Continued on the next page




 246              SPECIAL INSPECTOR GENERAL             I   AFGHANISTAN RECONSTRUCTION
                                                            APPENDICES




ACRONYM OR
ABBREVIATION      DEFINITION
TIU               Technical Investigative Unit
TMAF              Tokyo Mutual Accountability Framework
TMR               transportation movement request
TSC               Terrorist Screening Center
TSDB              Terrorist Screening Database
UN                United Nations
UNAMA             United Nations Assistance Mission in Afghanistan
UNDP              United Nations Development Programme
UNHCR             UN High Commission for Refugees
UNODC             UN Office on Drugs and Crime
USAAA             U.S. Army Audit Agency
USACE             U.S. Army Corps of Engineers
USAID             U.S. Agency for International Development
USAID OIG         USAID Office of the Inspector General
USDA              U.S. Department of Agriculture
USFOR-A           U.S. Forces-Afghanistan
USIP              U.S. Institute for Peace
USWDP             Afghanistan University Support and Workforce Development Program
UXO               unexploded ordnance
VAT               value-added tax
VSO               Village Stability Operations
WIA               wounded in action
WPS               Worldwide Protection Services
WTO               World Trade Organization




REPORT TO THE UNITED STATES CONGRESS       I   OCTOBER 30, 2014                      247
                                                         ENDNOTES




1	  UNODC, “UNODC helps tackle drug smuggling on Uzbek-Tajik              20	SIGAR, Quarterly Report to the United States Congress, 7/2014,
    border, 9/30/2014”                                                        p. 112.
2	  William Byrd and David Mansfield, “Afghanistan’s Opium                21	DOD, Report on Progress Toward Security and Stability in
    Economy: An Agriculture, Livelihoods and Governance                       Afghanistan, 11/2013, p. 97; SIGAR Audit Report 15-12-AR,
    Perspective. A Report Prepared for the World Bank Afghanistan             Counternarcotics Police of Afghanistan: U.S. Assistance
    Agriculture Sector Review,” (revised), 6/23/2014, ii.                     to Provincial Units Cannot be Fully Tracked and Formal
3	  William Byrd and David Mansfield, “Afghanistan’s Opium                    Capability Assessments of These Units are Needed, 10/2014.
    Economy: An Agriculture, Livelihoods and Governance                   22	 DEA, Statement of James L. Capra before the Senate Caucus on
    Perspective. A Report Prepared for the World Bank Afghanistan             International Narcotics Control, “Future U.S. Counternarcotics
    Agriculture Sector Review,” (revised), 6/23/2014, p. 135.                 Efforts in Afghanistan,” 1/15/2014, pp. 3–4.
4	UNODC, Afghanistan Opium Survey 2013, p. 5.                             23	 DOD, response to SIGAR data call, 10/1/2013.
5	  SIGAR, Testimony 14-21-TY, Statement of John F. Sopko before          24	UNODC, The Global Afghan Opium Trade: A Threat
    the Senate Caucus on International Narcotics Control, “Future             Assessment, 7/2011, p. 5; UNODC, World Drug Report 2014,
    U.S. Counternarcotics Efforts in Afghanistan,” 1/15/2014, pp. 1, 2.       8/2014, p. 21.
6	  Tokyo Mutual Accountability Framework Annex, 7/8/2012.                25	UNODC, The Global Afghan Opium Trade: A Threat
7	  Tokyo Mutual Accountability Framework, Senior Officials                   Assessment, 7/2011, p. 30; DOD, Report on Progress Toward
    Meeting Joint Report, 7/3/2013, pp. 3–4.                                  Security and Stability in Afghanistan, 11/2013, p. 95
8	  BBC News, “Opium crop clouds Afghan recovery,” 9/22/2003,             26	 Department of the Treasury, press release, “Treasury Designates
    accessed 10/9/2014.                                                       New Ansari Money Exchange,” 2/18/2011, accessed 10/12/2014.
9	  The request made by Ashraf Ghani led to a series of analytical        27	 Department of the Treasury, press release, “Treasury Targets
    reports by the World Bank aimed at better understanding of the            Money Exchange Houses for Supporting the Taliban,” 6/29/2012,
    drugs economy, how it impacted on the Afghan reconstruction               accessed 10/12/2014.
    effort, and more specifically a review of specific programs in        28	 Department of the Treasury, press release, “Treasury Targets
    the health, education, transport and agriculture sectors and the          Money Exchange Houses for Supporting the Taliban,” 6/29/2012,
    inclusion of efforts aimed at better integrating the drugs issue          accessed 10/12/2014.
    into design and implementation. The work that the World Bank          29	 Department of the Treasury, press release, “Treasury Imposes
    did on the opium economy culminated in a joint report with the            Sanctions on a Hawala and Two Individuals Linked to the
    UK government’s Department for International Development                  Taliban,” 11/20/2012, accessed 10/12/2014.
    that looked at how rural development programs might better            30	 Nathan Hodge, “Afghanistan Escapes Blacklisting Over
    address the causes of opium production. See World Bank and                Standards to Fight Money Laundering,” The Wall Street Journal,
    Department for International Development, Christopher Ward,               6/28/2014, accessed 10/12/2014.
    David Mansfield, Peter Oldham, and William Byrd, “Afghanistan:        31	 DOD, response to SIGAR data call, 10/1/2013; UNODC, World
    Economic incentives and development initiatives to reduce                 Drug Report 2012, Tables, http://www.unodc.org/unodc/data-
    opium production,” 2/2008.                                                and-analysis/WDR-2012.html accessed 10/18/2014.
10	 Ashraf Ghani, “Where democracy’s greatest enemy is a flower,”         32	 DEA, Statement of James L. Capra before the Senate Caucus on
    The New York Times, 12/11/2004.                                           International Narcotics Control, “Future U.S. Counternarcotics
11	UNODC, Afghanistan Opium Survey 2013, p. 3.                                Efforts in Afghanistan,” 1/15/2014, pp.2–3.
12	UNODC, Afghanistan Annual Opium Poppy Survey 1999, ii.                 33	 SIGAR, Audit Report 15-12-AR, Counternarcotics Police of
13	UNODC, Afghanistan: Opium Survey 2004, i.                                  Afghanistan: U.S. Assistance to Provincial Units Cannot be
14	 BBC News, “Opium crop clouds Afghan recovery,” 9/22/2003,                 Fully Tracked and Formal Capability Assessments of These
    accessed 10/9/2014.                                                       Units are Needed, 10/2014.
15	UNODC, Afghanistan Opium Survey 2007, iii; BBC News,                   34	 GIROA, Police Law, 9/22/2005.
    “Britain’s Heroin Fix,” 7/25/2005, accessed 10/9/2014.                35	 SIGAR, Audit Report 15-12-AR, Counternarcotics Police of
16	 SIGAR, Special Project Report 15-10-SP, Poppy Cultivation in              Afghanistan: U.S. Assistance to Provincial Units Cannot be
    Afghanistan: After a Decade of Reconstruction and Over $7                 Fully Tracked and Formal Capability Assessments of These
    Billion in Counternarcotics Efforts, Poppy Cultivation Levels             Units are Needed, 10/2014.
    Are at an All-Time High, 10/14/2014, p. 2.                            36	 U.S. Government Accountability Office, Audit Report GAO-11-
17	 Between October 2004 and August 2014 prices have ranged                   564R, Department of State’s Counternarcotics Performance
    between U.S. $71 per kilogram and U.S. $270 per kilogram.                 Measurement System, 5/26/2011, p. 11.
    UNODC, Afghanistan Drug Price Monitoring Monthly Report,              37	 State, response to SIGAR data call, 10/17/2014.
    8/2014, p. 6.                                                         38	 Congressional Research Service Report 7-5700, Afghanistan:
18	UNODC, Afghanistan Drug Price Monitoring Monthly Report,                   Drug Trafficking and the 2014 Transition, 5/9/2014, p. 10–11.
    8/2014, p. 3.                                                         39	 This payment initially started at U.S. $120 per hectare in 2006,
19	 World Bank, http://www.worldbank.org/en/country/afghani-                  rising to U.S. $135 per hectare in 2009, before almost dou-
    stan/overview accessed 10/9/2014; NATO, ISAF Strategic                    bling (after the closure of the AEF) to U.S. $250 per hectare
    Assessment Capability, Autumn 2014 Report, 10/17/2014,                    in 2011. Payments for GLE are made through the MCN who
    pp. 52–53; ICARDA Crop Calendars for Afghanistan, accessed                subsequently disburse funds to governors based on UNODC
    10/18/2014.                                                               verification of the amount of crop destroyed. See “Governor




                                                   248                    SPECIAL INSPECTOR GENERAL       I   AFGHANISTAN RECONSTRUCTION
                                                        ENDNOTES




    Led Eradication Implementing Instructions for the Letter of         51	   Ronald E. Neumann, The Other War: Winning and Losing in
    Agreement on Police, Criminal Justice and Counter Narcotics               Afghanistan. (Washington, DC: Potomac Books, 2009), pp. 10,
    Support Programs of March 9, 2006 between the Government                  60–61, 187, 193–194.
    of the United States of America and The Islamic Republic of         52	   Cranfield used PEF reporting and satellite imagery taken both
    Afghanistan,” p. 1 and Transnational Institute, “Missing Targets:         before and after the 2006/07 eradication campaign to illus-
    Counterproductive Drug Control Efforts in Afghanistan”, Drug              trate the extent of over reporting and crop recovery. Cranfield
    Control Policy Briefing No. 24, 09/2007, p. 2.                            University , “Verification of AEF eradication in Helmand
40	 Ronald E. Neumann, The Other War: Winning and Losing in                   Province 2007,” (unpublished report), 2007.
    Afghanistan, 2009, pp. 147–149.                                     53	   In his book, Ambassador Ronald Neumann talks of the political
41	 Between 2004 and 2005 the eradication force was known as the              pressure in 2007 “to show we could cut ten thousand hectares
    Central Poppy Eradication Force, the Afghan Eradication Force             of opium poppy. If we could make that target I would pack up
    between 2005 until 2007, before being renamed the Poppy                   the [P]EF and call it victory”. By March 30 he reported that “[T]
    Eradication Force between 2007 and 2009.                                  he [P]EF was doing most of the eradication [in Helmand] and by
42	 Richard Holbrooke was an ardent critic of eradication describ-            March 30 had cut six thousand hectares” and “[b]y the first days
    ing it in 2008 as “maybe the single most ineffective program              of April we reached the limits of the possible [in Helmand].....We
    in the history of American foreign policy. It’s not just a waste          were just short of our goal [of ten thousand hectares], but we had
    of money. It actually strengthens the Taliban and al-Qaeda, as            done enough.” Ronald E. Neumann, The Other War: Winning and
    well as criminal elements within Afghanistan.” See Richard                Losing in Afghanistan. (Washington, DC: Potomac Books, 2009),
    Holbrooke, “Still Wrong in Afghanistan,” The Washington Post,             pp. 193–194. UNODC reported that in 2007 “AEF led eradication
    6/23/2008, accessed 10/9/2014.                                            forces carried out a total of 3,149 hectares of eradication, includ-
43	 This figure includes the entire cost of the Special Air Wing.             ing 3,000 hectares in Helmand province, 83.44 hectares in Uruzgan
    INL did not differentiate between the costs of the PEF and                province and 65.22 hectares in Takhar province.” UNODC,
    the Air Wing even though the Air Wing provided support for                Afghanistan Opium Poppy Survey 2007, p. 17.
    other counternarcotics programs at the time. For example the        54	   David Mansfield, “Briefing Paper 3: Central Helmand in the
    GAO reported that between November 1, 2008, and August 18,                2011/12 Growing Season,” a Report for the British Embassy
    2009, “the Airwing spent about 20 percent of their flight time            Kabul, 1/2012, pp. 3–4.
    providing overwatch, close air support and casualty evacu-          55	   Interview with NGO worker in Kandahar, April 2008.
    ation support to DEA-led interdiction operations.” See U.S.         56	   David Mansfield, “The 2010/11 Opium Poppy Growing Season:
    Government Accountability Office, Audit Report GAO-10-291,                An Initial Brief,” a report for the British Embassy in Kabul,
    Afghanistan Drug Control: Strategy Evolving and Progress                  1/2011, p. 17.
    Reported, but Interim Performance Targets and Evaluation of         57	   “UNODC calculates that eradicating 25% of the opium crop
    Justice Reform Efforts Needed, 3/2010.                                    will introduce sufficient fear of future eradication into farmer’s
44	 State, INL, response to SIGAR data call, 7/9/2014.                        minds to prevent planting next year,” cited in Thomas A.
45	UNODC, Afghanistan Poppy Eradication Verification. Final                   Schweich, U.S. Counternarcotics Strategy for Afghanistan,
    Report, 8/2014. p. 4.                                                     2007, p. 52.
46	UNODC, Afghanistan Annual Opium Poppy Survey 2003, p. 53.            58	   State, INL, response to SIGAR data call, 9/24/2014.
47	UNODC, Afghanistan Annual Opium Poppy Survey 2004,                   59	   David Mansfield, Alcis Ltd and OSDR, Managing Concurrent
    11/2004, pp. 6, 77.                                                       and Repeated Risk: Explaining the Reductions in Opium
48	 In 2005 UNODC launched its “Support to the Verification                   Production in Central Helmand Between 2008 and 2011,
    Process of Opium Poppy Eradication” project funded by the                 AREU, 8/2011, p. 3.
    U.S. and UK governments. See UNODC, Afghanistan Opium               60	   David Mansfield, “Briefing Paper 3: Central Helmand in the
    Survey 2005, 11/2005, p. i., UNODC, Thematic Evaluation of the            2011/12 Growing Season,” a report for the British Embassy
    Technical Assistance Provided to Afghanistan by the United                Kabul, 1/2012, p. 3.
    Nations Office On Drugs and Crime, 5/2008, p. 2.                    61	   Mike Martin, An Intimate War: An Oral History of the
49	UNODC, Afghanistan Opium Poppy Survey 2007 Executive                       Helmand Conflict, (London, Hurst, 2014), p. 249.
    Summary, p. 21UNODC, Afghanistan Opium Poppy Survey                 62	   David Mansfield, Alcis Ltd and OSDR, Managing Concurrent
    2003, p. 53; UNODC, Afghanistan Opium Poppy Survey                        and Repeated Risk: Explaining the Reductions in Opium
    2004, p. 77; UNODC, Afghanistan Opium Poppy Survey                        Production in Central Helmand Between 2008 and 2011,
    2005, p. 9; UNODC, Afghanistan Opium Poppy Survey 2006,                   AREU, 8/2011, p. 3.
    p. 52; UNODC, Afghanistan Opium Poppy Survey 2007, p.               63	   David Mansfield, Alcis Ltd and OSDR, Managing Concurrent
    71; UNODC, Afghanistan Opium Poppy Survey 2008, p. 72;                    and Repeated Risk: Explaining the Reductions in Opium
    UNODC, Afghanistan Opium Poppy Survey 2009, p. 53.                        Production in Central Helmand Between 2008 and 2011,
50	 An account of the challenges associated with the eradication              AREU, 8/2011, p. 3.
    verification process during these initial years and an outline of   64	   MCN, “Good Performers Initiative (GPI) Awards and 2013
    the methodology can be found in UNODC, Afghanistan Opium                  Redesign Program Announcement,” 9/1/2014.
    Poppy Survey 2006 (pp. 64–65). The incorporation of remote          65	   Department of State Cable 150517Z SEP 14, “Afghanistan: 2013
    sensing techniques is documented in UNODC, Afghanistan                    Good Performers Initiative Awards and Program Redesign
    Opium Poppy Survey 2008, pp. 79–82.                                       Announced,” 9/15/2014.




REPORT TO THE UNITED STATES CONGRESS         I   OCTOBER 30, 2014                     249
                                                            ENDNOTES




66	   INL, response to SIGAR data call, 7/9/2014; INL, response to                as US$ 146 million of development monies were invested in
      SIGAR data call, 9/24/2014.                                                 Helmand in 2009, U.S. $243 million in 2010 and a projected U.S.
67	   INL, response to SIGAR data call, 7/9/2014; INL, response to                $260 million in 2011 . See Foreign and Commonwealth Office,
      SIGAR data call, 9/24/2014.                                                 Upper Quartile, “Counter Narcotics and Alternative Livelihoods
68	   INL, response to SIGAR data call, 7/9/2014; INL, response to                Assessment,” 2011 (unpublished), p. 13.
      SIGAR data call, 9/24/2014.                                             79	USAID, Kandahar Food Zone Program, Monthly Report, May
69	   A review of the kind of GPI projects being funded in the prov-              2014, 5/2014; USAID Response to SIGAR vetting, 7/14/2014.
      inces of Badakhshan, Baghlan, Bamiyan and Takhar found                  80	 USAID, response to SIGAR data call, 9/29/2014.
      that “Workshop participants in all provinces identified similar         81	 William Byrd and David Mansfield, “Afghanistan’s Opium
      challenges with the current GPI model. Due to a variety of                  Economy: An Agriculture, Livelihoods and Governance
      obstacles, the program was not reaching its primary target                  Perspective. A Report Prepared for the World Bank Afghanistan
      beneficiaries sufficiently. A lack of participation and transpar-           Agriculture Sector Review,” (revised), 6/23/2014, pp. 43–46.
      ency in the decision making process by women, community                 82	 USAID, response to SIGAR data call, 10/13/2014.
      and district level institutions contributed to inappropriate            83	SIGAR, Quarterly Report to the United States Congress, 7/2014,
      project selection. Centralization of the selection, bidding and             p. 170.
      procurement process and too heavy of a focus on provincial              84	SIGAR, Quarterly Report to the United States Congress, 7/2014,
      capitals meant that the rural communities were not receiv-                  p. 170.
      ing the economic and employment benefits of GPI projects.               85	 The USAID OIG reported that “In addition, in December 2010
      Additionally, projects were delayed and more costly when                    USAID/Afghanistan reportedly directed DAI to focus only on
      contracted through Kabul instead of locally. There were even                expanding the licit economy, in keeping with the emphasis of
      concerns that excluding the nongrowing poppy communities                    the mission’s new performance management plan (PMP) for
      from the process might incentivize some farmer to switch from               the agriculture sector. (Neither DAI nor USAID could provide
      licit to illicit crops in order to qualify for the fund. All of these       a written copy of this significant instruction.) As a result, two
      factors decreased the economic and social stake poppy grow-                 intermediate goals (termed “intermediate results”) that dealt
      ing communities had in the success of GPI funded projects,                  with assistance to the voluntary opium poppy eradication
      and hindered a sense of ownership beyond the GPI fund-                      community and to farms in the aftermath of opium poppy eradi-
      ing.” See Aga Khan Foundation “Strengthening Sub-National                   cation/destruction programs were deleted from the program
      Governance in Afghanistan, Grant #SINLEC10GR0034, Final                     PMP. By dropping these intermediate results, the mission not
      Report Covering the Period: April 1, 2010–May 28th, 2014,”                  only shifted focus but also deprived itself of information needed
      2014, p. 5; See also Aga Khan Foundation “Good Performance                  to make sound programming decisions. It has indicated that
      Initiative Provincial Workshop Report: Status, Challenges and               the underlying objective of the program remains dissuading
      Recommendations,” 11/2013.                                                  Afghans from growing poppies and that the program contin-
70	   State, INL, response to SIGAR data call, 9/24/2014.                         ues to attempt to reduce poppy production. Nevertheless, the
71	   William Byrd and David Mansfield, “Afghanistan’s Opium                      current PMP does not include performance measures such as
      Economy: An Agriculture, Livelihoods and Governance                         intermediate results, and performance indicators and targets
      Perspective. A Report Prepared for the World Bank Afghanistan               linked to those results, to identify and facilitate the program’s
      Agriculture Sector Review,” (revised), 6/23/2014, vi and p. 43.             contribution to either that underlying objective or to reducing
72	   For a detailed review of a number of Alternative Development                poppy production. As a result, the mission was unable to pro-
      projects implemented in Afghanistan in the 1990s see David                  vide evidence of its progress in either of these areas.” USAID
      Mansfield, “Alternative Development in Afghanistan: The Failure             OIG, Audit No. F-306-12-004-P, Audit of USAID/Afghanistan’s
      of Quid Pro Quo,” 8/2001 (paper prepared for the International              Incentives Driving Economic Alternatives for the North, East
      Conference on Alternative Development in Drug Control and                   and West Program, 6/29/2012, p. 5.
      Cooperation, Feldafing, January 7–12, 2002), pp. 2–7.                   86	 UNODC, Afghanistan Opium Poppy Survey 2013, pp. 98–103.
73	   William Byrd and David Mansfield, “Afghanistan’s Opium                  87	 David Mansfield, AREU, “From Bad they made it Worse: The
      Economy: An Agriculture, Livelihoods and Governance                         concentration of opium poppy in areas of conflict in the prov-
      Perspective. A Report Prepared for the World Bank Afghanistan               inces of Helmand and Nangarhar” 5/2014, p. 3.
      Agriculture Sector Review,” (revised), 6/23/2014, pp. 43–46.            88	 David Mansfield and Paul Fishstein, AREU, “Eyes Wide Shut:
74	   USAID, response to SIGAR data call, 10/9/2014.                              Counternarcotics in Transition,” 9/2013, p. 2; David Mansfield,
75	   Takhta Pul is a sub district of Spin Boldak in Kandahar Province.           AREU, “From Bad they made it Worse: The concentration of
76	   USAID, “Kandahar Food Zone Program, Quarterly Report                        opium poppy in areas of conflict in the provinces of Helmand
      October-December 2013,” 1/31/2014, pp. 5, 7.                                and Nangarhar” 5/2014, p. 2.
77	   David Mansfield, Alcis Ltd and OSDR, Managing Concurrent                89	 SIGAR, Testimony 14-21-TY, Statement of John F. Sopko before
      and Repeated Risk: Explaining the Reductions in Opium                       the Senate Caucus on International Narcotics Control, “Future
      Production in Central Helmand Between 2008 and 2011,                        U.S. Counternarcotics Efforts in Afghanistan,” 1/15/2014, p. 7.
      AREU, 8/2011, pp. 44–48.                                                90	 Department of International Development, Foreign &
78	   Estimates of the scale of the development effort in Helmand                 Commonwealth Office, Ministry of Defense, The UK’s work in
      during the period of the Food Zone are hard to come by, how-                Afghanistan, 1/14/2014, accessed 10/13/2014. This provides a
      ever a report for the UK government suggests that as much                   detailed overview of the UK effort with a particular emphasis




                                                      250                     SPECIAL INSPECTOR GENERAL       I   AFGHANISTAN RECONSTRUCTION
                                                           ENDNOTES




       on Helmand. Whereas detail is offered on the UK effort past and      116	 USAID, response to SIGAR data call 10/9/2014; State, responses
       future, as well as extensive coverage of activities in Helmand,           to SIGAR data call, 4/15/2014 and 6/27/2013.
       there is no mention of the UK role as lead and then partner          117	 USAID, responses to SIGAR data call, 10/9/2014 and 7/10/2014;
       nation on CN and little discussion of the role of narcotics in the        DOD, response to SIGAR data call, 10/6/2014.
       political economy of Helmand.                                        118	 State, response to SIGAR data call, 10/13/2009.
91	    See Appendix B of this report.                                       119	 State, response to SIGAR data call, 10/17/2014.
92	    Pub. L. 111-32, 6/24/2009.                                           120	 State, responses to SIGAR data call, 10/17/2014 and 7/16/2014.
93	    DOD, response to SIGAR vetting, 7/20/2009.                           121	SIGAR, Quarterly Report to the United States Congress,
94	    Pub. L. 112-74, Section 9009, 12/23/2011; Deputy Secretary of             7/30/2010, p. 51.
       Defense, “Afghanistan Resources Oversight Council (AROC)             122	 World Bank, “ARTF: Administrator’s Report on Financial Status
       memorandum,” 8/3/2011.                                                    as of September 22, 2014,” p. 5.
95	    See Appendix B of this report.                                       123	 World Bank, “ARTF: Administrator’s Report on Financial Status
96	    DFAS, “AR(M) 1002 Appropriation Status by FY Program and                  as of September 22, 2014,” p. 1.
       Subaccounts September 2014,” 10/16/2014.                             124	 World Bank, “ARTF: Administrator’s Report on Financial Status
97	    DFAS, “AR(M) 1002 Appropriation Status by FY Program and                  as of September 22, 2014,” p. 5.
       Subaccounts September 2014,” 10/16/2014; DOD, response to            125	 World Bank, “Quarterly Country Update: Afghanistan,” 4/2011,
       SIGAR data call, 7/17/2014.                                               p. 16.
98	    DOD OIG, Distribution of Funds and the Validity of Obligations       126	 World Bank, “ARTF: Administrator’s Report on Financial Status
       for the Management of the Afghanistan Security Forces Fund -              as of September 22, 2014,” p. 7.
       Phase I, Report No. D-2008-012, 11/5/2007, p. 2.                     127	 World Bank, “Quarterly Country Update: Afghanistan,” 4/2011,
99	    Pub. L. 112-74, Section 9009; Deputy Secretary of Defense,                p. 16.
       Afghanistan Resources Oversight Council (AROC) memoran-              128	 World Bank, “ARTF: Administrator’s Report on Financial Status
       dum, 8/3/2011.                                                            as of September 22, 2014,” p. 7.
100	   DFAS, “AR(M) 1002 Appropriation Status by FY Program and             129	 EC, “Afghanistan: State of Play, January 2011,” 3/31/2011, p. 7.
       Subaccounts September 2014,” 10/16/2014.                             130	 UNDP, “Law and Order Trust Fund for Afghanistan (LOTFA)
101	   DFAS, “AR(M) 1002 Appropriation Status by FY Program and                  2014 Second Quarter Project Progress Report,” 9/24/2014, p. 33;
       Subaccounts September 2014,” 10/16/2014.                                  SIGAR analysis of UNDP’s quarterly and annual LOTFA reports,
102	   DOD, “Commanders’ Emergency Response Program (CERP),”                     10/19/2014.
       DOD Financial Management Regulation Vol. 12, Ch. 27, 1/2009,         131	 UNDP, “Law and Order Trust Fund for Afghanistan (LOTFA)
       p. 27-3.                                                                  2013 Annual Project Progress Report,” 5/6/2014, p. 6; UNDP,
103	   USFOR-A, “Commander’s Emergency Response Program                          “Law and Order Trust Fund for Afghanistan (LOTFA) 2013 First
       (CERP) SOP,” USFOR-A Pub 1-06, 2/2011, p. 35; Pub. L. 112-74,             Quarterly Project Progress Report,” 6/23/2013, p. 1
       12/23/2011.                                                          132	 UNDP, “Law and Order Trust Fund for Afghanistan (LOTFA)
104	   See Appendix B of this report.                                            2014 Second Quarter Project Progress Report,” 9/24/2014, p. 34;
105	   DOD, response to SIGAR data call, 10/20/2014.                             SIGAR analysis of UNDP’s quarterly and annual LOTFA reports,
106	   Pub. L. 112-74, Section 9009, 12/23/2011; Deputy Secretary of             10/19/2014.
       Defense, “Afghanistan Resources Oversight Council (AROC)             133	 UNDP, “Law and Order Trust Fund for Afghanistan (LOTFA)
       memorandum,” 8/3/2011; U.S. Senate Committee on Armed                     2014 Second Quarter Project Progress Report,” 9/24/2014, p. 34;
       Services, press release, “Senate Passes Ike Skelton National              SIGAR analysis of UNDP’s quarterly and annual LOTFA reports,
       Defense Authorization Act for Fiscal Year 2011,” 12/22/2010.              10/19/2014.
107	   DOD, response to SIGAR data call, 10/6/2014; DFAS, “AR(M)            134	 DFAS, “AR(M) 1002 Appropriation Status by FY Program and
       1002 Appropriation Status by FY Program and Subaccounts                   Subaccounts September 2014,” 10/16/2014.
       September 2014,” 10/16/2014.                                         135	 The Washington Post, “Afghanistan, US sign long-awaited secu-
108	   DFAS, “AR(M) 1002 Appropriation Status by FY Program and                  rity pact,” 9/30/2014.
       Subaccounts September 2014,” 10/16/2014.                             136	 DOD, OUSDP, response to SIGAR vetting, 10/15/2014.
109	   TFBSO, “About TFBSO,” accessed 10/20/2011; DOD, response             137	 The White House, “Statement by the president on Afghanistan,”
       to SIGAR data call, 7/22/2011.                                            5/27/2014.
110	   See Appendix B of this report.                                       138	 RFE, “Explainer – Key points in the US Afghan BSA,” 10/1/2014;
111	   DOD, response to SIGAR data call, 10/6/2014.                              DOD, OUSDP, response to SIGAR vetting, 10/15/2014.
112	   DOD, “Drug Interdiction and Counter-Drug Activities,                 139	 Security and Defense Cooperation Agreement between
       Defense FY 2009 Supplemental Request Drug Interdiction and                the United States of America and the Islamic Republic of
       Counterdrug Activities,” accessed 4/13/2010.                              Afghanistan, 9/30/2014.
113	   DOD OIG, Report No. DODIG-2012-04, Independent Auditor’s             140	 DOD, OUSDP, response to SIGAR vetting, 10/15/2014.
       Report on the DOD FY 2011 Detailed Accounting Report of              141	 Turkish Weekly, “Afghanistan, NATO sign Status of Forces
       the Funds Obligated for National Drug Control Program                     Agreement,” 9/30/2014.
       Activities, 1/30/2012.                                               142	 DOD, press briefing by General Campbell, 10/2/2014.
114	   DOD, responses to SIGAR data call, 10/20/2014 and 7/3/2014.          143	 ISAF, “Gen. Campbell assumes ISAF command from Gen.
115	   USAID, “U.S. Foreign Assistance Reference Guide,” 1/2005, p. 6.           Dunford,” 8/26/2014.




REPORT TO THE UNITED STATES CONGRESS            I   OCTOBER 30, 2014                     251
                                                         ENDNOTES




144	 ISAF, “Gen. Campbell assumes ISAF command from Gen.                  176	 The New York Times, “Taliban Making Military Gains in
     Dunford,” 8/26/2014.                                                      Afghanistan,” 7/26/2014.
145	 Marine Corps Times, “Dunford confirmed as 36th commandant            177	 The New York Times, “Soldiers Killed in Suicide Attack at U.S.
     of the Marine Corps,” 7/24/2014.                                          Base in Kabul,” 9/16/2014.
146	 The White House, “Fact Sheet: Wales Summit – NATO’s                  178	 ISAF, “International Security Assistance Force,” 6/1/2014;
     Changing Role in Afghanistan,” 9/4/2014.                                  CSTC-A, response to SIGAR data call, 9/29/2014.
147	 NATO, Wales Summit Declaration on Afghanistan, 9/4/2014.             179	 ISAF, “International Security Assistance Force,” 10/1/2014.
148	 The White House, “Fact Sheet: Wales Summit – NATO’s                  180	 Defense News, “U.S. to Reduce Afghanistan Troop Levels,”
     Changing Role in Afghanistan,” 9/4/2014.                                  5/27/2014.
149	 DOD, OUSDP, response to SIGAR data call, 10/6/2014.                  181	 DOD, Operation Enduring Freedom U.S. Casualty Status,
150	 NATO, Wales Summit Declaration on Afghanistan, 9/4/2014.                  10/1/2014.
151	 The White House, “Fact Sheet: Wales Summit – NATO’s                  182	 Memo USFOR-A-TF 2010-CC, “Operational Contract Support
     Changing Role in Afghanistan,” 9/4/2014; DOD, OUSDP,                      Oversight and Management Post-Shura Notes,” 1/31/2012, pro-
     response to SIGAR vetting, 10/15/2014.                                    vided to SIGAR. The memo by Brigadier General Ross E. Ridge
152	 ISAF, “RS Security Force Assistance Guide 3.0,” 7/1/2014, p. 12;          describes a January 19–20, 2012, conference at New Kabul
     DOD, OUSDP, response to SIGAR vetting, 10/15/2014.                        Compound among DOD leaders, CENTCOM, contracting agen-
153	SIGAR, Quarterly Report to the United States Congress,                     cies, ISAF Joint Command, and USFOR-A.
     4/30/2013, p. 90.                                                    183	 Memo USFOR-A-TF 2010-CC, “Operational Contract Support
154	 CSTC-A, response to SIGAR data call, 7/1/2014; DOD response               Oversight and Management Post-Shura Notes,” 31 January
     to SIGAR vetting, 7/11/2014.                                              2012, provided to SIGAR. The memo by Brigadier General Ross
155	 CSTC-A, responses to SIGAR data calls, 9/29/2014.                         E. Ridge describes a January 19–20, 2012, conference at New
156	 CSTC-A, response to SIGAR data call, 7/1/2014.                            Kabul Compound among DOD leaders, CENTCOM, contracting
157	 CSTC-A, response to SIGAR data call, 7/1/2014.                            agencies, ISAF Joint Command, and USFOR-A.
158	 CSTC-A, responses to SIGAR data calls, 9/29/2014.                    184	 DOD, Assistant Secretary of Defense for Logistics and Materiel
159	 CSTC-A, responses to SIGAR data calls, 9/29/2014.                         Readiness, Cost Consciousness in Contingency Contracting,
160	 CSTC-A, response to SIGAR data call, 9/29/2014; ISAF Legal                Report to the Relevant Committees of Congress, June 2012, p. 14.
     Advisor, response to SIGAR vetting, 10/15/2014.                      185	SIGAR, Quarterly Report to the United States Congress,
161	 CSTC-A, responses to SIGAR data calls, 9/29/2014.                         4/30/2014, pp. 89–90.
162	 CSTC-A, response to SIGAR data call, 9/29/2014.                      186	 SIGAR, Record of Meeting with DOD/AT&L personnel,
163	 CENTCOM, response to SIGAR data calls, 9/29/2014.                         9/16/2014.
164	 CSTC-A, response to SIGAR data call, 9/29/2014.                      187	 SIGAR, Record of Meeting with DOD/AT&L personnel,
165	 CSTC-A, response to SIGAR data call, 7/1/2014.                            9/16/2014.
166	 CSTC-A, responses to SIGAR data calls, 7/1/2014 and 10/2/2014;       188	 DOD, Office of the Deputy Assistant Secretary of Defense for
     SIGAR ANSF Analysis, 10/3/2014.                                           Program Support, Operational Contract Support Action Plan
167	 CSTC-A, responses to SIGAR data calls, 7/1/2014 and 10/2/2014;            FY 2014–2017, 4/24/2014, iii.
     SIGAR ANSF Analysis, 10/6/2014.                                      189	 MIT, Information Services and Technology Department, “Project
168	 CSTC-A, response to SIGAR data call, 7/1/2014.                            Management 101,” slide deck, https://ist.mit.edu/sites/default/
169	 UN Security Council, The Situation in Afghanistan and its                 files/migration/pmm/presentations/pm101.ppt, 6/2006, slide 6,
     implications for international peace and security, 9/9/2014, p. 6.        accessed 9/8/2014.
170	 UN Security Council, The Situation in Afghanistan and its            190	 ISAF, response to SIGAR data call, 7/1/2014 and 10/6/2014.
     implications for international peace and security, 6/18/2014,        191	DOD, Progress Toward Security and Stability in Afghanistan,
     p. 5.                                                                     12/2012, p. 56.
171	 UN Security Council, The Situation in Afghanistan and its            192	 DOD OIG, DODIG-2012-058, Distribution of Funds and
     implications for international peace and security, 6/18/2014,             Mentoring of Finance Officers for the Afghanistan National
     p. 4, and 9/9/2014, p. 7.                                                 Army Payroll Need Improvement, 2/2012, p. 8.
172	 UN Security Council, The Situation in Afghanistan and its            193	 Center for Naval Analyses, “Independent Assessment of the
     implications for international peace and security, 9/9/2014, p. 7.        Afghan National Security Forces,” 1/24/2014, p. 29.
173	 UN Security Council, The Situation in Afghanistan and its            194	 CSTC-A, response to SIGAR data call, 7/1/2014.
     implications for international peace and security, 9/9/2014, p. 7.   195	 CSTC-A, response to SIGAR data call, 7/1/2014.
174	 UN Security Council, The Situation in Afghanistan and its            196	 IJC, response to SIGAR data call, 10/3/2014.
     implications for international peace and security, 9/9/2014, p. 6.   197	 IJC, response to SIGAR data call, 9/30/2013.
175	 WJLA, “Army Maj. Gen. Harold Greene, slain in Afghanistan,           198	 IJC, response to SIGAR data call, 6/1/2014.
     buried with honors at Arlington National Cemetery,” 8/15/2014;       199	 IJC, response to SIGAR data call, 6/1/2014.
     ISAF, “‘A National Treasure’: ISAF holds Memorial for Major          200	 ISAF, “Afghan soldiers recognized at milestone military gradua-
     General Greene,” 8/13/2014; ISAF, “Building dedication honors             tions,” 9/23/2014.
     general’s passion, commitment to Afghanistan,” 8/24/2014;            201	 ISAF, “Afghan soldiers recognized at milestone military gradua-
     Army Times, “First general officer killed in Afghanistan combat           tions,” 9/23/2014.
     among insider attack victims,” 8/5/2014.




                                                   252                    SPECIAL INSPECTOR GENERAL       I   AFGHANISTAN RECONSTRUCTION
                                                          ENDNOTES




202	 ISAF, “Afghan soldiers recognized at milestone military gradua-      246	 CSTC-A, responses to SIGAR data calls, 7/1/2014 and 9/29/2014.
     tions,” 9/23/2014.                                                   247	 DFAS, “AR(M) 1002 Appropriation Status by FY Program and
203	 NTM-A, response to SIGAR data call, 10/6/2014.                            Subaccounts September 2014,” 10/16/2014.
204	 NTM-A, response to SIGAR data call, 10/6/2014.                       248	 CSTC-A, response to SIGAR data call, 9/29/2014.
205	 NTM-A, response to SIGAR data call, 10/6/2014.                       249	 DFAS, “AR(M) 1002 Appropriation Status by FY Program and
206	 NTM-A, response to SIGAR data call, 10/6/2014.                            Subaccounts September 2014,” 10/16/2014.
207	 NTM-A, response to SIGAR data call, 10/6/2014.                       250	 CSTC-A, response to SIGAR data call, 9/29/2014.
208	 NTM-A, response to SIGAR data call, 10/6/2014.                       251	 CSTC-A, response to SIGAR data call, 9/29/2014.
209	 NTM-A, response to SIGAR data call, 10/6/2014.                       252	 CSTC-A, response to SIGAR data call, 9/29/2014.
210	 NTM-A, response to SIGAR data call, 10/12/2012.                      253	 CSTC-A, response to SIGAR data call, 9/29/2014.
211	 NTM-A, response to SIGAR data call, 10/6/2014.                       254	 CSTC-A, responses to SIGAR data calls, 9/29/2014.
212	 USFOR-A, response to SIGAR vetting, 10/15/2014.                      255	 DOD, “Justification for FY 2015 Overseas Contingency
213	 SIGAR, Audit Report 14-30-AR, Afghan National Security                    Operations, Afghanistan Security Forces Fund (ASFF),” 6/2014.
     Forces: Despite Reported Successes, Concerns Remain about            256	 DFAS, “AR(M) 1002 Appropriation Status by FY Program and
     Literacy Program Results, Contract Oversight, Transition,                 Subaccounts September 2014,” 10/16/2014.
     and Sustainment, 1/28/2014.                                          257	 CSTC-A, response to SIGAR data call, 10/1/2014.
214	 NTM-A, response to SIGAR vetting, 7/11/2014.                         258	 CSTC-A, response to SIGAR data call, 6/30/2014.
215	 CSTC-A, response to SIGAR data call, 9/22/2014.                      259	 ISAF, response to SIGAR data call, 6/30/2014.
216	 CSTC-A, response to SIGAR data call, 9/22/2014.                      260	 ISAF, response to SIGAR data call, 10/1/2014.
217	 CSTC-A, responses to SIGAR data calls, 7/1/2014 and 7/3/2014.        261	 ISAF, response to SIGAR data call, 6/30/2014.
218	 CSTC-A, responses to SIGAR data calls, 3/31/2014 and 7/1/2014.       262	 Pub. L. 113-66, National Defense Authorization Act for Fiscal
219	 CSTC-A, response to SIGAR data call, 7/1/2014.                            Year 2014, p. 938.
220	 CSTC-A, response to SIGAR data call, 9/22/2014.                      263	 SIGAR, Alert Letter 14-80a, Response to Alert Letter on Afghan
221	 CSTC-A, response to SIGAR data call, 9/29/2014.                           Air Force C-130 Aircraft, 10/7/2014; NATO Air Command-
222	 ISAF, response to SIGAR data call, 9/29/2014.                             Afghanistan, response to SIGAR vetting, 10/14/2014.
223	USIP, Special Report 322, Police Transition in Afghanistan, 2/2013.   264	 NATC-A, response to SIGAR data call, 6/30/2014; NSOCC-A,
224	 NSOCC-A, response to SIGAR data call, 9/30/2014.                          response to SIGAR data call, 6/30/2014; CENTCOM, response to
225	 USFOR-A, response to SIGAR vetting, 10/15/2014.                           SIGAR data call, 7/8/2014.
226	 NSOCC-A, response to SIGAR data call, 9/30/2014.                     265	 NATC-A, response to SIGAR data call, 9/30/2014.
227	 NSOCC-A, response to SIGAR data call, 9/30/2014.                     266	 USAF News, “A-29 Super Tucano arrives at Moody AFB,”
228	 NSOCC-A, response to SIGAR data call, 9/30/2014.                          9/26/2014.
229	 NSOCC-A, response to SIGAR data call, 9/30/2014.                     267	 NATC-A, response to SIGAR data call, 7/8/2014; DOD, OUSDP,
230	 DOD, OUSDP, response to SIGAR vetting, 10/15/2014.                        response to SIGAR vetting, 10/15/2014.
231	 NSOCC-A, “Public Perceptions of the ALP December 2013                268	 NATC-A, response to SIGAR data call, 9/30/2014; NATO Air
     Focus Group Findings,” 3/2014.                                            Command-Afghanistan, response to SIGAR vetting, 10/14/2014.
232	 NSOCC-A, response to SIGAR data call, 9/30/2014.                     269	 NATC-A, response to SIGAR data call, 9/30/2014.
233	 NSOCC-A, response to SIGAR data call, 9/30/2014.                     270	 NATC-A, response to SIGAR data call, 9/30/2014.
234	 DFAS, “AR(M) 1002 Appropriation Status by FY Program and             271	DOD, Progress Toward Security and Stability in Afghanistan,
     Subaccounts September 2014,” 10/16/2014.                                  4/2014; NATO Air Command-Afghanistan, response to SIGAR
235	 ISAF, response to SIGAR data call, 10/2/2014.                             vetting, 10/14/2014.
236	 ISAF, response to SIGAR data call, 10/2/2014.                        272	 NSOCC-A, response to SIGAR data call, 9/30/2014.
237	 ISAF, response to SIGAR data call, 10/2/2014.                        273	 NSOCC-A, response to SIGAR data call, 9/30/2014.
238	 ISAF, responses to SIGAR data calls, 1/6/2014, 7/1/2014, and         274	 NSOCC-A, response to SIGAR data call, 9/30/2014.
     10/2/2014.                                                           275	 DOD, “Justification for FY 2015 Overseas Contingency
239	 Center for Naval Analyses, “Independent Assessment of the                 Operations, Afghanistan Security Forces Fund (ASFF),” 6/2014;
     Afghan National Security Forces,” 1/24/2014, p. 28.                       NATC-A, response to SIGAR data call, 9/30/2014.
240	 Center for Naval Analyses, “Independent Assessment of the            276	 NATC-A, response to SIGAR data call, 9/30/2014.
     Afghan National Security Forces,” 1/24/2014, p. 28.                  277	 NATC-A, response to SIGAR data call, 9/30/2014.
241	 CSTC-A, responses to SIGAR data calls, 7/1/2014 and 10/2/2014;       278	 NATC-A, response to SIGAR data call, 9/30/2014.
     SIGAR ANSF Analysis, 10/3/2014.                                      279	 DOD, OUSDP, response to SIGAR vetting, 10/15/2014.
242	 CSTC-A, responses to SIGAR data calls, 7/1/2014 and 10/2/2014;       280	 NATC-A, response to SIGAR data call, 9/30/2014.
     SIGAR ANSF Analysis, 10/6/2014.                                      281	 DFAS, “AR(M) 1002 Appropriation Status by FY Program and
243	 DFAS, “AR(M) 1002 Appropriation Status by FY Program and                  Subaccounts September 2014,” 10/16/2014.
     Subaccounts September 2014,” 10/16/2014.                             282	 CSTC-A, response to SIGAR data call, 7/1/2014.
244	 CSTC-A, responses to SIGAR data calls, 7/1/2014 and 9/29/2014;       283	 CSTC-A, response to SIGAR data call, 10/6/2014.
     SIGAR ANSF analysis, 10/6/2014.                                      284	 CSTC-A, response to SIGAR data call, 7/1/2014.
245	 CSTC-A, responses to SIGAR data calls, 7/2/2013, 7/13/2013,          285	 DFAS, “AR(M) 1002 Appropriation Status by FY Program and
     3/31/2014, and 9/29/2014.                                                 Subaccounts September 2014,” 10/16/2014.




REPORT TO THE UNITED STATES CONGRESS           I   OCTOBER 30, 2014                    253
                                                       ENDNOTES




286	 CSTC-A, response to SIGAR data call, 3/31/2014.                   326	 Department of State, INL, Program and Budget Guide, Fiscal
287	 CSTC-A, response to SIGAR data call, 9/29/2014.                        Year 2013 Budget, p. 151.
288	 CSTC-A, response to SIGAR data call, 9/29/2014; SIGAR ANSF        327	 Department of State, INL, International Narcotics Control
     analysis, 10/6/2014.                                                   Strategy Report, Volume I: Drug and Chemical Control, 3/2014,
289	 CSTC-A, responses to SIGAR data calls, 7/1/2014 and 9/29/2014;         p. 89.
     SIGAR ANSF analysis, 10/6/2014.                                   328	 Department of State, INL, Program and Budget Guide, Fiscal
290	 DFAS, “AR(M) 1002 Appropriation Status by FY Program and               Year 2013 Budget, p. 152.
     Subaccounts September 2014,” 10/16/2014.                          329	 DOD, response to SIGAR data call, 9/30/2014; DOD, Progress
291	 CSTC-A, response to SIGAR data call, 9/29/2014.                        toward Security and Stability in Afghanistan, 4/2014, p. 82;
292	 CSTC-A, responses to SIGAR data calls, 4/3/2014, 7/1/2014, and         INL, response to SIGAR vetting, 10/14/2014.
     9/29/2014; SIGAR ANSF analysis, 10/6/2014.                        330	 DOD, response to SIGAR data call, 9/30/2014.
293	 CSTC-A, response to SIGAR data call, 9/29/2014.                   331	 State, INL, response to SIGAR data call, 7/9/2014; State, INL,
294	 USFOR-A, response to SIGAR vetting, 10/15/2014.                        response to SIGAR vetting, 10/14/2014.
295	 SCMS, Case Execution and Acquisition Report, 9/29/2014.           332	UN, Fourth report of the Analytical Support and Sanctions
296	 DFAS, “AR(M) 1002 Appropriation Status by FY Program and               Monitoring Team submitted pursuant to resolution 2082
     Subaccounts September 2014,” 10/16/2014.                               (2012) concerning the Taliban and other associated individu-
297	 CSTC-A, response to SIGAR data call, 9/29/2014.                        als and entities constituting a threat to the peace, stability
298	 CSTC-A, response to SIGAR data call, 9/29/2014.                        and security in Afghanistan, 6/10/2014; State, INL, response to
299	 CSTC-A, response to SIGAR data call, 9/29/2014.                        SIGAR vetting, 10/14/2014.
300	 CSTC-A, response to SIGAR data call, 9/29/2014.                   333	UNODC, Afghanistan: Poppy Eradication Verification, Final
301	 CSTC-A, responses to SIGAR data calls, 9/29/2014.                      Report, 8/2014, p. 4.
302	 CSTC-A, response to SIGAR data call, 9/29/2014.                   334	 IRIN Asia, Analysis: Challenges around aid access in
303	 DFAS, “AR(M) 1002 Appropriation Status by FY Program and               Afghanistan, 9/9/2014.
     Subaccounts September 2014,” 10/16/2014.                          335	 LTG Michael T. Flynn, Director, DIA, Testimony before the
304	 CSTC-A, response to SIGAR data call, 10/1//2014.                       Senate Armed Services Committee, 2/11/2014.
305	 CSTC-A, response to SIGAR data call, 10/1/2014.                   336	 LTG Michael T. Flynn, Director, DIA, Testimony before the
306	 ISAF, responses to SIGAR data calls, 10/3/2011 and 6/30/2014.          Senate Armed Services Committee, 2/11/2014.
307	 ISAF, response to SIGAR data call, 10/1/2014.                     337	 Mansfield, David, “Clutching at straws? The Afghan state’s
308	 CSTC-A, response to SIGAR data call, 7/1/2014.                         attempt at re-asserting territorial control in Nangahar in the run
309	 Pub. L. 113-66, National Defense Authorization Act for Fiscal          up to transition,” 3/2014.
     Year 2014, Legislative Text and Joint Explanatory Statement to    338	 Mansfield, David, “Clutching at straws? The Afghan state’s
     Accompany H.R. 3304, p. 273.                                           attempt at re-asserting territorial control in Nangahar in the run
310	 CSTC-A, responses to SIGAR data calls, 3/31/2014, 6/30/2014,           up to transition,” 3/2014.
     10/2/2014, and 10/6/2014; SIGAR ANSF analysis, 10/6/2014.         339	 Mansfield, David, “Clutching at straws? The Afghan state’s
311	 CSTC-A, response to SIGAR data call, 10/2/2014; SIGAR ANSF             attempt at re-asserting territorial control in Nangahar in the run
     analysis, 10/6/2014.                                                   up to transition,” 3/2014.
312	 CSTC-A, responses to SIGAR data calls, 6/30/2014 and              340	 Mansfield, David, “Clutching at straws? The Afghan state’s
     10/2/2014.                                                             attempt at re-asserting territorial control in Nangahar in the run
313	 CSTC-A, responses to SIGAR data calls, 6/30/2014 and 10/2/2014;        up to transition,” 3/2014.
     SIGAR ANSF analysis, 10/6/2014.                                   341	 World Bank, South Asia Economic Focus Fall 2014, 10/2014, p. 41.
314	 CSTC-A, response to SIGAR data call, 10/2/2014.                   342	UNODC, Afghanistan Poppy Eradication Verification, Final
315	 CSTC-A, response to SIGAR data call, 10/2/2014.                        Report, 8/2014, p. 15.
316	 State, PM/WRA, response to SIGAR data call, 10/6/2014.            343	 State, INL, response to SIGAR data call, 9/24/2014.
317	 State, PM/WRA, response to SIGAR data call, 10/6/2014.            344	 State, INL, response to SIGAR data call, 9/24/2014.
318	 Pajhwok Afghan News, “Unexploded ordnance claims 100 lives        345	UNODC, Afghanistan: Poppy Eradication Verification, Final
     each month,” 9/25/2014.                                                Report, 8/2014, p. 4.
319	 Pajhwok Afghan News, “Unexploded ordnance claims 100 lives        346	UNODC, Afghanistan: Poppy Eradication Verification, Final
     each month,” 9/25/2014.                                                Report, 8/2014, pp. 13, 20; State, INL, response to SIGAR vetting,
320	 State, PM/WRA, response to SIGAR data call, 10/6/2014.                 10/14/2014.
321	 State, PM/WRA, response to SIGAR data call, 10/6/2014.            347	UNODC, Afghanistan: Poppy Eradication Verification, Final
322	 State, PM/WRA, response to SIGAR data call, 10/6/2014.                 Report, 8/2014, p. 8.
323	 DFAS, “AR(M) 1002 Appropriation Status by FY Program and          348	 State, INL, response to SIGAR data call, 7/9/2014.
     Subaccounts September 2014,” 10/16/2014.                          349	 State, INL, response to SIGAR data call, 9/24/2014.
324	CRS, International Drug Control Policy: Background and U.S.        350	 Department of State, INL, International Narcotics Control
     Responses, 8/13/2013, p.19; State, INL, response to SIGAR vet-         Strategy Report, Volume I: Drug and Chemical Control, 3/2014,
     ting, 10/14/2014.                                                      p. 90.
325	 Department of State, INL, Program and Budget Guide, Fiscal        351	 State, INL, response to SIGAR vetting, 10/14/2014.
     Year 2013 Budget, pp. 152–153.                                    352	 State, INL, response to SIGAR data call, 9/24/2014.




                                                 254                   SPECIAL INSPECTOR GENERAL        I   AFGHANISTAN RECONSTRUCTION
                                                       ENDNOTES




353	 State, INL, response to SIGAR vetting, 10/14/2014.                389	UNODC, World Drug Report 2014, 6/2014, p. 27.
354	 State, INL, response to SIGAR data call, 9/24/2014; State, INL,   390	 State, INL, response to SIGAR vetting, 10/14/2014.
     response to SIGAR vetting, 10/14/2014.                            391	CDC, Increases in Heroin Overdose Deaths — 28 States, 2010
355	 State, INL, response to SIGAR data call, 9/21/2014.                    to 2012, 10/3/2014.
356	 State, INL, response to SIGAR data call, 9/24/2014.               392	 DEA, response to SIGAR question, 9/30/2014.
357	 State, INL, response to SIGAR vetting, 10/14/2014.                393	UNODC, The Global Afghan Opium Trade: A Threat
358	 Aga Khan Foundation, Good Performance Initiative Provincial            Assessment, 7/2011, p. 73; DEA, response to SIGAR question,
     Workshop Report: Status, Challenges and Recommendations,               9/30/2014.
     11/2013, p. 4.                                                    394	 State, INL, response to SIGAR data call, 7/9/2014; State, INL,
359	 Aga Khan Foundation, Good Performance Initiative Provincial            response to SIGAR vetting, 10/14/2014.
     Workshop Report: Status, Challenges and Recommendations,          395	 State, INL, response to SIGAR data call, 9/24/2014; State, INL,
     11/2013, p. 8.                                                         response to SIGAR data call, 7/9/2014
360	 Aga Khan Foundation, Good Performance Initiative Provincial       396	 State, INL, response to SIGAR data call, 9/24/2014.
     Workshop Report: Status, Challenges and Recommendations,          397	 State, INL, response to SIGAR data call, 9/24/2014.
     11/2013, p. 8.                                                    398	 State, INL, response to SIGAR data call, 9/24/2014.
361	 Aga Khan Foundation, Good Performance Initiative Provincial       399	 The Aga Khan Development Network website, “About Us.”
     Workshop Report: Status, Challenges and Recommendations,          400	SIGAR, Quarterly Report to the United States Congress,
     11/2013, p. 9.                                                         7/30/2014, p. 115.
362	 State, INL, response to SIGAR vetting, 10/14/2014.                401	 State, INL, response to SIGAR data call, 9/24/2014.
363	 State, INL, response to SIGAR vetting, 10/14/2014.                402	 State, INL, response to SIGAR data call, 9/24/2014.
364	 State, INL, response to SIGAR vetting, 10/14/2014.                403	 State, INL, response to SIGAR data call, 9/24/2014.
365	 USAID, Kandahar Food Zone Program, “Quarterly Report              404	 State, INL, response to SIGAR data call, 9/24/2014.
     October–December 2013,” 1/31/2014, p. 5.                          405	 DOD, response to SIGAR vetting, 10/14/2014.
366	 USAID, response to SIGAR data call, 10/9/2014.                    406	 State, INL, response to SIGAR data call, 9/24/2014; State, INL,
367	 USAID, response to SIGAR data call, 9/29/2014; State, INL,             response to SIGAR vetting, 10/14/2014.
     response to SIGAR vetting, 10/14/2014.                            407	 DOD, response to SIGAR data call, 9/30/2014.
368	 USAID, response to SIGAR data call, 9/29/2014.                    408	 DOD, response to SIGAR data call, 9/30/2014.
369	 USAID, response to SIGAR data call, 9/29/2014.                    409	 State, INL, response to SIGAR vetting, 10/14/2014.
370	 USAID, response to SIGAR data call, 9/29/2014.                    410	 DOD, response to SIGAR data call, 9/30/2014.
371	 USAID, response to SIGAR data call, 9/29/2014.                    411	 DOD, response to SIGAR data call, 9/30/2014.
372	 USAID, response to SIGAR data call, 9/29/2014.                    412	 DOD, response to SIGAR data call, 9/30/2014.
373	 USAID, response to SIGAR data call, 9/29/2014.                    413	 DOD, response to SIGAR data call, 9/30/2014; State, INL,
374	 USAID, response to SIGAR data call, 9/29/2014.                         response to SIGAR vetting, 10/14/2014.
375	 USAID, response to SIGAR data call, 9/29/2014.                    414	 State, INL, response to SIGAR data call, 9/24/2014.
376	 State, INL, response to SIGAR vetting.                            415	 State, INL, response to SIGAR data call, 9/24/2014.
377	 State, INL, response to SIGAR data call, 7/9/2014.                416	 Afghanistan Analysts Network, “Elections 2014 (53): Ghani
378	MOE, Final Report on National Development Strategy, 9/2014,             sworn in as Afghanistan’s new president,” 9/30/2014 and
     p. 127.                                                                ToloNews, “Ghani Sworn Into Office,” 9/30/2014.
379	 White House, National Drug Control Strategy, 2013, p. 3.          417	 Afghanistan Analysts Network, “Elections 2014 (53): Ghani
380	 Lancet Global Health, Cottler, Linda B. et al, Prevalence of           sworn in as Afghanistan’s new president,” 9/30/2014; ToloNews,
     drug and alcohol use in urban Afghanistan: epidemiological             “Ghani Sworn Into Office,” 9/30/2014.
     data from the Afghanistan National Urban Drug Use Study           418	 VOA News, “Abdullah Declares Himself Winner in Afghan
     (ANUDUS), 10/2014, p. e592.                                            Election,” 7/8/2014; The New York Times, “Afghan Candidate
381	 Lancet Global Health, Linda B. Cottler, et al, Prevalence of           Vows Again to Reject Presidential Results,” 9/8/2014.
     drug and alcohol use in urban Afghanistan: epidemiological        419	 United Nations Secretary-General, The situation in
     data from the Afghanistan National Urban Drug Use Study                Afghanistan and its implications for international peace and
     (ANUDUS), 10/2014, p. e592.                                            security, 9/9/2014, p. 1.
382	 Lancet Global Health, Cottler, Linda B. et al, Prevalence of      420	 United Nations Secretary-General, The situation in
     drug and alcohol use in urban Afghanistan: epidemiological             Afghanistan and its implications for international peace and
     data from the Afghanistan National Urban Drug Use Study                security, 9/9/2014, pp. 14–15.
     (ANUDUS), 10/2014, p. e596.                                       421	 The New York Times, “Ashraf Ghani Is Named President of
383	UNODC, World Drug Report 2014, 8/2014, pp. 1, 2.                        Afghanistan by Elections Panel,” 9/21/2014.
384	 State, INL, response to SIGAR data call, 7/9/2014; State, INL,    422	 United Nations Secretary-General, The situation in
     response to SIGAR vetting, 10/14/2014.                                 Afghanistan and its implications for international peace and
385	UNODC, Afghanistan: Opium Survey, 10/2013, p. 69.                       security, 9/9/2014, p. 3.
386	UNODC, World Drug Report 2014, 6/2014, p. x.                       423	 ToloNews, “Ghani Leads Preliminary Results,” 7/7/2014; United
387	UNODC, Afghanistan: Opium Survey, 10/2013, p. 69.                       Nations Secretary-General, The situation in Afghanistan
388	UNODC, World Drug Report 2014, 6/2014, p. 26–27.




REPORT TO THE UNITED STATES CONGRESS        I   OCTOBER 30, 2014                    255
                                                         ENDNOTES




       and its implications for international peace and security,              after publication of the outcome of the Presidential election by
       6/18/2014, p. 3.                                                        the IEC,” 9/21/2014.
424	   United Nations Secretary-General, The situation in                 446	 The New York Times, “Monitors of Afghan Vote Are Said to
       Afghanistan and its implications for international peace and            Back Secrecy,” 9/22/2014.
       security, 6/18/2014, pp. 1, 3.                                     447	 Senior State Department Official, “Background Briefing on
425	   United Nations Secretary-General, The situation in                      Afghanistan,” 9/24/2014.
       Afghanistan and its implications for international peace and       448	 European Union Election Assessment Team Afghanistan 2014,
       security, 9/9/2014, p. 5.                                               “Strong interrogations on the Afghan election process remain,
426	   State, SRAP, response to SIGAR data call, 10/7/2014.                    after publication of the outcome of the Presidential election by
427	   John Kerry, “Remarks With Head of UN Assistance Mission to              the IEC,” 9/21/2014.
       Afghanistan Jan Kubis, Afghan Presidential Candidate Abdullah      449	 Afghanistan Analysts Network, “Elections 2014 (52): The not yet
       Abdullah, and Afghan Presidential Candidate Ashraf Ghani,”              officially announced results – electoral maths with unknowns,”
       7/7/2014.                                                               9/28/2014.
428	   ToloNews, “After Talks, Differences Arise Over Meaning of          450	 USAID, ODG, response to SIGAR data call, 9/29/2014.
       ‘National Unity Government,’” 7/13/2014; The Wall Street           451	 State, SRAP, response to SIGAR data call, 10/7/2014.
       Journal, “Kabul Prepares to Start Huge Audit Under Kerry           452	 Khaama Press, “Ghani issues decree on appointment of acting
       Deal,” 7/13/2014.                                                       ministers,” 10/1/2014.
429	   United Nations Secretary-General, The situation in                 453	 ToloNews, “Awaiting Appointments, Acting Ministers Under
       Afghanistan and its implications for international peace and            Pressure,” 10/9/2014.
       security, 9/9/2014, p. 5.                                          454	 ToloNews, “Massoud Inaugurated as Special Representative to
430	   The New York Times, “Afghan Candidate Vows Again to Reject              President,” 10/2/2014.
       Presidential Results,” 9/8/2014.                                   455	 ToloNews, “Zakhilwal Appointed National Economy Advisor,”
431	   Agence France-Presse, “UN chief calls on Afghan candidates to           10/1/2014.
       form government,” 9/9/2014.                                        456	 ToloNews, “Awaiting Appointments, Acting Ministers Under
432	   Reuters, “Afghan election front-runner rejects equal share of           Pressure,” 10/9/2014.
       power with rival,” 9/10/2014.                                      457	 USAID, ODG, response to SIGAR vetting, 7/14/2014.
433	   ToloNews, “UN Deputy Secretary-General Visits Kabul Amid           458	 USAID, ODG, response to SIGAR vetting, 7/14/2014; USAID,
       Political Impasse,” 9/11/2014.                                          OPPD, response to SIGAR data call, 10/9/2014.
434	   The Wall Street Journal, “Afghanistan Presidential Rivals Sign     459	 USAID, ODG, response to SIGAR data call, 9/29/2014.
       Power-Sharing Deal,” 9/21/2014.                                    460	 UNDP, “Enhancing Legal and Electoral Capacity for Tomorrow-
435	   United Nations Secretary-General, The situation in                      Phase II (ELECT II) 2012–2015 Terms of Reference Second
       Afghanistan and its implications for international peace and            Mid-Term Review,” 2014, p. 3.
       security, 9/9/2014, p. 2; Pajhwok, “Text of agreement on unity     461	 USAID, ODG, response to SIGAR data call, 12/30/2013; USAID,
       government,” 9/21/2014.                                                 ODG, response to SIGAR data call, 3/31/2014.
436	   Pajhwok, “Text of agreement on unity government,” 9/21/2014.       462	 USAID, ODG, response to SIGAR data call, 9/29/2014.
437	   The New York Times, “Ashraf Ghani Is Named President of            463	 National Democratic Institute, “Preliminary Statement of
       Afghanistan by Elections Panel,” 9/21/2014.                             the National Democratic Institute’s Election Mission for
438	   ToloNews, “IEC Presents President-Elect with Winner                     Afghanistan’s 2014 Presidential Runoff Election,” 6/16/2014, p. 1.
       Certificate,” 9/26/2014.                                           464	 USAID, ODG, response to SIGAR data call, 12/30/2013; USAID,
439	   Khaama Press, “Abdullah’s team slams IEC for disclosing votes           ODG, response to SIGAR data call, 3/31/2014.
       figure on winner certificate,” 9/27/2014.                          465	 USAID, ODG, response to SIGAR data call, 9/29/2014.
440	   Afghanistan Analysts Network, “Elections 2014 (52): The not yet    466	 USAID, ODG, response to SIGAR data call, 6/30/2014.
       officially announced results – electoral maths with unknowns,”     467	 USIP, “Quarterly Progress Report to OTI,” 5/2014, pp. 2–3.
       9/28/2014.                                                         468	 United Nations Secretary-General, The situation in
441	   John Kerry, “Remarks With Head of UN Assistance Mission to              Afghanistan and its implications for international peace and
       Afghanistan Jan Kubis, Afghan Presidential Candidate Abdullah           security, 9/9/2014, p. 4; DOD, IJC, response to SIGAR data call,
       Abdullah, and Afghan Presidential Candidate Ashraf Ghani,”              9/16/2014.
       7/7/2014.                                                          469	 World Bank, South Asia Economic Focus, Fall 2014, p. 40.
442	   Pajhwok, “Vote audit process completed: Nuristan,” 9/14/2014.      470	MOF, Monthly Fiscal Bulletin, Month 7, 1393, 9/6/2014.
443	   The New York Times, “Ashraf Ghani Is Named President of            471	 World Bank, South Asia Economic Focus, Fall 2014, p. 40.
       Afghanistan by Elections Panel,” 9/21/2014.                        472	 Wadsam, “Donors have not fulfilled their commitments made at
444	   European Union Election Assessment Team Afghanistan 2014,               the Tokyo Conference: Afghan Finance Minister,” 5/11/2014.
       “Strong interrogations on the Afghan election process remain,      473	 Reuters, “Afghanistan seen running out of funds as poll dead-
       after publication of the outcome of the Presidential election by        lock drags on,” 8/15/2014.
       the IEC,” 9/21/2014.                                               474	 United Nations Secretary-General, The situation in
445	   European Union Election Assessment Team Afghanistan 2014,               Afghanistan and its implications for international peace and
       “Strong interrogations on the Afghan election process remain,           security, 9/9/2014, p. 11.
                                                                          475	 USAID, OPPD, response to SIGAR vetting, 7/14/2014.




                                                   256                    SPECIAL INSPECTOR GENERAL        I   AFGHANISTAN RECONSTRUCTION
                                                        ENDNOTES




476	 Tolo, “Government Budget in Trouble as Election Uncertainty        502	 DOD, CSTC-A, responses to SIGAR data calls, 4/4/2014 and
     Prevails,” 8/25/2014; The Washington Post, “Afghan official             7/1/2014.
     says the government has nearly run out of money, needs U.S.        503	 DOD, CSTC-A, response to SIGAR data call, 4/4/2014.
     bailout,” 9/16/2014; Reuters, “Cash-poor Afghanistan will delay    504	 DOD, CSTC-A, response to SIGAR data call, 4/4/2014.
     paying civil servants: finance ministry official,” 9/27/2014;      505	 DOD, CSTC-A, response to SIGAR data call, 9/29/2014.
     USAID, OPPD, response to SIGAR vetting, 10/13/2014.                506	 SIGAR, Quarterly Report to the United States Congress,
477	 USAID, OPPD, response to SIGAR vetting, 10/13/2014.                     4/30/2014, pp. 149–150; DOD, CSTC-A, response to SIGAR data
478	 The Washington Post, “Afghan official says the government has           call, 9/29/2014.
     nearly run out of money, needs U.S. bailout,” 9/16/2014; USAID,    507	 DOD, “Berry Amendment FAQ,” 4/10/2014.
     OPPD, response to SIGAR vetting, 10/13/2014; State, SCA,           508	 DOD, CSTC-A, response to SIGAR data call, 9/29/2014.
     response to SIGAR vetting, 10/14/2014.                             509	 DOD, CSTC-A, response to SIGAR data call, 9/29/2014.
479	 Reuters, “Cash-poor Afghanistan will delay paying civil ser-       510	 CSTC-A CJ8 Financial Management Oversight (FMO) Division,
     vants: finance ministry official,” 9/27/2014.                           “Monthly Report End-of-Month Aug 2014,” 9/8/2014, pp. 2–3.
480	SIGAR, Quarterly Report to the United States Congress,              511	 CSTC-A CJ8 Financial Management Oversight (FMO) Division,
     7/30/2014, p. 129.                                                      “Monthly Report End-of-Month Aug 2014,” 9/8/2014, p. 4.
481	 Government of Afghanistan, “Communiqué: Conference                 512	 DOD, CSTC-A, response to SIGAR data call, 9/29/2014.
     Outcomes, Contributions and Participants,” 1/28/2010, p. 5; “The   513	 General John Campbell, “Department of Defense Press Briefing
     Tokyo Declaration: Partnership for Self-Reliance in Afghanistan         by Gen. Campbell via satellite in the Pentagon Briefing Room,”
     from Transition to Transformation,” 7/8/2012; USAID, OPPD,              10/2/2014.
     response to SIGAR vetting, 10/13/2014.                             514	 SIGAR, Inspection 14-41-IP, Camp Monitor: Most Construction
482	 Heads of State and Government of Afghanistan and Nations                Appears to Have Met Contract Requirements, but It Is Unclear
     contributing to the NATO-led International Security Assistance          if Facility Is Being Used as Intended, 3/12/2014, p. 8.
     Force (ISAF), “Chicago Summit Declaration on Afghanistan,”         515	 DOD, CSTC-A, response to SIGAR data call, 4/4/2014.
     5/21/2012.                                                         516	 DOD OIG, DODIG-2014-102, Government of the Islamic
483	 Board of Governors of the Federal Reserve, “Foreign Exchange            Republic of Afghanistan Needs to Provide Better
     Rates -- H.10 Weekly,” 9/8/2014                                         Accountability and Transparency Over Direct Contributions,
484	 White House, “Fact Sheet: Wales Summit – NATO’s Changing                8/29/2014, i.
     Role in Afghanistan,” 9/4/2014.                                    517	 DOD, CSTC-A, response to SIGAR data call, 9/29/2014.
485	 USAID, OPPD, response to SIGAR vetting, 10/13/2014.                518	 DOD OIG, DODIG-2014-102, Government of the Islamic
486	 USAID, OPPD, response to SIGAR data call, 10/9/2014.                    Republic of Afghanistan Needs to Provide Better
487	 DOD, CSTC-A, response to SIGAR data call, 7/1/2014.                     Accountability and Transparency Over Direct Contributions,
488	 DOD, CSTC-A, response to SIGAR data call, 9/29/2014.                    8/29/2014, i.
489	 USAID, OPPD, response to SIGAR data call, 12/30/2013.              519	 DOD OIG, DODIG-2014-102, Government of the Islamic
490	 USAID, OPPD, response to SIGAR data call, 6/30/2014.                    Republic of Afghanistan Needs to Provide Better
491	 USAID, “Afghanistan Reconstruction Trust Fund (ARTF),”                  Accountability and Transparency Over Direct Contributions,
     8/26/2013.                                                              8/29/2014, p. 5.
492	 USAID, “U.S. government contributed $105 million to Asian          520	 DOD OIG, DODIG-2014-102, Government of the Islamic
     Development Bank Infrastructure Fund for Afghanistan,”                  Republic of Afghanistan Needs to Provide Better
     3/18/2014.                                                              Accountability and Transparency Over Direct Contributions,
493	 USAID, OPPD, response to SIGAR data call, 12/30/2013.                   8/29/2014, p. 12.
494	 The World Bank, “Trust Fund Administration Letter                  521	 DOD OIG, DODIG-2014-102, Government of the Islamic
     Agreement between the United States Agency for International            Republic of Afghanistan Needs to Provide Better
     Development and the International Bank for Afghanistan                  Accountability and Transparency Over Direct Contributions,
     Reconstruction Trust Fund Multi-Donor Trust Fund No. TF No.             8/29/2014, pp. 8–9.
     TF050576,” 3/31/2012.                                              522	USAID, U.S. Foreign Assistance for Afghanistan: Post
495	 Norad Evaluation Department, Evaluation of Norwegian                    Performance Management Plan 2011-2015, 10/2010, p. 123.
     Development Cooperation with Afghanistan 2001–2011,                523	 USAID, OPPD, response to SIGAR data call, 9/29/2014; State,
     3/2012, pp. 25, 45.                                                     SCA, response to SIGAR vetting, 10/14/2014.
496	 Norad Evaluation Department, Evaluation of Norwegian               524	SIGAR, Quarterly Report to the United States Congress,
     Development Cooperation with Afghanistan 2001–2011,                     4/30/2014, pp. 127–129; USAID, ODG, response to SIGAR data
     3/2012, p. 71.                                                          call, 6/30/2014.
497	 USAID, OFM, response to SIGAR data call, 10/6/2014.                525	SIGAR, Quarterly Report to the United States Congress,
498	 USAID, OPPD, response to SIGAR data call, 3/31/2014.                    4/30/2014, pp. 127–129.
499	 USAID, OPPD, response to SIGAR data call, 12/30/2013.              526	 USAID, ODG, response to SIGAR data call, 6/30/2014.
500	 USAID/ALBA, “Budget and Oversight Bulletin, Year I—Issue I,        527	 USAID, ODG, response to SIGAR data call, 6/30/2014 and
     1st Quarter, 1393,” 7/2014, pp. 1­–4.                                   9/29/2014.
501	 USAID/ALBA, “Budget and Oversight Bulletin, Year I—Issue I,        528	 USAID, ODG, response to SIGAR data call, 9/29/2014.
     1st Quarter, 1393,” 7/2014, p. 4.                                  529	 USAID, ODG, response to SIGAR data call, 6/30/2014.




REPORT TO THE UNITED STATES CONGRESS         I   OCTOBER 30, 2014                    257
                                                        ENDNOTES




530	 ToloNews, “President Ghani’s First Week at Office,” 10/6/2014.      559	 SIGAR, Audit 13-16, Stability in Key Areas (SIKA) Programs:
531	 SIGAR, Audit 14-32-AR, Direct Assistance: USAID Has Taken                After 16 Months and $47 Million Spent, USAID Had Not Met
     Positive Action to Assess Afghan Ministries’ Ability to                  Essential Program Objectives, 7/2013, pp. 7, 18.
     Manage Donor Funds, But Concerns Remain, 1/30/2014.                 560	 Management Systems International, Stability in Key Areas-
532	 Management Sciences for Health, “Leadership, Management,                 North Mid-Term Performance Evaluation Report, 8/4/2014, p. 2.
     and Governance Project in Afghanistan,” 7/15/2013; USAID,           561	 Management Systems International, Stability in Key Areas-
     OSSD, response to SIGAR vetting, 4/14/2014.                              North Mid-Term Performance Evaluation Report, 8/4/2014,
533	 USAID, “Cooperative Agreement No. AID-306-A-13-00001,                    p. 24; SIGAR Audit 13-16, Stability in Key Areas (SIKA)
     Ministry of Women’s Affairs Organizational Restructuring and             Programs: After 16 Months and $47 Million Spent, USAID
     Empowerment (MORE),” 12/20/2012, pp. 29–30.                              Had Not Met Essential Program Objectives, 7/2013, p. 26.
534	 USAID, OPPD, response to SIGAR data call, 6/30/2014.                562	 Management Systems International, Stability in Key Areas-North
535	 IDLG, “National Priority Programme for Local Governance:                 Mid-Term Performance Evaluation Report, 8/4/2014, p. 24.
     Making the NPP Implementable,” 3/2012, pp. 20–21.                   563	 SIGAR, “Interview with SIKA North Chief of Party,” 4/17/2013.
536	 USAID, OPPD, response to SIGAR data call, 9/29/2014.                564	 Management Systems International, Stability in Key Areas-North
537	 Government of Afghanistan, “Capacity Building For Results                Mid-Term Performance Evaluation Report, 8/4/2014, p. 24.
     (CBR) Facility Criteria For Support To Participating Ministries,”   565	 SIGAR, Audit 13-16, Stability in Key Areas (SIKA) Programs:
     2012, pp. 2, 5.                                                          After 16 Months and $47 Million Spent, USAID Had Not Met
538	 World Bank, “Implementation Status & Results Afghanistan                 Essential Program Objectives, 7/2013, p. 26.
     Capacity Building for Results Facility,” 8/8/2014, pp. 1, 3–4.      566	 Management Systems International, Stability in Key Areas-North
539	 USAID, OPPD, response to SIGAR data call, 9/29/2014; USAID,              Mid-Term Performance Evaluation Report, 8/4/2014, p. 20.
     OPPD, response to SIGAR data call, 6/30/2014.                       567	 Management Systems International, Stability in Key Areas-West
540	 USAID, OPPD, response to SIGAR data call, 9/29/2014.                     Mid-Term Performance Evaluation Report, 3/26/2014, pp. 3–4.
541	 USAID, “Contract No. AID-OAA-I-12-00003/AID-                        568	 Management Systems International, Stability in Key Areas-North
     306-TO-13-00004,” 3/28/2013, p. 9.                                       Mid-Term Performance Evaluation Report, 8/4/2014, pp. 2, 12.
542	 USAID, ODG, response to SIGAR data call, 9/29/2014.                 569	 Management Systems International, Stability in Key Areas-North
543	 USAID/ALBA, “Budget and Oversight Bulletin, Year I — Issue I,            Mid-Term Performance Evaluation Report, 8/4/2014, p. 25.
     1st Quarter, 1393,” 7/2014, p. 4.                                   570	 USAID, OTI, response to SIGAR data call, 6/30/2014.
544	 USAID, ODG, response to SIGAR data call, 9/29/2014.                 571	 Caerus Analytics, Community Cohesion Initiative (CCI) Mid-
545	 State, SRAP, response to SIGAR data call, 10/7/2014.                     Term Performance Evaluation Report, 5/15/2014, pp. 5, 10.
546	 USAID, ODG, response to SIGAR data call, 9/29/2014.                 572	 Caerus Analytics, Community Cohesion Initiative (CCI) Mid-
547	 USAID, ODG, response to SIGAR data call, 9/29/2014.                      Term Performance Evaluation Report, 5/15/2014, p. 18.
548	 ToloNews, “Minister of Public Works Summoned by                     573	 Caerus Analytics, Community Cohesion Initiative (CCI) Mid-
     Parliament,” 9/13/2014.                                                  Term Performance Evaluation Report, 5/15/2014, p. 26.
549	 ToloNews, “Parliament Summons Security Ministers,” 9/17/2014;       574	 USAID, OTI, response to SIGAR data call, 9/29/2014.
     State, SRAP, response to SIGAR data call, 10/7/2014.                575	 USAID, OTI, response to SIGAR data call, 9/29/2014.
550	 State, SRAP, response to SIGAR data call, 10/7/2014.                576	 USAID, OTI, response to SIGAR data call, 9/29/2014.
551	USAID, U.S. Foreign Assistance for Afghanistan: Post                 577	 SIGAR, Audit 13-16, Stability in Key Areas (SIKA) Programs:
     Performance Management Plan 2011–2015, 10/2010, pp.                      After 16 Months and $47 Million Spent, USAID Had Not Met
     9–10, 25.                                                                Essential Program Objectives, 7/2013, pp. 4, 9–10; SIGAR, Audit
552	 Pajhwok, “All governors to work in acting capacity,” 10/2/2014;          11-8, Afghanistan’s National Solidarity Program Has Reached
     ToloNews, “President Ghani’s First Week at Office,” 10/6/2014.           Thousands of Afghan Communities, but Faces Challenges that
553	 ToloNews, “Attah Mohammad Noor Responds to Ashraf Ghani,”                Could Limit Outcomes, 11/22/2011, p. 8.
     8/19/2014; Pajhwok, “Noor to respect replacement orders,”           578	 Caerus Analytics, Community Cohesion Initiative (CCI) Mid-
     10/2/2014.                                                               Term Performance Evaluation Report, 5/15/2014, p. 38.
554	 USAID, OPPD, response to SIGAR vetting, 7/14/2014; USAID,           579	 Caerus Analytics, Community Cohesion Initiative (CCI) Mid-
     OPPD, response to SIGAR vetting, 10/13/2014.                             Term Performance Evaluation Report, 5/15/2014, p. 28.
555	 USAID, “Cooperative Agreement AID-306-A-13-00008 Kandahar           580	 USAID, OTI, response to SIGAR data call, 9/29/2014.
     Food Zone (KFZ),” 7/31/2013, p. 31; USAID, OPPD, response to        581	 USAID, OTI, response to SIGAR data call, 9/29/2014.
     SIGAR data call, 9/29/2014.                                         582	DOD/State, U.S. Civil-Military Strategic Framework for
556	 USAID, OPPD, response to SIGAR data call, 9/29/2014.                     Afghanistan: Revision 2, 8/2013, p. 12.
557	 SIGAR, Alert 13-1, National Geospatial-Intelligence Agency          583	 United Nations Secretary-General, The situation in
     Analysis on Afghanistan Infrastructure and Security                      Afghanistan and its implications for international peace and
     Cartography System, 1/29/2013; SIGAR, Letter to Mr. William              security, 6/18/2014, p. 15.
     Hammink Mission Director, Afghanistan U.S. Agency for               584	 ToloNews, “Karzai Defends the Release of Taliban Prisoners,”
     International Development (USAID), 9/11/2013.                            7/28/2014.
558	 SIGAR, Audit 13-16, Stability in Key Areas (SIKA) Programs:         585	 The Guardian, “Afghanistan’s marathon presidential election
     After 16 Months and $47 Million Spent, USAID Had Not Met                 brings country to standstill,” 8/12/2014.
     Essential Program Objectives, 7/2013, p. 3.




                                                  258                    SPECIAL INSPECTOR GENERAL       I   AFGHANISTAN RECONSTRUCTION
                                                       ENDNOTES




586	 ToloNews, “Afghan HPC’s Policies Toward the Taliban a            617	 State, INL, response to SIGAR vetting, 10/14/2014.
     Failure,” 9/24/2014.                                             618	 The Associated Press, “New Afghan leader to name woman to
587	 State, response to SIGAR vetting, 1/14/2014.                          Supreme Court,” 9/22/2014.
588	 Ronna, “Mission of the FRIC,” accessed 1/07/2013; DOD, FRIC,     619	 ToloNews, “Supreme Court Rejects President’s Allegations of
     response to SIGAR data call, 9/29/2014.                               Corruption,” 10/1/2014.
589	 DOD, FRIC, response to SIGAR data call, 9/29/2014.               620	 ToloNews, “Need for Extensive Reforms in Legal & Judicial
590	 DOD, FRIC, response to SIGAR data call, 9/29/2014.                    Institutions: Massoud,” 10/2/2014.
591	SIGAR, Quarterly Report to the United States Congress,            621	 State, INL, response to SIGAR data call, 9/24/2014.
     1/30/2014, pp. 130–131.                                          622	 State, INL, response to SIGAR data call, 9/24/2014.
592	 State, SRAP, response to SIGAR data call, 10/7/2014.             623	 State, INL, response to SIGAR data call, 9/24/2014.
593	 State, SRAP, response to SIGAR data call, 10/7/2014.             624	 State, INL, response to SIGAR data call, 9/24/2014.
594	 State, SRAP, response to SIGAR data call, 10/7/2014.             625	 State, INL, response to SIGAR data call, 9/24/2014.
595	 DOD, FRIC, response to SIGAR data call, 9/29/2014.               626	 USAID, ODG, response to SIGAR data call, 7/23/2014.
596	 State, response to SIGAR vetting, 1/14/2014; DOD, FRIC,          627	 Afghanistan Justice Sector Support Program, “JSSP Legislative
     response to SIGAR data call, 12/31/2013.                              Reform Monthly Report,” 7/2014, pp. 2–3.
597	 State, SRAP, response to SIGAR data call, 10/7/2014.             628	 Pajhwok, “Jawzjan inmates end hunger strike,” 9/25/2014;
598	 The New York Times, “Afghanistan Reverses Expulsion of                Pajhwok, “Ghazni inmates go on hunger strike,” 8/24/2014;
     Times Reporter,” 10/5/2014; The New York Times, “Afghan               Pajhwok, “Striking prisoners to talk only to Kabul delegation,”
     Presidential Contenders Say They Will Reverse Expulsion of            10/6/2014.
     Times Reporter,” 8/22/2014.                                      629	 Office of the President, “President’s order on Kabul Bank
599	 The New York Times, “In a Final Act, Karzai Orders Execution          Crisis,” 10/1/2014.
     of 5 Men in Rape Case,“ 9/27/2014.                               630	 Islamic Republic of Afghanistan, “The Constitution of
600	 ToloNews, “Paghman Rapists and Notorious Kidnapper                    Afghanistan,” 1/26/2004.
     Executed,” 10/8/2014.                                            631	 DOJ, response to SIGAR data call, 10/13/2014.
601	 Afghanistan Justice Sector Support Program, “JSSP Legislative    632	 Pajhwok, “Convicted ex-mayor of Khost finally jailed,”
     Reform Monthly Report,” 7/3/2014, pp. 2–3.                            10/14/2014.
602	 Afghanistan Justice Sector Support Program, “JSSP Legislative    633	 State, INL, response to SIGAR data call, 9/24/2014; State, INL,
     Reform Monthly Report,” 7/3/2014, pp. 2–3.                            response to SIGAR vetting, 10/14/2014.
603	 Tetra Tech DPK, “Rule of Law Stabilization Program–Formal        634	 DOJ, response to SIGAR data call, 10/13/2014.
     Component Final Report,” 9/14/2014, pp. 1–2.                     635	 Pajhwok, “Reforming AGO a matter of survival: Ahmadzai,”
604	 Tetra Tech DPK, “Rule of Law Stabilization Program–Formal             10/8/2014.
     Component Final Report,” 9/14/2014, p. 3.                        636	 Pajhwok, “Cabinet strips AGO of monitoring power,”
605	 Tetra Tech DPK, “Rule of Law Stabilization Program–Formal             10/15/2014.
     Component Final Report,” 9/14/2014, pp. 3–4, 8.                  637	 State, INL, response to SIGAR data call, 9/24/2014.
606	 Integrity Watch Afghanistan, “2 Year Project Completion Report   638	SIGAR, Quarterly Report to the United States Congress,
     Under Grant No. AID-306-F-12-00003,” 8/21/2014, pp. 2, 5.             10/30/2013, p. 137.
607	 Integrity Watch Afghanistan, “2 Year Project Completion Report   639	 State, INL, response to SIGAR data call, 9/24/2014.
     Under Grant No. AID-306-F-12-00003,” 8/21/2014, pp. 3–4.         640	 State, INL, response to SIGAR data call, 9/24/2014.
608	 USAID, ODG, response to SIGAR data call, 9/29/2014.              641	 State, INL, response to SIGAR data call, 9/24/2014; State, INL,
609	 USAID, ODG, response to SIGAR data call, 9/29/2014.                   response to SIGAR vetting, 10/14/2014.
610	 Sayara Research, Performance Evaluation of the Rule of Law       642	 State, INL, response to SIGAR data call, 9/24/2014.
     Stabilization-Informal Component Program, 5/2014, p. 13.         643	SIGAR, Quarterly Report to the United States Congress,
611	 Sayara Research, Performance Evaluation of the Rule of Law            10/30/2013, p. 137.
     Stabilization-Informal Component Program, 5/2014, p. 32.         644	 State, INL, response to SIGAR data call, 9/24/2014.
612	 Sayara Research, Performance Evaluation of the Rule of Law       645	 DOD, EF2, response to SIGAR data call, 9/29/2014.
     Stabilization-Informal Component Program, 5/2014, p. 39.         646	 CJIAT-A, “Responses to SIGAR’s 31 July 2014 Letter of lnquiry to
613	 USAID, ODG, response to SIGAR data call, 9/29/2014.                   General Dunford, COMISAF,” 9/18/2014, pp. 1, 3.
614	 SIGAR, Audit 14-26, Support for Afghanistan’s Justice Sector:    647	 DOD, EF2, response to SIGAR data call, 9/29/2014.
     State Department Programs Need Better Management and             648	 DOD, EF2, response to SIGAR data call, 9/29/2014.
     Stronger Oversight, 1/2014, p. 1.                                649	 DOD, EF2, response to SIGAR data call, 9/29/2014.
615	 Afghanistan Justice Sector Support Program, “Justice Sector      650	 DOD, EF2, response to SIGAR data call, 9/29/2014.
     Ministry Consolidated Monthly Capacity Report for the Afghan     651	 DOD, EF2, response to SIGAR data call, 9/29/2014.
     Attorney General’s Office, Ministry of Justice, Ministry of      652	 State, PRM, response to SIGAR data call, 9/25/2014.
     Women’s Affairs and the Supreme Court,” 8/6/2014, p. 4.          653	 State, PRM, response to SIGAR data call, 9/25/2014.
616	 Afghanistan Justice Sector Support Program, “Justice Sector      654	 State, PRM, response to SIGAR data call, 6/30/2014.
     Ministry Consolidated Monthly Capacity Report for the Afghan     655	 State, PRM, response to SIGAR data call, 9/25/2014.
     Attorney General’s Office, Ministry of Justice, Ministry of      656	 State, PRM, response to SIGAR data call, 9/25/2014.
     Women’s Affairs and the Supreme Court,” 8/6/2014, p. 5.          657	 State, SRAP, response to SIGAR data call, 10/7/2014.




REPORT TO THE UNITED STATES CONGRESS        I   OCTOBER 30, 2014                   259
                                                       ENDNOTES




658	 AIHRC, “National Inquiry on the causes and consequences of        684	 Independent Joint Anti-Corruption Monitoring and Evaluation
     Bacha Bazi in Afghanistan,” 8/2014.                                    Committee, “Writing Off the Unpaid Electricity Bills of
659	 State, SRAP, response to SIGAR data call, 10/7/2014.                   Government Entities and Influential Individuals Contributes to
660	 World Bank, South Asia Economic Focus, Fall 2014, p. 40; IMF,          Corruption in the Electricity Sector,” Backgrounder, 9/16/2014;
     2014 Article IV Consultation–Staff Report; Press Release;              Da Afghanistan Bank, “Daily Exchange rate of Selected
     And Statement By The Executive Director For The Islamic                Currencies to Afghani,” 10/14/2014; ToloNews, “Breshan Says
     Republic Of Afghanistan, 5/2014, p. 5.                                 Top Officials, Ministries Fail to Pay Electric Bills,” 9/21/2014.
661	MOF, Monthly Fiscal Bulletin, Month 7, 1393, 9/6/2014.             685	 Reuters, “Lights Set To Go Out In Kandahar After U.S. Aid
662	 The Washington Post, “Afghan Official Says the Government              Winds Down,” 8/5/2014; Wasdam, “Breshna Company Collects
     Has Nearly Run Out of Money, Needs U.S. Bailout,” 9/16/2014;           Only 50% of Electricity Bills in Helmand,” 8/3/2014.
     Reuters, “Cash-Poor Afghanistan Will Delay Paying Civil           686	 European Commission, Directorate-General for Trade,
     Servants: Finance Ministry Official,” 9/27/2014.                       “European Union, Trade in Goods with Afghanistan,” 8/27/2014.
663	 GIROA, Office of the President, “Decree 02 President’s Order      687	 IMF, 2014 Article IV Consultation–Staff Report; Press Release;
     on Kabul Bank Crisis,” 10/1/2014; Pajhwok, “President Orders           And Statement By The Executive Director For The Islamic
     Kabul Bank Case Reopened,” 10/1/2014.                                  Republic Of Afghanistan, 5/2014.
664	 Independent Joint Anti-Corruption Monitoring and Evaluation       688	 World Bank, South Asia Economic Focus, Fall 2014, p. 10.
     Committee, Unfinished Business: The Follow-Up Report on           689	IMF, 2014 Article IV Consultation–Staff Report; Press Release;
     Kabul Bank, 10/2/2014.                                                 And Statement By The Executive Director For The Islamic
665	 MOMP, “Afghanistan Going Toward Self Sufficiency By                    Republic Of Afghanistan, 5/2014, p. 44.
     Implementing The Mineral Law,” 8/20/2014.                         690	 World Bank, South Asia Economic Focus, Fall 2014, p. 11.
666	 MOMP, “Ministry of Mines Begins Consultative Process in           691	IMF, 2014 Article IV Consultation–Staff Report; Press Release;
     Support of Improved Minerals Law,” 5/5/2012; TFBSO, response           And Statement By The Executive Director For The Islamic
     to SIGAR data call, 7/1/2014 and 9/29/2014; State, response to         Republic Of Afghanistan, 5/2014, p. 13.
     SIGAR data call, 10/3/2014.                                       692	 Da Afghanistan Bank, “Daily Exchange Rates of Selected
667	 World Bank, South Asia Economic Focus, Fall 2014, pp. 24, 40.          Currencies to the Afghani,” 1/3/2012 and 9/30/2014.
668	 World Bank, South Asia Economic Focus, Fall 2014, p. 40.          693	IMF, 2014 Article IV Consultation–Staff Report; Press Release;
669	 World Bank, South Asia Economic Focus, Fall 2014, p. 18.               And Statement By The Executive Director For The Islamic
670	IMF, 2014 Article IV Consultation–Staff Report; Press Release;          Republic Of Afghanistan, 5/2014, p. 44.
     And Statement By The Executive Director For The Islamic           694	 World Bank, South Asia Economic Focus, Fall 2014, p. 30.
     Republic Of Afghanistan, 5/2014.                                  695	UNDP, Toward Human Resilience: Sustaining MDG Progress
671	IMF, 2014 Article IV Consultation–Staff Report; Press Release;          in an Age of Economic Uncertainty, Export Dependence and
     And Statement By The Executive Director For The Islamic                Export Concentration, 12/9/2011, p. 24.
     Republic Of Afghanistan, 5/2014.                                  696	 World Bank, Export Competitiveness Network, Export Trends
672	MOF, Monthly Fiscal Bulletin, Month 7, 1393, 9/6/2014.                  and Trade Structure Indices, accessed 10/7/2014.
673	 World Bank, South Asia Economic Focus, Fall 2014, p. 40.          697	IMF, 2014 Article IV Consultation–Staff Report; Press Release;
674	 World Bank, South Asia Economic Focus, Fall 2014, p. 40; MOF,          And Statement By The Executive Director For The Islamic
     Monthly Fiscal Bulletin, Month 7, 1393, 9/6/2014.                      Republic Of Afghanistan, 5/2014, p. 44; Treasury, response to
675	 Wasdam, “Donors Have Not Fulfilled Their Commitments Made              SIGAR data call, 10/1/2014; World Bank, “Exports of Goods and
     at the Tokyo Conference: Afghan Finance Minister,” 5/11/2014.          Services (% of GDP),” accessed 10/11/2014.
676	MOF, Semi Annual Performance Report 1393 on Strategic              698	 Treasury, response to SIGAR data call, 10/1/2014.
     Plan, 8/20/2014, p. 10; BBC, “Afghan Vote Crisis ‘Costing         699	IMF, 2014 Article IV Consultation–Staff Report; Press Release;
     Billions’ Says Finance Minister,” 8/25/2014; State, response to        And Statement By The Executive Director For The Islamic
     SIGAR data call, 10/3/2014.                                            Republic Of Afghanistan, 5/2014, p. 44; Treasury, response to
677	 State, response to SIGAR data call, 10/3/2014.                         SIGAR data call, 10/1/2014; Treasury, response to SIGAR vetting,
678	SIGAR, Quarterly Reports to the United States Congress,                 10/9/2014.
     7/30/2014, p. 153; 1/30/2014, p. 147; 1/30/2013, p. 125.          700	 Treasury, response to SIGAR data call, 10/1/2014; FATF,
679	 World Bank, South Asia Economic Focus, Fall 2014, pp. 18–19.           Financial Flows Linked to the Production and Trafficking of
680	IMF, 2014 Article IV Consultation–Staff Report; Press Release;          Afghan Opiates, 6/2014, pp. 18–19.
     And Statement By The Executive Director For The Islamic           701	 USAID, “Afghanistan Trade and Revenue Project,” 12/30/2013.
     Republic Of Afghanistan, 5/2014, p. 74.                           702	 USAID, response to SIGAR data call, 6/30/2014 and 9/30/2014;
681	 World Bank, Afghanistan: Transition to Transformation                  USAID, response to SIGAR vetting, 7/14/2014.
     Update, JCMB Meeting, 1/29/2014.                                  703	 World Bank, Afghanistan Economic Update, 4/2013, p. 12; IMF,
682	 Independent Joint Anti-Corruption Monitoring and Evaluation            2014 Article IV Consultation–Staff Report; Press Release;
     Committee, “Afghanistan Loses a Substantial Amount of its              And Statement By The Executive Director For The Islamic
     Revenue Due to Ineffective Customs Control,” News Release,             Republic Of Afghanistan, 5/2014, p. 15.
     6/10/2014.                                                        704	 World Bank, Afghanistan Economic Update, 4/2013, p. 12.
683	 World Bank, South Asia Economic Focus, Fall 2014, p. 41.




                                                 260                   SPECIAL INSPECTOR GENERAL        I   AFGHANISTAN RECONSTRUCTION
                                                        ENDNOTES




705	IMF, 2014 Article IV Consultation–Staff Report; Press Release;      729	 Independent Joint Anti-Corruption Monitoring and Evaluation
     And Statement By The Executive Director For The Islamic                 Committee, Unfinished Business: The Follow-Up Report on
     Republic Of Afghanistan, 5/2014, p. 16.                                 Kabul Bank, 10/2/2014.
706	 Treasury, response to SIGAR data call, 10/1/2014.                  730	 Tokyo Mutual Accountability Framework, Special Joint
707	 Treasury, response to SIGAR data call, 10/1/2014.                       Coordination and Monitoring Board Meeting Joint Report,
708	 SIGAR, Audit 14-16-AR, Afghanistan’s Banking Sector: Central            1/29/2014.
     Bank’s Capacity to Regulate Commercial Banks Remains               731	 State, response to SIGAR data call, 10/3/2014.
     Weak, 1/8/2014, pp. 8, 10.                                         732	 State, response to SIGAR data call, 6/30/2014 and 10/3/2014.
709	 State, response to SIGAR data call, 9/26/2013; FATF, Financial     733	 USAID, response to SIGAR data call, 9/29/2014.
     Flows Linked to the Production and Trafficking of Afghan           734	 USAID, response to SIGAR data call, 9/29/2014.
     Opiates, 6/2014, p. 18.                                            735	 USAID, response to SIGAR data call, 6/30/2014.
710	 World Bank, Afghanistan Economic Update, 4/2013, p. 11; IMF,       736	 World Bank, Afghanistan Economic Update, 4/2013, p. 4; World
     2014 Article IV Consultation–Staff Report; Press Release; And           Bank, “Competitiveness and Inclusive Growth for Sustainable
     Statement By The Executive Director For The Islamic Republic            Jobs,” 5/7/2013, p. 20; MOF, “H.E. Finance Minister’s Speech for
     Of Afghanistan, 5/2014.                                                 Misrano Jirga Regarding Submission of 1392 National Budget,”
711	FATF, Financial Flows Linked to the Production and                       11/6/2012, p. 6.
     Trafficking of Afghan Opiates, 6/2014, pp. 18–19.                  737	 World Bank, “Afghanistan, From Transition to Transformation
712	State, International Narcotics Control Strategy Report, Vol. II,         II,” Senior Officials Meeting, 7/2/2013.
     3/2014.                                                            738	 USIP, “Extractive Industries and Peacebuilding in Afghanistan,
713	State, International Narcotics Control Strategy Report, Vol. II,         The Role of Social Accountability, Special Report 339,”
     3/2014.                                                                 10/30/2013.
714	 FATF, “Improving Global AML/CFT Compliance: On-Going               739	 Treasury, response to SIGAR data call, 10/1/2014.
     Process,” 6/27/2014; FATF, “High-Risk and Non-Cooperative          740	 TFBSO, response to SIGAR data call, 7/1/2014; Global Witness,
     Jurisdictions, FATF Public Statement,” 2/14/2014; FATF,                 “Afghan Election Must Respect and Strengthen the Rule of
     “Outcomes From the Meeting of the FATF Plenary, Paris, 25–27            Law,” 4/4/2014; Ariana News, “1400 Mines Being Operated
     June 2014,” 6/27/2014; State, response to SIGAR data call,              Illegally in Afghanistan,” 5/8/2014.
     6/30/2014; Treasury, response to SIGAR vetting, 7/11/2014.         741	UN, Fourth Report of the Analytical Support and Sanctions
715	 State, response to SIGAR data call, 10/3/2014.                          Monitoring Team, 6/10/2014, p. 3; Global Witness, “The Case for
716	 Treasury, response to SIGAR data call, 10/3/2014; Treasury,             Human Rights Due Diligence,” 5/26/2014.
     response to SIGAR vetting, 10/10/2014; UNSC, Resolution 1267,      742	 MOMP, “Afghanistan Going Toward Self Sufficiency By
     10/15/1999; UNSC, Security Council Committee Established                Implementing The Mineral Law,” 8/20/2014.
     Pursuant to Resolution 1988, accessed 10/7/2014.                   743	 MOMP, “Ministry of Mines Begins Consultative Process in
717	 State, response to SIGAR data call, 10/3/2014.                          Support of Improved Minerals Law,” 5/5/2012.
718	 Treasury, response to SIGAR data call, 10/3/2014.                  744	 TFBSO, response to SIGAR data call, 7/1/2014 and 9/29/2014.
719	 Treasury, response to SIGAR data call, 10/3/2014.                  745	 State, response to SIGAR data call, 10/3/2014.
720	 Treasury, response to SIGAR data call, 6/30/2014.                  746	 TFBSO, response to SIGAR data call, 7/1/2014 and 9/29/2014.
721	 Treasury, response to SIGAR vetting, 7/11/2014.                    747	 TFBSO, response to SIGAR data call, 7/1/2014.
722	 Treasury, response to SIGAR data call, 12/30/2013 and 6/30/2014;   748	 State, response to SIGAR data call, 7/3/2014 and 9/26/2013;
     Treasury, response to SIGAR vetting, 7/11/2014.                         State, response to SIGAR vetting 7/11/2014.
723	 GIROA, Office of the President, “Decree 02 President’s Order       749	 World Bank, “Competitiveness and Inclusive Growth for
     on Kabul Bank Crisis,” 10/1/2014; Pajhwok, “President Orders            Sustainable Jobs,” 5/7/2013.
     Kabul Bank Case Reopened,” 10/1/2014.                              750	 TFBSO, response to SIGAR data call, 7/1/2014 and 9/29/2014;
724	 ToloNews, “Kabul Bank Case Heads to Court,” 10/7/2014;                  MOMP, “Preferred Bidder for Zarkashan Project,” 12/16/2012.
     Khaama Press, “7 People Arrested Since Reopening of Kabul          751	 TFBSO, response to SIGAR data call, 9/29/2014; MOMP, “SDNRP
     Bank Scandal Case,” 10/11/2014.                                         – Up To Date Progress Report,” 7/2014.
725	 DOJ, response to SIGAR data call, 4/2/2014, 6/1/2014, and          752	 TFBSO, response to SIGAR data call, 9/29/2014; TFBSO,
     6/29/2013; State, response to SIGAR data call, 3/25/2013; State,        response to SIGAR vetting, 10/9/2014.
     INL, response to SIGAR vetting, 4/1/2014 and 4/12/2014.            753	 TFBSO, response to SIGAR data call, 9/29/2014; MOMP,
726	 DOJ, response to SIGAR data call, 10/13/2014.                           “Afghanistan Ministry of Mines Announces the Winning Bidders
727	 Independent Joint Anti-Corruption Monitoring and Evaluation             for the Hajigak Iron Ore Project Tender,” 6/23/2012.
     Committee, Unfinished Business: The Follow-Up Report on            754	 Bloomberg News, “SAIL-led Consortium to Cut Spend on
     Kabul Bank, 10/2/2014.                                                  Afghan Iron-Ore Mine,” 11/11/2013; Foreign Policy, “What’s to
728	 Tokyo Conference on Afghanistan, Tokyo Mutual                           become of Afghanistan’s Mines?” 4/2/2014; TFBSO, response to
     Accountability Framework, 7/8/2012, accessed 7/4/2013; IMF,             SIGAR data call, 7/1/2014.
     2014 Article IV Consultation–Staff Report; Press Release;          755	 MOMP, “Afghanistan Going Toward Self Sufficiency By
     And Statement By The Executive Director For The Islamic                 Implementing The Mineral Law,” 8/20/2014.
     Republic Of Afghanistan, 5/2014.                                   756	 TFBSO, response to SIGAR data call, 4/1/2014.




REPORT TO THE UNITED STATES CONGRESS         I   OCTOBER 30, 2014                    261
                                                       ENDNOTES




757	 World Bank, Islamic State of Afghanistan, Pathways to             788	 USAID, response to SIGAR data call, 9/30/2013 and 12/31/2013;
     Inclusive Growth, Report No: ACS8228, 3/2014.                          TFBSO, response to SIGAR data call, 7/1/2014.
758	 TFBSO, response to SIGAR data call, 4/1/2014.                     789	 USAID, response to SIGAR data call, 9/30/2013 and 12/31/2013.
759	 IMF, “Commodity Price Outlook and Risks,” 9/18/2014.              790	 MOMP, “The Contract for the Rehabilitation and Drilling of
760	 Revenue Watch Institute, The 2013 Resource Governance                  Gas Wells in Juma and Bashikord Signed,” 12/14/2013; USAID,
     Index, 6/6/2013.                                                       response to SIGAR data call, 12/31/2013.
761	 Integrity Watch Afghanistan, Comparative Study Of Mining-         791	 MOMP, “The Contract for the Rehabilitation and Drilling of
     Sector Governance, 6/30/2014.                                          Gas Wells in Juma and Bashikord Signed,” 12/14/2013; USAID,
762	 MOMP, “SDNRP–Ministry of Mines and Petroleum PMU, Up To                response to SIGAR data call, 12/31/2013.
     Date Progress Report,” 8/2014; TFBSO, response to SIGAR data      792	 TFBSO, response to SIGAR data call, 7/1/2014 and 9/29/2014.
     call, 9/29/2014; United Nations News Centre, “UN in Afghanistan   793	 TFBSO, response to SIGAR data call, 9/29/2014; TFBSO,
     Condemns Deadly Attack on De-Miners in Central Region,”                response to SIGAR vetting, 10/9/2014.
     6/10/2014.                                                        794	 TFBSO, response to SIGAR data call, 9/29/2014; TFBSO,
763	 TFBSO, response to SIGAR data call, 7/1/2014; TFBSO,                   response to SIGAR vetting, 10/9/2014.
     response to SIGAR vetting, 10/9/2014.                             795	 World Bank, Afghanistan: Country Snapshot, 3/2014.
764	 State, response to SIGAR data call, 9/26/2013.                    796	 NSC, Report in Response to Section 1535(c) of the Ike Skelton
765	 MOF, “1393 National Budget,” accessed 4/2/2014; MOF, “1392             National Defense Authorization Act for Fiscal Year 2011 (Pub.
     National Budget,” accessed 4/2/2014.                                   L. 111-383).
766	 TFBSO, response to SIGAR data call, 7/1/2014.                     797	 USAID, response to SIGAR data call, 6/30/2014.
767	 TFBSO, response to SIGAR data call, 9/29/2014; TFBSO,             798	 USAID, response to SIGAR data call, 10/9/2014.
     response to SIGAR vetting, 10/9/2014.                             799	 USAID, response to SIGAR data call, 9/30/2014.
768	 TFBSO, response to SIGAR data call, 9/29/2014.                    800	 USAID, response to SIGAR data call, 9/30/2013; USAID,
769	 TFBSO, response to SIGAR data call, 9/29/2014.                         response to SIGAR vetting, 7/14/2014.
770	TFBSO, Update on Transition Plan and Report on Transition          801	 USAID OAG, response to SIGAR vetting, 10/13/2014.
     Implementation During Fiscal Year 2014, 4/23/2014; TFBSO,         802	 USAID OAG, response to SIGAR data call, 9/30/2014.
     response to SIGAR vetting, 10/9/2014.                             803	 USAID, response to SIGAR vetting, 7/14/2014.
771	 TFBSO, response to SIGAR data call, 10/6/2014.                    804	USAID, Incentives Driving Economic Alternatives for the
772	TFBSO, Update on Transition Plan and Report on Transition               North, East and West, July 2014 Monthly Report; ACDI/VOCA,
     Implementation During Fiscal Year 2014, 4/23/2014.                     The Importance of Input Supply to Value Chain Performance,
773	 USAID, response to SIGAR data call, 9/29/2014.                         accessed 10/14/2014.
774	 USAID, response to SIGAR data call, 3/31/2014.                    805	USAID, Commercial Horticulture and Agricultural Marketing
775	 USAID, response to SIGAR data call, 9/29/2014.                         Program (CHAMP), July 2014 Monthly Report.
776	USAID, MIDAS, Monthly Progress Report, 6/2014; MOMP,               806	USAID, Commercial Horticulture and Agricultural Marketing
     “Mineral Tender Project Support,” SRK Consulting, 6/2011.              Program (CHAMP), July 2014 Monthly Report.
777	 USAID, response to SIGAR vetting, 10/9/2014.                      807	 World Bank, Islamic State of Afghanistan, Pathways to
778	 MOMP, “Oil and Gas Resources,” accessed 7/14/2014; MOMP,               Inclusive Growth, Report No: ACS8228, 3/2014.
     “Contracts, Hydrocarbons,” accessed 7/14/2014.                    808	 World Bank, Afghanistan: Country Snapshot, 3/2014.
779	 TFBSO, response to SIGAR vetting, 10/9/2014; BIC Alliance         809	CIA, World Factbook, Field Listing: Urbanization, accessed
     Magazine, “WBI Energy’s Bietz: Topping Plant to Begin                  10/6/2014.
     Operation in 2014, Special Feature,” accessed 10/9/2014.          810	DOD, Report on Progress Toward Security and Stability
780	 ACCI, “The First Afghanistan’s Refinery Opened,” 8/25/2013.            in Afghanistan, 11/2013, p. 106; USAID, “Factsheet:
781	 ADB, “Afghanistan, Gas Development Master Plan, Project Data           Infrastructure,” 2/2013, accessed 9/10/2013.
     Sheet,” 4/17/2014.                                                811	 USAID, response to SIGAR vetting, 7/14/2014; USAID, response
782	 MOMP, “10 Reasons to Invest In Afghanistan’s Mining Sector,”           to SIGAR data call, 6/30/2014 and 9/29/2014.
     accessed 4/2/2014; GIROA, “Contract on Amu Darya Oil Enjoys       812	 USAID, response to SIGAR vetting, 1/15/2014; DOD, response to
     Highest Degree of Transparency and Fairness: U.S. and UK               SIGAR vetting, 7/11/2014 and 10/15/2014.
     Ambassadors in Meeting with President Karzai,” 6/23/2012.         813	 USAID, response to SIGAR data call, 7/1/2013; USAID, response
783	 TFBSO, response to SIGAR data call, 9/29/2014; TFBSO,                  to SIGAR vetting, 1/15/2014; DOD, Report on Progress Toward
     response to SIGAR vetting, 10/9/2014.                                  Security and Stability in Afghanistan, 11/2013.
784	 TFBSO, response to SIGAR vetting, 10/9/2014.                      814	 USAID, response to SIGAR vetting, 7/14/2014.
785	 MOMP, “Afghanistan Announces Third Oil and Gas Tender             815	 USAID, response to SIGAR vetting, 4/15/2013.
     in Three Years,” 1/7/2014; MOMP, “Request for Expression          816	 USAID, response to SIGAR vetting, 1/15/2014.
     of Interest-Oil and Gas Exploration and Production Tender,”       817	 USAID, response to SIGAR data call, 6/30/2014.
     9/27/2013; TFBSO, response to SIGAR data call, 9/29/2014.         818	 USAID, response to SIGAR data call, 3/31/2014 and 9/30/2014.
786	 TFBSO, response to SIGAR data call, 9/29/2014.                    819	 USAID, response to SIGAR data call, 9/30/2014; USAID, “New
787	 World Bank, Afghanistan: Country Snapshot, 3/2014.                     $27 Million U.S.-Afghan Project to Improve Electricity Delivery
                                                                            in Kandahar,” 9/1/2014.
                                                                       820	 USAID, response to SIGAR vetting, 1/15/2014.




                                                 262                   SPECIAL INSPECTOR GENERAL       I   AFGHANISTAN RECONSTRUCTION
                                                       ENDNOTES




821	 USAID, response to SIGAR data call, 9/29/2014.                        Economic Update, 4/2013; World Bank, Islamic State of
822	 USAID, response to SIGAR vetting, 1/15/2014.                          Afghanistan, Pathways to Inclusive Growth, Report No:
823	 USAID, response to SIGAR vetting, 10/13/2014.                         ACS8228, 3/2014.
824	 USAID, response to SIGAR vetting, 1/15/2014.                     859	 World Bank, Afghanistan: Country Snapshot, 3/2014.
825	 DOD, response to SIGAR data call, 10/6/2014.                     860	 USAID, response to SIGAR data call, 9/30/2014.
826	 National Defense Authorization Act for Fiscal Year 2014,         861	 USAID, response to SIGAR data call, 6/30/2014; USAID,
     Sec.1224, pp. 253–254; Consolidated Appropriations Act, 2014,         response to SIGAR vetting, 7/14/2014 and 10/13/2014; World
     Sec. 9016, p. 344; Library of Congress, Bill Summary & Status,        Bank, Afghanistan: Country Snapshot, 3/2014.
     113th Congress, H.R. 3547, Major Congressional Actions; DOD,     862	 USAID, response to SIGAR data call, 9/30/2014.
     response to SIGAR data call, 4/3/2014.                           863	 DOT, response to SIGAR data call, 3/31/2014 and 7/5/2014.
827	 DOD, response to SIGAR data call 1/13/2014 and 7/8/2014.         864	 USAID, response to SIGAR data call, 12/31/2013, 3/31/2014, and
828	 DOD, response to SIGAR data call, 10/6/2014.                          9/29/2014.
829	 DOD, response to SIGAR vetting, 10/16/2013 and 7/11/2014.        865	 Pajhwok Afghan News, “Asphalting of Khost-Gardez Road
830	 DOD, response to SIGAR data call, 7/8/2014 and 10/6/2014;             Begins,” 9/8/2014.
     DOD, response to SIGAR vetting, 7/11/2014.                       866	 USAID, response to SIGAR vetting, 7/14/2014.
831	 SIGAR, 14-68-SP, Inquiry Letter: Kandahar Bridging Solution,     867	USAID, U.S. Foreign Assistance for Afghanistan PMP
     6/10/2014.                                                            2011–2015.
832	 DOD, response to SIGAR data call, 9/30/2013; DOD, response to    868	 USAID, response to SIGAR data call, 9/30/2013.
     SIGAR vetting, 7/11/2014.                                        869	MOE, Education Joint Sector Review 2012, 9/2013.
833	 Federal Business Opportunities, Power Plant Consumables,         870	MOE, 1390 EMIS Statistical Analytical Report, 2012.
     Solicitation Number: W56KJD-14-T-0021, 10/6/2014;                871	 World Bank, Project Paper for a Proposed Grant in the amount
     Federal Business Opportunities, Power Plant Consumables,              of SDR 18.9 million to the Islamic Republic of Afghanistan for
     Solicitation Number: W56KJD-14-T-0021 Synopsis, 6/14/2014.            the Second Education Quality Improvement Project, 1/4/2008.
834	 DOD, response to SIGAR data call, 10/6/2014 and 10/7/2014;       872	 USAID, response to SIGAR data call, 9/29/2014.
     DOD, response to SIGAR vetting, 10/15/2014.                      873	 USAID, response to SIGAR data call, 9/29/2014.
835	 DOD, response to SIGAR data call, 10/6/2014 and 10/7/2014.       874	 USAID, response to SIGAR vetting, 4/14/2014 and 7/14/2014.
836	 DOD, response to SIGAR vetting, 10/16/2013.                      875	 USAID, Afghanistan, “Our Work, Education,” 3/24/2014.
837	 DOD, response to SIGAR data call, 10/6/2014 and 10/7/2014.       876	 USAID, response to SIGAR data call, 9/29/2014.
838	 DOD, response to SIGAR data call, 1/13/2014 and 10/6/2014;       877	 USAID, response to SIGAR data call, 6/30/2014; USAID,
     DOD, response to SIGAR vetting, 10/16/2013.                           response to SIGAR vetting, 7/14/2014 and 10/13/2014.
839	 DOD, response to SIGAR data call, 6/27/2013; DOD, response       878	 USAID, response to SIGAR data call, 9/29/2014.
     to SIGAR data call, 9/30/2013; DOD, response to SIGAR vetting,   879	MOE, Education Joint Sector Review 2012, 9/2013.
     10/16/2013.                                                      880	 USAID, response to SIGAR data call, 9/29/2014.
840	 SIGAR, Audit Report 12-12, Fiscal Year 2011 Afghanistan          881	 USAID, response to SIGAR data call, 9/29/2014.
     Infrastructure Fund Projects Are Behind Schedule and Lack        882	MOE, Education Joint Sector Review 2012, 9/2013.
     Adequate Sustainment Plans, 7/2012.                              883	 USAID, response to SIGAR data call, 9/29/2014.
841	 USAID, response to SIGAR data call, 9/30/2014.                   884	 USAID, response to SIGAR data call, 9/29/2014.
842	 USAID, response to SIGAR vetting, 10/13/2014.                    885	 USAID, response to SIGAR data call, 3/31/2014.
843	 USAID, response to SIGAR data call, 9/30/2014.                   886	USAID, University Support and Workforce Development
844	 USAID, response to SIGAR data call, 9/30/2014.                        Program, No. AID-306-A-13-00009-00, FY 2014 Quarterly
845	 USAID, response to SIGAR data call, 9/30/2014.                        Performance Report (QPR II), 7/30/2014.
846	 USAID, response to SIGAR data call, 9/30/2014.                   887	 USAID, $92 Million USAID Project to Help Higher Education,
847	 USAID OIG, Audit Report No. F-306-14-002-P, Audit of                  8/21/2014.
     USAID/Afghanistan’s Financial Access for Investing in the        888	 USAID, response to SIGAR data call, 3/31/2014; USAID,
     Development of Afghanistan Project, 3/29/2014.                        Quarterly Report November 1, 2013 To January 31, 2014,
848	 USAID, response to SIGAR data call, 9/30/2014.                        American University of Afghanistan, 1/31/2014.
849	 TFBSO, response to SIGAR data call, 10/2/2014.                   889	 World Bank, Afghanistan: Country Snapshot, 3/2014.
850	 TFBSO, response to SIGAR data call, 9/29/2014.                   890	USAID, U.S. Foreign Assistance for Afghanistan PMP
851	TFBSO, Update on Transition Plan and Report on Transition              2011–2015.
     Implementation During Fiscal Year 2014, 4/23/2014.               891	 USAID, response to SIGAR vetting, 7/14/2014.
852	 TFBSO, response to SIGAR data call, 10/2/2014.                   892	 USAID, response to SIGAR data call, 6/30/2014.
853	 TFBSO, response to SIGAR data call, 9/29/2014 and 10/2/2014.     893	 USAID, response to SIGAR data call, 4/11/2013; USAID,
854	 TFBSO, response to SIGAR data call, 9/29/2014 and 10/2/2014.          response to SIGAR vetting, 10/13/2013 and 7/14/2014.
855	 TFBSO, response to SIGAR data call, 9/29/2014.                   894	 USAID, response to SIGAR data call, 12/31/2013; USAID,
856	 TFBSO, response to SIGAR data call, 9/29/2014 and 10/2/2014.          response to SIGAR vetting, 7/14/2014.
857	 World Bank, Afghanistan Transport Sector, accessed 7/8/2013.     895	 USAID, response to SIGAR data call, 6/30/2014.
858	 World Bank, “Competitiveness and Inclusive Growth for            896	USAID, U.S. Foreign Assistance for Afghanistan PMP
     Sustainable Jobs,” 5/7/2013; World Bank, Afghanistan                  2011–2015.




REPORT TO THE UNITED STATES CONGRESS        I   OCTOBER 30, 2014                   263
                                                       ENDNOTES




897	USAID, Partnership Contracts for Health Fact Sheet, 1/2014.       901	 USAID, response to SIGAR data call, 9/29/2014.
898	 USAID, response to SIGAR vetting, 7/14/2014.                     902	 USAID, response to SIGAR data call, 9/29/2014.
899	 USAID, response to SIGAR data call, 9/29/2014.                   903	 USAID, “Leadership, Management, Governance: Fact Sheet,”
900	 USAID, response to SIGAR data call, 12/31/2013; USAID,                1/2013.
     “Health Policy Project: Factsheet,” 1/2013; USAID, response to   904	 USAID, response to SIGAR data call, 9/29/2014.
     SIGAR vetting, 10/13/2013 and 4/14/2014.                         905	 USAID, response to SIGAR data call, 9/29/2014.




                                                 264                  SPECIAL INSPECTOR GENERAL     I   AFGHANISTAN RECONSTRUCTION
                             The National Defense Authorization Act for FY 2008 (P.L. 110-181)
                             established the Special Inspector General for Afghanistan
                             Reconstruction (SIGAR).
                             SIGAR’s oversight mission, as defined by the legislation, is to provide for the
                             independent and objective
                             •	 conduct and supervision of audits and investigations relating to the programs
                                and operations funded with amounts appropriated or otherwise made available
                                for the reconstruction of Afghanistan.
                             •	 leadership and coordination of, and recommendations on, policies designed
                                to promote economy, efficiency, and effectiveness in the administration of the
                                programs and operations, and to prevent and detect waste, fraud, and abuse
                                in such programs and operations.
                             •	 means of keeping the Secretary of State and the Secretary of Defense fully
                                and currently informed about problems and deficiencies relating to the
                                administration of such programs and operation and the necessity for and
                                progress on corrective action.
                             Afghanistan reconstruction includes any major contract, grant, agreement,
                             or other funding mechanism entered into by any department or agency of the
                             U.S. government that involves the use of amounts appropriated or otherwise made
                             available for the reconstruction of Afghanistan.

                             Source: Pub. L. 110-181, “National Defense Authorization Act for FY 2008,” 1/28/2008.                                   The rising sun reveals part of the barbed-wire cordon around Kandahar Airfield in southern Afghanistan.
                                                                                                                                                     (SIGAR photo by Steve Mocsary)
                             (For a list of the congressionally mandated contents of this report, see Appendix A.)




                                                                                                                                         Quarterly Report Staff

                                                                                                                                         Michael Bindell, Economic and Social Development Subject Matter Expert   Emmett Schneider, Senior Data Analyst/Senior Auditor
                                                                                                                                         Clark Irwin, Senior Writer/Editor                                        Deborah Scroggins, Director of Research and Analysis Directorate/Editor
                                                                                                                                         Vong Lim, Visual Information Specialist                                  Solange Toura Gaba, Research Assistant
                                                                                                                                         David Mansfield, Counternarcotics Subject Matter Expert                  Daniel Weggeland, Governance Subject Matter Expert
                                                                                                                                         Jennifer Manzullo, Program Manager                                       Genevieve Wilson, Security Subject Matter Expert
                             Cover photo:
                                                                                                                                         Olivia Paek, Visual Information Specialist                               Joseph Windrem, Deputy Director of Research and Analysis Directorate/Editor
                             In the Afghan opium economy: A four-year-old girl tends opium poppy in Ghor Province, officially declared
                             poppy-free between 2009 and 2011. (SIGAR photo by David Mansfield)




FINAL_Oct2014_Cover.indd 2                                                                                                                                                                                                                                                                      10/23/2014 11:31:02 AM
                                                                                                                                                                                                    SIGAR
        SIGAR




                                                                                                                        SIGAR | QUARTERLY REPORT TO THE UNITED STATES CONGRESS | OCTOBER 30, 2014
        SPECIAL INSPECTOR GENERAL                                                                                                                                                                                    Special Inspector General for    OCT 30
        FOR AFGHANISTAN RECONSTRUCTION
                                                                                                                                                                                                                     Afghanistan Reconstruction        2014
        2530 Crystal Drive
        Arlington, VA 22202

        www.sigar.mil




        FRAUD, WASTE, OR ABUSE MAY BE REPORTED TO SIGAR’S HOTLINE
                                                                                                                                                                                                     QUARTERLY REPORT TO THE UNITED STATES CONGRESS
        By Phone: Afghanistan
        Cell: 0700107300
        DSN: 318-237-3912 ext. 7303
        All voicemail is in Dari, Pashto, and English.

        By Phone: United States
        Toll Free: 866-329-8893
        DSN: 312-664-0378
        All voicemail is in English and answered during business hours.

        By Fax: 703-601-4065
        By E-mail: sigar.hotline@mail.mil
        FRAUD,     WASTE, www.sigar.mil/investigations/hotline/
        By Web Submission:     OR ABUSE MAY BE REPORTED             TO SIGAR’S HOTLINE

        By phone: Afghanistan
        Cell: 0700107300
        DSN: 318-237-3912 ext. 7303
        All voicemail is in Dari, Pashto, and English.

        By phone: United States
        Toll-free: 866-329-8893
        DSN: 312-664-0378
        All voicemail is in English and answered during business hours.

        By fax: 703-601-4065
        By e-mail: sigar.hotline@mail.mil
        By Web submission: www.sigar.mil/investigations/hotline/report-fraud.aspx




                                                                                                                        4
                                                                                         SIGAR
                                                                                         Report Fraud, Waste or Abuse




FINAL_Oct2014_Cover.indd 1                                                                                                                                                                                                                               10/23/2014 11:31:01 AM
